<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2009</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                                                                      ?

             DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2009

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS
                             SECOND SESSION
                                ________
                         SUBCOMMITTEE ON DEFENSE
                 JOHN P. MURTHA, Pennsylvania, Chairman
NORMAN D. DICKS, Washington             C. W. BILL YOUNG, Florida
PETER J. VISCLOSKY, Indiana             DAVID L. HOBSON, Ohio
JAMES P. MORAN, Virginia                RODNEY P. FRELINGHUYSEN, New Jersey
MARCY KAPTUR, Ohio                      TODD TIAHRT, Kansas
ROBERT E. ``BUD'' CRAMER, Jr., Alabama  JACK KINGSTON, Georgia
ALLEN BOYD, Florida                     KAY GRANGER, Texas
STEVEN R. ROTHMAN, New Jersey           
SANFORD D. BISHOP, Jr., Georgia         

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
 Paul Juola, Greg Lankler, Sarah Young, Paul Terry, Kris Mallard, Linda 
   Pagelsen, Adam Harris, Ann Reese, Tim Prince, Brooke Boyer, Matt 
Washington, B G Wright, Chris White, Celes Hughes, and Adrienne Ramsay, 
                            Staff Assistants
                  Sherry L. Young, Administrative Aide
                                ________
                                 PART 4
                                                                   Page
 Army Posture.....................................................    1
 Army Acquisition Programs........................................   99
 Navy Posture.....................................................  145
 Navy / Marine Corps Acquisition Programs.........................  279
 Biological Countermeasures and Threats...........................  325
 Statements for the Record........................................  439
                                ________

         Printed for the use of the Committee on Appropriations







             DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2009

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS
                             SECOND SESSION
                                ________
                         SUBCOMMITTEE ON DEFENSE
                 JOHN P. MURTHA, Pennsylvania, Chairman
NORMAN D. DICKS, Washington             C. W. BILL YOUNG, Florida
PETER J. VISCLOSKY, Indiana             DAVID L. HOBSON, Ohio
JAMES P. MORAN, Virginia                RODNEY P. FRELINGHUYSEN, New Jersey
MARCY KAPTUR, Ohio                      TODD TIAHRT, Kansas
ROBERT E. ``BUD'' CRAMER, Jr., Alabama  JACK KINGSTON, Georgia
ALLEN BOYD, Florida                     KAY GRANGER, Texas
STEVEN R. ROTHMAN, New Jersey           
SANFORD D. BISHOP, Jr., Georgia         

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
 Paul Juola, Greg Lankler, Sarah Young, Paul Terry, Kris Mallard, Linda 
   Pagelsen, Adam Harris, Ann Reese, Tim Prince, Brooke Boyer, Matt 
Washington, B G Wright, Chris White, Celes Hughes, and Adrienne Ramsay, 
                            Staff Assistants
                  Sherry L. Young, Administrative Aide
                                ________
                                 PART 4
                                                                   Page
 Army Posture.....................................................    1
 Army Acquisition Programs........................................   99
 Navy Posture.....................................................  145
 Navy / Marine Corps Acquisition Programs.........................  279
 Biological Countermeasures and Threats...........................  325
 Statements for the Record........................................  439
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 46-476                     WASHINGTON : 2009


                     COMMITTEE ON APPROPRIATIONS

                   DAVID R. OBEY, Wisconsin, Chairman

 JOHN P. MURTHA, Pennsylvania              JERRY LEWIS, California
 NORMAN D. DICKS, Washington               C. W. BILL YOUNG, Florida
 ALAN B. MOLLOHAN, West Virginia           RALPH REGULA, Ohio
 MARCY KAPTUR, Ohio                        HAROLD ROGERS, Kentucky
 PETER J. VISCLOSKY, Indiana               FRANK R. WOLF, Virginia
 NITA M. LOWEY, New York                   JAMES T. WALSH, New York
 JOSE E. SERRANO, New York                 DAVID L. HOBSON, Ohio
 ROSA L. DeLAURO, Connecticut              JOE KNOLLENBERG, Michigan
 JAMES P. MORAN, Virginia                  JACK KINGSTON, Georgia
 JOHN W. OLVER, Massachusetts              RODNEY P. FRELINGHUYSEN, New Jersey
 ED PASTOR, Arizona                        TODD TIAHRT, Kansas
 DAVID E. PRICE, North Carolina            ZACH WAMP, Tennessee
 CHET EDWARDS, Texas                       TOM LATHAM, Iowa
 ROBERT E. ``BUD'' CRAMER, Jr., Alabama    ROBERT B. ADERHOLT, Alabama
 PATRICK J. KENNEDY, Rhode Island          JO ANN EMERSON, Missouri
 MAURICE D. HINCHEY, New York              KAY GRANGER, Texas
 LUCILLE ROYBAL-ALLARD, California         JOHN E. PETERSON, Pennsylvania
 SAM FARR, California                      VIRGIL H. GOODE, Jr., Virginia
 JESSE L. JACKSON, Jr., Illinois           RAY LaHOOD, Illinois
 CAROLYN C. KILPATRICK, Michigan           DAVE WELDON, Florida
 ALLEN BOYD, Florida                       MICHAEL K. SIMPSON, Idaho
 CHAKA FATTAH, Pennsylvania                JOHN ABNEY CULBERSON, Texas
 STEVEN R. ROTHMAN, New Jersey             MARK STEVEN KIRK, Illinois
 SANFORD D. BISHOP, Jr., Georgia           ANDER CRENSHAW, Florida
 MARION BERRY, Arkansas                    DENNIS R. REHBERG, Montana
 BARBARA LEE, California                   JOHN R. CARTER, Texas
 TOM UDALL, New Mexico                     RODNEY ALEXANDER, Louisiana
 ADAM SCHIFF, California                   KEN CALVERT, California
 MICHAEL HONDA, California                 JO BONNER, Alabama
 BETTY McCOLLUM, Minnesota                 
 STEVE ISRAEL, New York                    
 TIM RYAN, Ohio                            
 C.A. ``DUTCH'' RUPPERSBERGER, Maryland    
 BEN CHANDLER, Kentucky                    
 DEBBIE WASSERMAN SCHULTZ, Florida         
 CIRO RODRIGUEZ, Texas                     

                  Rob Nabors, Clerk and Staff Director

                                  (ii)

 
             DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2009

                              ----------                              

                                         Wednesday, March 12, 2008.

                     FISCAL YEAR 2009 ARMY POSTURE

                               WITNESSES

HON. PETE GEREN, SECRETARY OF THE ARMY
GENERAL GEORGE W. CASEY, JR., CHIEF OF STAFF, UNITED STATES ARMY

                              Introduction

    Mr. Murtha. We will come to order. This is another open 
hearing that we have had in a series of open hearings that we 
have had this year. I just want everybody to know that. I don't 
know who the hell is running the Pentagon, because you have got 
them all over here, for crying out loud. And General Melcher--
--
    General Casey. They don't let us out alone, Chairman.
    Mr. Murtha. And General Melcher, who has spies every place. 
He doesn't miss a trick. Anything that happens, he knows and he 
has cause to make sure that we know that he has been around, 
that he understands what is going on. But we want to welcome 
Secretary Geren, former Member of Congress, who does such a 
good job as Secretary of the Army, and General Casey, one of 
our premiere commanders in the history of the Army. We welcome 
you to the Committee and look forward to your testimony. Mr. 
Young.

                          Remarks of Mr. Young

    Mr. Young. Mr. Chairman, I do have a very long opening 
statement, but I am going to just say welcome to our 
distinguished witnesses today. But I would like to explain, Mr. 
Chairman, the fact that there are many hearings taking place 
and most of our members on this subcommittee are senior 
members, meaning they are either chairman or ranking member on 
other subcommittees that are meeting today. So at least for a 
while, you are going to have to put up with just a few of us. 
But welcome. We look forward to your testimony.
    Secretary Geren. Thank you, Mr. Chairman. Congressman 
Young. We have a full statement that we have submitted for the 
record and I would like to just offer some summary comments.
    Mr. Murtha. Without objection.
    [Clerk's note.--The Fiscal Year 2009 Army Posture Statement 
for the Secretary of the Army and the Chief of Staff of the 
Army is printed at the end of this hearing.]

                  Summary Statement of Secretary Geren

    Secretary Geren. It is an honor for General Casey and me to 
appear before you and talk about our Nation's Army. It is an 
Army that has been built by partnership between the Army and 
this Congress and it is a partnership that is older than this 
country and a partnership that is affirmed by our Constitution. 
The President's budget for 2009 is before the Congress, $141 
billion for the Army. As is always the case, the Army budget is 
mostly about people and operations and maintenance to support 
people. Our 2009 budget, two-thirds of it, our personnel, 
operations and maintenance to support those people.
    Creighton Abrams told us people aren't in the Army, people 
are the Army. And this budget reflects that reality. Today, we 
are an Army long at war. We are in our 7th year in Afghanistan, 
and shortly we will have been 5 years in Iraq. It is the third 
longest war in American history, behind the Revolutionary War 
and the Vietnam War, and it is the longest war we have ever 
fought with an all volunteer force.
    Our Army is stretched by the demands of this long war, but 
it remains an extraordinary Army. It is the best led, best 
trained and best equipped Army we have ever put in the field 
with Army families standing tall with their soldier loved ones, 
soldiers that re-enlist and families that re-enlist with them, 
an Army of volunteers, volunteer soldiers and volunteer 
families.

                           SOLDIERS DEPLOYED

    Mr. Chairman, we have 250,000 soldiers deployed to 80 
countries around the world as we sit here today with over 
140,000 deployed to Iraq and Afghanistan. And our 140,000 in 
harm's way are our top priority. We never take our eye off of 
that ball, and this budget and our supplementals ensure that we 
provide those soldiers what they need when they need it. And 
today and over the last 6 years, our reserve component, our 
Guard and Reserves, continue to carry a very heavy burden for 
our nation. Since 9/11 we have activated 184,000 reservists and 
268,000 guardsmen in support of the global war on terror, and 
they have answered the call to respond to domestic crises here 
at home time and again.

                             ARMY FAMILIES

    And as you well know, we are one Army today. The active 
component cannot go to war without the National Guard and 
Reserve. And the challenge before us is to continue the 
transformation of the Reserve component into an operational 
reserve and this budget helps further that goal. And the 
strength of our Army, Active Guard and Reserves comes from the 
strength of Army families. Our Army families are standing with 
their soldier loved ones, and we owe them a quality of life 
that is equal to the quality of their service.
    Over half of our soldiers today are married. The other day 
when we testified in front of Senator Inouye's Committee, he 
said the unit he was in in World War II, 4 percent married, 96 
percent single. Today, over half are married. It is a very 
different Army. When a married soldier deploys, he or she 
leaves behind a single parent household and all the challenges 
of that family dynamic. When a single parent deploys, he or she 
leaves a child in the care of others. And today nearly half, 48 
percent of all of our soldiers who deploy have a child age 2 or 
younger.

                            FAMILY PROGRAMS

    In the 2009 budget, we are doubling funding for family 
programs. We are adding 26 new child-development centers to the 
35 that Congress gave us last year, thanks to the leadership of 
this Committee. And over the past year, with your strong 
support, we have expanded the availability and reduced the cost 
of child care for Army families. We have asked much of 
volunteer spouses who carry the burden of family support 
programs. And that burden grows heavier with each deployment.
    With this budget we provide them help and full-time support 
in family readiness support systems and other full-time support 
for those spouses. In late 1990s, Congress launched the 
privatized housing initiative, something that the military 
didn't embrace fully. Congress led the way and today that is 
one of the most successful initiatives we have in the Army, 
providing quality of life for our soldiers. We have replaced 
housing with homes and housing with great neighborhoods in the 
residential communities initiative.

                            MEDICAL PROGRAMS

    In 2008, you gave us resources to hire needed medical 
personnel and to do research in the signature wounds of this 
war, TBI and PTSD. And we have stood up 35 warrior transition 
units around the country to serve our wounded, ill and injured. 
And we continue to make progress on that front. And we will 
continue to grow our knowledge and prove our care for those 
that have mental challenges that come from the wounds of this 
war.

                              ACQUISITION

    In our budget, we also look to the future. We never want to 
send our soldiers to a fair fight and the budget continues our 
investment in the programs of tomorrow, future combat systems 
which will not only shape the future of our Army, but it is 
spinning out technologies in today's fight. The Army 
reconnaissance helicopters, the UAVs, light utility helicopter 
and the joint cargo aircraft, we thank you all for your support 
in the past. It is an important part of the future of this 
Army.
    Mr. Chairman, we are a Nation long at war and we are an 
Army out of balance. But our Army remains strong, it remains 
resilient. Those who look to find the hollow Army that we 
experienced in the 1970s will not find it in this Army. Every 
year, 170,000 men and women join our Army. Every year 120,000 
proudly re-enlist. They are proud of who they are and they are 
proud of what they are doing. Mr. Chairman, members of this 
Committee, thank you for your support of those soldiers in 
uniform and the support of those families. With the partnership 
we have with this committee and with this Congress, we are a 
strong Army. Thank you, Mr. Chairman.

                   Summary Statement of General Casey

    General Casey. Thank you, Mr. Chairman. Congressman Young, 
members of the Committee, it is my first appearance before this 
Committee as the chief of staff. So I welcome the opportunity 
to provide some context for the 2009 budget. I do have a long 
opening statement, but I really would just like to leave five 
points with you here. Let me just hit those five points and I 
will say a few words about each one.

                              ARMY BALANCE

    First of all, as we think through this 2009 budget and the 
supplementals that accompany it, we have to do so with an eye 
on the futuristic strategic environment, which I see as one of 
persistent conflict and one in which uncertainty is the only 
certainty. Second, I worked hard to define the right words to 
describe the Army. And what I will tell you, today's Army is 
out of balance and out of balance is not broken or hollow. The 
Army is an extremely resilient, competent, professional combat-
seasoned force. But we all know that we can't do the things 
that we know we need to do right now.
    Third, we have a plan, which with your help can put the 
Army back in balance over the next 3 or 4 years. And it is 
centered on 4 imperatives. Sustain, repair, reset and 
transform. And I will talk about those in a second. Fourth, as 
we work to put the Army back in balance, we cannot take our eye 
off the future. And to ensure that we have a versatile, agile, 
campaign capable Army to deal with the uncertainties of the 
future environment.

                          PERSISTANT CONFLICT

    And lastly, I just want to make sure everyone understands 
that the Army is not standing still and we are moving out on 
the most ambitious transformation program all the while that we 
are fighting today's battles and I will give you a little 
status report on where we have come over the last few years. So 
let me just say a few words about each of those. First of all, 
as I said, I see the future as one of persistent conflict. And 
I define persistent conflict as a period of protracted 
confrontation among State, nonstate and individual actors who 
are increasingly willing to use violence to accomplish their 
political and ideological objectives. And against that 
background, the global trends that I see are pushing things in 
the wrong direction. I think it is going to exacerbate and 
prolong that period of confrontation. What am I talking about? 
Globalization. Globalization is going to have positive and 
negative effects, clearly it is enhancing the quality of life 
all over the world, but the distribution of those effects are 
uneven and if you look south of the equator, primarily and 
South America, Africa, Middle East, South Asia, Southeast Asia. 
What you see are the beginnings of a have and have not culture 
that can be exploited by the different terrorist groups. 
Technology is another double edged sword. The same technology 
that is bringing knowledge to anyone with a computer and hookup 
is being used by terrorists it export terror around the globe. 
Demographics, some of the populations of these developing 
countries where the terrorist groups have their roots are 
expected to double in the next couple of decades. And the two 
that concern me most, weapons of mass destruction in the hands 
of terrorist and safe havens where they can plan and export 
with impunity because local governments can't or won't take 
care of them.

                              ARMY BALANCE

    So as I said, against that backdrop, I see a future where 
the only certainty is uncertainty. Second, we are out of 
balance. And what do I mean by that? We are consumed by the 
current and we are deploying to support the current conflict in 
a way that is just not sustainable for us over the long term. 
And we need to continue to work to do that. And as a result, we 
can't do other things as rapidly as we would like. Our soldiers 
and family support systems are being strained, our Guard and 
Reserve are performing magnificently, but in a way that they 
were neither designed or resourced for.
    So we have a lot of work to do to put ourselves back in 
balance, and that is my third point. Sustain, prepare, reset 
and transform, our four imperatives. Sustain, we must support 
and sustain our soldiers and families. They are the heart and 
soul of this Army. And they are our ultimate asymmetric 
advantage over any enemy that we face and we must continue to 
support and retain them so this force can remain as viable as 
it is in the future. Prepare. We cannot back off our commitment 
to send soldiers into combat with the best equipment, training 
and manning. And we are absolutely committed to working with 
you to do that we have made great strides in this regard thanks 
to your help, but we cannot slack off for a minute on that.

                                 RESET

    Third is reset and reset applies to both our soldiers and 
to our equipment. And reset is another area with your help we 
can make great strides. $17 billion in the 2007 supplemental 
reserved the downward spiral we are in. But we need to continue 
to reinvest in our reset if we are going to sustain a versatile 
force for the future. In my view, the money that you are giving 
us for reset is the difference between a hollow force and a 
versatile force for the future.

                             TRANSFORMATION

    And lastly, transform. And as I said, we can't take our eye 
off the future and our transformation is a holistic effort. We 
need to transform how we train, fight, modernize, and support 
our soldiers and families. We are looking broadly across the 
Army at transforming ourselves and all those efforts. Number 
four, I said you can't take your eye off the future, and we 
have recently published a new capstone doctrinal manual, Field 
Manual 3 (FM-3), Operations. And it is the first major 
doctrinal publication since September 11th, and it is designed 
to put us on a track to take advantage of the lessons that we 
have learned in the last 7 years at war and to build the type 
of Army we are going to need for the future.

                          STABILITY OPERATIONS

    A couple of points in this. It describes the future 
security environment that I talked to you about briefly in my 
opening statement. Most importantly, I think it raises 
stability operations to the level of offense and defense. And 
there is--it is designed around an operational concept that 
says Army formations will simultaneously apply offense, defense 
and stability operations to seize the initiative and achieve 
decisive results, it is a big step for us.
    Third, it elevates the commander's role in battle command 
and in solving the complex security problems we are going to 
face in the 21st century. Fourth, it elevates information 
operations and recognizes the importance of information in 
winning 21st century wars.

                           MODULAR CONVERSION

    And lastly, it reinforces that despite all this futuristic 
talk and discussion, the soldier remains the centerpiece of our 
formations. And lastly, just on my fifth point, we are not 
standing still. I know you have been--we have been talking to 
you over the past several years about what we are doing with 
modular organizations. We are 70 percent of the way through 
modular conversions. That is the largest organizational 
transformation of the Army since World War II. We are about 60 
percent of the way through what we call rebalancing, taking 
soldiers who had cold war skills that weren't as necessary as 
some of the skills we need for the 21st century and converting 
them.

                             GROW THE ARMY

    So that process has gone forward. We have accelerated the 
growth of the Army that you see in this year's budget from 
fiscal year 2012 to fiscal year 2010. We have reset over 
120,000 pieces of equipment. Our Army medical action plan and 
soldier and family action plan are greatly increasing what we 
are doing for our wounded warriors and our families. And our 
depots, your depots have been recognized by industry with 12 
shingo awards for effectiveness and efficiency.

                         SERGEANT GREG WILLIAMS

    So, yes, the Army is stretched. Yes, we are deploying at 
unsustainable rates. But, yes, we are also not standing still, 
but moving forward with your help. And I will close, Mr. 
Chairman, with the story about the quality of the soldiers that 
I see around our Army. I was in Alaska before Christmas, and I 
was asked to present a distinguished service cross to Sergeant 
Greg Williams. Sergeant Williams was on a patrol in Baghdad in 
October 12, 2006 with his squad. They were ambushed from three 
directions, and the ambush was kicked off by four explosively-
formed penetrators all aimed at this one vehicle. The blast 
knocked him out. It set the vehicle on fire. He woke up with a 
broken eardrum, his legs were on fire. He put his fire out. He 
grabbed the aid bag, ran off the track, began treating his 
fellow soldiers. He realized the lieutenant was still in the 
burning vehicle.
    He ran back on the burning vehicle, grabbed the lieutenant, 
dragged him to safety and began treating him. He recognized 
that because they were still taking fire no one was on the 50 
caliber machine gun on the Stryker. He ran back in the burning 
vehicle, which, by the way, contained about 30 pounds of TNT, 
and explosive detonating cord, got on the 50 caliber machine 
gun, brought it to bear on the enemy and broke the ambush.
    That is the kind of soldier that we have in today's Army. 
They are men and women that you can all be proud of. So I would 
just say that I thank you for your support and what you have 
done for the Army here over the past several years. We are on 
our way to putting ourselves back in balance. This 2009 budget, 
the rest of the 2008 supplemental and the 2009 supplemental 
that will accompany it, will take further steps on a continuous 
road to progress. Mr. Chairman, thanks very much.

                             TIMELY FUNDING

    Mr. Murtha. When Mr. Young was chairman, we put a lot of 
money into reset because we knew there was an immediate 
problem. We realized it was absolutely essential to get the 
equipment rehabilitated and we got it out as quickly as we 
could. We are trying to convince our leadership to get the 
supplemental--this supplemental out sooner rather than later 
and I think they are amenable to that. It is just a matter of 
timing and getting the--other than the defense part of the 
supplemental ready.

                          FIFTEEN-MONTH TOURS

    The thing I worry about the most, the thing that--Mr. Young 
and I go to the hospitals all the time. I saw four young 
soldiers yesterday, one woman who was a gunner, and she 
couldn't stand up because she had a head injury, but she was 
very enthusiastic. Three others, one had lost a leg, one was in 
a wheelchair and the other was with them. But I am inspired by 
them. Every time I go to the hospital, I am inspired by their 
ability to overcome all the difficulties they put up with in 
combat. But this 15-month tour, this morning I had breakfast 
with a group of people, this fellow said he lost his son on a 
15-month deployment. The 15th month he lost his son. But he was 
upbeat about it. He said his son was a PFC and he was a hero to 
him. And I think that is the way most of the families feel, 
that these young folks who are doing their work, it takes a lot 
of courage and dedication and it is inspiring to me to see 
them. But also I saw a woman in the hallway not long ago. She 
stopped me. Her husband is in the Army and she had a son in the 
Army that was killed in Iraq, and she had a son in the Army who 
committed suicide. These 15-month deployments are too long. 
General, when can we see that being reduced? When can we see it 
is so hard on the family, so that this extra 3 months, what is 
your goal in these deployments?
    General Casey. Thanks, Mr. Chairman. We recognize this, and 
in fact, we have sent a team under a brigadier general to visit 
each of the brigade units deploying from 15 months. They tell 
us three things, just as you said, 15 months is too long, 12 
months home is too short and you need to show us a little 
daylight here about how this is going to get better over time.
    So our goal is that when the force levels in Iraq get down 
to 15 brigade combat teams in July as is programmed, we at that 
time will be able to shift back to 12-month tours. And I fully 
expect that we will be able to accomplish that. The next thing 
we have to do is increase our dwell time at home and that will 
increase as we continue to grow this force over the next 
several years.

                            MILITARY FUNDING

    Mr. Murtha. One of the things that I have stressed, and I 
have talked to both of you privately about this, as this war 
winds down, whoever is elected President, there is going to be 
less money available for the military because the public is 
demanding that--there is more money spent on infrastructure, we 
have bridges that are deficient, all of these problems that 
domestically are going to be competing with the military. So I 
think we have to speed up the program that we are talking about 
for the future of--any of the systems as you are working on 
them. We think last year we started changing direction of some 
of the programs like the Navy, we put a few more ships in. We 
will put more ships in this year. We are looking at trying to 
get this thing moving as quickly as we can before the money 
runs out.
    So I think it is imperative that you keep looking, you keep 
studying what we can offset some of these things with. And I 
hope you would come forward to the Committee before we pass our 
base bill. And we intend to offer the supplemental with the 
base bill this year. So I am hopeful that--the 2009 bill I am 
talking about. We are hopeful that you will give us some 
suggestions before May when we mark up the bill, at least that 
is when I anticipate marking up the bill. I don't know if we 
will get a bill this year. I don't know if the bill will be 
signed into law this year.
    Just because of the political situation, the new President 
going to be elected and so forth. So we are going to do 
everything we can to get it passed. A continuing resolution is 
the worst thing we could do because it just completely ties our 
hands in doing anything that is visionary and focuses on the 
future. But I would predict it is going to be very hard to pass 
legislation--not only domestic legislation, but a defense bill 
this year. But we are going to go forward. We are going to get 
it over to the other body and do the best we can in this 
Committee. But my advice is think about what you said, the 
future, but think about what we can do to readjust the 
requirements and recommendations you are making so we get an 
opportunity to digest them before we mark up our bill.
    General Casey. We will do that.
    Mr. Murtha. Mr. Young.

                          ARMY BUDGET REQUEST

    Mr. Young. Mr. Chairman, thank you very much. General 
Casey, your comments on the Army being unbalanced and we are 
needing to fix this by 2011 is very timely. Chairman Murtha and 
I have been talking about this for months, the fact that we 
need to look ahead and we need to be able to rebuild whatever--
rebuild, reset, recapitalize, whatever, or rebalance our 
military after we are basically finished with Iraq and 
Afghanistan. But you talk about a $265 billion a year to 
accomplish this. How did you arrive at the $265 billion? What 
would you do with that $265 billion?
    General Casey. I am not familiar with the $265 billion 
number, Congressman. It is not a number that I have used. If 
you look at what our base program is and the supplementals that 
accompany that base program over the last year or so, it 
basically comes out to about the number that you just 
mentioned. And that is just a fact. To fight the war and to 
continue to sustain the force over time and to prepare for the 
future, that is about what it takes.
    Now, I think you know in the supplementals, about 70 
percent of the supplemental is spent in the theater on people 
and operations. And so that part of that $265 is really the 
cost of the war. The other 30 percent of that is reset and 
procurement for things like force protection and MRAPs and 
those kinds of things. So that number you mentioned is about 
the number that is based on supplemental that we need here over 
the next several years to fight the war and to continue to 
prepare for the future.

                            RESET AND GROWTH

    Mr. Young. Do you have an indication of how much of that is 
for replacing or resetting equipment? How much it of is growth 
and the end strength of the Army? Do you have a breakdown for 
that?
    General Casey. I can tell you that these numbers I am going 
to give you are spread over a period of time. But we started 
off before our modular conversions here with about $56 
billion--my predecessor Pete Schoomaker used to call them holes 
in the yard. And the modular conversions, which converted our 
brigade combat teams and our brigades to the types of 
organizations we need in the 21st century, and also to sustain 
the war effort added about--again, this is over 5 or 6 years--
$100 billion or so of equipment requirements.
    And by and large, we have funded the bulk of that through 
base and supplemental funding, primarily base funding, over the 
last several years. I mean, this really started in 2004. So we 
are making progress in the direction that we need to be going. 
It is just going to take us a few more years to finish it up.

                MINE RESISTANT AMBUSH PROTECTED VEHICLES

    Mr. Young. I understand it is not going to be done 
overnight, and we are talking about a major rebalancing. When 
you mentioned MRAPs, General--and just a short time ago we were 
pushing really hard to get as many MRAPs as we could into the 
theater and we appropriated a lot of money for MRAPs and then 
the Marines recently came out with a position statement 
announcing they were going to reduce their MRAP requirement by 
about 40 percent. Does the Army have a similar--I think General 
Odierno was quoted in a USA Today story, said the Army's 
requirement for 10,000 MRAPs would probably drop. Is that 
accurate?
    Secretary Geren. Right now we are funded for 10,000 MRAPs. 
Our estimate right now, we have a range that we will need will 
be somewhere between 10 and 15,000. The JROC just recently 
approved 12,000 for the Army. We are still fine tuning the 
final number. But we are not going to drop below where we are 
now. The theater is looking at what the proper ratio--I think 
initially there was a thought that we would replace all up-
armored HUMVEEs with MRAPs. A year ago General Odierno talked 
about replacing all 19,000 or 17,000 at the time with MRAPs. I 
think what we have learned since then is that there remains a 
role for the up-armored HUMVEE. It is lighter, it offers some 
tactical advantages over the MRAP in certain situations.
    So we are still trying to work out what the proper ratio 
is. Is it two-thirds MRAP, one-third up-armored HUMVEEs? But we 
are going to have in theater by the end of the year about 
10,000 and by early February we will have another 1,500. The 
MRAPs have performed very well. We have had 48 MRAPs that have 
been hit with IEDs or EFPs. We have only had one KIA as a 
result. So they are an important part of the Army presence in 
Iraq and we are going to be moving the RG-31s into Afghanistan. 
And as we look to the future, we are trying to assess what the 
role is long term. But the Army will not drop below the 10,000 
that we already have programmed, and we will likely go above 
that probably closer to 12.
    Mr. Young. Well, I appreciate the information you gave on 
the success of the MRAP. And it is still, as you said, of the 
48 IEDs or roadside bombs, only one casualty, which is a pretty 
good record.
    Secretary Geren. And the soldier that was killed was 
actually on top--he was a gunner. So we have not lost a single 
soldier that actually was in the protection of the MRAP body 
itself.
    Mr. Young. Well, that is a good news story.
    Mr. Murtha. Mr. Young and I are going to have to go vote. 
We have less than a minute left. So, Mr. Moran.

                        ADMIRAL FALLON STATEMENT

    Mr. Moran. It's just a motion to adjourn that we are going 
to have all day long, Mr. Chairman. That is all it is. It is 
just a motion to adjourn. You just called on me, right? General 
Casey, Admiral Fallon was just forced to resign. He was head of 
the U.S. Central Command. So I got a copy of the quote that led 
to that resignation. He said that--and I am quoting--this 
constant drumbeat of conflict with Iran is not helpful and not 
useful.
    I expect that there will be no war and that is what we 
ought to be working for. We ought to try to do our utmost to 
create different conditions. ``What America needs,'' Fallon 
said, ``is a combination of strength and willingness to 
engage.'' Do you agree with Admiral Fallon?
    General Casey. Of course, Congressman, I have known Admiral 
Fallon and his wife, Mary, for years.
    Mr. Moran. I know that. That is why I asked.
    General Casey. He really worked hard to do what is right 
for this country.
    Mr. Moran. He is a great American.
    General Casey. He is a great American. And both he and his 
wife Mary have given a lot to this country. Now, you are asking 
me if I agree with the statement that you just read. I mean, 
that is very much in the policy realm, far beyond my current 
job as the Chief Staff of the Army.
    Mr. Moran. You know, Admiral Fallon and you are four-star 
generals and it doesn't seem to me this is all that 
controversial a statement, frankly. It should be consistent 
with American foreign policy as well as our military policy 
which ought to be integrated, I think. But I was interested to 
see how you would respond.

                                  IRAN

    General Casey. Well, I would give you my personal view here 
since you have asked for it on our dealings with Iran and I 
will say first Iran is clearly being unhelpful in our efforts 
in Iraq and they are supporting sectarian groups who are using 
equipment supplied by Iran to target our soldiers. And I have a 
problem with that. Now, that said, we need to continue our 
efforts to get them to stop doing that, and I do believe, as I 
think your quote said, it will take both primarily diplomatic, 
but also strength on our part to ensure that they stop 
undermining our efforts there and providing material that is 
killing our soldiers.

                           OUTSOURCING REPORT

    Mr. Moran. But our mission vis-a-vis Iran is primarily a 
diplomatic one at this point more than a working toward any 
kind of military confrontation. But I don't want to put words 
in your mouth and I understand you have that statement now on 
the record. I appreciate that, General. General, this 
subcommittee has been beside itself because of the outsourcing 
of much of this conflict in Iraq, it is nice to see you, Mr. 
Secretary. It is nice to have a friend, a Secretary of the 
Army. But that doesn't mean I am going to be any lighter on 
you, of course, as you would expect. We have determined not 
only because we have basically been badgering the witnesses now 
for 3 years, that there are about 140,000 contractors in Iraq. 
About the same number of uniform personnel.
    Now, you were required--the DoD is required to come up with 
an interim report that is due this year in October. That has to 
provide us with the number of contracts, the number of 
contractor personnel, the dollar value of contracts, the use of 
competitive procedures, the number of contractors providing 
security services and a number of areas of significant concern. 
Have you put in place a structure for--to acquire that 
information that you can give it to us in an understandable 
fashion?
    Secretary Geren. We have devoted a great deal of time over 
the last several months focusing on the whole contractor issue 
in Iraq and Afghanistan. And our latest estimate on the number 
of contractors in Iraq actually is considerably up over the 
number that you quoted. We have around 190,000 contractors.
    Mr. Moran. You have 190,000. Mr. Chairman, I just wanted to 
underscore that there are now 190,000 contractors in Iraq. 
Thank you.
    Mr. Murtha. Let me ask you. Would you break that down--is 
that worldwide 190,000 or just in Iraq.
    Secretary Geren. That is Iraq.
    Mr. Moran. It is almost twice the numbers we had last year.
    Secretary Geren. I believe that is Iraq alone, but it may 
include Afghanistan, which is a much smaller number.
    Mr. Murtha. Please break it down for the record because the 
contractors cost a lot more per individual. So the Committee 
needs--I cut back on contracting money last year and the Senate 
wouldn't go along as much as I wanted to--at least the 
Committee recommended to the Senate. So this really worries me 
that we are doing so much with contractors and I would like to 
know generally what--specifically what we are doing? In other 
words, some categories of how they are working. I understand 
food services, I understand some of these different areas, but 
break it down for us. You are talking about more contractors 
than you are talking about troops on the ground.
    Secretary Geren. We do. And we will break it out for you. 
Many of them are in troop support, they are food service, 
laundry, transportation and many of the basic support services 
that before we downsized the military as much as we did in the 
1990s many of those functions we kept in house, but now we do 
contract them out. Many of those are lower paid contract 
employees in the food service industry. Some are high paid. The 
security contractors tend to be higher paid. But when you are 
comparing the cost of the contractor to a soldier, those 
contractors obviously are employed for a limited term. They 
don't have the full range of benefits of a soldier, nor do they 
have the extended employment. But Dr. Gansler did----
    Mr. Murtha. Mr. Secretary, draftees are employed for a 
limited amount of time also.
    Mr. Moran. And they don't get paid a lot either.
    Mr. Murtha. They don't get paid near as much. I think we 
really need to get our handle on this contracting thing because 
we get the impression there are less troops but then we are 
increasing the number of contractors which is why I need to see 
the categories to.
    Secretary Geren. I will provide that to you, as well as 
third party nationals and how many Iraqi nationals, we will 
provide that full information.
    Mr. Murtha. Also, are these sole source contracts? We need 
to see how many times we have competed and who were competing--
who were competing for the contracts.
    [The information follows:]

    There are approximately 163,591 Department of Defense contractor 
personnel in Iraq and 36,520 in Afghanistan for a total of 200,111. The 
services being provided in support of our mission in Iraq and 
Afghanistan include the following categories: base support (43 
percent), construction (28 percent), security (7 percent), 
transportation (4 percent), communication support (4 percent), 
translator/interpreter (5 percent), and others (9 percent).
    In fiscal year 2007, the Joint Contracting Command--Iraq/
Afghanistan (JCC-I/A) executed 2,477 contract actions (which included 
the issuance of task and delivery orders, purchase orders, 
modifications, and contract awards) totaling $7.5 billion. Of the total 
contract actions 2,269, or 92 percent, were competed using full and 
open competition for a total of $7.3 billion. A total of 208 contract 
actions, or 8 percent, were not competed, totaling $157 million. Of 
those 208 contract actions, 32 were based on ``only one responsible 
source'' authority, and 104 cited the ``unusual and compelling 
urgency'' exception to full and open competition which is used when the 
agency's need for the supplies or services is of such an ``unusual and 
compelling urgency'' that the Government would be seriously injured, 
unless the agency is permitted to limit the number of sources.

                             RECYCLED WATER

    Mr. Moran. That means we have got about 350,000, about a 
third of a million Americans there in Iraq. And oftentimes, 
they don't distinguish the difference between a contractor and 
a uniform person who is acting under orders and conducting 
themselves with discipline. I want to ask you about the fact 
that Kellogg Brown & Root/Halliburton has been providing our 
soldiers with recycled sewer water and it has caused disease 
according to investigations that have been conducted.
    Do you have an ability either of you, General and Mr. 
Secretary, to call those people before you and dress them down? 
Tell them that this is unacceptable, that we don't pay for 
sewer water that is going to cause disease among our soldiers? 
Do you have any way of holding these guys accountable?
    Secretary Geren. We do. And the report that you referred to 
was done by the Department of Defense. That matter has been 
corrected. That was back in 2004, unacceptable. They understand 
that and we rarely check the quality of the water. One of the 
things we have learned over the last year is we were not where 
we needed to be as far as providing contract oversight.
    As a result of the task force we started last summer, we 
have hired a considerable number of additional contract officer 
representatives to manage these contracts, make sure we are 
getting what we ask for. We are doing a better job of 
supervising all of the contract operations in theater, got more 
personnel, more oversight and more accountability.

                           DINING FACILITIES

    Mr. Moran. Well, let me ask you because, you know, I know 
it may seem to be a small matter. But the Army requested more 
than a billion dollars and then another billion dollars, $987 
million. So basically, $2 billion in supplemental funds for 
subsistence for DoD civilians in the global war on terrorism. 
Ice, food and water for authorized DoD civilians and 
contractors. Now, they eat in DoD facilities. A reasonable 
estimate would be that the per person cost is $14,000 per 
person to eat in DoD mess facilities.
    Now, I think it might be useful to find out how many 
civilians are fed in Army messes in Iraq. Does the Army track 
who is eating in these mess halls? Do we track the contractors 
that are eating there, or do we charge back the cost of the 
food that they consume? You know, when you are talking about 
almost 200,000 people, these kinds of things become pretty darn 
expensive. And I think--I was told by somebody that had just 
got back from Iraq, and in fact, I saw some of this, we were--
there was a long line in the morning when we were going into 
the green zone.
    And then I saw other people coming around the line and 
going in another entry gate who looked like civilians. You 
couldn't distinguish them and I asked who are those people who 
don't have to wait in this long line? And they said, oh, they 
are from Halliburton. They run the place. So they don't have 
to, you know--they take that for granted, that nobody is going 
to delay them and they take for granted that they can eat in 
the Army mess and they can use these other amenities and we are 
paying for it, and then paying them through the nose for the 
contract services that they are supposed to be providing.
    We only find out after the fact, maybe 3 years after the 
fact the kind of service, the quality of services or lack of 
quality that they are actually providing. Do you have any way 
of accounting how this money is being used or how many of them 
are using Army messes and do you charge back to the contract 
for that cost?
    Secretary Geren. Let me get you the detailed information on 
the mess hall issue. We have looked into that in great detail 
over the last couple of years and I will provide that for the 
record. Let me just real quickly make one other correction. I 
am afraid I misunderstood. Most of those contract employees we 
talk about are not American nationals. And so it is close to 
half are from the region. You don't have all of those civilian 
contractors subsisting on our subsistence system.
    [The information follows:]

    Department of Defense (DoD) employees are authorized logistics 
(such as food, water, billeting, etc.) and security support privileges 
when deployed with the Armed Forces. Logistic and security support for 
contractors authorized to accompany the force are addressed in the 
contract and are priced and negotiated before the contract is awarded. 
It costs approximately $23.00 daily per person for food. This does not 
include related transportation, storage, or labor costs, but does 
include six liters of water per day. Meals being provided in support of 
our mission in Iraq and Afghanistan are prepared by Kellogg, Brown and 
Root (KBR) under the LOGCAP III contract. KBR is required to keep 
records of the number of meals served and the government is authorized 
to audit such records.
    DoD also has implemented the Synchronized Predeployment and 
Operational Tracker (SPOT) system to account for and provide visibility 
of all DoD contract personnel within the contingency operations 
battlespace. The Joint Asset Movement Management System (JAMMS), a 
component of SPOT, will also enhance visibility. The JAMMS will be able 
to scan the contractor personnel's Letter of Authorization to identify 
any additional authorizations, privileges or government support that 
contractor personnel are entitled to under the contract.

                               LABOR COST

    Mr. Moran. Mr. Secretary, that is the last and then we will 
move to the next question. But that is the last thing I wanted 
to get to. Because the other thing we have here is that they 
are hiring people, people from the Philippines, wherever they 
can get cheap labor because they make a higher profit margin, 
the cheaper the labor they bring in. And a lot of these 
contractors are not making the effort to provide employment in 
a country where you have got almost 65 percent unemployment, 
real unemployment and yet they are bringing in all these 
workers from other parts of the world who are willing to 
perform the labor at the cheapest rate possible and the--it 
matters not to the contractors that you see all these Iraqis 
looking for work and, of course, a lot of these young kids we 
are not members of al Qaeda and Iraq, but they are looking for 
to make a few hundred bucks by planting an IED or something 
because they have no other means of subsistence.
    Are we aware of the problem of bringing in all these 
foreign workers that cause even further resentment on the part 
of the Iraqis who don't have any jobs?

                        OVERSIGHT OF CONTRACTORS

    Secretary Geren. We oversee those contracts. We do employ 
many Iraqi nationals in our subsistence programs over there. 
And I will get you the full detail and the breakdown, how many 
come from out of country and how many come from in country. 
When you look over all at the performance of the contractors it 
has overall been good, taking these type of services to remote 
areas and building the support systems from scratch. But it is 
not to say there haven't been some terrible abuses. We have had 
people go to jail. There will be more people to go to jail 
there have been problems.
    But overall, they have provided good quality support to our 
soldiers for the most part. The soldiers are satisfied with the 
food support, the other type of creature comforts that are able 
to be provided in a very office tier environment. But it is not 
to say on the margins we haven't had some serious problems, and 
we are more aggressively trying to root those out and long term 
it is a big challenge for us. The size of the Army we have 
today, we had Dr. Gansler, who did a thorough analysis for us 
and helped us look to the future in the area of contracting. He 
was the Under Secretary for Acquisition under President 
Clinton. A distinguished academic in this area.
    And he said with the size of our military today, when we 
consider ourselves as an expeditionary Army, we have no choice 
but to go to war one half khaki, one half contractor, and one 
half uniform military. That is what is takes to deploy our Army 
today with the size of Army that we are. As we try to move more 
people from tail to tooth. And more people into operational 
positions. We relied more heavily on contractors. So we have 
really accepted that as the future and we are trying to do a 
better job of preparing the contracting oversight within the 
Army.
    I will tell you one quick thing and then I will stop. But 
we saw in the 1990s and into this last decade, the number of 
contract personnel in the Army, both civilian and military, 
declined dramatically. Then we saw this major ramp up in the 
need of contracting. We didn't have the full-time personnel in 
positions to properly manage it. We didn't and a lot of 
probabilities we have today are a result of that.
    We had people leaving the Army because there was no future 
in the contracting field. We have instituted reforms now. 
Tomorrow at Fort Belvoir, we are going to stand up the Army 
Contracting Command, a two-star command. We are going to have 
two one-stars under it. We are going to have seven contracting 
brigades. Commanded by colonels.
    So we are going to start rebuilding that bench and 
rebuilding the professionalism in the contracting workforce not 
only in the military but in the civilian workforce. It is not 
only a military problem across our government. We have really 
lost a huge percentage of our contracting workforce at a time 
when the demand went up precipitously. And so we have got a lot 
of work to do in that area. But we are moving in the right 
direction. We will provide better oversight.
    [The information follows:]

    According to a recent U.S. Central Command quarterly contractor 
census, there are 163,591 total DoD contractor personnel in Iraq. Of 
this total, 31,325 are U.S. citizens; 56,368 are third country 
nationals; and 75,898 are local national Iraqis who make up a majority 
of our contracted workforce.

      According to a recent U.S. Central Command quarterly co there are 
163,591 total DoD contractor personnel in Iraq. Of this U.S. citizens; 
56,368 are third country nationals; and 75,898 are 1 Iraqis who make up 
a majority of our contracted workforce.

    Mr. Murtha. Ms. Granger.

                          QUALITY OF RECRUITS

    Ms. Granger. Thank you. Back home the folks, when I go home 
every weekend, always ask about you and send their best and are 
very appreciative of what you are doing. Tammy Schultz, who 
studies ground forces for the center for new American 
security--I think you know that is a think tank that works with 
security and studies defense policies and he stated in January 
that Army recruiters were signing up--signing up the required 
troops each year but to grow the force, they are doing this by 
allowing less qualified recruits with lower test scores, 
raising the maximum enlisted age and making other concessions 
to depth and quality.
    I would like you to address that and say is that true. And 
if so, of course what that--I would say General Casey would 
probably be the one. I don't know whichever one will answer 
that. But have we lowered our standards and how do we answer 
that question?
    General Casey. I will start off here and then let the 
Secretary add a few words. As I indicated with the story about 
Sergeant Greg Williams, we are getting very committed, very 
capable men and women into the Armed Forces. Now, as you look 
at the standards, our own metrics by which we measure quality, 
primarily high school diploma graduates, the top three mental 
categories and the bottom--the fourth mental category, the 
lowest. And in two of those three, we are meeting our 
standards. We are meeting them in the top three mental 
categories and in a very low percentage in the bottom mental 
category.
    We are taking in now less than 90 percent high school 
diploma graduates. And that is a degradation that I believe is 
acceptable to increase the size of the force. Now, that is the 
only degradation and we are committed not go below 80 percent 
which is where we were in 2006. So I believe that we are----
    Mr. Murtha. Will the gentlewoman yield?
    Ms. Granger. Yes.
    Mr. Murtha. I think I saw figures down to 79 percent.
    General Casey. We were at 79 in 2007, that is correct.
    Mr. Murtha. And also that the waivers were twice as many 
with drug-related and--felony and misdemeanors.
    General Casey. Waivers is a different story. I don't know 
if you want to talk about that one.
    Secretary Geren. I can speak to the waiver issue. And we 
have seen an increase in waivers. We have gone--I think they 
have tripled in over the last 6 years. But the waiver process 
has actually been a great success. It is a very labor-intensive 
process. If we could choose a whole Army that way with that 
kind of scrutiny, we would have a better Army. But it is too 
labor intensive to do that. The waiver process is a 10-step 
process. When a candidate comes up that needs a waiver for 
whatever reason, it goes through 10 steps in the approval 
process finally with a general officer signing off on that 
waiver candidate. And we found--we did a study of the 17,000 we 
brought in under waivers from 2003 through 2006. They actually 
scored higher on the aptitude tests. They had higher promotion 
rates, they had higher retention rates, and actually had higher 
awards for valor.
    But again it is too labor intensive. You can't recruit an 
entire Army that way. But it is a program that has brought good 
quality soldiers into the Army. But we are concerned about 
those issues. Recruiting an Army in the middle of a war is 
hard. We have never done this before. We have always had a 
draft to be able to fall back on. But intangibles are as 
important as these objective metrics in telling you whether or 
not you have got somebody that wants to serve in the military. 
The fact that 170,000 young men and women are raising their 
right hand and joining the Army, I mean, you consider Active 
Guard and Reserve. We have 170,000 men and women join our Army 
every year, the size of the entire Marine Corps and it tells 
you a lot about a young person that going to join the Army in 
the middle of a war knowing full well he or she is going into 
combat.
    It tells you something about the heart and sense of 
mission. So we feel good about the men and women that are 
joining. Their performance has been excellent. We have got some 
long-term issues and you as a teacher appreciate some of these 
challenges. As a Nation, high school diploma grads are 
shrinking. In certain parts of the country, we have a very low 
percentage of high school diploma grads. We have got an 
increasing problem with obesity. Only three out of 10 young 
people made all of our objective criteria for joining the 
United States Army. Three out of 10. That is a national 
problem.
    So we take from that top 30 percent, and we as a Nation and 
we as an Army are trying to reach out and try to figure out how 
we get the rest of those 70 percent to be better qualified to 
join the Army, better qualified to be a better citizen and 
contributing citizens. But it is a tough environment. But we do 
have young men and women who are willing to join in the middle 
of a war and they are fine young people.
    Ms. Granger. I completely agree, they are fine young 
people. And I have had exactly the same experience as the 
chairman. I have lost 22 from my district in Iraq and I visited 
personally or spoken to every--the parents of all of those. And 
without a single exception they said how proud they were and 
that they are--it has all been sons, that their sons or 
husbands were doing exactly what they wanted to do and were 
trained to do and were very proud of what we are doing.
    So you are doing a wonderful job, and I have had that 
experience in every base that I have visited. But it is a tough 
one to keep those standards up. I agree exactly with what you 
said, and I remember as a high school teacher having students 
who really didn't know what they were going to do, where they 
were going to go and hadn't had a lot of discipline and went in 
the service and were completely different people in a very 
short period of time. Better spouse, better parent, better 
employees, better citizens.

                             MENTAL HEALTH

    Let me ask you something, Mr. Secretary. We talked about 
this before and that is mental health issues with those who are 
serving and those who have served and how do we make sure that 
they get the health care that they need. And we had a hearing 
here on this committee that was disturbing because some of the 
plans were hiring mental health care professionals and how many 
that we were going to need to deal with, you know, when you 
come back from combat or these long deployments, which was 
literally impossible because they don't exist, all those mental 
health care professionals.
    So what are we doing for those who are currently deployed 
and engaged in combat actions and then for those who have 
served that may have problems that may come back that may not 
show up for some time?
    Secretary Geren. The issues that you raise in that are 
addressed on a very broad front in the military. And major 
challenges. The shortage of mental health professionals, it is 
a problem across the country and it is a problem in the 
military. It is a problem that is particularly acute for the 
Army because so many of our installations are in rural areas. 
You have a higher percentage of mental health workers in large 
urban areas than you do in the Killeen, Texases or the Lawton, 
Oklahomas or the Fayetteville, North Carolinas. So it is a 
problem for the country and it is a problem for the Army 
because of where we are located.
    This Committee has been a great help to us in providing us 
additional resources to try to attract mental health 
professionals into the Army. We are----

                       FUNDING FOR MENTAL HEALTH

    Mr. Murtha. Let me interrupt the gentleman. We put $900 
million last year in the subcommittee. And I suggested to them 
that they should hire a cadre of mental health professionals 
all over the country. And they are doing that. They are going 
to hire not necessarily--not like contractors--we are talking 
about folks that are contracting for this particular reason 
because they are available. I think one agency said they had 
50,000 health psychological--psychiatrists and so forth and 
they are working their way through that. So it will be a 
competitive process.
    So I think if this works the way I hope it will work, we 
will have the people available in the rural areas which will be 
able to take care of them. Because you and I see the same 
problem.
    So consequently, those people come home and they have no 
place to go. They have nobody to talk to and they have a hard 
time adjusting. Well, I think the combination of what we have 
done is going to make a big difference for the National Guard 
as well as the Reserve or anybody that gets out on a discharge. 
I think we are making some progress in there and I appreciate 
what you are asking for.

                         MENTAL ILLNESS STIGMA

    Secretary Geren. This Committee--you have really led the 
way in that regard for us out of that--$300 million of that is 
going into research. We have $261 million of it that has gone 
into actual care in the Army system. I would like to mention 
one other initiative that I think has made great progress in 
this area for the Army, and I think it will end up benefiting 
the whole country. One of the biggest challenges in mental 
health area is to get people who need it to come forward and 
get it. And it is a stigma, it is a stigma in private life and 
it is even more of a stigma in the Army.
    The middle of last year we started a program to teach every 
single soldier, all one million soldiers and make this same 
training available to families, teach them how to spot the 
symptoms of post traumatic stress, traumatic brain injuries, 
how to identify those problems and where to go and what to do 
about it, and we have now taught that program to about 900,000 
soldiers, still working to get the last 100,000.
    Every new soldier that comes in, we call it a chain-teach 
program. But it is a program where they actually have face-to-
face teaching. And it has already shown results that--we do 
these mental health tests every year. We just finished the 
fifth one, MHAT-5, and it showed that the stigma is going down. 
More people feel comfortable coming forward in dealing with 
mental health issues.
    Secretary Geren. That will be one of our biggest issues, 
because mental health issues addressed early are so much easier 
to treat than mental health issues that become acute.
    So we are working to address the stress. We are hiring more 
personnel. We are developing innovative programs. We are trying 
to train all the leaders in the Army to be better at spotting 
mental health issues before they become problems.
    But it is a challenge for us, and it is a challenge that 
the military has always struggled with in wartime. The 
experience people are having is not something that you get 
anyplace else other than war, and they bring a lot of mental 
and emotional problems with them. And those also spill over and 
affect the families. And so we are working to try to address it 
with the soldier and with the families.
    Ms. Granger. Thank you.
    Thank you, Mr. Chairman.
    Mr. Murtha. Okay.
    Another thing that we are working on--and as good a job as 
anybody I have seen. They are sensitive to the stigma that is 
involved in PTSD. Commanders understand, and they reach out to 
the soldiers and say, ``Look, don't worry about being afraid. 
Don't worry about it.'' I was really impressed by the 
counseling, the screening and so forth.
    We are going to go vote, and we will be right back.
    [Recess.]

                          QUALITY OF RECRUITS

    Mr. Murtha. Before I go to Mrs. Kaptur, I just want to make 
sure--I heard so often from the Army about high school 
graduates. I voted against a volunteer Army; I voted for a 
draft. I think everybody ought to have a chance to serve. Less 
than 1 percent of people in this country are making sacrifices, 
including the families. I mean, the families are making 
sacrifices with the troops. So I was for a draft, because I 
think everybody ought to be involved.
    But the point is, the Army used to come over here and say, 
``We have to have high school graduates. That is the reason we 
have a volunteer Army that is doing so well.'' Now you are 
saying you accept--I mean, I know what happens. I know that you 
can't get them, so you have to rationalize in your own mind.
    But I hope we are not going down the road we went after 
Vietnam, where we had to dump thousands of troops out because 
they weren't physically fit and they weren't qualified. And I 
remember going to the leaders, and I was Chairman, I said, 
``These guys cannot handle the job, and you had better get rid 
of them, and they did.'' And you were probably a captain or a 
major, at the time.
    General Casey. Or a lieutenant.
    Mr. Murtha. And you got rid of a lot of people. You 
remember that. Charlie Horner remembers it.
    General Casey. Charlie was a captain, yeah. [Laughter.]
    Mr. Murtha. Ms. Kaptur.

                         COST OF ELECTRIC POWER

    Ms. Kaptur. Thank you, Mr. Chairman. I always enjoy 
listening to what you say.
    Welcome, Mr. Secretary. Welcome, General. Thank you very 
much for being here today.
    Let me ask for the record, Mr. Secretary, could you provide 
the amount of funds that the Department of Army spent in the 
year 2007 on power, an aggregate number for all the utility 
expenses at your various bases, and then for your fuel costs in 
2007. Could you have your accounting people provide that to the 
record?
    Secretary Geren. We will certainly provide that.
    Ms. Kaptur. And could you let me know, compared to 2006 and 
your projections for 2008, are those numbers likely to go up or 
down? And I am looking at your domestic as well as global 
costs.
    Secretary Geren. We will provide you that.
    [The information follows:]

      The Army spent $617 million on electric power purchased from 
utility suppliers in fiscal year (FY) 2007. In addition to purchasing 
electricity, the Army operates three plants that generate electricity. 
The cost to fuel those plants in FY07 was $24 million.
      Despite the fact that the Army met the reduction goal in the 
Energy Independence and Security Act of 2007 by increasing efficiency 
and reducing energy use per unit area by 8.4 percent from the 2003 
baseline to 2007, the total cost for energy utilities at Army 
installations increased from $753 million to $1.099 billion over the 
same period. In addition to energy utilities, we spent $1.539 billion 
on fuel for vehicles in FY07, of which $1.421 billion was used in 
tactical vehicles.
      Due to increases this year in the cost of fuel and other energy 
commodities such as electricity and natural gas, total costs for 2008 
are likely to go up both domestically and globally.

                     RESERVE COMPONENT HEALTH CARE

    Ms. Kaptur. All right, thank you.
    I wanted to ask your help, Mr. Secretary and General Casey, 
if you could, on the issue that Congresswoman Granger 
referenced, and that is the health of our soldiers. And I would 
invite you, as I did the medical witness panel that we had 
about 2 weeks ago, to look at the health concerns of the 983rd 
Combat Engineering Unit in my district, whose commanding 
officer sits in Chicago.
    This unit was deployed to Iraq. It sustained at least one 
loss and several injuries. And what is happening to those 
soldiers is that, as they come home for care, because it is in 
a more suburban or rural area and they come from all around--
they come from deep in the rural counties of Ohio; I think we 
have even got a couple Hoosiers in there up in Michigan--what 
they come home to is a place, a unit, a building with trucks 
and equipment, but no medical care around there.
    There is a clinic, a VA clinic, in the city of Toledo. 
There is a VA hospital up in Ann Arbor, Michigan. There is a 
state nursing home 2 hours away, hour and a half east, that is 
partly VA-run and partly State-run. And most of the psychiatric 
issues that come to rest often go to the chaplain at the 
nursing home or a group of VA people who aren't trained for 
that necessarily in the city of Toledo. But, for the most part, 
these people are not served properly.
    What I am looking for is a model. If you could use this 
area, which has no big base like Fort Bliss, we don't have a 
mother hospital--we are trying to link our VA system to our 
medical college now. It has never been done that way. But these 
poor soldiers, many of whom came up to me and told me they had 
problems, some with traumatic brain injury, plus PTSD--it is 
all disorganized. The care is disorganized.
    I think it would be very helpful, at the same time as we 
work at the national level, to find some prototypes at the 
local level, where the pieces don't fit together, and then ask 
ourselves, how to we fix this? Because if we can fix this, then 
how do we use that model in other places?
    So I would really invite you to come, to take a look. These 
are really good soldiers. It is a reserve unit. You know, 
again, it is not regular, it is not active duty. There has just 
got to be a better way to do this. There has to be a better way 
to pool those dollars and make this work for those soldiers.
    We have tried to work with the State of Ohio--General Wayt, 
the head of our guard in Ohio, a wonderful person. We have 
tried to work with some of our hospitals in the State of Ohio, 
who are the best in psychiatric care. They have said to me, 
``Marcy, the worst experience of our careers has been in trying 
to work with the Department of Defense.'' I said, ``It is the 
biggest bureaucracy in the world.'' And they said, ``Boy, you 
don't say.'' I said, ``Don't give up. Don't give up. We are 
going to get this done.''
    And so I just suggest to you, come down to where we live. 
Turn the hour-glass upside down, come down to where we live and 
are trying to care for these folks coming home. So, I invite 
you.
    And I don't want to get anybody in the 983rd in trouble. 
That is not my purpose here today. It is a great unit. All 
their soldiers need is care.
    General Casey. No, Congresswoman, you are identifying 
something that we are seeing in a lot of different places with 
our guardsmen and reservists as they come home. And, as you 
suggest, with the dispersed nature of how these folks live and 
where they are based, it is a much more difficult problem.
    And I would like to take you up on your offer, because I 
think--we are working hard on this. The Secretary and I have 
issued a family covenant that recognizes the five greatest 
needs of our families, both active and reserve component. But 
we acknowledge that it is a much more difficult challenge in 
effectively implementing that with the Guard and Reserve.
    And even though we are working toward an integrated family 
support network--we have an actual program where, ultimately, 
you will be able to plug in a zip code and get the different 
kinds of services that are available to you there.
    But I would like to take you up on that. Let's get some 
folks together and take a look at this and maybe, as you 
suggest, use this as a way to look at rurally based units and 
figure out how we can do better at providing them the care and 
services they need to recover from extended deployments.
    Ms. Kaptur. You know, General, thank you for that.
    You just reminded me, in the middle of all of this, then 
the Veterans Department sends in a veterans center, and I meet 
the guy. I said, ``Where did you come from?'' He said, ``Oh, 
they just sent me up here from Cincinnati.'' I said, ``Well, 
where is your office?'' He goes, ``I live out of my car.'' He 
says, ``I go from place to place.''
    I thought, okay, so there is another stream of money coming 
in here. But it is really not very well-organized at the local 
level, and so I would appreciate your assessment.
    Right across the street from this particular facility is a 
Guard tactical fighter squadron for F-16s, a huge complex. No 
medical care there. When we welcome our MP units back home from 
Iraq, they come to that base because they fly them in, you 
know, and then they are just scattered all over the place.
    I need your experience and would value how we get the VA 
and the DOD and our local people to work together with our 
State. You know, how do we structure this differently for this 
set of returning vets?
    For the record, I was going to ask the Secretary, can you 
also provide for me, for the years 2006, 2007 and your 
projections for 2008, how many psychiatrists were on the 
payroll for the DOD hospital system or any contracted services 
and how many psychiatric nurses? Is it going up? Is it going 
down? Is it staying the same? I am very interested in those 
numbers.
    [The information follows:]

    I am only able to address the number of psychiatrists and 
psychiatric nurses employed by the Army. The overall number of Army 
psychiatrists has remained relatively constant over the last three 
years while the number of psychiatric nurses has been steadily 
increasing. In addition to filling positions in our military treatment 
facilities, about 20 psychiatrists and 20 psychiatric nurses deploy 
with each Operation Iraqi Freedom/Operation Enduring Freedom rotation.
    In 2006, the Army employed 181 psychiatrists and 161 psychiatric 
nurses. This consisted of 127 military and 54 civilian psychiatrists 
and 96 military and 65 civilian psychiatric nurses.
    In 2007, the Army employed 171 psychiatrists and 179 psychiatric 
nurses. This consisted of 120 military and 51 civilian psychiatrists 
and 94 military and 85 civilian psychiatric nurses.
    Currently, the Army employs 178 psychiatrists and 196 psychiatric 
nurses. This consists of 125 military and 53 civilian psychiatrists and 
87 military and 109 civilian psychiatric nurses.
    In June 2007, the Army Medical Department initiated contracting 
efforts to hire an additional 64 psychiatrists and 31 psychiatric 
nurses to fill recognized shortages that created gaps in service 
delivery. As of March 21, 2008, we have been able to contract for 25 
psychiatrists and 13 psychiatric nurses to meet this need. In addition, 
to meet emerging behavioral health workload requirements generated by 
the Global War on Terror, the Army has committed to growing military 
behavioral health specialties including 24 additional military 
psychiatrists and 15 additional military psychiatric nurses beginning 
in 2008 and 2009.

                      FOOD FOR IRAQIS AND AFGHANIS

    And, finally, my last question is, for the people of Iraq 
or Afghanistan, for the soldiers that are out there in the 
field, are we feeding the Iraqi people in any way? Are we 
literally handing out meals to the Iraqi people at any place? 
Or are they food self-sufficient in both Afghanistan and in 
Iraq?
    General Casey. From my experience, we have only on occasion 
had to provide food, and that was usually after a major 
military operation--in Iraq. I can't speak to Afghanistan. But 
my impression is that we don't have any kind of a military 
program that routinely feeds Afghanis and Iraqis. But I am a 
little dated.
    Ms. Kaptur. Is sustenance an issue, with everything that is 
going on there? Is this an issue for the Iraqis?
    General Casey. I will tell you, Iraq is the land between 
two rivers. It has some of the most fertile land that I have 
ever seen. And they do fairly well at feeding themselves.
    [The information follows:]

    It is not generally the mission of U.S. Armed Forces to feel 
civilian populations. Department of State officials typically provide 
this function using pre-configured humanitarian rations that they 
procure separately from military rations. The Department of Defense 
(DoD) feeds any host nation detainees in its custody and on isolated 
occasions has fed military members of Iraq and Afghanistan who were 
training with U.S. forces. However, the DoD is not and has not been 
engaged in any significant feeding of the general populace of either 
country.
    Meals being provided in support of our mission in Iraq and 
Afghanistan are prepared by Kellogg, Brown and Root (KBR) under the 
LOGCAP III contract. Current information indicates that there is no 
known instance of Iraqi or Afghanistan civilians being fed by KBR, 
unless they are being deployed to support a mission by U.S. or 
Coalition Forces or are direct employees of either KBR or one of its 
subcontractors. Today, KBR and its subcontractors employ over 7,200 
local nationals to accomplish the LOGCAP mission. Currently there is no 
existing policy which requires the feeding of Iraqi or Afghan civilians 
other than detainees.

    Mr. Murtha. Mr. Kingston.

                             BUDGET PROCESS

    Mr. Kingston. Thank you, Mr. Chairman.
    Mr. Secretary, General, it is good to see you.
    I have a question on the supplemental budget. I am very 
frustrated with these emergency supplementals because there is 
nothing emergency in the nature of so many of them. Certainly, 
there is an urgency, but it appears to me that we have gotten 
in a habit of doing very, very large supplemental budgets as a 
way of getting around normal budget procedures.
    And I wanted to hear your comments on that and see what 
could be left out of a supplemental that should be in the 
regular order, normal budget process.
    Secretary Geren. Well, in this budget, we are working to 
try to migrate the costs that are predictable into the base 
budget. This 2009 budget has 43,000 soldier end-strength moved 
from the supplemental into the budget for the first time. So 
where we see these as ongoing costs or expenses, we are working 
to migrate them.
    There are other areas that we know that we are going to 
have. The MRAPs are going to be part of the inventory for a 
long time. Looking to migrate some of the support costs there.
    But from the Army perspective, we are trying to look down 
the road and anticipate a future in which there will be 
increasing pressure on these supplementals. And where we do 
have predictable and ongoing costs, we are looking to try to 
migrate them into the base budget.
    But the way we are operating today, there is no way that we 
could provide the support to the soldiers within the base 
budget. But it is a long-term issue that we are working to 
address.

                          COST OF WAR IN IRAQ

    Mr. Kingston. There was an article the other day that came 
out that said that the cost in Iraq is $12 billion a month. And 
then there was a subtitle that says, GAO I think says, it is $7 
billion to $6 billion a month. So probably somewhere between $6 
billion and $12 billion for the costs in Iraq, and I am not 
sure what was included in that.
    Do you know how much Iraq is costing the Army a month? Do 
you have a number like that?
    Secretary Geren. We have used the estimate in the O&M area 
and personnel of--well, let me get that for the record. I don't 
want to--I am afraid I will get it wrong, so I will get back 
with you.
    Mr. Kingston. Well, your portion of that probably is the 
lion's share anyhow, I would imagine.
    Secretary Geren. It is.
    Mr. Kingston. And then would you have it broken down as to 
what you would anticipate and what would be in the regular 
budget request versus in the supplemental?
    I mean, just to kind of play with some numbers, let's just 
say the Army's portion of that is $5 billion a month, and maybe 
$2 billion in equipment, $3 billion in personnel. I don't know 
how it would easily break down. But you know that if we stay in 
Iraq, you are going to have a continued expense of that $5 
billion at some level, right?
    And is that in the Pentagon budget request, or is that kind 
of held for the supplemental?
    Secretary Geren. Largely in the supplemental.
    Mr. Kingston. Well, isn't it time to stop doing that?
    Secretary Geren. Last year----
    Mr. Kingston. And one other the question. Is that an OMB 
call or a Pentagon call?
    Secretary Geren. That would be an administration call.
    Mr. Kingston. So it is OMB.
    Secretary Geren. Yes.
    Last year, the President's budget and the supplemental were 
forwarded through the Congress at the same time. You know, 
obviously they won't be this year.
    But how the supplemental is actually managed through the 
Congress and whether it is handled differently than the regular 
budget request for funding is a congressional decision rather 
than an OMB decision or administration decision.
    Mr. Kingston. So if Congress decides to take that 
supplemental and put some of it into the general budget, then 
the Pentagon is okay with that?
    I am not asking you to speak on policy there. But I think 
one of the problems that most members have is we know, or we 
tend to know--we will be voting on the budget today, and we 
will tend to have some general breakdowns of what it is for 
Medicare, what it is for education, what it is for defense, 
whatever. But then when it comes to a supplemental, we don't 
pay as much attention to it, because it usually has the word 
``emergency'' in it, and it always does have a few genuine 
emergencies in it. But it seems to me that we are really not 
watching the fiscal dollars here as much as we should.
    And when you think about the great challenges that you have 
on reset and some of the other things that you had already 
pointed out, if it wasn't for the Chairman and Mr. Young and 
some great allies here, you would not have that.
    But it also seems to me a little bit maybe disingenuous on 
the part of the administration to count on friends in Congress 
to take care of the resets through the supplemental process 
when you know, as you have testified, General, that it is a 
huge expenditure and a huge challenge. And it seems like 
whatever budget is submitted, therefore, is, sort of, not 
really the real picture.
    You know, it is so important that the supplemental is no 
longer just an add-on for emergencies but it is part of the 
bread and butter of what you need to operate. Is that right, or 
have I grown cynical?
    General Casey. No, you are right. In fact, in response to 
Congressman Young's question, I said that we need around $100 
billion a year in addition to the base program to take care of 
the costs of the war and the supplemental. So, yes, I mean, 
there are significant costs to us that are not in the base 
program.
    The only thing I would say--and some of them are costs that 
we can't know 18 to 20 months in advance. You know, for 
example, the numbers of brigades that are in Iraq, that will 
change, that will affect costs. Probably not immediately, but 
over time it will gradually affect costs.
    [The information follows:]

    The cost of the war in Iraq averaged $7 billion per month for the 
Army last fiscal year. This cost equated roughly to $1 billion for 
military personnel, $4 billion for operation and maintenance, and $2 
billion for procurement.

    Mr. Kingston. Well, Mr. Chairman, I will yield.
    Mr. Murtha. I think what the gentleman is saying is so 
important. If you remember, last year the subcommittee asked 
Secretary Gates to put it in, the supplemental, the 
supplemental in the base bill. He nodded his head because he 
agreed with us. That didn't mean he could do it.
    But there is no question they can't plan, we can't plan, 
when they just put a supplemental out which is supposedly 
emergency funding. We know very well what it is going to cost, 
within reason. It used to be supplementals were a few billion 
and we dealt with them very expeditiously. Now, they have 
become part of the process.
    We have to get back to budgeting. And if you don't count 
supplementals, you don't do any legitimate budgeting. For 
instance, a little item like re-enlistment bonuses and re-
enlistment pay went from $157 million to over $1 billion, a 537 
percent increase. Those are the kinds of things that--reset, 
put all the reset in the supplemental.
    So you are absolutely right. We have to get back so we can 
get this thing under control, so they can plan and we can know 
what the costs are.
    Mr. Bishop.

                          EQUIPMENT READINESS

    Mr. Bishop. Thank you, Mr. Chairman.
    I think the Chairman and Mr. Kingston are really on to 
something. I recall when the subcommittee organized last year, 
one of the things that the Chairman indicated was that it was 
very, very important for us to try to get control of this 
budgeting process so that we could get away from putting so 
much stuff in the supplementals so we could actually plan for 
the war, and that it was actually publicly disclosed.
    I want to go to another subject. You know, we understand 
that the equipment readiness is really a function of both 
procuring equipment in desired quantities and maintaining that 
equipment in acceptable operational status. And, of course, the 
combat operations in Afghanistan and Iraq have resulted in high 
usage rates under very demanding environmental conditions, 
which has resulted in the loss of significant--excuse me--under 
difficult conditions, and a lot of it has been destroyed as a 
result of combat.
    What are the most serious equipment shortfalls, in terms of 
equipment on hand and equipment maintenance, ground combat 
vehicles, support vehicles, aviation and communications? And 
what is the Army doing to reduce the equipment shortfalls and 
to speed the repair of equipment?
    And, of course, with the 15-month deployments, who takes 
care of the equipment that is left back home? Is that equipment 
that is left back home state-of-the-art, or is it mostly 
obsolete equipment? And if it is, what are we going to do about 
it?
    And how are you inventorying the equipment left back home 
and equipment that is being destroyed? I know at one point you 
had--I think Dimensions International was contracted, they were 
doing some of the work. I think that company has now been 
bought by Honeywell. But they were inventorying stay-at-home 
equipment. And it is my understanding a lot of that equipment 
is obsolete, so that when units come back, when they are in 
that dwell time, they really can't train on that equipment when 
they are back at home station.
    And the other question with regard to the inventory process 
is whether or not you all have implemented the RFID bar code 
technology for utilization in conducting the inventories and 
keeping up with the equipment.
    Secretary Geren. I don't know the answer to your--I know we 
do use bar code. I don't know how widely we do use it. I will 
have to get back to you for the record on that question.
    If we have used up equipment at a rate because of the war, 
not only in equipment that is destroyed in combat but equipment 
that is just being worn out at four and five times the rate 
that we planned--so we are certainly stressing the system, not 
only to produce it but to keep it fixed and keep it 
operational. We use the reset budgets in the supplemental that 
you all have given us. The depots are operating at about twice 
the capacity that they were in peacetime. So that is a big part 
of our effort to keep the equipment ready and available to 
soldiers.
    Every unit that we send into combat has the equipment that 
they need. All of our nondeployed units have some challenges 
when it comes to having the right equipment.
    [The information follows:]

      The Army has no immediate plans to implement RFID technology 
(passive/active) for conducting inventories. However, the Army uses 
RFID technology to track the location of equipment while in-transit. By 
October 1, 2008, we will have fielded handheld devices to operators of 
the Property Book Unit Supply Enhanced system (PBSUE).
      PBUSE is the Army's web-based, state-of-the art, combat service 
support property accountability system for garrisons, program managers, 
and tactical environments. PBUSE's enterprise asset database has 
improved asset visibility and accountability by providing ``any time, 
any place'' data access for property accountability users. For example, 
for the commander, it provides a real time view of assets and allows 
the commander to access the system for queries without having to depend 
on the PBO and multiple sources to gather, prepare and present the 
information. These handheld devices are capable of reading printed 
barcodes and unique item identifiers placed on supplies and equipment.

                         EQUIPMENT FOR TRAINING

    Mr. Murtha. Will the Secretary yield?
    I mean, let's go back here. When they are in the United 
States, they are not training on the same equipment that they, 
when they go to war, that they have once they go overseas. I 
mean, we have been through this over and over and over again. 
We know the shortages. I know that there is only one armored 
Humvee in some bases. I know there are all kinds of shortages 
where they don't have the equipment to train on in the United 
States that they are going to go to war with.
    So, you know, we need to hear the facts so that we can try 
to help correct this thing.
    Secretary Geren. I hope I didn't say anything that would 
contradict what you just said. Our nondeployed troops do not 
have their equipment fill. We train using, in some cases, 
shared equipment. And there are some items of equipment, up-
armored Humvees and now MRAPs, that they train in-theater on 
those. We don't have them back here on the training base.
    So, because of the equipment shortfalls, we share among 
units. As a unit gets closer to deployment, they have more of 
their equipment filled. And some of it, they pick it up in 
theater. And some of it is left behind in theater that they 
fall in on.

                          READINESS IMBALANCE

    Mr. Murtha. Well, I think that falls in line with what 
General Casey said earlier: imbalance. For instance, if we 
wanted to deploy, we not only would not be able to deploy 
because we don't have the equipment, we wouldn't be able to 
sustain the deployment at all. I am talking about deploying 
outside of Iraq or Afghanistan. That is the thing that concerns 
me the most, because it is so uncertain.
    Our intelligence wasn't right with the wall coming down. 
Our intelligence wasn't right in Iraq. Our intelligence is not 
right over 50 percent of the time. I used to have, in my 
district, the guy, Phil the Groundhog, that predicted the 
weather. He is more accurate than the intelligence agencies 
are. [Laughter.]
    But you can see why we are so concerned about the future of 
the Army, because we know the circumstances, and we have been 
trying to fix it.
    General Casey. If I could, just to piggyback on what the 
Chairman said, and I did talk about it a little bit earlier, 
but you already have invested in fixing the equipment problem. 
We are not finished yet, but, as you know, it takes about 2 
years from the time you give us the money until that equipment 
is in the hands of a soldier. And so that process has started, 
but it needs to continue here for the next several years until 
we can get ourselves back in balance.
    The other thing I just mentioned is that we have made huge 
strides on equipment accountability. And we have both in 
theater and at home. And we have put our Army Materiel Command 
in charge of the stay-behind equipment that you talked about 
several years ago. And we are getting much more efficient in 
getting that equipment to the right place and, if it needs to 
be refurbished while the unit is gone, getting it into a depot 
to get it fixed up.
    So I think we are doing much better on property 
accountability and on the management of the stay-behind 
equipment.

                  EQUIPMENT FOR HOME STATION TRAINING

    Mr. Bishop. The visit that I made to see some of that stay-
at-home equipment and the refurbishing, none of the 
refurbishing was up-armoring. Well, if so, it was very little 
of it. So that what they were actually refurbishing back on 
base, as I understand it, was not the same equipment that is 
up-armored that is being used in theater.
    And, of course, you know, that is a concern, because 
whenever they come back to train, with the parts of the units 
that are in dwell time, you know, they won't be able to 
actually work on what they will have to deal with if they have 
to go back to theater or deploy someplace else.
    Secretary Geren. There are certain important parts of the 
equipment set that we don't have back here in the training 
base. And the training takes place with that real equipment in 
theater. MRAP is a great example, where every MRAP we can 
produce we are putting in theater, so there is not an 
opportunity for soldiers to train on MRAPs in the United 
States.
    Mr. Murtha. Mrs. Kaptur, we are going to finish up before 
this vote ends, so if you have any additional questions.
    Secretary Geren. No, but I was just agreeing with your 
point. We are working to fill those, but there are certain 
types of equipment that we have not been able to fill all the 
need in theater. And that requires us to do work-arounds 
through shared equipment and training in theater to make sure 
that the soldiers get the training that they need on that type 
of equipment.

                             COST OF RESET

    Mr. Bishop. What is your current estimate of the total 
reset requirement for fiscal year 2008 for operation and 
maintenance and procurement funds? Does the fiscal year 2008 
wartime supplemental funding request, as amended in October, 
fully fund the Army's reset requirements for 2008? What is your 
estimate for the reset requirement for 2009? And how has the 
surge affected the reset?
    Secretary Geren. The funding that we have in 2008 does 
cover our estimate of the reset costs for this year. We are 
still working on the estimates for the 2009 reset number. I 
would estimate that it would be somewhere in the same range.
    But we are spending about $18 billion, $17 billion to $18 
billion a year on reset. You all gave us that in 2007. We have 
asked for that in 2008.
    In the supplemental that you all passed in December, you 
gave us $10 billion of the $18 billion that we needed, and we 
are still waiting on the $7-plus billion. And if we get past 
Memorial Day, that is going to start causing us a problem in 
purchasing long-lead items. So that is an area, when 
considering the 2008 supplemental, that the need is about to 
become urgent. The money is in the request, but only $10 
billion out of $18 billion has been approved by Congress. And 
that, very soon, will be a problem for us.
    Mr. Bishop. If there is a pause in the drawdown of the Army 
units in Iraq, how will that impact reset?
    Secretary Geren. Well, the longer the equipment stays in 
theater, the less demand we have on the depots here at home. 
And we have tried to anticipate, as the surge does draw down, 
anticipate that equipment coming home, making sure we have the 
capacity in the depots in order to handle it, as well as the 
funding to handle it.
    But the projections that we are developing for 2009 take 
into consideration the surge drawing down.
    Mr. Murtha. The time of the gentleman has expired.
    We have talked about this. We want to look to the future. 
We want to make sure we balance out reset with the future.
    Mr. Kingston, do you have any more questions?
    Mr. Kingston. I might submit some.
    Mr. Murtha. Okay.
    Do you have any discussion, Ms. Kaptur?

                             LONG TERM CARE

    Ms. Kaptur. Thank you, Mr. Chairman, very much.
    Very quickly, General Casey, there are two young men from 
my district who are terribly wounded, Army. One is Matthew 
Keil, K-E-I-L. I understand he is somewhere outside of Fort 
Bliss, Texas, now in some type of care facility. And also 
Matthew Drake, who--no, wait, that is wrong. Matthew Keil is 
somewhere in Colorado in some type of private facility. I might 
be getting this wrong. I am not sure where they are. That is 
one of my questions. Matthew----
    General Casey. That is okay. We will get the details from 
your staff.
    Ms. Kaptur. And they are both terribly wounded.
    My question really is, is the family satisfied with what 
the military did? Because one of these young men, Matthew 
Drake, is not in a military facility. He needs 24-hour-a-day 
care, and he became suicidal, and he cannot handle some of his 
limbs.
    And so my question is, what went wrong? Did anything go 
wrong? Are we doing everything we can for these young men?
    Okay, so those two. And then----
    General Casey. We will have somebody get with your staff 
and get their names, and we will follow up with you.

                         ATTEMPTED SUICIDE RATE

    Ms. Kaptur. Thank you very much.
    And then I would like to know what the attempted suicide 
rate is for people in service 2006, 2007, 2008, and also upon 
discharge, wherever they are, out there in the system, what do 
you see happening to folks once they come home, as you track 
those numbers?
    [The information follows:]

    Suicide attempts are among the most difficult events in mental 
health on which to obtain statistics because there is a spectrum of 
suicidal behavior that ranges from thinking about suicide, to non-life 
threatening gestures (i.e. superficial lacerations), to more serious 
attempts and to actual death. Researchers define what constitutes an 
``attempt'' differently, which leads to significant reported variations 
in suicide attempt rates, even within the same population.
    In 2007, the Army standardized the reporting of suicide attempts by 
clarifying the definition of an attempted suicide as an event which 
causes a person to be hospitalized for the behavior. Our older data 
(2006) is not directly comparable with data from 2007 and beyond 
because it includes attempts that did not result in hospitalization. At 
the end of 2008, we will be able to more directly compare 2007 and 2008 
data on attempted suicides.
    The Army does not track the behavioral health status of Soldiers 
once they are discharged. We do not have any record of suicide attempts 
by former Soldiers following their separation from service.

    My second question, very quickly, relates to contracting. 
Kellogg Brown & Root is doing all of the food, ice and water 
that is being served in Iraq. And do they make the decisions on 
the subcontracts?
    Mr. Murtha. We asked about those questions, Ms. Kaptur. We 
want a detailed list of the parameters of the contracting, how 
they handle it, where the different money is spent and so 
forth.
    Ms. Kaptur. Mr. Chairman, did they ask about Agility, the 
companies Agility and Supreme, whether they are a prime 
contractor and where they are headquartered? Those are two 
separate companies.
    General Casey. Agility, and what was the second one?
    Ms. Kaptur. Agility and Supreme.
    General Casey. Supreme.
    Ms. Kaptur. And are they a prime contractor, and where are 
they headquartered?
    General Casey. We will.
    Ms. Kaptur. Okay.
    [The information follows:]

    Agility (formerly Public Warehousing Company) is a prime 
contractor, headquartered in Kuwait. Supreme Food Services, Inc., is a 
prime contractor, headquartered in Switzerland. Agility and Supreme are 
the two prime contractors for food in Iraq, Afghanistan, and Kuwait. 
Agility serves Iraq and Kuwait; Supreme serves Afghanistan.

                  CONTRACTORS IN IRAQ AND AFGHANISTAN

    Secretary Geren. If I could correct the record, I was in 
error earlier, Mr. Chairman. That 196,000 contractors is the 
entire theater: 155,000 in Iraq and 30,000 in Afghanistan. I 
would just like to stand corrected.
    Ms. Kaptur. Thank you, Mr. Chairman.
    Mr. Murtha. Thank you very much.
    If you will get those questions back for the record.
    Secretary Geren. We certainly will.
    Mr. Murtha. The Committee now adjourns until 1:30.
    [Clerk's note.--Questions submitted by Mr. Young and the 
answers thereto follow:]

                          Stability Operations

    Questions. The Army recently released the latest updated version of 
its operations manual--the first update since 9/11. The manual, for the 
first time puts stability operations--or nation building--on the same 
level as combat. The Army states that this reflects the past six years 
of fighting the Taliban and Al Qaeda Afghanistan and insurgents in 
Iraq, as well relief efforts after hurricanes Katrina and Rita. It 
requires Army leaders to think and act flexibly, with the understanding 
that operations may require initiatives that do not require combat.
    What does this change mean for the troops in the field? What, if 
anything, will be done differently?
    Answer. Soldiers in operational units can expect their leader to be 
better prepared for the diverse set of missions they will be asked to 
execute. Commanders and their staffs will approach their missions more 
aware of the non-combat ways and means to success and plan accordingly. 
As Soldiers receive professional military education throughout their 
careers, they can now expect to see concepts regarding non-combat 
approaches integrated into the curriculum. This will infuse an 
understanding of the full spectrum of conflict throughout the force and 
enhance the capabilities of our Soldiers to operate across the spectrum 
of conflict.
    Question. How will this be reflected in soldier training?
    Answer. Training for Army forces deploying to Operation Iraqi 
Freedom and Operation Enduring Freedom currently prepares them to 
perform stability operations tasks (in addition to offense and defense 
tasks), to apply lethal and non-lethal capabilities, and to respond to 
exigencies arising from mission circumstances. Training and mission 
rehearsal/readiness exercises for deploying units are focused on the 
mission they will perform when deployed and on the operational 
conditions they will face when deployed.
    The Army is developing, and will soon publish, standardized lists 
of mission essential tasks based on the operational construct described 
in Field Manual (FM) 3-0, Operations. These standardized lists will 
formally establish the offense, defense, and stability tasks on which 
units are expected to train before shifting, when required, to a 
specific directed mission.
    The Army has revised, and will soon publish, FM 7-0, Training the 
Force. This training doctrine will reinforce the precepts in FM 3-0. In 
particular, FM 7-0 will emphasize that units must prepare to conduct 
full spectrum operations (a mix of offense, defense, and stability 
operations) for any assigned mission. Additionally, the Army is working 
to identify and distinguish levels of training capability for stability 
operations that are possible, desired, required, and critical to ensure 
continuing readiness of Army forces for stability operations in the 
future.
    Question. As you know, you serve side by side with other Services. 
To the best of your knowledge, have they adopted a similar strategy?
    Answer. The other Services have adopted similar or complementary 
stability operations strategies. In August 2007, the Air Force 
published their Irregular Warfare doctrine and revised their Foreign 
Internal Defense (FID) doctrine to address the requirement to support 
friendly foreign governments prosecute their own counter insurgency 
campaigns. This tenet of stability operations is also in Army doctrine. 
The Marine Corps teamed with Army doctrinaires to write and publish the 
current Army counter insurgency doctrine. As a result, the guiding 
principles of both services stability operations doctrine are nearly 
identical. Finally, Joint doctrine, to which all Services adhere, 
addresses stability operations in the same manner as each of the other 
Services.

                         Future Combat Systems

    Question. When Secretary Gates testified before the Senate Armed 
Services Committee he stated that growing costs of the Army's Future 
Combat System, makes it ``hard for to see how that program can be 
completed in it entirety''. He went on to say that ``in light of what 
are inevitably going to be pressures on the defense budget in the 
future, I think that that one is one we will have to look at 
carefully''.
    Is it the Army's intent to continue FCS as it is currently defined, 
or can we expect major changes to the program?
    Answer. The Army is committed to funding and delivering the very 
best capabilities to the Soldier. Continued investment in FCS is 
essential to providing these critical capabilities our Soldiers need 
today and in the future. Investments in FCS have produced technologies 
that are making a difference in combat today and will continue to make 
a difference tomorrow. The Army continues to adapt and mature the 
brigade's requirements to reflect lessons learned from Iraqi Freedom, 
Operation Enduring Freedom, as well as our own results from the Army 
Evaluation Task Force. As Soldiers adapt to these new technologies and 
the enemy adapts new strategies, we anticipate that our requirements 
will continue to mature.
    Question. How are we to balance the competing pressures of Growing 
the Force and resetting/recapitalizing equipment with the funding 
demands of FCS? Are there any other tradeoffs to be made?
    Answer. FCS is part of a comprehensive modernization strategy--a 
strategy that takes a balanced approach between the current and future 
force. FCS is less than three percent of the current budget. FCS is 
projected to be a third of the Army's base investment program at its 
peak in fiscal year 2015, which is in turn about one-fourth of the 
Army's base budget. The Army requires adequate resources to meet 
current commitments and prepare for future threats; we must do both to 
sustain dominant landpower.
    Question. As you know, FCS was downsized about two years ago from 
18 to 14 systems. There are now rumors that yet another major 
restructuring of the FCS program is in the works.
    Is another restructuring in the works?
    Answer. Future Combat Systems will remain the cornerstone of Army 
modernization. The Army is currently building the Program Objective 
Memorandum (POM) for fiscal years 2010-2015. Through this process, the 
Army will review requirements from the Soldier, Global War on Terror, 
and current programs of record, striking a balance within the available 
resources. The Army will formally deliver its POM requirements to the 
Office of Secretary of Defense by mid-July 2008.
    Question. Has the Army begun to look at any alternatives to FCS, 
such as upgrades to legacy systems? If not, why?
    Answer. We have examined the feasibility of upgrading current 
platforms, and we have found that current platform upgrades are vital 
to current operations but are not a suitable alternative to FCS. 
Current platforms are severely challenged to accept newer technologies 
due to space, weight and power constraints resulting from incremental 
modernization over time. Continued investment in current platform 
upgrades, however, ensures the viability of future technology 
insertions to include FCS Spin-outs.
    FCS is the right solution for the future which impacts the entire 
Army. Five years of requests from combatant commanders confirms what 
the Army needs: increased lethality, survivability, battle command on 
the move, battlefield awareness, and sustainment. FCS best fills these 
needs. Further, FCS technologies are validated in the hands of combat 
experienced Soldiers from the Army Evaluation Task Force, Fort Bliss, 
Texas.

    [Clerk's note.--End of questions submitted by Mr. Young. 
Questions submitted by Mr. Murtha and the answers thereto 
follow.]

                           Reported Readiness

    Question. Virtually all of the Army's major combat units are either 
currently deployed to Iraq or Afghanistan, recovering from such a 
deployment, or preparing for another such deployment. Because of this, 
essentially all non-deployed major combat units report low readiness 
scores.
    Many defense policy experts and some military officials have 
expressed concern that with so much of the U.S.'s ground forces 
committed to existing operations, it would be very difficult for the 
U.S. to respond to a new crisis. At the same time, the very high level 
of commitment to existing operations features prominently in 
justifications for increasing the size of the Army and Marine Corps.
    Gentlemen, the Committee understands that units deploying to 
Afghanistan and Iraq are reported to be well equipped and well trained. 
However, in a similar hearing last year at this time we were told that 
the Army was almost totally focused on the Iraq and Afghanistan 
missions and that generating equipped, trained and ready forces for any 
other contingency would be very challenging.
    Other than the wars in Iraq and Afghanistan, what is the threat 
that you are preparing the Army to deter or defeat?
    Answer. In addition to preparing forces for counterinsurgencies in 
Iraq and Afghanistan, the Army must also prepare for contingencies that 
require forces to operate across the full range of military missions. 
Current operational requirements for forces and limited periods between 
deployments necessitate a focus on counterinsurgency to the detriment 
of preparing for the full range of military missions. The Army is 
consumed with meeting the demands of the current fight and is unable to 
provide for other contingencies as rapidly as we would like. With your 
support we will continue to rebuild readiness, achieve balance, and 
restore strategic depth for future challenges.
    Question. Does the Army currently have a strategic reserve?
    Answer. Yes, the strategic reserves are those formations which are 
not deployed or next to deploy. The Army Force Generation (ARFORGEN) 
model synchronizes the planning, prioritization, and resourcing for 
sustainable force generation, to include adding depth for strategic 
needs.
    Question. Given the state of the Army's combat units today, how 
well prepared would the U.S. be to respond to any new military crisis 
that might occur?
    Answer. We are a combat-seasoned force with the best current forces 
in the world. We would respond with our sister services to other 
crises, but not as rapidly as we would like.

                      Future Combat Systems (FCS)

    Question. The Army capstone acquisition program is the Future 
Combat Systems. It is 14 systems including eight manned ground 
vehicles, unattended ground systems, the Non-Line of Sight Launch 
System, two unmanned aerial systems, plus the soldier and high speed 
wireless communications.
    The FCS request for fiscal year 2009 is $3.6 billion (RDTE = 
$3,272M; Procurement = $331M). Procurement funds are requested to spin 
out maturing technology to the current force brigade combat teams.
    The FCS program will field a total of 15 brigades, by fielding one 
brigade a year starting in 2015. FCS brigades will comprise 15 of the 
Army's total of 76 combat brigades. The Army's will add a new set of 
complex vehicles to an already burdened system that currently supports 
Abrams Tanks, Bradley Fighting Vehicles, Strykers and Paladin 
Artillery. General Casey, will FCS, when fielded, only add to the 
Army's logistical complexity?
    Answer. FCS is being built to enable more efficient logistics 
support in the future. We have intentionally designed the FCS systems 
to realize 70 percent commonality between systems to reduce the number 
of unique components that will require support by the logistics 
systems. The FCS systems are also being designed with three to four 
times the reliability of the current force systems, thus helping to 
reduce the logistics burden through fewer parts required, fewer 
mechanics to install them, and fewer mechanics to install them, and 
fewer trucks to carry them. The FCS network fully integrates the 
logistics software applications with battle command to allow Soldiers 
logistical decision support concurrently with battle command. This 
network enabled logistics capability will require smaller stockages of 
spare parts to achieve required readiness.
    Question. FCS is expected to cost a total of $160 to 200 billion. 
Can the Army afford FCS?
    Answer. The Army can afford FCS. FCS is currently less than three 
percent of the Army's base budget. At its peak, in fiscal year 2015, 
FCS is projected to be less than a third of the Army's investment 
account. As the investment account is about a quarter of the total 
budget, FCS procurement cost is unlikely to exceed eight percent of the 
Army's budget in any year.
    Continued investment in FCS is essential to deliver the 
capabilities the Army needs. Investments in FCS have produced 
technologies that are making a difference in combat today. These 
include advanced vehicle armor being used to protect Soldiers in High 
Mobility Multipurpose Wheeled Vehicles; precursor FCS Unmanned Aerial 
Vehicles; and robotics being used to locate and defeat Improvised 
Explosive Devices. We are leveraging the FCS investment to provide 
capabilities to the current force through Spin-outs, but we need to get 
these capabilities to our Soldiers faster.
    Question. Can the Army accelerate the FCS program, given additional 
resources?
    Answer. Yes. Currently the Army plans to begin fielding the Future 
Combat Systems Brigade Combat Team in 2015 with the first-half of a 
brigade. Thereafter, a brigade will be delivered each year until 15 
brigades have been fielded. The delivery rate of brigade combat teams 
is governed by available funding. Additionally, the delivered quantity 
of the spin out maturing technologies we deliver through spin outs and 
the congressionally mandated fielding of Non-Line of Sight-Cannon is 
directly correlated to funding.

                               Modularity

    Question. The Army is in the process of converting to the modular 
brigade structure, while fighting a war, with approximately half of the 
active component brigades deployed to the combat theaters. In fiscal 
year 2006, the Army had 51 brigade combat teams. By the end of fiscal 
year 2008 the Army plans to have 69 brigade combat teams.
    What are the key differences between a modular brigade combat team 
and the previous brigade structure?
    Are modular brigades smaller than the previous brigades?
    Answer. Modular Brigade Combat Teams (BCTs) are larger than 
previous brigades because structure that had been previously task-
organized from the division base is now organic, enabling modular BCTs 
to train as they will fight. Key differences between previous brigade 
structure and modular BCTs are: (1) modular BCTs are designed with 
organic combined arms battalions and organic combat support and combat 
service support; (2) the number of maneuver companies in each brigade 
increases from 10 to 11; (3) modular BCTs include a reconnaissance 
squadron to provide a more robust suite of intelligence, surveillance 
and reconnaissance capabilities; (4) battalion and brigade staffs are 
more robust and include organic psychological operations (PSYOP), civil 
affairs, and public affairs capabilities; and (5) command posts are 
satellite based, more robust, and linked to national assets. Any 
modular BCT can be attached to any division, corps, or joint 
headquarters without extensive augmentation or reorganization to any 
operation across the spectrum of operations.
    Question. Please discuss the utility of adding an infantry 
battalion to each of the modular brigades. The idea is to increase 
combat power without requiring a significant increase in command and 
logistical functions. Does this make sense and is the Army exploring 
such an idea?
    Answer. The Army continually assesses the utility of the modular 
force designs and applies changes based on lessons learned and 
operational experience. The Army must balance the strategic risk of 
preserving the All-Volunteer Force in persistent conflict, the 
operational risk of providing sufficient capacity to support joint 
force rotational requirements, and the tactical risk of maintaining 
sufficient capability within the brigade combat team (BCT) to conduct 
successful full spectrum operations. The current BCT design includes 
one reconnaissance and surveillance squadron with three troops and two 
maneuver combined arms battalions with four companies each.
    Question. What is the impact of modularity on equipment 
requirements? If additional equipment is needed, is that equipment 
fully funded?
    Answer. The transformation of our force has driven up the 
requirements for equipping. From 2005 to 2013, we plan to provide 
$174.9 billion in equipment through the base budget ($41 billion for 
the Reserve Component (RC): $29.4 billion to ARNG and about $11.6 
billion for Army Reserve, and $133.9 billion for the active component) 
to meet these increased requirements. Premodularity equipment 
shortfalls require supplemental appropriations to help close the gap 
between requirements and existing equipment and modernization 
shortfalls. We need continued Congressional support for this plan. 
Without it, we will be unable to fully meet equipment requirements 
across all of our components.
    The Army had significant equipping challenges prior to 9/11. 
Particularly noteworthy were the equipment shortages and lack of 
modernization in the RC. Because of the need to integrate the RC to 
meet the demand of persistent conflict, the Army has adopted a new 
total force operating strategy that resources units based on their 
deployment window, regardless of component. The previous incremental 
``tiered'' resourcing strategy, which resulted in the active and most 
RC units, who deployed later, being equipped last, and with the least 
modernized equipment. Additional funding gained through supplemental 
spending will fill shortages and modernize outdated equipment in the 
force and fund payback plans for diverted RC equipment. The Equipping 
Strategy is linked to the time-phased transformation of the Army into 
the modular force.
    Question. Has the Army been able to meet the schedule for forming 
modular brigade combat teams? What have been the key challenges in 
terms of personnel and equipment?
    Answer. Yes and we are on track to complete personnel growth by 
2010 and modular brigade combat team (BCT) growth by the end of FY 
2011. The most significant challenges to meeting this timeline are 
manning and equipping.
    Our most significant personnel challenges are providing sufficient 
captains and majors in the logistics, military intelligence, and 
aviation specialties. Our equipping strategy minimizes risk to the 
current force and maintains momentum in equipment modernization. Our 
three most significant equipping challenges are battle command systems, 
trucks, and night vision devices.

                         Grow-the-Army Brigades

    Question. Currently, and over the next several years, the Army is 
adding end-strength and equipment in order to form six new infantry 
brigades.
    When will the Grow-the-Army brigades be available for combat 
deployment?
    Answer. The Grow the Army (GTA) brigade combat teams. (BCTs) will 
be available for deployment approximately one year after they activate. 
The Army will activate one additional BCT in each year from 2008-2010 
and three BCTs in 2011. By the end of FY11, all GTA BCTs will be 
available for deployment.
    Question. What is the status of manning, equipping and training the 
Grow-the-Army Brigades?
    Answer. The Army is on track to complete personnel growth by 2010, 
BCT growth by 2011 and equipment growth for the BCTs by 2015. To 
monitor our progress in meeting these goals, the Army conducts a 
monthly Force Validation Committee process to synchronize resourcing 
functions for select units that will deploy or convert within a given 
window.
    Question. Is the necessary equipment for the Grow-the-Army Brigades 
fully funded?
    Answer. The Army's current program from 2008-2013 provides a total 
of $68.6 billion to include $17.0 billion in procurement to support the 
original Grow the Army 2012 brigade combat team (BCT) timeline. The 
Army has approved an accelerated Grow the Army timeline that will have 
all BCTs in the force by 2011, and will require an additional $2.6 
billion in funding for personnel and training.
    Question. Will all the new brigades be light infantry brigades?
    Answer. The Grow the Army (GTA) initiative was based on increasing 
rotational depth and filling global operational demands as quickly as 
possible. The growth of six Active Component (AC) Infantry BCTs was the 
optimal way to accomplish the rapid growth with a structure suitable to 
meeting current operational demands in an era of persistent conflict. 
This decision is subject to review based on the results of Total Army 
Analysis and the Quadrennial Defense Review. This process will analyze 
existing requirements, current operational demand, and projected future 
demand to ensure we have the appropriate mix of Heavy, Infantry, and 
Stryker BCTs within the force and across the Active Component and Army 
National Guard.

                      Equipment on Hand Readiness

    Question. The Committee understands that equipment readiness is a 
function of both procuring equipment in the desired quantities, and 
maintaining that equipment in an acceptable operational status. Combat 
operations in Iraq and Afghanistan have resulted in high usage rates 
under very demanding environmental conditions, additionally, some 
equipment is damaged or destroyed as a result of direct combat.
    What are the Army's most serious equipment shortfalls in terms of 
equipment on hand and equipment maintenance: in ground combat vehicles; 
support vehicles; in aviation; in communications?
    Answer. The Army's most serious equipment shortfalls are in 
tactical wheeled vehicles. The current shortfalls are due to converting 
to the modular force, growing the Army, and requirements in Theater. 
The Army has no significant shortfall in ground combat vehicles. For 
aviation, the only significant shortage is the OH-58D Kiowa Warrior. 
This system is no longer being produced and will be replaced by the 
Armed Reconnaissance Helicopter beginning in fiscal year 2011. For 
communications, the Army's most significant shortage is in Warfighter 
Information Network-Tactical telecommunications hubs, as well as 
battlefield communications suites which provide long-haul 
communications and command and control. The Army is meeting all 
requirements for deployed forces and has an equipping strategy to 
eliminate these shortfalls over time.
    Equipment maintenance funded by reset dollars has enabled deployed 
forces to maintain equipment readiness levels greater than 90% for 
ground equipment and greater than 75% for aviation equipment for the 
last five years.

                             Reset Funding

    Question. For fiscal year 2008, the supplemental request that came 
up with the budget included for Reset $7.8 billion in Operation and 
Maintenance and $5.8 billion in procurement funding for a total of 
almost $14 billion. That budget request was updated in October. In 
December Congress provided a bridge fund to ensure continued support 
for our deployed forces and to avoid breaks in funding for key 
procurement programs supporting Reset.
    What is your current estimate of the total Reset requirement for 
fiscal year 2008 for Operation and Maintenance and Procurement funds?
    Answer. For fiscal year 2008, the Army's total revised reset 
requirement is $16.9 billion. This includes $7.8 billion in Operation 
and Maintenance and $9.1 billion in procurement funding. In the fall of 
2007, the Army amended its initial request and increased the 
procurement request from $5.8 billion to $10.5 billion. This additional 
procurement funding was requested to replace battle losses, worn-out 
theater provided equipment, and replenish Army Pre-positioned Stocks 
(APS).
    In the 2008 bridge funding, the Army received $10.7 billion. This 
included all of the $7.8 billion requested in Operation and Maintenance 
funding and only $2.9 billion in procurement funding. A procurement 
shortfall of $7.6 billion remained from the amended request. This was 
reduced to $6.2 billion through contracting efficiencies, program 
termination, and fact of life changes. The remaining procurement 
dollars are required by May 26, 2008 to preclude delays in the reset 
and recapitalization of Abrams Tanks, Bradley Fighting Vehicles, and 
High Mobility Multipurpose Wheeled Vehicles (HMMWVs).
    Question. What is your estimate of the Reset requirement for fiscal 
year 2009?
    Answer. The Army's request for reset funding will be included in 
the fiscal year 2009 Supplemental request, which has not yet been 
released by The Office of the Secretary of Defense.

                      Prepositioned Equipment Sets

    Question. The Army drew upon prepositioned equipment sets to 
sustain initial combat operations in Iraq. Some equipment was repaired 
and replaced in prepositioned sets only to be dawn out again for the 
surge.
    What is the readiness posture of Army prepositioned sets today?
    Answer. The readiness posture of the Army Prepositioned Stocks 
(APS) available equipment sets for APS-4 are at 88%-95% of fill. The 
APS reconstitution plan will ensure all the other APS equipment sets 
will have a readiness posture of 95-100% of fill.
    (1) APS-4 in Korea and Japan is available; it is comprised of a 
heavy brigade combat team (BCT) (95%) and a tailored sustainment 
brigade (88%). APS-4 will be completed by 4th Qtr FY08.
    (2) APS-3 Afloat has a Port Opening Package capability in Guam at 
90% of fill. This set consists of a temporary afloat set of 20 units 
(12 port openings and eight medical units/teams) loaded aboard the USNS 
Pomeroy. The full sustainment brigade set will be completed in FY11.
    (3) APS-5 is issued and is planned for reconstitution when no 
longer required for ongoing operations in accordance with APS Strategy 
2015.
    Question. What is the time line to have all the prepositioned sets 
returned to their desired readiness?
    Answer. The Army Prepositioned Stocks (APS) were used to support 
Operation Iraqi Freedom (OIF)/Operation Enduring Freedom (OEF) and to 
accelerate the build of the brigade combat teams (BCTs). The Army has 
developed an APS reconstitution timeline to support the approved APS 
Strategy 2015, the FY10-15 Program Objective Memorandum (based on 
equipment availability) and Army resource prioritization.
          <bullet> Current Year:
                  <bullet> APS-5: Infantry Brigade Combat Team
          <bullet> Near Term:
                  <bullet> APS-5: Heavy Brigade Combat Team #1
                  <bullet> APS-3: Infantry Brigade Combat Team #1, 
                Sustainment Brigade #1
                  <bullet> APS-2: Heavy Brigade Combat Team
                  <bullet> APS-5: Infantry Battalion
          <bullet> Mid Term to 2014:
                  <bullet> APS-3: Infantry Brigade Combat Team #2, 
                Sustainment Brigade #2
                  <bullet> APS-5: Fires Brigade, Sustainment Brigades 
                #1 and #2
    Question. Does the Army intend to add MRAP vehicles to pre-
positioned equipment sets?
    Answer. Mine Resistant Ambush Protected (MRAP) vehicles will be 
incorporated into APS-5 and APS-3 when no longer required for 
operational use (variant type TBD). MRAP availability will be based on 
the results of the U.S. Army Training and Doctrine Command's Tactical 
Wheeled Vehicle Strategy.
    Question. Given the deployment capability of U.S. Forces and the 
uncertain nature of conventional and unconventional threats, are 
prepositioned sets a wise investment? Would it be a wiser course of 
action to take the equipment from the pre-positioned sets and use it to 
outfit modular brigades and the new Grow-the-Army brigades?
    Answer. Army Prepositioned Stocks (APS) is a strategic asset that 
has proven its value in every recent major contingency. APS provides 
the strategic responsiveness to deploy globally to any contingency 
operation. The Global War on Terrorism (GWOT) has demonstrated that the 
APS program is flexible, responsive, and critical to the Army's ability 
to deploy forces in support of the Combatant Commander requirements and 
adapt to changing strategic requirements. APS was used to support both 
OIF and OEF. Diverting the APS equipment to support the building of 
modular BCTs and Grow the Army effort limits the ability to rapidly 
reinforce forward units by air movement. Current operational plans and 
future planning scenarios include requirements that use APS sets. The 
Army complies with the National Defense Authorization Act (NDAA) 2007 
to identify any APS sets utilized and the plans to reconstitute those 
APS sets annually.
    Question. In November 2007, the Army announced a new Army 
Prepositioned Stocks Strategy 2015. Please outline the new strategy, 
and what are the funding requirements for fiscal year 2009?
    Answer. Army Prepositioned Stocks (APS) Strategy 2015's equipment 
sets provide a balanced suite of global capabilities which will foster 
the Army's rapid deployment to both combat and Steady State Security 
Posture operations. The end-state for APS Strategy 2015, illustrated in 
the attached diagram, consists of five APS sets. APS-1 consists of 
Operational Project stocks to support both Homeland Defense and 
Combatant Commands. APS-2 consists of one heavy brigade combat team 
(HBCT) set to support European Command's, African Command's (AFRICOM), 
and Central Command's (CENTCOM) areas of responsibility (AORs). APS-3 
consists of two Infantry BCT sets with Up-Armored HMMWV (UAH) and/or 
Mine Resistant Ambush Protected (MRAP) vehicle wheel augmentation sets, 
two sustainment brigade sets and two ammunition ships, which are multi-
apportioned to support Pacific Command's, AFRICOM's, and CENTCOM's 
AORs. APS-4 consists of one HBCT, one sustainment brigade set, and Army 
watercraft to support Pacific Command's (PACOM) AOR. APS-5 consists of 
one HBCT set with UAH and/or MRAP wheel augmentation, one fires brigade 
set, two sustainment brigade sets, and Army watercraft stationed at the 
Kuwaiti Naval Base. APS-5 also includes an infantry battalion set with 
a forward support company, with UAH/or MRAP wheeled augmentation sets 
in Afghanistan to support CENTCOM's AOR.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

        <bullet> APS-2--($13 million), funds operations to maintain 
        limited equipment and ammunition at Livorno, Italy and Medical 
        Supplies at Pirmasens, Germany to include support to War 
        Reserve Stocks for Allies--Israel.
        <bullet> APS-3--($157 million), funds operations to maintain 
        equipment for the port opening package and funds lease 
        operations of one large, medium speed roll-on, roll-off (LMSR) 
        for the port opening package, three LMSRs in reduced operating 
        status-10, and two ammunition container ships. Also funds 
        personnel to begin the reset of equipment and secondary items 
        for APS upload that will occur in FY10. It does not pay for the 
        two remaining LMSRs we downloaded and placed in reduced 
        operating status--30.
        <bullet> APS-4--($59 million), funds maintenance and operations 
        to maintain the full unit sets and operational projects in 
        Korea, Japan, and Hawaii. Operational projects will be filled 
        using FY08 and FY09 Supplemental funds.
        <bullet> APS-5--($57 million), funds reset of the prepare-to-
        deploy-order (PTDO) infantry BCT and planned reset of the heavy 
        BCT. Funds the $12 million annual Oman access fee.
        <bullet> War reserves secondary items--($102 million), funds 
        the purchase of items with expiration dates (mostly medical) 
        that need to be replaced in APS-4 and operational projects. 
        Also funds the purchase of APS-2 authorized stockage level/
        primary load list/unit basic load stocks. Buys upgrades in 
        medical sets currently on-hand in Korea.
    With the continued support of the Congress, the Army will be able 
to return equipment to prepositioned stocks by 2015.

            Mine Resistant Ambush Protected (MRAP) Vehicles

    Question. As the threat from Improvised Explosive Devices and 
Explosively Formed Penetrators grew, the limit of how much armor could 
be applied to the HMMWV was reached. The DoD identified the MRAP-type 
trucks to provide greater force protection. The Army seemed skeptical 
at first about acquiring MRAPs in large numbers. General, what is the 
current Army acquisition objective for MRAPs?
    Answer. The current Army acquisition objective for MRAPs is 10,000 
systems (based on the September 2007 interim requirement). A new 
interim requirement for 12,000 MRAPs is currently in staffing. The 
final requirement is dependent on many factors, including future 
actions taken by the enemy.
    Question. When do you expect to reach your acquisition goal?
    Answer. The current plan is to procure the 10,000 systems by 
October 2008 and field them by December 2008. If a new interim 
requirement of 12,000 is adopted, it is anticipated that these systems 
could be produced by February 2009 and fielded by April 2009.
    Question. What is the proper mix of HMMWVs and MRAPS?
    Answer. A mix of approximately two-thirds MRAPs to one-third Up-
Armored HMMWVs per brigade appears about right. However, it is 
premature to tell which variant of MRAP is superior or to provide 
definitive feedback on performance, final numbers, and/or category 
mixes.
    Question. Is the Army MRAP requirement fully funded?
    Answer. The Army has been funded for 10,000 systems. The Joint 
Program Office is adequately funded to procure 12,000 systems for the 
Army.
    Question. What are your plans for the MRAP vehicles once the war in 
Iraq is over?
    Answer. The U.S. Army Training and Doctrine Command is conducting 
tactical wheeled vehicle analyses that include: (1) mission roles and 
profiles; and (2) threats and capabilities of the various fleets 
including the MRAP, Joint Light Tactical Vehicle, and HMMWV. The 
initial results of those analyses will influence programmed objective 
memorandum decisions; the Force Mix Brief to Congress; and the Combat 
and Tactical Wheeled Vehicle Strategy due to the Deputy Secretary of 
Defense in July 2008. The Army's Tactical Wheeled Vehicle strategy is 
an ongoing effort to ensure our Soldiers receive the best capabilities 
available in ground wheeled vehicles to meet current and emerging 
threats.

                       Contractors and Readiness

    Question. The Department of Defense has made a major effort to 
outsource support functions in order to allow soldiers to remain 
focused on core military skills and duties. The proliferation of 
contractors performing support functions ranges from the dining 
facility to aircraft maintenance. Contractors are working side-by-side 
with military forces at home station and in the combat theaters.
    How important are contractor services to military readiness at home 
station, and at forward deployed locations?
    Answer. Contractor services are an essential part of military 
readiness. In 1955, the Executive Branch determined that the government 
should not compete with its citizens. Therefore, federal agencies 
generally obtain commercial services from the public sector. After the 
Vietnam War, the Department of Defense's force structure was 
drastically reduced and after becoming an All Volunteer force in 1973, 
the Army increased the number of support contractors. The Department of 
the Army focused on rebuilding its military war fighting core functions 
and relied more on contractors to provide administrative, logistics, 
and other support functions.
    In the early 1990s, the Army reduced military and civilian 
personnel to take advantage of the peace dividend with the end of the 
Cold War. These personnel cuts significantly reduced the number of 
government civilians and Soldiers performing operational, 
administrative, and logistics support functions for the Army. As a 
result, these functions were obtained via contracts which enabled the 
Army to reduce the number of officers and enlisted personnel performing 
administrative functions. Today, Army operations require a mix of 
military, civilian, and contractor personnel to deliver global 
logistical support and capabilities to meet the needs of our war 
fighters both at home station and forward deployed.
    Question. What is the commander's role in defining contractor 
duties; in supervising contractors; and in disciplining contractors?
    Answer. Primary oversight of contractor performance and conduct 
falls to the cognizant contracting officer, and is generally dictated 
by the terms of the government contract.
    Contract employees are required to comply with all guidance, 
instructions, and general orders issued by the Theater Commander, as 
incorporated by the government's contract, including those relating to 
force protection security, health, safety, or relations and interaction 
with local nationals.
    Commanders may refer contractor criminal misconduct to DoD/
Department of Justice under the Military Extraterritorial Jurisdiction 
Act (MEJA), and if jurisdiction is declined, may then consider the 
exercise of jurisdiction under Article 2, Uniform Code of Military 
Justice (UCMJ) in coordination with DoD.
    Question. Training scenarios at the National Training Center and at 
other locations include role players who represent the Iraqi 
population. Do Army training scenarios include role players for 
contractors, such as contractor security personnel?
    Answer. Army maneuver Combat Training Centers (CTCs) primarily use 
personnel assigned to their opposing force cadre to replicate the 
various contractors in theater, including private security contractors. 
In many instances the centers use Arabic-speaking personnel to role-
play contractors working on US Field Operating Bases, since US forces 
in theater are in day-to-day contact with Arabic contractors. Army 
maneuver CTCs are working to integrate scenarios, which include actual 
personnel from contracted companies.
    Every Army maneuver CTC also challenges deploying forces to work 
through Rules of Engagement and Escalation of Force scenarios that 
involve private security contractors in Situational Training Exercises 
or scripted situations during their Mission Rehearsal Exercise. 
Training of unit contracting officials at CTCs occurs, but is limited 
due to constrained resources (time, expertise and dollars) that are 
focused on other mission-essential training tasks and capabilities.
    At maneuver CTCs, unit officials are trained on the basics of the 
contracting process from start to finish, and specifically on how to 
manage Commander Emergency Relief Program contracts to completion in 
coordination with role players for ``local contractors,'' Provincial 
Reconstruction Team members, and representatives of the US Agency for 
International Development. With the Battle Command Training Program, 
division and corps staff officers discuss best contracting practices 
with actual subject matter expert from theatre. Additionally, a Joint 
Personnel Recovery Activity workshop is given, which discusses the 
accounting and recovery of contractors on the battlefield.

                        Recruiting and Retention

    Question. A key principle of the U.S. Armed Forces is to attract 
and retain competent personal to assure readiness and operational 
effectiveness. While the services have generally met their aggregate 
recruiting and retention goals, the GAO reports that the Army has 
experienced shortages in mission-critical occupational specialties such 
as health care, human intelligence collection, and explosive ordnance 
disposal. There is growing concern within the department as to how the 
Army can meet current operational demands with what appear to be 
chronic shortages in these occupational specialties. In addition, there 
is growing concern that recruitment standards have been relaxed to meet 
numbers.
    Please describe the standards by which candidates are measured.
    Do you expect these standards to be relaxed further to achieve the 
aggressive recruitment goals?
    Answer. The Army adjusted to the DoD standards in August 2005, in 
line with the rest of the services, of 60% Test Score Category (TSC) I-
IIIA and 4% TSC IV. Previously, Army had an internal goal of at least 
67% TSC I-IIIA, and no more than 2% TSC IV. The Armed Forces 
Qualification Score (AFQT) average score has ranged between 56.5% and 
57% since FY04, so adjusting to DoD standards has not affected the 
quality of the force.
    Applicants are measured based on the percentile in which they score 
on the AFQT. TSC I-IIIA includes those applicants who score in the top 
half (50th percentile or higher). TSC IIIB includes those who score 
between the 31st and 49th percentile. TSC IV includes those who score 
between the 10th and the 30th percentile, of which the Army typically 
only enlists those in the 21st percentile or higher. The lowest 
category is TSC V (9th percentile or lower). By law, the military does 
not enlist TSC V applicants.
    The recruiting environment remains challenging and the Army remains 
focused on recruiting a quality force in line with DoD quality mark 
standards.
    Question. Recruiting and retention goals are often relayed to 
Congress in the aggregate, providing little or no visibility into how 
each occupational specialty is staffed. Will you provide the Committee 
with details on recruiting and retention by MOS?
    Answer. The Army monitors the strength of each MOS carefully to 
ensure each required skill is properly manned and maintained. Due to 
several factors, including high entrance standards, high volume 
requirements, and undesirable duties, recruiting and retention is more 
difficult for some MOSs. To compensate, the Army uses priorities and 
incentives, both monetary and non-monetary, to shape the recruiting and 
retention efforts by MOS.
    The active Army is meeting its year-to-date goals for overall 
recruiting and is generally doing well at the MOS level. However, there 
are a few MOSs that are below their targets, including: Patriot Fire 
Control Operator/Maintainer (81%), Microwave System Operator (49%), 
Military Intelligence Systems Maintainer (74%), and Psychological 
Operations Specialist (76%). As the year progresses, the recruiting 
force places special emphasis on these MOSs to ensure that each 
critical skill is manned to the required levels. One way the Army does 
this is through the quarterly Multi-component Enlisted Incentives 
Review Board, which aligns incentives and priorities with the needs of 
each MOS. For example, Microwave System Operator now receives the 
highest enlistment bonus available to assist in achieving its annual 
target.
    As the Army continues to transform and grow, the Army Retention 
Program will continue to adjust, encouraging the right Soldiers with 
the right skills to reenlist to meet the manning requirements of a 
growing Army. In a time of war and sustained operational demand, 
retention is a significant indicator of the quality of our leaders and 
the commitment of our Soldiers. Currently, the Army is meeting or 
exceeding its objectives in each category (initials, mid-careerist and 
careerists). Through targeted reenlistment incentives, the Army is 
addressing specialties that are currently short due to rapid growth and 
transformation. The incentives for each specialty are adjusted semi-
annually using the Selective Reenlistment Bonus Review Board. Shortages 
in critical skills such as Explosive Ordnance Disposal (EOD) 
Specialist, Human Intelligence Collector, Motor Transport Operator and 
some others are continually targeted for some of our most robust 
incentives.

                               Dwell Time

    Question. One essential element in maintaining troop morale during 
wartime is to provide some guarantees that there will be time to rest 
between deployments to combat zones. This rest is officially called 
`dwell time'. At one point dwell time for the U.S. Army was a ratio of 
1:2, 12 months in combat, 24 months at home. Due to the Global War on 
Terrorism (GWOT) Army dwell time has evolved to a 1:1 ratio. However, 
on April 11, 2007, Secretary Gates announced a new policy that active 
Army units now in the Central Command area of responsibility and those 
headed there will deploy for not more than 15 months and will return 
home to home stations for not less than 12 months.
    Gentleman, there have been numerous articles regarding DoD 
consistently cutting `dwell time' for our combat units, do you expect 
that `dwell-time' standards will be further relaxed or changed?
    Answer. The Secretary of Defense's current policy is that Soldiers 
will receive a minimum of 12 months dwell in between deployments. The 
Army hopes to gradually increase dwell time beyond 12 months.
    Question. Gentleman, the Army dwell time ratio at one point was 
1:2, then 1:1, and now it's 15 months in theater and 12 months off, the 
Marines' dwell time is seven months in theater and seven months off. 
Has there been any evaluation as to whose system is better?
    Answer. As I understand the Marine Corps force deployment model, it 
is very similar to ours. Both the Army and the Marine Corps are 
rotating their combat forces at slightly less than a 1:1 deployment to 
dwell ratio. Army combat units currently spend up to 15 months 
overseas, with at least 12 months to reset and prepare. In other words, 
Soldiers are deployed 15 months out of 27 months. Marines deploy for 
seven month rotations with only six months back or, for two cycles, 14 
months for seven month rotations with only six months back or, for two 
cycles, 14 months deployed out of 26 months.
    Question. It is our understanding that during dwell time, in 
addition to resting and spending time with family, soldiers are also 
supposed to go through training. However, with dwell being cut short, 
what steps are in place to make sure our soldiers receive the proper 
training?
    Answer. Before deploying, unit commanders in all Army components 
(Active, Reserve, and Guard) are required to prepare their unit for the 
tasks essential to successful accomplishment of the unit's directed 
mission. Additionally, unit commanders ensure personnel have 
accomplished pre-deployment training required by the gaining combatant 
commander, as specified in training guidance of the appropriate Army 
Command that is providing forces to the gaining combatant commander. 
When necessary, deployment is delayed until these requirements are met.
    To assist unit leaders in accomplishing training required of their 
directed mission, the Army provides a mission rehearsal exercise to all 
deploying brigade combat teams at Army maneuver combat training centers 
or, by exception, at their home station. These exercises require unit 
personnel to perform mission essential tasks in realistic situations, 
under conditions approximating the operating environment of their 
directed mission, against an unpredictable opposing force, under the 
watchful eye of subject matter experts. A similar computer-driven 
mission readiness exercise is provided to deploy headquarters by the 
Army's Battle Command Training Program.
    Question. Is the training that the soldiers are receiving limited 
to the Global War on Terrorism (GWOT)?
    Answer. Currently, dwell time is insufficient to allow most Army 
units redeploying to Operation Enduring Freedom and Operation Iraqi 
Freedom to train on any operational theme other than their directed 
mission. Units exclusively prepare to conduct offensive, defensive and 
stability in an irregular war, or counterinsurgency, campaign for the 
operational environment they will encounter in the Central Command area 
of operations.
    As dwell time increases, units will be able to devote increasing 
amounts of training time to the core tasks they were designed to 
perform in major combat operations as well as irregular warfare. This 
strategy increases our readiness for unforeseen contingencies.
    Question. How much did last year's ``surge'' effect `dwell time' 
for soldiers?
    Answer. Deployment lengths and dwell times are a function of 
available supply and global combatant commander demands. The CENTCOM 
commander demands over half the available brigade combat teams (BCTs) 
in the Army's inventory. To enable the combatant commands, in 
particular the warfighting commanders in OIF, to employ necessary 
combat and enabling capabilities, the Army took an additional force 
management risk during 2007 and 2008. Any reduction in surge forces 
levels will allow a return to more sustainable deployment lengths. We 
continue to examine ways to reduce that further. The Army's short-term 
goal is to give active component Soldiers at least the same amount of 
time home as they are deployed (1:1 ratio) and to have reserve 
component forces mobilized for 12 months every four years (1:4 ratio). 
The Army's long-term sustainable goal is to allow active component 
units and Soldiers three times the amount of time home as they are 
deployed (1:3 ratio), or 27 months home for every nine months deployed. 
The Army's long-term goal for the reserve component is 12 months 
mobilized for every five years not mobilized (1:5 ratio). The recent 
approval of the Army's accelerated Grow the Army plan is designed to 
more rapidly improve the deployment to dwell ratio for units. Army 
initiatives could bring the Army back into balance beginning in 2011.
    Question. Gentlemen, when dwell time is cut short what is done to 
help the families of deployed soldiers?
    Answer. The Army is committed to a deliberate reset of our people 
following each deployment. During periods of dwell time, Soldiers and 
Families face a number of demands that compete for their time. The 
Deployment Cycle Support (DCS) program provides a roadmap for 
commanders, units, and installations before, during and after 
deployments. The DCS directive applies to both Active and Reserve 
Component Soldiers and Families. Execution of the directive's checklist 
ensures that critical redeployment and pre-deployment tasks are 
completed and that Soldiers and Families are provided support resources 
when issues are identified.
    The Army provides a host of support services to Families during 
dwell time. Military Family Life consultants provide reunion and 
reintegration support to Soldiers and their Families to reduce 
deployment stress. New Parent Support Program home visitors perform 
visits to support the needs and training of parents with children aged 
three and younger, and to identify Families at risk and reduce 
incidents of child neglect or abuse. The Family Advocacy program 
provides education and prevention services that help Families cope with 
challenges before, during, and after deployment. Other programs include 
Virtual Family Readiness Groups, Employment Readiness Program, Army 
Integrated Family Support Network, and Army Family Team Building 
Training Program.
    Child and Youth Services programs assist Families by providing 
extended hours, around-the-clock, and hourly child care; respite/
reintegration care; reduced program fees for deployed parents; outreach 
and support services; and communication with deployed parents. 
Operation Military Child Care and Operation Military Kids support 
geographically dispersed Families by helping Soldiers locate Army-
sponsored, community-based child care at reduced rates and providing 
outreach services, such as tutoring, skills classes, transportation, 
support groups, mobile technology labs, camps, etc.

                 Growth in Contractor Provided Services

    Question. The Army's obligations on service contracts rose from 
$3.8 billion in fiscal year 1997 to $22.9 billion in fiscal year 2007 
(per 2009 President's Budget). This is a growth of $19.1 billion, or 
500% over 10 years (inflation accounted for 17% of this growth).
    Over the same period, the Army's obligations for civilian pay rose 
$2.4 billion, or 51% (pay raise accounted for 30% of this growth). Who 
in the Army has oversight for ``contract services''?
    Answer. The oversight of services acquisition is the shared 
responsibility of requiring activities, contracting activities, and the 
Assistant Secretary of the Army (Acquisition, Logistics and Technology) 
(ASA (ALT)).
    The ASA (ALT) retains responsibility over the acquisition of 
services and has delegated authority to review and approve service 
acquisitions with a total planned value of $500 million or more to the 
Deputy Assistant Secretary of the Army (Policy & Procurement) (DASA 
P&P). Prior to approving any acquisition of services with a total 
planned value of $1 billion or more, the Under Secretary of Defense 
(Acquisition, Technology & Logistics) must be notified.
    Acquisition of services with a total planned value of $500 are 
reviewed by the Army Service Strategy Panel, chaired by the DASA P&P. 
Since April 2003, 28 Army service acquisitions valued at above $500 
million have been reviewed under these procedures. These acquisitions 
represent a total estimated value of over $249 billion.
    Contracting Officer's Representatives (CORs) provide the day-to-day 
oversight of the contractor's performance. CORs help ensure the 
government obtains quality services, on time, and at the level and 
prices specified in the contract.
    As of February 23, 2006, the Secretary of the Army requires 
Headquarters, Department of the Army principals and senior commanders 
at Army Command, Army Service Component Commands, and Direct Reporting 
Units to be responsible for the approval for requirements for 
contracted services. The Assistant Secretary of the Army (Manpower and 
Reserve Affairs) reports these requirements directly to the Secretary 
of the Army.
    Question. How are Army commanders at the various levels of command 
trained to manage contracting out for services?
    Answer. The Army has a wide range of schools that its officers 
attend throughout their career and before they enter into command 
positions.
          <bullet> Command & General Staff School, Command & General 
        Staff College
          <bullet> School for Command Preparation, Command & General 
        Staff College
          <bullet> Garrison Precommand Course, Army Management Staff 
        College
          <bullet> General Officer Senior Command Course, Army 
        Management Staff College
    The Command & General Staff School provides a core course entitled 
F-106, Military Contracting and Ethics. This course covers why and how 
the Army uses contracting to effectively support military operations; 
considerations and effective planning for contracting support; types of 
contracts--what and how they provide support to include their 
capabilities and limitations, authorities and responsibilities for 
identifying requirements, drafting statements of work, and overseeing 
contractor performance; role of the contracting officer's 
representative; and obligations and restrictions concerning oversight 
of contractor personnel.
    In addition, exercise training venues, such as the Combat Training 
Centers, are incorporating realistic contracting training scenarios 
into operational training.
    Question. How does the work that contractors perform differ from 
the work that civilian employees perform?
    Answer. The Army uses the manpower mix criteria in Department of 
Defense Instruction 1100.22 to determine what functions are military 
essential, inherently governmental, exempt from private-sector 
performance, or available for contractor performance. In general terms, 
contractors perform commercially available functions and government 
civilians perform inherently governmental functions. The area in 
between, functions exempt from private-sector performance, is a less 
distinct area. An example of a function exempt from private-sector 
performance is the ``contracting'' function. Managers and leaders need 
to be able to exempt the ``contracting'' function from private-sector 
performance even though it is commercially available. When performed as 
a ``contract specialist'' this function is commercial but closely 
related to inherently governmental functions. At the same time the 
government needs to have a career path to more senior levels where this 
function performs inherently governmental duties as a ``contracting 
officer''. In order to develop government ``contracting officers'' we 
must have government ``contract specialists''.

                   Mental Health Advisory Team (MHAT)

    Question. The U.S. Army Surgeon General chartered the Operation 
Iraqi Freedom (OIF) Mental Health Advisory Team (MHAT) in July 2003. 
Its mission was to assess OIF-related mental health issues and to 
provide recommendations to OIF medical and line commands. MHAT-V was 
also deployed to Afghanistan for the first time. The MHAT conducted 
group interviews and surveys of soldiers. Many of the soldiers who 
participated had been engaged in combat. This was the fifth assessment 
of soldiers via surveys in OIF and first time for OEF soldiers in this 
manner regarding behavioral issues during active combat. On May 6, 
2008, DoD released the fifth MHAT study since 2003. MHAT-V was 
conducted in August and October of 2007 and assessed more than 2,279 
soldiers and for the first time 889 soldiers from Afghanistan. Units 
were specifically targeted for this survey because they experienced the 
highest level of combat exposure.
    Gentlemen, according to the Mental Health Advisory Team report, 
soldiers who deployed longer (greater than six months) or had deployed 
multiple times were more likely to screen positive for a mental health 
issue. What steps are taken to assure that these soldiers get the 
proper attention?
    Answer. The Walter Reed Army Institute of Research continues 
behavioral health research prevalence and intervention studies aimed at 
reducing mental health problems of Soldiers across the deployment cycle 
(e.g., Battlemind psychological debriefing, and expressive writing). 
Operationally, the Task Force 62 Medical Brigade conducts continuous 
and ongoing prevention activities throughout the deployment cycle in 
Theater. Depending on OPTEMPO and identified need, Combat Stress 
Control units will deliver customize services to units based on 
assessed needs and requests by the unit commander.
    MHAT-V Soldier Survey data further underscores the importance of 
the 6-12 month in-Theater timeframe for when Soldiers are most 
susceptible to behavioral health problems. Task Force 62 Behavioral 
Health personnel are focusing outreach for units that have been in-
Theater more than 6 months.
    Finally, Army Leadership has mandated that all Soldiers receive 
post-deployment Battlemind training upon return from operational 
deployment.
    Question. The 2007 adjusted rate of suicides per 100,000 soldiers 
was 17.3 soldiers, lower than the 19.9 rate reported in 2005, however 
higher than the Army average of 11.6 per 100,000 soldiers. Does the 
Army have proper resources to provide counseling to soldiers? When 
soldiers need counseling who provides this counseling?
    Answer. Yes, the Army has proper resources to provide counseling to 
the deployed force. When required, counseling is provided by forward 
deployed behavioral health providers. There are approximately 200 
mental health providers and technicians (150 Army and 50 Air Force) 
deployed in support of Operation Iraqi Freedom; and approximately 30 
mental health providers and technicians (7 Army, 21 Air Force, and 2 
Navy) deployed in support of Operation Enduring Freedom.
    In a typical month, over 1,800 new service members are seen in 
behavioral health clinics, and over 3,000 command consultations are 
conducted regarding the morale and mental health of the fighting force. 
On average, over 5,000 behavioral health appointments occur per month. 
There are four restoration centers that provide 3-5 day inpatient 
treatment programs, with a ``return to duty'' rate of 93%. The 
corollary outpatient ``return to duty'' rate is 99%. Less than one-half 
percent of the fighting force is evacuated annually for psychiatric 
reasons.
    Question. The Mental Health Advisory Team found that both soldiers 
and Marines reported at relatively high rates--62 and 66 percent, 
respectively--that they knew someone seriously injured or killed, or 
that a member of their unit had become a casualty. What mental health 
assistance is available to our soldiers who are still in combat?
    Answer. There are approximately 200 mental health providers and 
technicians (150 Army and 50 Air Force) deployed in support of 
Operation Iraqi Freedom (OIF); and approximately 30 mental health 
providers and technicians (7 Army, 21 Air Force and 2 Navy) supporting 
Operation Enduring Freedom (OEF). Each brigade combat team (BCT) has a 
behavioral health section assigned directly to them, also known as 
organic assets, and operates in the BCT area of responsibility. In 
addition, OIF has the equivalent of four deployed combat and 
operational stress control (COSC) detachments conducting area-wide 
behavioral health and COSC services. OEF has organic BCT behavioral 
health assets and the equivalent of one COSC detachment.
    Both organic behavioral health assets (division) and echelons above 
division (Task Force 62 Medical Brigade) provide services to units and 
Soldiers after critical incidents such as firefights and improvised 
explosive device attacks. Also, chaplains are indispensable parts of 
the team taking care of Soldiers after combat losses.
    Question. According to the Mental Health Advisory Team, 
approximately 10 percent of soldiers reported mistreating non-
combatants or damaging their property when it was not necessary and 
less than half of soldiers would report a member of their unit for 
unethical behavior. Is there any concern that with lower standards 
these incidents could become worse?
    Answer. No, there is minimal concern that these incidents will 
become worse. MHAT V found that unethical behaviors did not change 
significantly relative to 2006. Battlefield ethics issues have been 
incorporated into the AMEDD combat and operational stress control 
(COSC) and into the Battlemind psychological debriefing program 
developed by Walter Reed Army Institute of Research. In addition, Army 
generated a new COSC concept, known as ``remind'' that addresses threat 
of dangerousness to others and the risk of unlawful behaviors. This 
concept is being fielded actively through behavioral health channels 
and will be published in existing COSC doctrine.
    Question. Please explain what the Army has done to address the 
Mental Health Advisory Team findings? Can you provide a list to the 
committee regarding what recommendations were followed and which 
recommendations were not?
    Answer. MHAT V reviewed all MHAT findings and reported the results 
for each. The review is included in the MHAT V report dated February 
14, 2008. The review addresses a total of 46 recommendations including 
four redeployment recommendations, 19 deployment recommendations, four 
post-deployment recommendations, and 19 sustainment recommendations. A 
complete list of recommendations with the status of each is enclosed.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Question. What is the cost of a Mental Health Advisory Team and how 
many more reports do you think there will be?
    Answer. The expected annual MHAT missions will continue as long as 
combat operations exist in support of the Global War on Terror. We have 
significantly reduced the costs for these assessments in both personnel 
requirements and expenses. MHAT 1 required a 12-member team that 
remained engaged in the assessment and reporting process for 
approximately six months. MHAT V was accomplished with a four-member 
team that produced a final report in about two months. Future MHATs are 
expected to continue to use this smaller, more financially efficient 
configuration. Regardless of the team's size, it will require extensive 
planning and support.

                     Training Iraqi Security Forces

    Question. General Casey reports in the media seem to suggest a 
transition, change even some disarray in the way the Army adapts to the 
mission of training the security forces of another country . . . Iraqi 
security forces in particular. From about 2006, the Army devoted 
considerable resources and personnel to stablishing a training 
capability at Fort Riley in Kansas. Now the Army seems to be walking 
away from that plan and is transferring the mission to Fort Polk, 
Louisiana, or even assigning the mission to the Army Special Forces.
    General Casey, in the Army's counter insurgency doctrine, is 
training the security forces of the host country to fight the 
insurgents an Army core function?
    Answer. Field Manual (FM) 3-24 (Counterinsurgency) clearly 
articulates the requirement for developing host nation security forces 
and recognizes that U.S. forces help host nation military, 
paramilitary, and police forces conduct counterinsurgency (COIN) 
operations, including area security and local security operations. U.S. 
forces provide advice and help find, disperse, capture, and defeat 
insurgent forces. Concurrently, they emphasize training host nation 
forces to perform essential defense functions. These are the central 
tasks of Foreign Internal Defense, a core Army Special Operations 
Forces task.
    In the Army's capstone manual, FM 3-0 (Operations), Army forces 
combine the three core U.S. military missions of offensive, defensive, 
and stability or civil support operations simultaneously as part of an 
interdependent joint force. Within the core mission of stability 
operations, one of the primary tasks is civil security. In situations 
where host nation capability for civil security is inadequate, Army 
forces provide most civil security while developing host nation 
capabilities. As soon as the host nation security forces can safely 
perform this task, Army forces transition civil security 
responsibilities to them.
    The Army is drafting a new FM 3-07 (Stability Operations) to expand 
on the discussions of security assistance from FM 3-0 and FM 3-24 and 
to better reflect our known requirements for security force assistance. 
FM 3-70 recognizes that security assistance involves more than just 
training, equipping, and rebuilding, and advising host nation forces. 
This effort requires a broader interagency approach beyond the military 
instrument of national power.
    Question. Does the Amy need to establish an advisory corps?
    Answer. Future requirements to train and advise foreign security 
forces can be addressed with a combination of special operations 
forces, small scale specialized forces, US embassy military groups, and 
full spectrum modular forces. The Army must be ready to train and 
advise foreign security forces through both pre-conflict security 
cooperation activities, such as ongoing efforts in Colombia and Saudi 
Arabia, and post conflict conditions, such as our current efforts in 
Iraq and Afghanistan. The type of training and advising required will 
span the ministerial level through the institutional Army and from 
national Army headquarters to small tactical units. The ministerial 
level requires Joint, possibly interagency solution that the Army can 
contribute to, while foreign Army institutions will require assistance 
from the Army's institutions such as Training and Doctrine Command. 
Foreign Army headquarters can be trained and advised by similar US Army 
headquarters, and at the tactical level, Army modular forces are 
ideally suited to train and advise.
    For all these forces, the key consideration is expertise in their 
core function--something not necessarily resident in an advisory corps. 
For example, US Army infantry, medical, or engineer companies are 
experts at conducting their wartime function and can therefore train 
and advise foreign infantry, medical, or engineer companies. However, 
before Army forces conduct a training or advising mission, they must 
prepare for the unique aspects the mission entails. To that end, the 
Army is creating an enduring advising training capability. This 
institution will exist at Fort Polk and will have the capability to 
prepare individuals or units to serve as trainers and advisors from the 
tactical to ministerial level.
    Question. The Committee understands that in September of 2007 the 
Army evaluated the program to train the trainers at Fort Riley and 
found serious shortcomings in the training and in the soldiers that 
were being assigned as trainers. General Casey can you elaborate on the 
problems with the training program at Fort Riley and what is being done 
to fix it?
    Answer. The 1st Brigade, 1st Infantry Division (1/1 ID) runs the 
training program at Fort Riley, and although they have faced many 
challenges, they are doing an excellent job.
    The 1/1 ID is currently assigned 824 of 825 authorized Soldiers. 
Fifty-five are transition team (TT) veterans filling critical cadre 
positions, with an additional 17 contracted instructors. There are also 
75 full time and 153 part time contracted role-players supporting the 
training program.
    The training program at Fort Riley continues to improve. Transition 
teams conduct the majority of their training from Forward Operating 
Base (FOB) ``Army Strong'', which replicates a FOB in Iraq. The 1/1 ID 
has four language labs with instructors and has also been fielded the 
latest Army simulators, including the HMMWV Egress Assistance Trainer, 
the Reconfigurable Vehicle Simulator, and a medical skills trainer. 
Additionally, selected TTs deploy to the Combat Training Centers to 
train with brigade combat teams, and the Army is studying how to expand 
this further.
    New doctrinal publications are being developed and written for 
transition teams. The 1/1 ID published a Combat Advisor's Handbook. The 
Joint Center for International Security Force Assistance published the 
2nd edition of their TT Handbook, and the Air Land Sea Application 
Center is developing Multi-Service Techniques, Tactics, and Procedures 
on Training Security Force Advisor Teams.
    The Army has taken several steps to improve the overall selection 
of TT Soldiers, encouraging volunteering for TT duty, and providing for 
career enhancement. As of April 1, 2008, all TT Soldiers are placed on 
permanent change of station to Kuwait, providing incentives such as 
follow on assignment options and a cost of living allowance. Soldiers 
now receive a skill identifier for completing the training at Fort 
Riley and serving on TTs. Selection boards are provided instructions to 
favorably consider TT duty. Finally, some Branches currently consider 
it a key and developmental assignment, and the Army is studying how to 
expand this to other TT Soldiers as appropriate.
    Question. Is it true that senior Army commanders wanted minimum of 
33 percent of the instructors at Fort Riley to have prior service as an 
advisor, but in fact only 6 percent had prior experience as an advisor?
    Answer. Yes, when the Army moves this mission from Fort Riley to 
Fort Polk, 30 percent of the instructors returning from Training Team 
(TT) missions are to be assigned to TT instructor requirements. 
However, several factors influence obtaining this goal. Some personnel 
have their choice of assignment upon completion of their tour of duty 
and simply choose not to return as an instructor. Many of the team 
members are from the other services or the Reserve Component and are 
not available as instructors. Current analysis indicates the goal of 30 
percent of the TT instructors having TT experience is achievable by the 
time the TT mission relocates to Fort Polk in the third quarter of 
fiscal year 2009.
    Question. The Committee understands that many officers in the Army 
fear that advisor duty is an assignment that is considerably less 
career enhancing than is a tour of duty with a combat unit. What is the 
Army doing to ensure that those who take assignments as advisors are 
treated fairly and have an equal opportunity for career advancement?
    Answer. The Army is acutely aware of the unique benefits derived by 
officers serving in combat advisory positions in Transition Teams (TTs) 
and Provincial Reconstruction Teams (PRTs) of various compositions that 
prepare host nation forces to shoulder the responsibility for internal 
security and civil stability and restore critical infrastructure. We 
have adjusted our guidance for active and Reserve Component promotions, 
commands, and professional military education selection boards to 
highlight the criticality of these TT/PRT assignments. We stress that 
``special attention should be paid to officers serving on Transition 
Teams in the current environment and foreseeable future. The invaluable 
experience these officers are receiving in these tough assignments will 
posture them for success in future leadership positions in the 
operational environment . . . The board should understand the 
challenging nature and demands of these jobs and provide appropriate 
consideration in the overall evaluation of each officer's record.''
    In addition, the Army is modifying its officer professional 
development and career management guidance to add these TT/PRT 
assignments to its list of jobs considered key to the development of 
the officer and contributing directly to an enhanced ability to serve 
at higher levels of rank and responsibility.

            Operation and Maintenance for Contract Services

    Question. The Committee continues to try to understand what is 
financed with the Operation and Maintenance (O&M) funding. One use for 
O&M is for ``contractual services.'' The following table shows actual 
and requested funds:

------------------------------------------------------------------------
                                          Army O&M--Dollars in billions
                                        --------------------------------
                                            1997       2007
                                          Actual*     Actual      2009
------------------------------------------------------------------------
Request:
    Federal personnel compensation.....        6.0        5.4        5.5
    Service via contract...............        4.5       22.9        9.9
        Advisory and assistance                 .4        3.0         .5
         services......................
        Contracts with the private             3.9        3.1        1.3
         sector........................
        Maintenance of facilities......         .1       10.1        5.6
        Maintenance of equipment.......         .1        6.3       2.5
------------------------------------------------------------------------
* FY 1997 is shown in FY 2008 dollars

    The committee added $24 million to the Defense Contract Audit 
Agency (DCAA) and the Defense Contract Management Command (DCMC) in FY 
2008 to improve contract management oversight. Has the Army seen any 
improvements in contract management as a result of this additional 
finding?
    Answer. The DCAA and the DCMC are responsive to the Army's requests 
for services. The $24 million in additional fiscal year 2008 funds for 
the DCAA and DCMC for improvements in contract management and oversight 
is welcomed and attests to the importance of these functions. While it 
will take time to assess the impact of this additional funding, the 
Army is taking immediate steps focused on training Army leadership 
regarding their responsibilities and role in contract oversight. 
Current Army actions include assessing opportunities to improve 
contingency contracting training at the Combined Training Centers and 
expanding the mission of the Battle Command Training Program to include 
acquisition professionals to train brigade, division, and corps 
organizations.

                            Fuel Efficiency

    Question. The Army O&M account finances tank and aircraft 
operations, to include the cost of fuel. The FY 2008 budget is 
underfunded because fuel costs have been higher than anticipated. 
However, ``fuel efficiency'' is not a factor in the contracting process 
for engines or equipment.
    What is the unfunded requirement for fuel in fiscial year 2008?
    Answer. The current FY 2008 unfunded requirement (UFR) for fuel is 
$468 million. The rise in oil prices from $91.14 at the time of the 
budget estimate submission to the current Defense Logistics Agency 
price of $127.58 per barrel created the UFR. The UFR is part of the 
revised FY 2008 supplemental appropriation request.
    Question. What was budgeted for fuel in fiscal year 2009 and what 
do you now expect the costs to be?
    Answer. The Army budgeted $825 million for fuel in FY 2009 based on 
an estimate of $115.5 per barrel. DoD has not identified a price 
increase in fuel for FY 2009.
    Question. Going forward, should the Army consider ``fuel 
efficiency'' in the contracting process for engines?
    Answer. Yes, the Army definitely should consider fuel effbiency in 
the contracting process for engines. Engines that are more efficient 
provide enhanced operational range allowing units to extend operational 
areas while consuming less fuel. Additionally, it is a good economical 
decision, since more efficient engines means less operational support 
costs for fuel. When considering life cycle costs of the equipment and 
the rising cost of fuel, fuel efficiency is an excellent investment for 
the Army.

                           Subsistence Costs

    Question. The Army requested $1.065 billion and $.987 billion in 
supplemental funds for subsistence for DoD civilians in GWOT in fiscal 
years 2007 and 2008 respectively to finance: ``ice, food and water for 
authorized DoD civilians and contractors''. DoD estimate that there are 
about 5,000 ``authorized DoD civilians'' and 140,000 contractors 
deployed to OIF and OIF.
    The Army's most current 2008 supplemental request includes $987 
million for food, water and ice for ``authorized DoD civilians''.
    How many civilians are fed in Army messes in and around Iraq and 
Afghanistan?
    Answer. There is no source of information to determine the total 
number of civilians being fed. For the first five months of FY08, the 
Army estimates that it is feeding an average of 84,000 civilians, or 58 
percent of the DoD estimate of 145,000 civilians and contractors. There 
are several factors to consider. First most civilians live in built-up 
locations where commercial meals are readily available from U.S. 
vendors. Second, a large number of contractors are local nationals, 
third-country nationals or employees of sub-contractors operating in 
and around Iraq and Afghanistan. Kellogg Brown and Root (KBR) reports 
47,000 such employees as of April 4, 2008. Many of these employees 
supplement their diets on the local economy and do not eat full time in 
Army messes.
    Question. How does the Army track who is eating in the mess halls?
    Answer. When an individual enters an Army dining facility 
supporting OIF and OEF, their eligibility to dine is confirmed and they 
are counted before being served. Dining facilities at fixed locations 
rely on a manual procedure wherein the number of diners, with civilians 
counted separately from military personnel, is visually identified and 
the count is entered on a manual headcount form. It is not feasible to 
collect and record meal headcounts at remote forward operating bases. 
As a result, a full and accurate headcount for OIF and OEF diners is 
not available.
    Question. How does Army track contractors eating in the messes and 
charge back the cost of the food that they consume? Is that always 
done?
    Answer. When a contract includes a requirement to feed civilians in 
OIF and OEF that must dine in military/government dining operations, 
contracting procedures require that the cost of contractor personnel be 
reduced by the costs of feeding. The large KBR contract was executed 
this way; however, it is not known if absolutely every contract has 
been properly executed pertaining to feeding costs. We believe that the 
largest contracts are being executed properly.
    Question. How many prime contractors provide food, water and ice to 
the Army messes in Iraq, Afghanistan and Kuwait?
    Answer. There are two prime contractors for food in Iraq, 
Afghanistan and Kuwait. Agility (formerly Public Warehousing Company) 
headquartered in Kuwait; and Supreme Food Services, Inc., headquartered 
in Switzerland. Agility and Supreme are the two prime contractors for 
food in Iraq, Afghanistan, and Kuwait. Agility serves Iraq and Kuwait; 
Supreme serves Afghanistan. Most water for food preparation and 
drinking in Iraq comes from water bottling plants under a contract with 
Oasis International Waters, Inc. In Kuwait, Defense Supply Center 
Philadelphia provides bottled water sourced from various subcontractors 
within that country. Water sourcing in Afghanistan resembles Kuwait 
except that the subcontractors are obtained by Supreme Food Service. 
Ice throughout Iraq, Afghanistan, and Kuwait come from a network of 
subcontractors under KBR.
    Question. How does a local company become a subcontrator for ice, 
food and/or water?
    Answer. The government's relationship is with the prime contractor, 
and in the case of food, we do not dictate a process to select 
subcontractors. The government does dictate requirements for quality 
and sanitation, of course. In some cases there are subcontractors to 
subcontractors outside the direct purview of the government.
    Question. Why would the Army airlift ice, food and/or water into 
Afghanistan?
    <bullet> Is there a risk of spoilage and contamination when 
subsistence is transported some distance?
    <bullet> How are airlift costs factored into the contract cost?
    Answer. The Army does not airlift ice or water into Afghanistan; 
however, there are occasions when airlift is used to move foods by air. 
Airlift is used when adverse security conditions or natural conditions 
like weather or natural disaster make road passage impossible or too 
slow to meet feeding requirements. Airlift is always the last choice 
for transportation.
    Question. We know that the Kellogg Brown and Root Company is one of 
the prime contractors for dining facilities in and around Iraq and 
Afghanistan.
    <bullet> Does KBR make the decisions on subcontractors to supply 
food, ice and water?
    Answer. KBR operates dining facilities but makes no decisions on 
subcontractors to supply food and water. Food decisions are made by 
Defense Supply Center Philadelphia and water decisions by the Army 
element of U.S. CENTCOM. KBR does make decisions on subcontractors to 
provide base camp services, including ice, in their large LOGCAP 
contract.
    Question. Is ``Agility'' a prime contractor? Where is it 
headquartered?
    Answer. Agility (formerly Public Warehousing Company) is a prime 
contractor, headquartered in Kuwait.
    Question. Is ``Supreme'' a prime contractor? Where is it 
headquartered?
    Answer. Supreme is a prime contractor, headquartered in 
Switzerland.
    Question. How effective are the major defense contactors in Iraq 
and Afghanistan in hiring local subcontractors?
    Answer. The major defense contractors are very experienced and 
effective in hiring local subcontractors. Local subcontractors are 
their best sources for responsive service and reasonable costs.
    Question. Should we have a contracting team dedicated to reviewing 
what would be the best valve for the government by contracting with 
local vendors deemed capable of handling major end items vs. having the 
major defense contractors let all the local contracts?
    Answer. The Army has this agreement with Defense Supply Center 
Philadelphia. The Afghanistan First Program is a good example that 
started with bottled water. Current initiatives to involve local 
vendors include ice and fresh fruits and vegetables.
    Question. Can you tell us how local subcontractors are monitored?
    Answer. The Army uses contracting officer representatives (COTRs) 
to provide oversight for DCMA on LOGCAP and other prime contracts, but 
does not directly monitor the prime contractor's subcontractors. In 
cases where a subcontractor is one of several providing a product or 
service directly to the Army, the Army again uses its COTRs to monitor 
performance.
    Question. How much is the Army requesting for (DLA purchased) food 
for civilians eating in messes:
          <bullet> in Iraq?
          <bullet> in Afghanistan?
          <bullet> in Kuwait?
    Answer. The amount requested for all three countries combined for 
FY07 was $.965 billion; for FY08 $.675 billion. The Army's request does 
not compute the three countries separately. The $.675 billion request 
for FY08 is from the amended Army request, which is smaller than the 
original requested amount of $.987 billion.
    Question. How many prime contractors supply food to the messes:
          <bullet> in Iraq?
          <bullet> in Afghanistan?
          <bullet> in Kuwait?
    Answer. There are two prime contractors for food in Iraq, 
Afghanistan and Kuwait. Agility (formerly Public Warehousing Company) 
headquartered in Kuwait; and Supreme Food Services, Inc., headquartered 
in Switzerland. Agility and Supreme are the two prime contractors for 
food in Iraq, Afghanistan, and Kuwait. Agility serves Iraq and Kuwait; 
Supreme serves Afghanistan. Most water for food preparation and 
drinking in Iraq comes from water bottling plants under a contract with 
Oasis International Waters, Inc. In Kuwait, Defense Supply Center 
Philadelphia provides bottled water sourced from various subcontractors 
within that country. Water sourcing in Afghanistan resembles Kuwait 
except that the subcontractors are obtained by Supreme Food Service. 
Ice throughout Iraq, Afghanistan, and Kuwait come from a network of 
subcontractors under KBR.
    Question. How much is the Army requesting for (DLA purchased) water 
for civilians eating in messes:
          <bullet> in Iraq?
          <bullet> in Afghanistan?
          <bullet> in Kuwait?
    Answer. The Army computes requirements using a meal cost factor 
that includes bottled water for meals. The daily bottled water 
requirement of six liters is 10.4 percent of meal cost including water. 
The water only request, therefore, is $.100 billion for FY07 and $.070 
billion for FY08.
    Question. How many prime contractors supply water to the messes:
          <bullet> in Iraq?
          <bullet> in Afghanistan?
          <bullet> in Kuwait?
    Answer. There is a single prime contractor for water in Iraq; 
however there are multiple subcontractors for ice everywhere and for 
water in Afghanistan and Kuwait.
    Question. How much is the Army requesting for (DLA purchased) ice 
for civilians eating in messes:
          <bullet> in Iraq?
          <bullet> in Afghanistan?
          <bullet> in Kuwait?
    Answer. The Army does not source ice from DLA. Virtually all ice is 
provided by KBR subcontractors under the large LOGCAP contract. Ice is 
included with many other life support services (housing, utilities, 
etc.) in a single per day base camp operational cost factor; therefore, 
the specific cost of ice cannot be determined.
    Question. How many prime contractors supply ice to the messes:
          <bullet> in Iraq?
          <bullet> in Afghanistan?
          <bullet> in Kuwait?
    Answer. KBR is the prime contractor supplying ice using multiple 
subcontractors.

          ``Benefits'' to Contractors in Iraq and Afghanistan

    There continues to be a heavy reliance on contractors in Iraq and 
Afghanistan. The DoD did a head count last summer and estimate that DoD 
employed 138,000 contractors (at the time the count was done). The Army 
manages and funds the logistical support contracts in theater and 
therefore funds the cost of dining facilities there.
    Question. When contracts are drawn up, do they include products or 
services that the Government must provide the contractor?
    <bullet> For example, if you have a team of contractors going into 
Baghdad to supervise the building of a school, are they eligible to eat 
free of charge at the Government mess in the Green Zone?
    Answer. The DoD civilian employees are authorized logistic and 
security support privileges when deployed with the Armed Forces. 
Support for Contractors Authorized to Accompany the Force (CAAF) will 
be written into the terms and conditions of the contract. Logistic and 
security requirements are addressed in the contract and are priced and 
negotiated before the contract is awarded. It costs approximately 
$23.00 for food per person per day. This does not included 
transportation, storage or labor costs, but does include six liters of 
water per day.
    Question. How does Army track contractors eating in the messes and 
charge back the cost of the food that they consume?
    <bullet> Is that always done?
    Answer. The DoD has implemented the Synchronized Predeployment and 
Operational Tracker (SPOT) system to account for and provide visibility 
of all DoD contract personnel within the contingency operations battle 
space. The primary purpose of the Joint Asset Movement Management 
System (JAMMS) (which is a component of SPOT) is to track assets. JAMMS 
has the capability of accepting a scan of a contractor personnel's 
letter of authorization (LOA). The LOA allows persons residing with 
U.S. forces to be afforded Contractor Authorized to Accompany the Force 
status, which provides them access to mess facilities and protected 
status in accordance with international conventions.

              Joint Contracting Command--Iraq/Afghanistan

    Question. JCC-I/A is a relatively new command. Initially created by 
a November 2004, U.S. Central Command Fragmentary Order [FRAGO] covered 
only the Combined Joint Operations Area [CJOA] Iraq. It officially 
opened its doors on Jan. 29, 2005. However, a subsequent July 2005 
FRAGO expanded the organization's responsibility to include CJOA 
Afghanistan. Their fiscal year 2006 workload through June included 
awarding 19,500 contract actions worth $3.4 billion. They have 235 
folks in the command--including mostly GIs, with DoD civilians, local 
nationals and contractors.
    How does the Army interact with this organization?
    Answer. The Office of the Assistant Deputy Assistant Secretary of 
the Army, Policy & Procurement--Iraq/Afghanistan (OADASA (P&P-I/A) 
provides contingency policy expertise for procurement operations and 
rear support to the Head of the Contracting Activity at the Joint 
Contracting Command--Iraq/Afghanistan on all procurement policy issues. 
Subject matter experts develop and analyze contingency contracting 
policy, in conjunction with the other services, Director for Defense 
Policy and Procurement, and in interagency issues. OADASA (P&P-I/A) is 
the principal advisor to the ASA (ALT) on procurement matters related 
to Iraq/Afghanistan and provides support for HQDA, reconstruction 
efforts with DoD, HQDA, and interagency partners, and recruiting and 
deploying military and civilian personnel to Iraq.
    The JCC-I/A also interacts with the Iraq Transition Assistance 
Office, which assists executive departments and agencies in concluding 
large infrastructure projects in Iraq and facilitates Iraq's transition 
to self sufficiency, and it maintains an effective diplomatic presence 
in Iraq with the U.S. Army Corps of Engineers' Gulf Region Division, 
Multi-National Security Transition Command--Iraq, Multinational Force--
Iraq, and Multinational Corps--Iraq. The JCC-I/A also interfaces with 
the Embassy in Afghanistan.
    Question. From your perspective, has it improved operations?
    Answer. As a major subordinate command of Multi-Nationl Force--
Iraq, which manages contracting operations for both, Iraq and 
Afghanistan, JCC-I/A has implemented improvements and received 
recognition. The Chief Acquisition Officers Council recently recognized 
the JCC-I/A with the 2007 Contract Management Award. The award 
recognized JCC-I/A's innovative use of ``Effects Based Contracting'' 
during construction of the Rule of Law Center, a protective enclave for 
Iraqi justice system personnel and facilities in Bagdad. The JCC-I/A 
contracting officers delivered an initial operations capable, 900 
detainee prison and judicial complex in 26 days. The ADASA (P&P) 
assists JCC-I/A in developing and implementing annual long range 
contracting support plans, which encompasses contracting agency 
transitions, funds reconciliation, disposition and reporting.
    JCC-I/A is providing more Iraqi firms an opportunity to obtain 
reconstruction contracts, which facilitates job growth and strengthens 
the Iraq economy. Iraqi firms have now received more than $1 billion in 
reconstruction contracts.

                   NDAA Institutes Contracting Reform

    Question. The FY 2008 National Defense Authorization Act, Public 
Law 110-181, contained a number of provisions related to contracting 
oversight improvement, including Section 863: CG Reviews/Reports on 
Contracting. This provision stated that every 12 months, the 
Comptroller General shall review contracts in Iraq or Afghanistan, 
beginning with an interim report due October 1, 2008. This report shall 
include:
          <bullet> # of contracts, contractor personnel
          <bullet> $ value of contract
          <bullet> Use of competitive procedures
          <bullet> # of contractors performing security services
          <bullet> Areas of significant concern
    What sort of system does the Army have in place now that will 
enable it to comply with the direction provided in this Act?
    Answer. A Memorandum of Understanding between DoD, Department of 
State (DoS), and the U.S. Agency for International Development required 
by Sec. 861 of Public Law 110-181 has not yet been signed. However, the 
agreed upon common databases as repositories of information on 
contracts in Iraq and Afghanistan are the Federal Procurement Data 
System--Next Generation (FPDS-NG) and Synchronized Predeployment and 
Operational Tracker (SPOT). The current release of SPOT pulls the 
consolidated data directly from FPDS-NG.
    The Joint Contracting Command Iraq/Afghanistan does not currently 
input contracting data directly into FPDS-NG, but collects it in a 
local database and feeds data for input into a stand-alone system. The 
Director, Defense Procurement, Acquisition Policy, and Strategic 
Sourcing is taking steps to ensure that the required data is available 
in FPDS-NG. Other systems currently in use that collect contract data 
in theater include the Joint Contingency Contracting System, US CENTCOM 
Contractor Census, and CENTCOM data report.
    Question. How difficult will it be for the Army to provide this 
type of information on contracting?
    Answer. Currently, the basic contract data is provided by 
extracting data from the existing local databases and then manually 
inputting the data into the Federal Procurement Data System--Next 
Generation (FPDS-NG). Although it is a cumbersome process, it has 
proved to be successful in providing a consolidated source for this 
basic data. However, the inclusion of real time data into the FPDS-NG 
would provide a more seamless collection of real time data.
    Question. Does the Army have one central repository for all of its 
contracts in Iraq and Afghanistan?
    Answer. All original contract files and contract documents are 
required to be maintained by the contracting office, which is standard 
contracting procedure. However, copies of contracts and modifications 
and other relevant information is also provided to and maintained by 
the organizations that are assigned contract administration 
responsibilities. There are central repositories for contracting data. 
The FPDS-NG currently collects contract data from all Army contracting 
commands with the exception of those located in Iraq and Afghanistan, 
which has been collected separately due to operational concerns. The 
Director, Defense Procurement, Acquisition Policy, and Strategic 
Sourcing is taking steps to ensure that that required data is available 
in FPDS-NG.

    [Clerk's note.--End of questions submitted by Mr. Murtha. 
The Fiscal Year 2009 Army Posture Statement follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                         Wednesday, March 12, 2007.

                       ARMY ACQUISITION PROGRAMS

                               WITNESSES

DEAN G. POPPS, ACTING ASSISTANT SECRETARY OF THE ARMY FOR ACQUISITION, 
    LOGISTICS AND TECHNOLOGY
LTG N. ROSS THOMPSON III, MILITARY DEPUTY, ACTING ASSISTANT SECRETARY 
    OF THE ARMY FOR ACQUISITION, LOGISTICS AND TECHNOLOGY

                              Introduction

    Mr. Bishop [presiding]. The Committee will be in order. I 
would like to recognize the ranking member, Mr. Tiahrt, for a 
motion.
    Mr. Tiahrt. Thank you, Mr. Chairman. I move that those 
portions of the hearing today which involve classified material 
be held in executive session because of the classification of 
the material to be discussed.
    Mr. Bishop. So ordered. Thank you, Mr. Tiahrt.
    Mr. Tiahrt. My pleasure.
    Mr. Bishop. This afternoon, the Committee will hold a 
closed hearing on Army acquisition. We are pleased to welcome 
Mr. Dean Popps, the Acting Assistant Secretary of the Army for 
Acquisition, Logistics and Technology and Lieutenant General N. 
Ross Thompson, III, who is the Military Deputy to the Acting 
Assistant Secretary of the Army For Acquisition, Logistics and 
Technology. These gentlemen are well qualified to discuss Army 
acquisition and to answer the questions of the Committee.
    Secretary Popps and General Thompson, thank you for being 
here this afternoon. We are here to talk about the acquisition 
of Army equipment, and the Committee is very concerned about 
the readiness of the Army in terms of equipping our forces. 
Systems are becoming ever more complicated, and too often in 
developmental programs a desire to begin production overruns 
technology maturity and then we are faced with delays and 
restructures.

                         FUTURE COMBAT SYSTEMS

    The Future Combat Systems (FCS) program remains the core of 
the Army acquisition, and the FCS calls for a total program 
cost of over $160 billion. The request for fiscal year 2009 
calls for 3.6 billion. Ideally the system will field the latest 
in high technology and a fleet of vehicles that have mostly 
common vehicle systems. Still the FCS will upon completion 
comprise only 15 of 76 total Army combat brigades. And one of 
the challenges that is facing the Future Combat Systems is how 
to efficiently spin out the maturing technology to the existing 
fleets of Abrams tanks, Bradley fighting vehicles and Strykers.
    So as U.S. participation in the war in Iraq winds down, 
funding for the Department of Defense will become extremely 
tight and the ability of the Army to maintain funding for the 
Future Combat Systems will prove to be very challenging for us.

                             ARMY AVIATION

    The request for Army aviation totals a little over $5 
billion, including $439 million for 28 armed reconnaissance 
helicopters, money for 63 Black Hawks, 264 million for 7 joint 
cargo aircraft, and a little over a billion for Chinooks. The 
Armed Reconnaissance Helicopter program seems to be back on 
track after a slip of a year, and the program is producing 12 
aircraft with fiscal year 2008 funding and the fiscal 2009 
budget calls for 28.
    Requested funding for the weapons and tracked combat 
vehicles totals $3.7 billion, including $175 million for 119 
Stryker vehicles and $1,181 million for the M1A2 tank and 
Bradley upgrades.
    Questions from the members of the Committee will likely 
address these programs and many others, and I think we can look 
forward to a very interesting and useful question-and-answer 
session.
    Mr. Secretary, I understand that you will be the only one 
making a statement. You may proceed with your summarized 
statement and of course your entire statement will be placed in 
the record. Welcome, and you may proceed, Mr. Popps, with your 
comments.

         Summary Statement of Acting Assistant Secretary Popps

    Mr. Popps. Thank you, Mr. Chairman, and Mr. Ranking Member, 
Congressman Tiahrt, Congressman Moran, Congressman Cramer. Good 
afternoon to all of you. And the remainder of the distinguished 
members of the Committee coming in and out, thanks for the 
opportunity to be here today and to help discuss the fiscal 
year 2009 President's budget and Army acquisition programs.
    As you said previously, sir, the Principal Military Deputy 
to our Acquisition, Logistics and Technology, General N. Ross 
Thompson III, is sitting to my left and here today. And I 
respectfully request that our joint statement be part of the 
record for today's hearing. As our predecessors, the Secretary 
of the Army and the Chief of Staff of the Army, did very 
eloquently earlier today, let me thank all of you on behalf of 
all of us for everything that you do for the men and women in 
uniform. And although we are very prideful that our soldiers 
have the very best technologically and are advanced and capable 
and physically fit and can win any fight, that would not be 
possible without your strong support. So we thank each and 
every one of you profoundly.
    Mr. Chairman, I took the reins as the Army Acquisition 
Executive and the Acting Assistant Secretary for Acquisition on 
3 January of this year, 60 days ago. My predecessor, the 
Honorable Claude Bolton, retired at that time and he had a very 
distinguished career of 6 years and many of you were very 
familiar with him and had very good and close relationships 
with him. So I want to make that part of the record and let you 
know that I have served for 60 days, and I assume I am going to 
continue to serve here unless the President or the Secretary of 
Defense has another nominee through the end of the 
administration. I have served as the Principal Deputy through 
2004; however, much of my work has been involved in working 
with the Corps of Engineers and Iraq reconstruction issues.
    I want to thank you for your patience with me today as the 
new guy. This is why General Thompson and I have a very good 
relationship. Our doors are open. We meet 4, 5, 6 times a day, 
and right now what we are doing is we are doing a lot of troop 
leading as we have complex executions and many milestones and 
other issues that are up on the table for Army acquisition.
    So I am here today to have a very candid conversation with 
you. I promise to tell you everything I possibly can. I want to 
talk openly and candidly. Because I think there is a very 
interesting dynamic going on here, just as you said in your 
opening remarks, and that is the marvelous legacy systems that 
are in theater right now that are performing so well and that, 
yes, have to be reset and recapitalized and how they are 
transitioning in a linear fashion with the insertion of 
additional technologies and ending up hopefully in the future 
with the Future Combat Systems. So it is an aggressive path and 
together we will have to forge a way ahead.
    General Thompson may want to have a few opening remarks. 
After that, I would be glad to answer your questions. Thank 
you.
    General Thompson. Chairman Bishop and Congressman Tiahrt 
and Congressman Moran and Congressman Cramer and Congressman 
Rothman, I am just glad to be here today and I don't have a 
prepared statement that I wish to read. I just want to thank 
you for your support in the past. I am glad to be teamed up 
with Mr. Popps. Over the last 60 days, we established a very 
good working relationship, and I am confident that all the 
23,000 members of the acquisition workforce in the Army will 
continue to be good stewards of the taxpayers dollars, and we 
are prepared to answer your questions today.
    [The joint statement of Mr. Popps and General Thompson 
follows:] 

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Mr. Bishop. Thank you. Before we start questioning, I 
certainly want to ask Mr. Tiahrt if he would like to make some 
opening remarks.

                         Remarks of Mr. Tiahrt

    Mr. Tiahrt. Thank you, Mr. Chairman. I have just got a few 
things I would like to say. And I don't have any prepared 
remarks, so I am going to talk from the heart. Both of you are 
fine gentlemen. You have had fine careers with the government, 
and I respect you greatly. But I have to tell you we have a 
procurement system that is broke. It has absolutely been a 
travesty in what has been happening.

                           FOREIGN SUPPLIERS

    We should have noticed this when the replacement for the 
presidential helicopter purchased by the Navy went to a foreign 
supplier. We should have known it when the Light Utility 
Helicopter went to a foreign supplier. And now with the air 
refueling tanker going to a foreign supplier, it is as plain as 
the nose on our face. Our system is broke and we have all these 
legacy systems that the chairman brought up that are currently 
in theater and they are performing very well. But if any of 
those replacement systems for those legacy systems came up 
today, it would go to a foreign supplier. If we were going to 
replace Air Force One today, we couldn't win it because it 
would go to a foreign supplier.

                           ILLEGAL SUBSIDIES

    Why would it go to a foreign supplier instead of having 
American jobs? It would go there because we don't account for 
illegal subsidies. This very company that is providing the 
Light Utility Helicopter (LUH) is currently in court defending 
itself against illegal subsidies that USTR is bringing against 
it. And by you buying a product from it, you are giving them a 
better case. And when the Air Force buys a product from them, 
you give the EADS Company, the foreign suppliers, a better case 
for these illegal subsidies. We have one branch of the 
government saying it is illegal and another branch saying we 
don't care, we are getting a good bargain. And we are selling 
out American jobs to do it.

                            LEGAL SUBSIDIES

    So our system is broke. Another thing that we don't give 
any consideration for is legal subsidies. They get their health 
care paid for by the Federal Government. They get their 
workmen's compensation paid for by the Federal Government. They 
get other benefits for their employees like vacation paid for 
by the Federal Government. You require every American supplier 
by your cost and accounting standards to put those costs in the 
price. There is no way to get around it.

                            BUY AMERICAN ACT

    Another thing that you don't account for is the way you 
waive regulations on the Buy American Act. You have a 
memorandum of agreement within the Pentagon where you say those 
are our allies and we are not going to let them have to put up 
with all of this paperwork. But an American supplier, by golly, 
the cost and accounting standards say you better comply and you 
better account for every nickel you spend complying with those 
regulations. Three things that I just gave you that are unlevel 
playing ground for our suppliers, for our American workers. An 
unlevel playing ground. They can't win. We can't win. We just 
can't win in this kind of circumstances. And the last thing 
that we should be doing, and it is going to take legislation 
because I know you guys don't account for it, when you lose 
American jobs you lose American revenue. And American workers 
pay Federal income tax. A French worker doesn't seem to pay any 
income tax in America. I know there is good legal reasons why 
they wouldn't. But we never take that into consideration. And 
on the aerial refuel tanker, it is so egregious that it is more 
than 10 percent of the total cost of the contract. So a $35 
billion contract, when you take into account the lost jobs just 
believing the contractors, then you are going to see $3.8 
billion in lost revenue. So what does your $35 billion contract 
cost the Federal Government? It costs us $38.8 billion. And we 
never take that into consideration.
    We are losing American jobs and the Department of Defense 
is responsible for it in part. So as we come to our questions--
and thank you for the indulgence, Mr. Chairman--when we come to 
our questions I have got some very specific questions about the 
Light Utility Helicopter (LUH) contract and where I think we 
have gone wrong.
    Thank you for your indulgence, Mr. Chairman. Thank you, 
gentlemen.

                         FUTURE COMBAT SYSTEMS

    Mr. Bishop. Thank you, Mr. Tiahrt. Gentlemen, let me ask 
you some questions about, first, the Future Combat Systems. The 
Future Combat Systems program will field 15 FCS brigade combat 
teams. 61 brigades will remain non-FCS. What will be the 
benefit to the 61 non-FCS brigades of the FCS developed 
technology?
    General Thompson. Yes, sir. The intent of the FCS program 
is to field 15 brigades. But the thing that we are doing with 
the FCS is taking the technologies that are available today and 
we will spin them out, in our terminology, to the current 
brigades, the other brigades that are out there. So we have got 
the program structured right now with three different spinouts 
to take the technology that is being developed under FCS and 
put it with the current force units. Those spinouts will begin 
to field in the 2009-2010 time frame for the first spinout. The 
second spinout is 2 years after that and the third spinout is 
subsequent to that. So what that enables us to do, especially 
with the communications infrastructure and the network 
infrastructure is be able to have the other 61 brigades 
interoperate with the FCS brigades when the FCS brigades are 
fielded in full. And we are also looking right now very 
aggressively at how do we accelerate even more of the 
technologies that are being developed under the FCS into the 
rest of the Army.

                     FUTURE COMBAT SYSTEMS FUNDING

    Mr. Bishop. Could you field the FCS faster if more funding 
were available?
    General Thompson. Yes, sir, we could. The way I would 
answer that, though, and that is part of what we are looking at 
internally because that question has been asked by Chairman 
Murtha, who is not here today or at least not right at this 
moment. And so we are looking at how we would do that based on 
both the technology readiness and also the production base 
availability.
    Mr. Bishop. Will the FCS capabilities be fielded to Army 
units beyond the brigade combat teams?
    General Thompson. Yes, sir, they will. Right now the focus 
is on the brigade combat teams, but the network capabilities in 
FCS clearly have to be part of the rest of the Army because it 
is not just the 76 brigade combat teams. There is about 230 
other types of brigades in the Army that are the support 
brigades that also need to be able to interoperate with the 
brigade combat team. So it is mostly the network technologies 
that we are looking at. And also one of the major things that 
we have done with FCS over the last couple of years is the 
armor protection and the survivability protection as a result 
of the threats in theater have been largely funded--the 
technology funded by the FCS program, but it has been that 
level of funding in the FCS program that allowed those 
technologies that have allowed us to improve the up-armored 
High Mobility Multipurpose Wheeled Vehicles (HMMWVs) now on the 
sixth improvement to the armored protection on those, and 
really the fundamental underpinning for the protection we put 
on the MRAP vehicles as well.

                           EQUIPMENT UPGRADES

    Mr. Bishop. Let me ask you then, would it be advisable or 
do you think it would be a good idea for the Army to take a 
pause in upgrading the older combat vehicles such as the tanks 
and the Bradleys and focus more of the available funding on the 
Future Combat Systems?
    General Thompson. I don't think a pause is kind of the way 
I would put it. There is a need to continually upgrade all of 
the systems that are out there. But it is how much investment 
and how much capability do you think you need before you go to 
the next generation. From a philosophical perspective--and I 
say this not just before this Committee, I say it a lot--there 
is always going to be probably three or at best two different 
generations of technology in ground combat systems, wheeled 
vehicles, and helicopters. It is unaffordable to try to put the 
latest generation of anything out there across the entire Army. 
The Army is just too big, with too many demands, and the pace 
of technology is too great.
    But in HMMWVs right now, for example, we are on the fifth 
major upgrade to the HMMWVs. On tanks we are on our fourth 
major upgrade of the tank. We are on our fourth major upgrade 
of the Bradley. We have got similar upgrades in our aviation 
platforms, and those upgrades need to continue to happen so 
that they can interoperate based on the battlefield demands 
that are out there today. But it is a question of the right 
level of investment in today's forces before we go to the 
future with FCS.

                                 RESET

    Mr. Popps. Mr. Chairman, if I can kind of amplify an 
important point that was brought up about reset and recap, 
there is no question that due to the battle damage, battle 
loss, and so forth, a certain amount of these legacy systems 
that are going to be either in theater or here in depots 
organically are going to be reset. And so that is an important 
point. A lot of this stuff has to be reset just to work. Don't 
confuse that with a full recapitalization, which could go down 
three or four levels, which could include the insertion of a 
million or $2 million worth of new technology on, say, each one 
of these platforms.
    So those are the choices as we proceed together as the 
Committee and the Army about what are we trying to do here, how 
much reset and how much full recap? If you tilt--I am sorry, 
sir.

                         FCS SPIN OUT STRATEGY

    Mr. Bishop. In that regard, I guess I was curious to know 
whether or not in making those choices you think it would be a 
viable plan to spin out the FCS communications, situational 
awareness, UAVs and sensor technology to the existing armored 
combat vehicle fleets and then defer the development and 
production of a new fleet of ground vehicles. Would that be an 
appropriate choice?
    Mr. Popps. I will let General Thompson give a more 
amplified answer. But I think the answer is where we can spin 
out and where it makes sense, we are doing so and want to do 
so. Because that helps the fight now and it helps those legacy 
systems be better than they are. If the question then becomes 
do you pause and try to do more on that side and not proceed 
with manned ground vehicles, I think as a department we say, 
no, we wouldn't want to pause because the future is with the 
manned ground vehicles. The future is with the joint tactical 
light vehicles, the JTLV, and others. So I think that is our 
preferences.
    Mr. Bishop. General Thompson?
    General Thompson. The spinouts, like I said, Mr. Chairman, 
are being looked at on what we can put in the current force 
today. The FCS program in simple terms has got manned ground 
vehicles, it has got unmanned ground vehicles, it has unmanned 
air vehicles, and it has got the network. So those are the four 
big parts of FCS, if I can parse it that way. Clearly we want 
to put as much of the technology that is available and that can 
interoperate with the current brigade combat teams that are out 
there, but the key thing for us is the future operational 
concept, the way that we see warfighting in the future, and 
General Casey mentioned this morning the FM 3-0, which is the 
doctrinal template, putting stability operations on an equal 
footing with offense and defense.
    We see the current environment out there that we have in 
Iraq and Afghanistan today to be the way that warfare is going 
to face us for the next 20 years. And for us to be able to 
fight in that kind of an environment, you want to put the best 
capability out there from a materiel perspective. So if you 
paused and delayed the materiel solutions that are reflected in 
the FCS program, you would not have the ability to fight that 
operational concept and that would put our soldiers at a 
disadvantage.
    Mr. Bishop. Mr. Tiahrt.

                           ILLEGAL SUBSIDIES

    Mr. Tiahrt. Thank you, Mr. Chairman. We talked or I talked 
briefly about the illegal subsidies and the waived regulations 
that give an unfair advantage to the European competitors. Part 
of those regulations that the Pentagon has waived for these 
NATO allies of ours, these 21 countries that are mentioned in 
the memorandum of understanding within the Pentagon, they 
include the regulations on Foreign Corrupt Practices Act and 
they also waive the International Trafficking in Arms 
Regulations, or ITAR.
    Now, this company that you bought this helicopter from, the 
Light Utility Helicopter, has been seen and has been reported 
in the open news that they have been to the Iranian air show. 
Now, part of our government is trying to put an embargo on 
Iran. The very same company that you bought this helicopter 
from is not complying with us as an ally or helping us as an 
ally. They are over there showing them videos about their navy 
helicopter and trying to sell helicopters to the Iranian 
Government. They have been in Venezuela trying to sell stuff to 
Hugo Chavez. We know this for a fact. They have also been in 
China trying to sell military products in China. And we caught 
them bribing the Saudi Arabians and forced them to back down on 
a plane deal with the Saudi Arabians, the very same company 
that you are buying this helicopter from.
    Did you ever think to check with the CIA or the DIA and say 
what are these guys doing in illegal trafficking of arms or 
what are they doing with Foreign Corrupt Practices Act? Because 
I think it is very clear that this company would have been 
disqualified had you done just a little bit of research in this 
procurement.
    But instead we offloaded these American jobs to Europe 
because they are our allies, and they are cutting us down from 
behind. They are circling around, flanking us, and they are 
selling stuff to our enemies or at least they are trying to do 
it and we know they are trying to do it and we have caught them 
trying to do it, and yet we are more than willing to ignore 
that, to ignore that they are getting illegal subsidies and go 
ahead and buy from them. Why aren't you taking into 
consideration these two regulations that are waived and the 
corrupt practices that go with them?
    Mr. Popps. My answer to you, sir, is that--and I know you 
had a former life as an acquisition professional. When you look 
at our lane, we are a very narrow lane. And we are subject to 
the Federal Acquisition Regulation (FAR), the Defense Federal 
Regulation (DFAR), all of the policies that have been sent down 
by the Office of the Secretary of Defense. And it is very 
difficult for us to move outside of those boxes. Sometimes we 
can speed a train up or we can make a train slower.

                   WAIVERS TO ACQUISITION REGULATIONS

    Mr. Tiahrt. I know you have a very narrow set of 
requirements that you have to live with, and the Federal 
Acquisition Regulations are very clear. But this is a 
memorandum of understanding within the Department of Defense 
that waives these very regulations that allows this company to 
get away with it. It is not the intent of Congress, it is not 
the intent of the American worker or the American people. It 
is--you know, it was somebody in the Pentagon at some point 
that said we have got to expand our industrial defense base and 
we are going to use our allies in Europe to do it even if it 
costs us jobs because we think it is good policy. And the truth 
is these guys are undercutting us from behind.
    Now, in this contract you also have a manufacturing plan 
that says this LUH is going to be built--supposedly eventually 
finally assembled in Mississippi but also there were parts 
going to be manufactured all over the United States. And the 
proposed content for American work was 65 percent. But that 
included logistic support, that included training, that 
included procedural trainers, engineering services, other 
various aircraft kits that go with it. It doesn't include the 
manufacturing of the airplane or the helicopter itself. You 
have counted everybody else, including, it seemed like, the 
dockworker that unloaded this foreign made helicopter off a 
foreign ship and the teamster that hauled it to the military 
base. It seems like everybody else is included except the 
people that make the fuselage itself or the helicopter itself. 
I know for a fact that Spirit AeroSystems in Wichita, Kansas, 
was to get the manufacturing of the Light Utility Helicopter, 
but EADS said, well, we have got a production line set up now 
and it is going pretty good, so we are going to keep that work 
back in France.
    The ICE Systems in Manhattan, Kansas, makes electronic 
systems and wire harnesses. They were in the proposal that was 
selected by the Army. It was part of the manufacturing plan. 
And EADS said, well, you know, we are doing this work in Europe 
now and we think we are going to do pretty well. We are just 
going to keep it in Europe.
    And the floorboards were made by another company. It is not 
Grumman, but it is another company. Kaman, Manufacturing, which 
is nationwide. They are in Connecticut mostly. But they were 
going to do the floorboards and the firewall in Wichita, 
Kansas. That work too was pulled back to France.
    I mean, do you take in consideration the manufacturing 
plant and hold them accountable for their promises that are a 
basis of the judgment to select that product? I mean, it may 
not be a requirement. But when you have a PCO and a buying team 
looking at this, they are saying, you know, we have all these 
American jobs, this looks like a pretty good deal, but it gets 
sucked back to Europe.
    How do we account for that? How do we hold them accountable 
for what they are proposing?
    Mr. Popps. I don't know of any contractual way that we can 
hold them accountable for that.
    General Thompson. They are accountable for the 65 percent 
of the components being manufactured in the U.S., and they are 
adhering to that, which is in the contract.

                       U.S. MANUFACTURING CONTENT

    Mr. Tiahrt. Excuse me, General. And I apologize, Ross, for 
reinterrupting here. But that includes things that are outside 
the manufacturing process. When you talk about logistic 
support, logistic support is not an EADS thing. That is 
somebody that has to be close to the action, right?
    General Thompson. Right.
    Mr. Tiahrt. So by definition, it is going to be close--the 
domestic helicopter is going to be close to the base of the 
operator. Training the same way, American pilots, the trainer 
has got to be here. Procedural trainer, probably going to be 
here. I mean, the things that are included in this U.S. content 
of 65 percent, they are not the manufacturing. I mean, it ought 
to be 65 percent of the American manufacturing. And I don't 
know that you have any contractual requirement, as I recall, to 
actually say, well, you are now at 64 percent and we are going 
to fine you. I mean, I don't know that you have any mechanism 
to hold them accountable. Do you?
    General Thompson. I have not looked at the details of the 
contract. But based on the discussion we are having here, we 
will go back and look at that. But the 65 percent ties back to 
statute. I do know that of the 345 aircraft that we plan on 
buying, the first 40 were manufactured overseas. The other 305 
are to be primarily assembled and manufactured in Mississippi. 
The first aircraft manufactured in Mississippi has been 
approved by the FAA, so the first one manufactured here has 
been done. So they have lived up to that part of the 
contractual arrangement.
    [The information follows:]

    Per Defense Federal Acquisition Regulation Supplement (DFARS) 
225.872-1, the restrictions of the Buy American Act and the Balance of 
Payments Program do not apply to end products produced by qualifying 
countries. The EADS-NA is a registered Dutch corporation from the 
Netherlands, a qualifying country, as is Germany where the aircraft was 
initially produced. Although EADS-NA is exempt from the Buy American 
Act and is therefore not contractually bound to meet its requirements, 
they have instituted a self-imposed goal of 65 percent aggregate U.S. 
content. The EADS-NA is working towards this goal by setting up a 
duplicate production line in the United States using American labor, 
services, and suppliers. The duplication of this production line is on 
schedule.

    Mr. Tiahrt. Mr. Chairman, I can go on a long time, but I 
know other people want to ask questions. So thank you for your 
indulgence.
    Mr. Popps. And, Congressman, if I might, just to add a 
thought, there are some things that bound us with these 19 and 
21 countries that include treaties that there is just not 
anything we can circumvent. And I am thinking of the BAA and 
the TAA.
    Mr. Tiahrt. You are right, and we need to change some of 
those agreements.

                         ACQUISITION WORKFORCE

    Mr. Bishop. Mr. Moran.
    Mr. Moran. Thank you, Mr. Chairman. Just a couple of weeks 
ago, Pete Geren directed the Army's existing contract agency to 
be replaced by a new command and that new command is designed 
to have broad authority over the acquisition of a great many of 
the military's purchases. The Army is required to hire about 
1,400 additional contracting personnel because its acquisition 
workforce is simply too small and poorly prepared to deal 
especially with the war in Iraq.
    But 5 years into the war we are being told that it is going 
to take 2 to 3 years to hire the personnel and another 5 to 10 
years before they are properly trained and have enough 
experience to handle the contracting job that they are being 
set up to handle. The Army command is going to be situated at 
the (Army Materiel Command) AMC at Fort Belvoir.
    Why does it have to take so long to hire these people? It 
seems to me that there is a critical need to do this as fast as 
possible, and I don't know why it is going to take 5 to 10 
years before they are trained. I understand they will be more 
experienced 5 to 10 years later, but why the holdup? It seems 
to me we ought to be out of Iraq by the time these contracting 
personnel are prepared to oversee the contracts being let to 
Iraq.
    Go ahead, General. Either one of you can respond if you 
would like.
    General Thompson. Your numbers are accurate. We are going 
to stand up the Army Contracting Command. As a matter of fact 
tomorrow will be the standup of that provisional command to 
address some of the issues pointed out both by the Gansler 
Commission and the work that Ms. Condon and I testified before 
this Committee just a few months ago about what we were doing 
to look not just with the Gansler Commission but also to look 
internally.
    The demand for contracting professionals across the Federal 
Government has never been higher than it is today. And so part 
of the reality is there is a shortage of, last time I looked at 
the numbers, of almost 2,000 contracting professionals just in 
the National Capital Region. We do think it is probably going 
to take us 2 to 3 years to be able to recruit those numbers, I 
think 5 to 10 years for them to be trained. That is obviously 
to get them a lot of experience. But we think once we bring the 
individuals on board, because of the defense acquisition 
workforce requirements that are mandated in law, to get 
somebody to a Level II certification to be able to do 
contracting takes some training and 2 years of experience. So 
once I bring somebody on board, 2 years after they are a part 
of our acquisition contracting workforce, we think they will be 
sufficiently trained to be able to do expeditionary contracting 
and, as Congressman Tiahrt knows, that in the contracting world 
in particular you get a warrant based on your level of 
expertise and based on the level of confidence that your 
superiors in contracting have in your abilities. So your 
warrant is tied to a certain dollar threshold and certain 
complexity of contract actions.
    So my short answer would be, yes, it is going to take us 2 
to 3 years to be able to bring on 1,400 more people. Part of 
that is a reflection that as we are bringing them on you have 
also got a lot of the current acquisition workforce that is 
getting ready to retire and will retire. So it is not a static 
situation. So I am going to have to bring on more than 1,400 in 
order to grow it by 1,400. And then I think in about 2 years 
after you bring any one individual on, they will be to a point 
because we have aggressively looked at where we are going to 
train them and how we are going to do that where they can be 
able to do contracting for us.
    Mr. Popps. And, sir, a context for you. This was a long, 
slow decline that is going to take an equal amount of slope to 
come back up. To give you a perspective, 15, 16 years ago, the 
acquisition in contracting workforce in the Army was 
approximately 160,000 people. 15, 17 years later it is now at 
42,000 people, with half of those people eligible for 
retirement and, since 9/11, anywhere from six to seven times 
the workload with regard to contract actions. So it has been a 
long slow decline that I assume was part of the peace dividend 
and then following 9/11, great increase in loads and in 
contract actions, both in modifications and new contract 
actions, and that is where we are today.

                     ACQUISITION MILITARY OFFICERS

    In addition, I think General Thompson should tell you a 
little bit more about inside the military what is being done to 
stand up two or three or four more general officer billets and 
also to really create an earlier accession point for 
acquisition military officers. It is really considered much 
more of a career field than somebody would want to be in and 
stay in because there is rewards for higher rank and so forth.
    Mr. Moran. General Thompson.
    General Thompson. And I appreciate that opportunity. I 
mean, one of the things we have done since last August is we 
have grown the number of contracting brigades from 4 to 7. We 
have grown the number of contracting battalions that we had 
planned on having from 8 to 11, and the number of military 
contracting teams have grown by over 50 to now 171.
    The Army Contracting Command that stands up tomorrow will 
be headed initially by a two-star equivalent SES, Mr. Jeff 
Parsons, who is an absolutely outstanding contracting officer. 
He is a career Air Force officer, retired as a colonel with 26 
years of contracting expertise in the Air Force. We don't have 
a contracting general officer at the two-star level today to be 
able to head up that command. We will in the future.
    You know, one of the things that the authorization 
committees have asked us is what legislative proposals we are 
putting forward, and right now we have gone through all of that 
vetting inside the Army and the Army, provided Secretary Geren 
agrees with the paperwork that is sitting in his office right 
now, at least at the staff level, endorses the need to have 
five more general officers to be able to do contracting. We 
have given instructions to recent promotion boards both at the 
general officer level and at the colonel level to pick the 
right people at the senior level to be able to manage 
contracting, and then creating the other opportunities gives 
you a viable career path, I think, to be able to bring in 
quality military and also quality civilians because this is a 
recognized career field that has got a lot of potential. So the 
only way you bring in good people at the bottom and keep them 
there is to give them a growth path so they can see that there 
is opportunities at the top.
    Mr. Bishop. Thank you. The gentleman's time has expired.
    Ms. Kaptur.

                       ARMY CONTRACTOR WORKFORCE

    Ms. Kaptur. Thank you, Mr. Chairman. Gentlemen, welcome. I 
am wondering if you have the following information.
    On the contracted services that we fund through Army, from 
information we were given the amount of those contracted 
services has gone up 500 percent since the start of the war. We 
have now, I think one of you stated or earlier this morning, 
there were 190,000 contracted employees inside of Iraq. Is that 
a correct number?
    Mr. Popps. We will stand by what Secretary Geren told you 
initially, ma'am. But I caution you to keep the bends straight 
in terms of which contractors and--there is a lot of different 
segments there.
    Ms. Kaptur. That goes to my next question, which is of 
those 190,000, what are they doing? And how many of them are 
foreign nationals and from which countries? They said 50 
percent of them were foreign nationals, and I was very 
interested in having for the record the information on what 
those--if you could break those up into categories for me so I 
can really understand what--like, what would you guess the 
number one category is of contracted employees inside of Iraq?
    Mr. Popps. Iraqis.
    General Thompson. Iraqis. Well over 50 percent. And I will 
pull the information out of one of the notes that I have got 
here and maybe I can answer that question for you and not take 
it for the record. But it is broken up between U.S. military--I 
mean U.S. citizens, which is the smallest percentage, third-
country nationals in Iraq, and then the vast majority, over 50 
percent, are Iraqis.
    Ms. Kaptur. All right. If you were to take the largest 
category of, let's just say, the Iraqis, what are they doing? 
The largest category of----
    Mr. Popps. Reconstruction.
    Ms. Kaptur. So they are involved in reconstruction 
projects.
    Mr. Popps. Reconstruction, yes, ma'am. Capacity building. 
There are currently----
    Ms. Kaptur. They are doing that under which companies?
    Mr. Popps. It depends, ma'am. It could be under Iraqi 
companies. I know that we have made a huge turn in the last 3 
or 4 years trying to find Iraqi companies to do the work. In 
some cases Iraqi companies will employ Iraqis and they will 
employ third-party nationals.
    Ms. Kaptur. All right. And then what about--construction is 
first and what is category 2? Would you just guess?
    Mr. Popps. Capacity building, all kind of services, yes, 
ma'am, providing water, food, catering, whatever the life 
support system is there, base support services. So what has 
really happened is there has been a very concerted move to get 
away from American companies, putting Americans in theater to 
do high priced things under American contracts. And what has 
happened is the value of most of the dollars that has been 
spent, have been spent, and have been increased by 10, 20, 30 
percent because of the ability to use the local economy. Now 
that wasn't true early on because it was hard to identify in 
2003 and 2004 just who the local economy was and who you could 
work with. But by 2005, 2006, and 2007, that economy has 
matured and it has enabled people seeking contractors and 
subcontractors to go out and contract directly with the Iraqis.
    For instance, the Joint Contract Command for Iraq and 
Afghanistan, if it has a water project or a power project or a 
primary health care clinic project or something, and they are 
free to deal directly with Iraqi contractors.

                       CORRUPTION IN CONTRACTING

    Ms. Kaptur. You know, it is interesting because when we 
were over in Iraq about a year ago, we met with our Department 
of State officials and AID officials who were pulling their 
hair out over the corruption involving contracts that they were 
monitoring, working with Iraqi instrumentalities. So I am very 
interested in getting the architecture, so I can begin to 
ascertain more factual information about how many people you 
are stating for us from which countries? And then which tasks 
are they performing and the amount of money attendant to those? 
So then we can look at those different categories and begin to 
answer--get answers to our questions----
    Mr. Popps. With one caveat. It is hard for the Army to give 
you the complete answer because the theater is so complex and 
that answer and all of those statistics really are tracked at 
the Department of Defense OSD level who is responsible for 
that. So we will try to give you what we have on Army contracts 
and people that we know are on Army contracts. But just 
respectfully I submit it is a much larger topic that Army 
doesn't track.

                           CONTRACTS FOR FUEL

    Ms. Kaptur. Now, are you involved in any oil contracting, 
acquisition of oil for any purpose inside of Iraq?
    Mr. Popps. Not that I know of, other than perhaps for Army 
purposes. I mean, fuel is purchased under the LOGCAP contract 
for the forward operating bases and so forth. But other than 
operational needs--I mean, are we in business with the oil 
people or something?
    Ms. Kaptur. Yes.
    Mr. Popps. No. No, ma'am. Not that I know of, no.
    Ms. Kaptur. So all of the Army fuel comes from Kuwait or 
someplace else?
    Mr. Popps. It comes from wherever it is contracted for. 
Generally under the LOGCAP contract. I would assume--is there 
another fuel contract?
    General Thompson. Yes. I mean, there may be some things 
bought under the LOGCAP contract. But for the Defense 
Department (DoD), the Defense Logistics Agency (DLA), the 
Defense Energy Support Center has got the global 
responsibilities for DoD to purchase fuel in all parts of the 
world. So they are the enterprise DoD contractors for fuel. And 
so DLA lets all of those major contracts. There may be some 
local contracts where something is needed right away. But for 
the most part that is done by DLA. I mean, that is something 
that has been done for many, many years.
    Mr. Popps. But no one is doing their own deals. This is all 
centrally managed.
    General Thompson. Ma'am, if I can----
    Ms. Kaptur. On oil?
    Mr. Popps. Yes, ma'am.
    General Thompson. Your specific question about the breakout 
of the contracting workforce in Iraq, this is end of fourth 
quarter 2007, so this data is about 5 months old. But there are 
17 percent of the contractors in Iraq that were U.S. citizens, 
30 percent were third-country nationals, and 53 percent were 
host country nationals, Iraqis.
    Ms. Kaptur. Okay. And I would appreciate for the record how 
many individuals that is out of the 190,000.
    General Thompson. And I have got those numbers both for 
Iraq and Afghanistan. And then what we will do is what you 
asked this morning to the Secretary and the Chief, is break 
those out into what categories those contractors are working 
in.
    [The information follows:]

    According to a recent U. S. Central Command (CENTCOM) 
Quarterly Contractor Census, there are 163,591 total contractor 
personnel on Department of Defense (DoD) contracts in Iraq. Of 
this total 31,325 are U.S. Citizens, 56,368 are Third Country 
Nationals, and 75,898 are Local National Iraqis who make up a 
majority of our contracted workforce.

                       CORRUPTION IN CONTRACTING

    Ms. Kaptur. Yes. And one of our biggest problems with the 
government of Iraq is corruption. So you see where I am going 
with the contracts that we are signing with Iraqi companies. I 
want to better inform myself and ask--and follow some of these 
contracts, quite frankly.
    Mr. Popps. And, ma'am, one thing you will take comfort in 
is again our contracting agencies deal over there with the 
Iraqis. They do not deal in cash. And that I think is part of 
the frustrations that the Iraqis might have with us. So you 
see, we treat everything like an acquisition program. And if we 
are going to purchase services for a water station and so 
forth, those vendors are paid by check, they are paid where 
everything is accountable for. So there is a great 
misconception somehow that we are running around on the economy 
using cash and so forth. That is not the case. We do business 
there the same way we do business here. No contractor here 
would be accepting a cash payment from the United States, and 
the same thing doesn't occur there. It does not occur there.

                      FUTURE COMBAT SYSTEMS (FCS)

    Mr. Bishop. The gentlelady's time has expired. Let me just 
go back to Future Combat Systems again. The Government 
Accountability Office released two reports on March 7th of this 
year on the Future Combat Systems. One is entitled, quote, 
``2009 Is a Critical Juncture for the Army's Future Combat 
Systems'', and the other is titled, quote,``Significant 
Challenges Ahead in Developing and Demonstrating Future Combat 
Systems Network and Software''. The GAO found that the 
knowledge demonstrated thus far is well short of a program 
halfway through its development schedule and its budget. A 
demonstration of capabilities falls late in the schedule by our 
commitment to production, especially spinouts comes early. 
Complimentary programs, including Joint Tactical Radio System 
(JTRS) and the Warfighter Information Network Tactical (WIN-T) 
are not synchronized with the FCS and they are having their own 
challenges. The requirement for software lines of code has been 
re-estimated from 63 million to 95 million lines.
    The GAO recommends the Army identify viable alternatives to 
FCS. Does the Army have any viable alternatives to FCS?
    General Thompson. Sir, I have looked at the GAO report and 
I would answer it this way. First off, I have great respect for 
what GAO does, and I mean that sincerely, and I know that David 
Walker was up on the Hill yesterday and he leaves this week 
after his tenure as the Comptroller General, and I think he as 
an individual has really taken that agency to another level and 
I am really pleased to see what he has been able to do to bring 
all of the country's awareness to a higher level and things 
like human capital planning and coming to grips with our 
entitlement programs, et cetera. So that is my personal public 
statement on behalf of the GAO because I really mean that 
sincerely.
    We have four full-time GAO employees embedded in the FCS 
program, and we welcome their insights and I mean that 
sincerely, too. Having another set of eyes, auditor eyes for 
the most part in this case, pointing out things that we need to 
address inside of that program or any program is good. The 
Defense Department response back to that GAO report had input 
from the Army, and most of the responses back said we concur 
with what GAO is saying.
    We have a yearly DoD level review on the FCS program 
chaired by the Defense Acquisition Executive. We will have one 
again this summer and then next year again when we get to the 
preliminary design and review stage for the manned ground 
vehicles for FCS. All of the issues that are raised by GAO, not 
just in this year's report, but since 2004 they have done an 
annual report on the FCS program. There is consistency in their 
comments, but all of the things that they raise as concerns get 
looked at in these very detailed reviews, whether it be 
testing, whether it be requirement synchronization, or software 
development. And so I am confident that the process inside the 
Defense Department addresses these things in a way that 
balances cost, schedule and risk.
    To the specific report on software, there was a comparison 
made between the FCS program, which is designed to put together 
an entire brigade combat team of capability and make sure it 
works together when it is fielded, and it compared to two 
individual airplane programs. That is an apples and oranges 
comparison, in my view. You know, 20 million lines of code 
versus 90 million lines of code. About 75 to 80 percent of the 
lines of code accounted for in the FCS program are either 
commercial code that has already been written or government 
code that has already been written. It is not new code we are 
developing for FCS. And so that is a factoid that sort of 
changes the perspective, in my view, on the complexity of what 
we are trying to do. Well over 20 million lines of code 
accounted for in that 90 million is the Linux operating system. 
And so that is a commercially developed operating system, just 
like the Windows operating system for Microsoft. And so we are 
using the Linux operating system and then integrating other 
software things with it.
    So while I understand, you know, the GAO concerns, we are 
addressing them. I am confident that we have a review process 
both internal to the Army and DoD that will address those on an 
annual basis. The FCS program in my view is very well managed-- 
it is very complex. But it is not so complex that we are not 
managing our way through it in a very systematic way, balance 
and risk.
    Mr. Bishop. Thank you. Do you have anything to add, Mr. 
Popps?

                     FUTURE COMBAT SYSTEMS TESTING

    Mr. Popps. Mr. Chairman, just that we shouldn't forget that 
this is among the most tested of programs. So the GAO 
implication that somehow we need more testing or not, it hasn't 
been enough and so forth, this is among--I think there is 
currently 75 tests ongoing.
    General Thompson. And those 75 tests that are ongoing are 
an indication that we have reached the peak of the research and 
development, the funding for research and development will now 
start to come down, and the production funding for FCS will 
start to go up. And there is a crossover point that we are soon 
to reach. The fact that you have got 75 major tests ongoing in 
FCS right now is an indication that we are getting ready to 
move from research and development into testing, into low rate 
production, and then into production.
    Mr. Bishop. The GAO kind of keeps us informed of whether or 
not we are--we have efficiencies and sort of helping quality 
control, isn't it? Make sure that you are doing what you need 
to be doing when you need to do it?
    Mr. Popps. It does. And I ask you again to remember that we 
have four GAO employees embedded within the program.
    Mr. Bishop. Mr. Tiahrt.

                           UH-72 HELICOPTERS

    Mr. Tiahrt. Thank you, Mr. Chairman. This is a--EADS has 
their helicopter headquarters in Germany and there is a concept 
now that we have talked about here in America called corporate 
inversion, and it is a tax scheme in which U.S. companies put 
their headquarters in foreign countries so they don't have to 
pay Federal income taxes. But there is an inverted methodology 
to this where foreign companies get a U.S. front company and 
then they suck all the profits back to the European nation or 
of the foreign country so they don't have to pay any Federal 
income taxes.
    Do you have any mechanism in place to assure that the money 
that is made, the profit that is made off of this program is 
converted to Federal income taxes at the appropriate rate?
    Mr. Popps. I know of no such check that we have to assure 
ourselves of that.
    Mr. Tiahrt. So this is another gap in our procurement 
policy?
    Mr. Popps. It is.
    Mr. Tiahrt. All right. Getting more specific to the 
helicopter, my understanding is that we--well, I am on the 
Interior subcommittee and they were talking to us--the Forest 
Service was talking to us about a fire in California, southern 
California near a Marine--or a military base. And I think it 
was called the Witch fire. And at that time, it had several UH-
72 I think you called them Lakotas. Maybe we should call them 
Kaisers----
    Mr. Popps. Lakota.
    Mr. Tiahrt. Since they are a German company. UH-72 Lakota, 
or Kaiser as it could be called.
    General Thompson. We name our helicopters, Congressman, 
after Indian tribes.
    Mr. Tiahrt. I know. I was trying to think of a good tribal 
German name that you could use, but none just pops into mind. 
So Kaiser will have to do. The Lakota. My understanding is that 
during this fire, that the UH-72 was grounded because it was 
too hot in the cockpit operating in southern California for 
pilots to be in the cockpit comfortably. It just simply got too 
hot in the cockpit. And it wasn't because of the fire. It was 
because of the ambient temperature outside of the cockpit and 
the extra temperature generated by the jet engine itself of the 
helicopter. So just in the simple operation of the UH-72, it 
became too uncomfortable for pilots to operate it. And I also 
understand that there was nothing in the specifications to 
maintain a temperature for pilots within the cockpit. So 
nothing was going to be done about that. But you guys have come 
up with a fix, as I understand it, to put an air conditioner on 
it. So now the air conditioner causes you to trade cargo weight 
for air conditioner weight. So what compensation was given to 
you by the manufacturer for this--what appears to be an 
inability to meet specifications?
    General Thompson. Well, you are right in your facts that we 
did not have an air conditioning system in that utility 
helicopter. We do now. They are not all integrated yet, but we 
have now got the funding in place to be able to put the air 
conditioning systems in all of the aircraft.
    Mr. Tiahrt. So you are paying for their inability to meet 
spec?
    General Thompson. They met the requirement they had to meet 
when they initially built them. The helicopters that have air 
conditioning systems in them are--are attack helicopters 
because they are closed cockpits. The utility helicopters, and 
I have to go back and get the exact variance, not all of the 
utility helicopters have air conditioning systems as part of 
them because they have an ability to open the windows and have 
the ventilation inside of the aircraft.
    Mr. Tiahrt. Wouldn't it be a requirement, though, for a 
pilot to be able to fly a helicopter and here we have an actual 
circumstance in which they were unable to do that? It seems 
like the ability to fly a helicopter is pretty essential when 
you buy a helicopter. So I don't know how this wasn't a 
violation of spec. I don't know why we are paying for this air 
conditioning. For some reason we ought to have helicopters that 
we can actually fly.
    Mr. Bishop. Can I get a point of clarification? Are you 
saying that the helicopter did or didn't have the specification 
for air conditioning originally?
    General Thompson. I will go back and check. But the 
requirement around which the contract instrument was built did 
not require them to put an air conditioner in that helicopter. 
Based on those lessons learned, we have now adjusted the 
requirement and we are putting air conditioning system those 
helicopters.
    [The information follows:]

    The Joint Requirements Oversight Council (JROC) approved LUH (UH-
72A Lakota) Capabilities Development Document (CDD) did not contain a 
requirement or specification for an air conditioning system or internal 
cooling requirement for the aircraft; therefore, the original Statement 
of Work (SOW) as part of the Request for Proposal (RFP) did not have 
specifications on cockpit or cabin cooling requirements. Based on the 
foregoing, none of the offerors proposed an aircraft with an air 
conditioning system as part of their LUH configuration.

    Mr. Tiahrt. And we are paying for it?
    Mr. Bishop. We have a 15-minute vote, and I think we have 
got a little less than 10 minutes now. So I am going to go to 
Ms. Kaptur, if you don't mind, Mr. Tiahrt. I think she has one 
remaining question and I have a remaining question. And I think 
we will close it out at that time.

                    FUEL USAGE FOR OVERLAND VEHICLES

    Ms. Kaptur. Thank you, Mr. Chairman, for allowing me 
another question. And I will be very brief and just ask in the 
same way as I have asked for summary information on 
contracting. And we are always happy to provide you backup if 
you don't understand the request completely.
    I also am very interested in your different classes of 
overland vehicles and Bradley fighting, Abrams tank, your 
medium tactical vehicle, trucks, MRAPs, Humvees. And I am very 
interested in knowing from you how you look upon the power 
systems that drive those into the future, how you are thinking 
about those in terms of saving energy, the new energy systems 
that are being included. For example, I know that is true in 
the thinking about a Future Combat System. But I am interested 
in how you are looking at the fleets that you purchase in terms 
of designing new fuel systems, new power systems.
    Do you have the ability, General, to provide that to us and 
give us the numbers of vehicles you currently have in that 
class, how many you intend to purchase, and how that--I am 
interested in the power train. That is all I care about. And 
how----
    Mr. Popps. And the fuel source?
    Ms. Kaptur. Absolutely. Is there a way for you to summarize 
that for me? And then attach numbers to those so I can better 
order my own thinking around for your overland transportation, 
how you are thinking about the Army of the future and how----
    Mr. Popps. Not only will we try to do that for you, General 
Thompson has something to say to you. But I would like to bring 
over some of the more senior members of the Army Science Board 
to talk to you in your office about that, because they are 
doing a great deal of work on fuel cells, battery energy and 
sort of third, fourth, fifth generation stuff that you might 
find very interesting.
    Ms. Kaptur. Yes.
    General Thompson. But holistically, ma'am, you have got 
tactical power and you have got installation power. And what I 
have asked the Army to do, not just the acquisition community, 
but also the requirements community, we need to get our arms 
around the many, many initiatives that are going on right now. 
DoD has got a number of initiatives ongoing to get after energy 
efficiency in the systems that we build. But what I am trying 
to do is get my arms around our need for power and energy, both 
tactically and installation wise, and how do we maximize the 
strategy so that I don't need as much of a demand on fossil 
fuel sources in the future.
    My previous job at the Tank Automotive Command, a 
tremendous amount of research in the hybrid electric. Hybrid 
electric is the foundation for the power train in the Future 
Combat System. Much work partnered with the automobile industry 
up in the Detroit area around fuel cells and the potential that 
fuel cells hold for the country.
    So we will take that for the record and come back with a 
comprehensive answer because it is just too complicated to 
answer here.
    [The information follows:]

    The Hybrid Electric Vehicle Experimentation and Assessment (HEVEA) 
effort that began in fiscal year (FY) 2006 focuses on the applicability 
of hybrid electric to Tactical Wheeled Vehicle (TWV) mobility for 
future systems. Ongoing experimentation measures hybrid vehicle 
performance and fuel consumption over a variety of military standard 
driving courses. The goal is to create physics-based models to use with 
realistic driving scenarios as a tool to predict hybrid electric drive 
cycle performance and fuel economy supporting future hybrid/
conventional acquisition decisions. The HEVEA program is currently 
positioned to support the Joint Lightweight Tactical Vehicle (JLTV) 
acquisition decision and will continue through FY 2009. The HEVEA 
effort has also established HEV test methodology for military 
application using accepted industry practices and Department of Energy 
processes.
    The Power and Energy Systems Integration Laboratory (SIL) 
integrates and evaluates hybrid electric architectures including power 
generation, energy distribution and control and thermal management. The 
SIL enables power and energy components to be evaluated, for example 
varying battery technology, and demonstrated in realistic scenarios and 
architectures. These evaluations inform acquisition system programs and 
component technology developers.
    The goal of the assured fuels initiative is to reduce reliance on 
fuels derived solely from crude oil by qualifying and then implementing 
use of domestically produced alternative fuels at United States 
installations. The objectives of this initiative are to expand the Army 
technical database on alternative fuels, engage in specifications 
development of alternative fuels, and to qualify/certify alternative 
jet/diesel fuels for use in Army tactical/combat equipment and systems. 
Current efforts are focused on qualifying ``synfuel blends,'' blends of 
up to 50 percent by volume Fischer-Tropsch (FT) synthetic fuel with JP-
8, for use in Army tactical/combat ground vehicles. Qualification of 
synfuel blends will be accomplished through performance evaluations in 
selected engines and limited testing and demonstration of synfuel 
blends in equipment and systems. This effort aligns with the synfuel 
blends program of the Air Force and similar plans by the Navy. Synfuel 
blends qualification has not yet started for Army-unique aviation 
platforms.
    The Fuel Efficiency Demonstrator (FED) focuses on demonstrating the 
viability of significant decreases in fuel consumption, without 
sacrificing the performance or capability, of tactical vehicles. This 
would be accomplished by integrating potentially high-payoff fuel 
efficient technologies and advanced lightweight materials in new and 
innovative designs. The FED effort began in FY 2008 and is scheduled to 
continue through FY 2013. Successful technologies may be incorporated 
in future procurements for the JLTV.
    The high power, high energy density lithium-ion battery effort 
investigates manufacturing process improvements in the areas of 
automated electrolyte filling, cell winding, bussing, closing, 
electrical formation, and battery packaging. This FY 2004 through FY 
2009 effort is also seeking to implement built-in quality control 
procedure inherent at the production line to insure cell consistency 
and improved yield. Finally the effort seeks to improve the 
affordability of high power and energy density battery packs for HEVs.
    Within the Army, we have basically two classes of vehicles--tracked 
and wheeled. As a rule, we buy complete systems from contractors that 
use commercially available engines to meet our performance 
specifications. These engines meet current fuel efficiency and emission 
standards at the time of the contract award. We try to keep the same 
engine in the vehicle over the life of the contract for commonality 
purposes. The Army does not develop engines for its ground vehicle 
systems with the exception of the Abrams engine. Future Army vehicle 
requirements document will have fuel efficiency as a key performance 
parameter (KPP).


                                                 VEHICLE MATRIX
----------------------------------------------------------------------------------------------------------------
                                                     On-hand
         System              Commercial engine      thru 2008      Programmed in FYDP      Fuel efficiency (KPP)
----------------------------------------------------------------------------------------------------------------
Abrams.................  No--Gov't developed             5,827  Only modernization of     No
                          engine w/Textron                       existing models.
                          Lycoming AGT 1500.
Bradley................  Yes--Cummins............        6,421  653.....................  No
Stryker................  Yes--Caterpillar........        2,443  1,132...................  No
HMMWV..................  Yes--GM.................      121,000  27,244..................  No
FMTV...................  Yes--Caterpillar........       34,326  20,502..................  No
HEMTT..................  Yes--Detroit Diesel            13,978  3,469...................  No
                          Caterpillar.
PLS....................  Yes--Detroit Diesel             3,965  1,580...................  No
                          Caterpillar.
HET....................  Yes--Detroit Diesel             3,218  1,157...................  No
                          Caterpillar.
M915...................  Yes--Detroit Diesel.....        7,766  541.....................  No
MRAP...................  Yes--Caterpillar              12,000*  0.......................  No
                          International Cummins.
----------------------------------------------------------------------------------------------------------------
*planned.

    Ms. Kaptur. I thank you, gentlemen. This morning my chief 
question was on power, and both at installations--I don't know 
if you were here this morning. I don't think you were.
    General Thompson. I was.
    Ms. Kaptur. You were. Okay--as well as the vehicular side. 
I thank you, Mr. Chairman, very much for allowing me those 
questions in the record.
    General Thompson. That is a great question, ma'am.

                          UNFUNDED ITEMS LIST

    Mr. Bishop. I have got a question on the unfunded items 
list. General Casey recently provided to the congressional 
defense committees a list of items that are currently unfunded 
that the Army would accelerate if additional funding were 
available. Under cover letter, General Casey states that the 
list focuses on funding Army National Guard shortfalls of dual 
use items.
    General Thompson, could you explain what is a dual use item 
and whether or not the Army regularly procures hardware with 
dual use applications in mind? And the list that was provided 
to the Committee is in alphabetical order. Could you provide a 
list that is in order of priority? And, finally, tell us why it 
is that all the unfunded items are with the National Guard.
    General Thompson. Dual use are things that can be used from 
an operational perspective to meet a warfighting capability and 
also can be used for homeland defense. For example, trucks, 
engineering equipment, some of our radio systems are obviously 
used in a warfighting scenario, but also can be used in 
homeland defense. That is my definition of how I describe dual 
use.
    The list that was provided, it is not all shortages in the 
National Guard, and it is in alphabetical order and not 
priority order. We have acquisition objectives, how many of the 
different types of things that we need to fill out our units we 
would like to buy. And so that list is the reflection that you 
have got a viable program today where, if more money was 
available, you could buy some of those. And that is what is in 
that unfinanced requirements list. But it is not all National 
Guard equipment.
    Mr. Bishop. Could you provide for the Committee, could you 
just organize that list in terms of your priorities so that the 
highest priority is first on the list so that if we do have 
additional funding we can try to fund it in accordance with the 
priorities?
    General Thompson. Sir, the Army G-3 and trade-offs are 
involved in setting the priorities. The acquisition community 
doesn't do that. We will take that one back and look at that 
list and see if there is a need to prioritize it. But that is 
not something that we would do. The G-3 would.
    Mr. Bishop. Could you pass it on to the appropriate folks 
and let them know that the Committee is interested in having a 
priorities list?
    Mr. Popps. Yes, sir. We will take that on.
    [The information follows:]

    The Army's most critical unfunded requirements (UFRs) for FY09 
focus on Army National Guard (ARNG) equipment shortages for dual-use 
items. This UFR list was approximately $3.94 billion.
    The original ARNG equipment UFR list has been modified by the Army 
to account for substitutions for seven unexecutable lines on the 
original list. The result is a slight decrease in the UFR, which is now 
identified to be $3.93 billion. The adjusted ARNG equipment prioritized 
UFR list is enclosed.
    All lines on the current UFR list will have a positive impact on 
ARNG readiness. The acquisition of this equipment will enable the ARNG 
to train to a higher level of proficiency to meet both state and 
federal missions while simultaneously supporting current overseas 
missions. The most critical of the dual-use items are trucks (High 
Mobility Multipurpose Wheeled Vehicles (HMMWVs) and Heavy Expanded 
Mobility Tactical Trucks (HEMTTs)). The ARNG's on-hand quantity of 
trucks is at a critical all time low. The receipt of trucks will have 
an immediate impact on readiness and mission effectiveness.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    Mr. Bishop. Thank you, Mr. Popps and General Thompson, for 
your testimonies. It has been very helpful.
    At this time the Committee stands adjourned until 10:30 
a.m. tomorrow morning.
    [Clerk note.--Questions submitted by Mr. Murtha and the 
answers thereto follow:]

                  Armed Reconnaissance Helicopter (ARH)

    Question. The Army has lost, in Iraq and Afghanistan, a significant 
number of Kiowa Warrior helicopters, the current Armed Reconnaissance 
helicopter. The new helicopter, the replacement for the Kiowa Warrior, 
is finally in production after suffering approximately a one year slip. 
Twelve ARH will be built with fiscal year 2008 funding. The fiscal year 
2009 ARH program calls for the production of 28 helicopters.
    Today, what is the shortfall in Army armed reconnaissance 
helicopter fleet, that is, how many of the older Kiowa Warrior 
reconnaissance helicopters is the Army short?
    Answer. Current force structure requires 368 Kiowa Warriors in the 
fleet; Army has 335 aircraft today. We are short 33 aircraft. There is 
currently no production line capability for Kiowa Warriors for 
replacement aircraft. The Armed Reconnaissance Helicopter (ARH) is the 
planned replacement for Kiowa Warrior reconnaissance helicopter.
    Question. What is the status of production of the 12 funded ARH 
aircraft?
    Answer. The Army intends to seek the Defense Acquisition 
Executive's approval to procure 10 aircraft at a Restructure Defense 
Acquisition Board in July 2008. These aircraft will support the Initial 
Operational Test and Evaluation planned for June 2010. The fiscal year 
2008 appropriations bill language provided for procurement of 12 ARH, 
however, $174.6 million appropriated for ARH only funds 10 aircraft.
    Question. Has the Army taken delivery of any of the 12 ARH funded 
in fiscal year 2008?
    Answer. No, deliveries for the first 10 ARHs are planned from 
November 2009 to June 2010.
    Question. When will we see the new ARH operating in Iraq and 
Afghanistan?
    Answer. Initial Operational Capability for ARH is scheduled for 
January 2012. This will be the first ARH squadron ready for deployment 
into an operational theater.
    Question. The Army has requested funding for 28 ARH in the fiscal 
year 2009 request. Is the program on track to build those 28 aircraft, 
and over what time frame will those 28 aircraft be delivered to the 
Army?
    Answer. Yes, the fiscal year 2009 request will allow the Army to 
proceed with production of the 28 ARHs. The scheduled deliveries will 
occur from July 2010 through June 2011.
    Question. The U.S. Special Forces fly an armed reconnaissance 
helicopter different than the aircraft the Army is buying. Why not fly 
the same small, armed reconnaissance helicopter as U.S. Army Special 
Forces?
    Answer. The Army source selection process resulted in the selection 
of the aircraft that best met the Joint Requirements Oversight Council 
approved Capability Development Document.
    Question. The ARH was originally proposed as an off-the-shelf 
commercial helicopter with integration of the necessary military 
hardware. Integration of military hardware has proven to be very 
difficult. What was the initial planned unit cost for the ARH, and what 
is the unit cost now?
    Answer. The initial Average Procurement Unit Cost in base year 2005 
dollars was $7.582 million. Based on the current program office 
estimate, the current Average Procurement Unit Cost is $8.859 million 
in base year 2005 dollars.

                     Light Utility Helicopter (LUH)

    Question. The Army's new light utility helicopter, called the UH-
72A, Lakota, is intended to provide general aviation support for 
continental United States based aviation units of the active and 
reserve components. As UH-72A aircraft become available for missions 
such as MEDEVAC, the UH-60s will be freed up for combat unit 
assignments.
    How many aircraft are currently on order, and how many have been 
delivered?
    Answer. To date, 85 UH-72A Lakota aircraft are on contract and 24 
aircraft have been delivered.
    Question. The fiscal year 2009 request is for $224.5 million to buy 
36 aircraft. When will these aircraft be delivered?
    Answer. These 36 LUH aircraft are scheduled for delivery during 
fiscal year 2010.
    Question. What is the total acquisition objective? How many will go 
to the active Army and how many to the reserve component?
    Answer. The total LUH acquisition objective is for 345 aircraft. 
This is an increase of 23 aircraft from the original acquisition 
objective of 322 aircraft. The active Army will receive 145 aircraft 
and the reserve component will receive 200 aircraft.
    Question. So far all the UH-72A helicopters have been assembled in 
Germany. When will assembly operations transition to facilities in the 
United States?
    Answer. Currently, seven of the 24 aircraft that have been 
delivered to the Army are ``made in the US'' aircraft. Of the total 
Army Acquisition Objective (AAO) 345 aircraft, 305 will be made in the 
US and 40 will be made in Germany. However, from the beginning of the 
program, a portion of each UH-72A has been accomplished at the new 
American Eurocopter Facility in Columbus, Mississippi to include 
assembly, customization, paint, testing, and delivery. The EADS is in 
the process of duplicating the entire German Eurocopter EC145 
production line at American Eurocopter in Columbus, Mississippi. The 
plan for transitioning LUH production is a phased, event-driven 
approach consisting of overlapping Light Assembly Line (LAL), Full 
Assembly Line (FAL), and Production Line (PL) phases. The FAL 
operations are underway and PL operations will begin in April 2009. It 
is important to note that the phased, event-driven production 
transition and the phase-in of US sourcing is on track and is not 
impacting on the Army's required delivery schedule. Production is now 
increasing to four aircraft per month and all deliveries have been 
ahead of schedule.
    Question. Which units have received UH-72A helicopters thus far and 
what is the near term fielding plan?
    Answer. The UH-72A Lakota has been fielded to the National Training 
Center (NTC) MEDEVAC at Fort Irwin, California; the Training and 
Doctrine Command (TRADOC) Flight Detachment at Fort Eustis, Virginia; 
and the Joint Readiness Training Center at Fort Polk, Louisiana. The 
Army National Guard is scheduled to receive their first aircraft in 
June 2008 at Tupelo, Mississippi.
    Question. The UH-72A has had some difficulties with too much heat 
in the cockpit due to the large glass bubble area and a lack of 
ventilation or air conditioning. The Committee has been informed that 
in some instances flights have been curtailed or limited due to 
potentially over heating critical flight instruments. What is the 
status of developing and fielding a solution for cockpit over heating?
    Answer. The cockpit and cabin heat issue identified during the 
Initial Operational Test (IOT) has been resolved. All aircraft will 
have an approved ventilation kit and Environmental Control Units (ECUs) 
that will be installed on all MEDEVAC and VIP versions of the aircraft. 
All aircraft fielded now have the ventilation kits installed and ECUs 
are in the process of being installed on the National Training Center 
MEDEVAC and TRADOC aircrafts and will be completed by mid-May 2008.
    Question. While using UH-72A helicopters for MEDEVAC operations at 
field locations such as the National Training Center (NTC) problems 
have been encountered with sand ingestion into the engine causing 
unexpected wear. What has been done to solve the sand ingestion 
problem, and why was the Army seemingly caught off guard with 
encountering sand in places such as the National Training Center?
    Answer. The EADS-North America and American Eurocopter began 
development of an Engine Inlet Barrier Filter (EIBF) as a result of 
customer input from commercial operations in similar environments. The 
Army anticipated some long-term effects of the harsh desert environment 
of the National Training Center, but the Army did not think the 
environment would affect the aircraft as quickly as it did. The 
confirming results of the Initial Operational Test (IOT) at the 
National Training Center expedited the final development of the EIBF 
that is now being installed on an aircraft destined for the NTC. This 
aircraft is scheduled to be evaluated at NTC in late May 2008. After 
the evaluation, all the fielded NTC aircraft will be retrofitted as 
well as future aircraft fielded to NTC.
    Question. Is the UH-72A performing in a manner that is sufficiently 
acceptable for the Army to continue with procurement of the aircraft?
    Answer. The UH-72A performance is exceeding all expectations. 
Monthly aircraft deliveries have been ahead of schedule, the fleet 
operational readiness rate has exceeded 90 percent, proving the success 
of full Contractor Logistics Support (CLS) and all cost, schedule, and 
performance metrics have been met. The UH-72A Lakota is critically 
needed to replace the aging UH-1 and OH-58 aircraft that remain in the 
active Army and the reserve components. The UH-72A is needed by the 
Army National Guard to perform critical Homeland Security Missions and 
will allow UH-60 Blackhawk aircraft to be shifted to tactical units in 
support of the warfighter. The UH-72A Lakota program is a sterling 
example of a Commercial-Off-The-Shelf (COTS) acquisition for a military 
application and remains a cornerstone of the Army's aviation 
transformation.

                       Joint Cargo Aircraft (JCA)

    Question. The Joint Cargo Aircraft or JCA is planned to satisfy the 
near battlefield cargo mission with greater speed and range than 
helicopters, freeing up helicopters for other missions, and replacing 
aging C-23s and some of the Army's C-12s.
    The Army has five JCA on order and the 2009 request for $264 
million will fund procurement of another seven aircraft. The Committee 
is informed that the Army plans to procure a total of 54 Joint Cargo 
Aircraft. As the program matures and deliveries begin, do you 
anticipate a growing requirement for JCA?
    Answer. Yes. At present, the Special Operations Command (SOCOM) is 
identifying a requirement for a limited number of JCA. The SOCOM 
submitted an Unfunded requirement (UFR) for two JCA in the FY09 budget. 
The program office is not aware of any other emerging JCA quantity 
requirements.
    Question. Is the first JCA on track for a November 2008 delivery?
    Answer. Yes, the JCA is on-track for an on-time delivery.
    Question. The JCA is a joint Army and Air Force project. How are 
the Army and Air Force versions of the JCA different?
    Answer. Both services are procuring the same version of the C-27J 
(Joint Cargo Aircraft).

                        CH-47 Chinook Helicopter

    Question. The fiscal year 2009 budget request includes funding for 
16 new-build Chinook helicopters, and conversion of 23 older CH-47D to 
CH-47F.
    Will the 16 new-build helicopters replace aircraft that are being 
retired or are you expanding the Army helicopter fleet?
    Answer. The Army requirement is 513 Chinooks, which includes 452 
CH-47F and 61 MH-47G aircraft. The current inventory is 458 Chinooks. 
These shortages are in active and Army National Guard units. The 16 
new-build aircraft will allow the Army to alleviate a portion of the 
current aircraft shortage.
    Question. The budget request includes funding to convert 23 CH-47Ds 
to become CH-47Fs. What are the key difference or upgrades, and how 
much of the old aircraft is salvaged to become part of the CH-47F?
    Answer. The CH-47F Chinook is a major improvement over the CH-47D. 
The CH-47F upgrade includes new machined airframes, a digital cockpit, 
enhanced air transportability, reduced airframe vibration, an upgraded 
aircraft survivability equipment suite and a digital automated flight 
control system. The major dynamic components (e.g., gearboxes, 
transmissions, blades, hubs) are harvested when the CH-47D aircraft are 
inducted for conversion to the CH-47F. These components are then 
recapitalized, to bring them to a like-new condition, and installed on 
the CH-47F aircraft on the production line.
    Question. The Chinook helicopter has been around for over 30 years. 
Should the Army be looking for opportunities to leap ahead in 
helicopter technology, lift, speed and all weather performance?
    Answer. The Chinook has been a workhorse for the Army for the past 
40 years. The CH-47F meets or exceeds all the current Army requirements 
and is anticipated to be the heavy lift helicopter for the Army for the 
next 20 years. The Army and Air Force are jointly developing a 
requirements document for a Joint Heavy Lift aircraft. That aircraft 
will be likely be a super short or vertical take off and landing 
capable aircraft that will lift over 20 tons. That requirement is still 
in the early stages of development and any resultant development 
program would not begin fielding aircraft until the 2020 timeframe. 
Even if a Joint Heavy Lift aircraft is developed and fielded, the Army 
will continue to have a requirement for a Chinook-sized aircraft and 
the CH-47F will fill that requirement.
    Question. The Army had decided to produce all the new CH-47Fs with 
the Common Avionics Architecture System of cockpit instrument display. 
This was the system developed for Army Special Forces, and it was to be 
the standard for all Army helicopters. The Committee is informed that 
the Special Forces design has proven to be unnecessarily complicated 
for the rest of the Army and that a redesign is needed. What is the 
status of the cockpit display redesign and is that effort fully funded?
    Answer. The cockpit has performed exceptionally well and there is 
no indication that the cockpit is overly complicated or in need of a 
redesign. The cockpit was flown by representative Army pilots during 
operational testing and determined by the Army and Office of the 
Secretary of Defense independent evaluators to be operationally 
effective and suitable. The Common Avionics Architecture System (CAAS) 
equipped aircraft met or exceeded all operational requirements. To 
date, the Army has fielded two operational CH-47F units and flown over 
4,000 hours with the CAAS cockpit. Users at every level have been 
pleased with the performance and capability of the CAAS cockpit.

                                Stryker

    Question. The budget request for fiscal year 2009 proposes $1.1 
billion for procurement of 119 Stryker vehicles, including 40 Nuclear, 
Biological and Chemical Reconnaissance vehicles; and 79 Mobile Gun 
Systems.
    The Army had scheduling problems last year in that the unit 
selected for field testing of the Stryker Mobile Gun System was 
deployed in the surge. Has the necessary user testing been accomplished 
and is the program approved to move ahead?
    Answer. Initial Operational Test and Evaluation (IOT&E) on the 
Stryker Mobile Gun System (MGS) was successfully completed in November 
2007. Funding for the Stryker MGS to move forward is pending our 
compliance with Section 117 of the National Defense Authorization Act 
for Fiscal Year 2008 (Public Law 110-181). The U.S. Army is in the 
process of fulfilling that requirement at this time.
    Question. What is the status of executing the Stryker funding for 
the current fiscal year, 2008?
    Answer. The Stryker program expects to execute the majority of 
funding for fiscal year 2008 between June-July 2008. The strategy 
involves using the cost advantage gained through vehicle contract 
efficiencies by combining program base funding and supplemental funding 
contract awards within a 60 day period. With the fiscal year 2008 main 
supplemental expected in June 2008, this provides a window of 
opportunity from June 2008 through August 2008 that will allow a 
potential cost savings of up to $45 million on planned Stryker vehicle 
procurement. An additional $860 million in survivability enhancements 
will also be obligated upon receipt of the main supplemental.
    Question. The Committee is informed that the Army intends to 
replace many of the M113 series vehicles, the work horse ``Armored 
Personnel Carriers'' that are Viet Nam War vintage, with Strykers and 
that replacing M113 MEDEVAC vehicles is a priority. Does the Army have 
the necessary funding to procure the requisite number of Stryker 
MEDEVAC vehicles to replace the M113s?
    Answer. The Fiscal Year 2009 (FY09) President's Budget does not 
provide funding for any Stryker Medical Evacuation Vehicles (MEV) to 
replace M113 ambulances. It provides necessary funding to complete 
Mobile Gun System (MGS) and Nuclear Biological and Chemical 
Reconnaissance Vehicle (NBCRV) requirements for the base Stryker 
program which includes 7 Stryker Brigade Combat Teams, the Ready to 
Fight Fleet, Equipping Force Pool, and other Training and Doctrine 
Command and testing requirements. Additionally, it provides funding for 
procurement of 15 NBCRVs to begin FOX vehicle replacement.
    However, the FY08 Global War on Terrorism request provides funding 
for 231 MEVs to replace M113 Ambulances. Additional funding will be 
needed to procure 670 more Stryker MEVs to replace the remaining M113 
Ambulances in Heavy Brigade Combat Teams.
    Question. Does the Army plan to add additional Stryker brigades to 
the Army?
    Answer. The Stryker Brigade Combat Teams (BCTs), like all of the 
Army's BCTs, are performing superbly in Iraq. Stryker Brigades provide 
our combatant commanders a unique combat capability that ranges across 
the full spectrum of military operations. Stryker Brigade Combat Teams 
fit into the Army Force Generation Model the same way as Heavy and 
Infantry Brigade Combat teams do. Each of our Brigade Combat Teams 
(Infantry, Heavy, and Stryker) is capable of full spectrum operations. 
The Army's current plan is to build seven Stryker Brigade Combat teams; 
six in the active component and one in the National Guard 
(Pennsylvania). The Army recently received additional authority to 
build 6 new BCTs. The Army continuously reassesses the mix of BCTs--
Stryker, Heavy, or Infantry--with analysis underway that will consider 
the existing requirements, current operational demand, and our 
assessment of the future capabilities needed to meet the strategy. 
Additional maneuver BCTs of any type--Stryker, Heavy, or Infantry--will 
likely reduce the Army's stress and begin to rebuild strategic depth 
and flexibility.

                              Land Warrior

    Question. According to the description in the Army's Weapon System 
handbook for fiscal years 2007 to 2008, Land Warrior is a first-
generation, integrated, modular fighting system that uses state-of-the-
art computer, communications, and geo-location technologies to link 
dismounted Soldiers to the digital battlefield. The Army equipped the 
4th Battalion, 9th Infantry, 4th Stryker Brigade Combat Team, of the 
2nd Infantry Division, Fort Lewis, Washington with Land Warrior to 
conduct a comprehensive assessment of the system during that 
battalion's tour in Iraq. By all accounts, Land Warrior performed well.
    Basically, Land Warrior is a digital data sharing and 
communications device that solders wear as part of their battle 
uniform. Please expand on that limited description. What does Land 
Warrior do for the soldier? How heavy is it?
    Answer. Land Warrior is a 10 lb modular, integrated Soldier leader 
system. It enhances the lethality, battle-command capability, 
survivability, mobility, and sustainability of dismounted combat 
Soldiers, enabling them to engage and defeat enemy targets while 
minimizing friendly casualties. Land Warrior facilitates command, 
control, and sharing of battlefield information and integrates Soldier 
leaders into the Army Battle Command System network.
    There are several components that make up the system. They include 
a wearable, ruggedized computer; a Soldier Control Unit performing the 
same functions much like a mouse we use on our personal computers; a 
radio that transmits both voice and data; a navigation system that 
provides Global Positioning System (GPS) location as well as dead 
reckoning when not receiving a GPS signal when the Soldier is inside a 
building or in dense vegetation; there is a Helmet Mounted Display that 
shows map data, still satellite imagery, and the location of the 
Soldier and his fellow Land Warrior in relation to the map or imagery; 
the system incorporates a Close Combat Optic, Thermal Weapons Sight, 
Daylight Video Sight, and a Multi-Function Laser and interfaces with 
the M4 carbine and the M249 Squad Automatic Weapon. The system is 
powered by a rechargeable lithium-ion battery.
    Question. General Thompson, what has been the feedback on the use 
of Land Warrior in combat in Iraq?
    Answer. The feedback from the field has been positive. It has made 
the unit, 4th Battalion of the 9th Infantry Regiment, equipped with the 
Land Warrior System more effective. Small unit leaders such as Platoon 
Leaders have indicated that the situational awareness provided by the 
system is a combat multiplier.
    It gives these leaders the ability to plan and conduct operations 
in terrain that they have never been in before, because of the 
situational awareness that it provides. The confidence they have to 
conduct operations in such conditions is increased because they know 
where they are. They know where their other friendly elements are, and 
they know where the enemy is. They can quickly adapt to changes in the 
situation or the terrain as they take place.
    It improves their mobility with the capability to identify 
obstacles when encountered and quickly transmit that information over 
the network so that it is displayed on other Land Warrior systems and 
Combat Platforms, such as the Stryker, and the obstacle can be breached 
or bypassed more rapidly.
    It has improved their lethality with the ability to mass fires on a 
target. Again, this is a direct result of the information that is 
quickly transmitted over the network about enemy locations.
    The Land Warrior system has proven to be a combat multiplier by 
increasing battle command, lethality, and improving mobility. 
Improvements in these areas have increased Soldier's survivability.
    Question. The Land Warrior program has been cancelled, with no 
funding requested for the program in 2008 or 2009. Based on positive 
feedback from soldiers in Iraq, might the Army consider resurrecting 
the Land Warrior Program?
    Answer. There is certainly a need for a Land Warrior like system. 
The capability that the Land Warrior provides has been proven and there 
is a very strong basis of support by the 4th Battalion of the 9th 
Infantry Regiment using the system in Iraq today. The strategy is to 
move forward with this capability.
    The concept would be that the next thing we need to do is equip a 
Brigade Combat Team. The Brigade Combat Team would train with the 
equipment as a part of their pre-deployment training and also as a part 
of our process of preparing forces and certifying them for deployment. 
They would then deploy with this capability.
    We have a request in the fiscal year 2008 Supplemental Adjustment 
for $102 million. That amount is approximately what it takes to equip 
one Brigade Combat Team with this capability.
    Question. Does the Army plan to equip additional units that are 
bound for Iraq with the available sets of Land Warrior?
    Answer. We have requested $102 million in the fiscal year 2008 
Supplemental Adjustment. That amount is approximately what it takes to 
equip one Brigade Combat Team with this capability. This request is a 
direct result of an approved operational need that has been identified. 
This funding will allow us to build, equip, train, and certify the unit 
prior to their deployment early next year. We will continue to evaluate 
additional requests for the equipment based on operational needs.
    Question. Is Land Warrior fully compatible with FCS?
    Answer. The Land Warrior system was designed to connect to the Army 
Battle Command System using the Force XXI Battle Command Brigade-and-
Below (FBCB2) network and the tactical internet enabled by the Enhanced 
Position Locating Reporting System (EPLRS). We are leveraging this same 
technology in the early phases of Future Combat System (FCS) and during 
the experiments that are now being conducted at Fort Bliss, Texas 
involving the first spinouts from the FCS program. Later this year some 
Land Warrior systems that are currently deployed in Iraq will take part 
in these experiments once they are returned from theatre. The Land 
Warrior system will be interoperable using the same interfaces that 
other FCS non-spinout combat platforms will use to connect to the 
network.

           High Mobility Multipurpose Wheeled Vehicle (HMMWV)

    Question. The budget request includes nearly $1 billion to procure 
5,065 HMMWVs. The procurement would be a mix of armored HMMWVs and 
armor-ready HMMWVs.
    With the fielding of MRAP vehicles to accomplish many of the 
functions requiring an armored tactical wheeled vehicle, and with so 
many up-armored HMMWVs already purchased, why does the Army need so 
many additional armored HMMWVs?
    Answer. The Mine Resistant Ambush Protected (MRAP) vehicles are not 
a replacement for the Up-Armored HMMWVs (UAHs). The MRAP Vehicles 
augment the UAH fleet in theater. There is still a fleet requirement 
within the Army for UAHs, both in and out of theater, and will be for 
the foreseeable future. Additionally, the washout rate for an UAH in 
theater is approximately 3.5 years and battle losses are approximately 
125 vehicles per month.
    Question. The total program for the HMMWV calls for 170,944 
vehicles. Will that number be reduced as more MRAPs are fielded?
    Answer. The current HMMWV Objective Table of Organization and 
Equipment (OTOE) is 166,154 vehicles and the Modified Table of 
Organization and Equipment (MTOE) is 140,709 vehicles. The Army 
anticipates that the HMMWV requirements in theater will decrease as 
more Mine Resistant Ambush Protected (MRAP) vehicles are fielded. We do 
not, however, anticipate reductions in HMMWV requirements outside of 
theater because the MRAP does not have the capabilities required to 
fill the vast majority of HMMWV mission sets. The ongoing Tactical 
Wheeled Vehicle (TWV) and Program Decision Memorandum II/Combat and 
Tactical Vehicle (PDM II/CTV) studies will identify those mission sets 
and roles the MRAP can fill across the TWV and Combat Tactical Vehicle 
fleets.
    Question. Please explain for the Committee the characteristics of 
new model HMMWVs, the XM1211; XM1212; XM1213 and XM1214?
    Answer. The XM series (ECV2) is an improved version of the HMMWV 
designed to achieve the objective capabilities defined within the 
current HMMWV Operational Requirements Document (ORD) requirements. It 
is not a new start system. It is being developed as an option to gain 
back the performance, protection and payload the current HMMWV lost as 
a result of adding armor (Fragmentation Kits (FK)). The current HMMWV 
has a Gross Vehicle Weight (GVW) of 12,100 pounds (lbs), but it 
currently weighs approximately 15,400 lbs with armor, Objective 
Gunner's Protection Kit, and additional installed equipment. This is an 
additional 3,300 lbs of GVW with no payload remaining. The XM series 
will have FK5 equivalent integrated armor, a GVW of 17,000 lbs, and 
have a payload of 1,800 lbs.

            Mine Resistant Ambush Protected Vehicles (MRAP)

    Question. As the threat from Improvised Explosive Devices and 
Explosively Formed Penetrators grew, the limit of how much armor could 
be applied to the HMMWV was reached. The DoD identified the MRAP-type 
trucks to provide greater force protection.
    General, what is the current Army acquisition objective for MRAPs?
    Answer. The current Army Acquisition Objective (AAO) for MRAPs is 
10,000 systems (based on the September 2007 interim requirement). A new 
interim requirement for MRAPs of 12,000 systems is currently in 
staffing. The final requirement is dependent on many factors, including 
future actions taken by the enemy.
    Question. How many MRAPs does the Army have currently fielded in 
Iraq; and how many in Afghanistan?
    Answer. As of 10 March, 1,434 MRAPs have been fielded to Iraq and 8 
to Afghanistan. Additional MRAPs are fielded weekly.
    Question. When do you expect to reach your acquisition goal?
    Answer. The current plan is to procure the 10,000 systems by 
October 2008 and field them by December 2008. If a new interim 
requirement of 12,000 is adopted, it is anticipated that these systems 
could be produced by February 2009 and fielded by April 2009.
    Question. Do the MRAPs as currently fielded protect against 
Explosively Formed Penetrators? Will additional armor be added to the 
MRAPs?
    Answer. The MRAP family of vehicles provides Warfighters multi-
mission platforms capable of mitigating Improvised Explosive Devices 
(IEDs), underbody mines and small arms fire threats which are currently 
the greatest casualty producers in the Global War on Terror. In almost 
50 IED and Direct Fire events, there have been a few minor injuries and 
unfortunately one fatality. In a classified session, we can provide you 
the details of the incidents.
    Question. How have the MRAPs been received by soldiers, and how 
have the MRAPs performed in terms of mobility and utility; and how have 
they performed when they have been attacked by various threat weapons?
    Answer. The majority of MRAPs have been operational for a 
relatively short period of time (approximately 90 days), so the initial 
feedback is just beginning to filter in. It is clear that MRAPs are 
providing significant increase in Soldier Mounted Protection and saving 
lives. We have tracked almost 50 incidents and experienced one 
fatality.
    MNC-I Commander: ``MRAP fielding has provided a decidedly positive 
impact on crew survivability.''
    2-502nd IN: Soldiers are very confident operating in this vehicle 
because of the known improvements in armor protection; this leads to 
more aggressive operations along routes less traveled.
    Question. What is the proper mix of HMMWVs and MRAPs?
    Answer. Theater is evaluating the operational mix of MRAPs. The 
final mix is still to be determined.
    Question. Is the Army MRAP requirement fully funded?
    Answer. The Army has been funded for 10,000 systems. The Joint 
Program Office reports sufficient funding to procure up to 12,000 
systems.
    Question. What are your plans for the MRAP vehicles once the war in 
Iraq is over?
    Answer. The Army continues to work with the Office of the Secretary 
of Defense and the Joint Staff to meet Joint Force Theater Commanders' 
requirements for MRAP vehicles.
    The Army Tactical Wheeled Vehicle Strategy is an ongoing effort to 
ensure our Soldiers receive the best capabilities available in ground 
wheeled vehicles to meet emerging threats.
    The MRAP is being integrated into the Tactical Wheeled Vehicle base 
strategy to balance Performance, Payload, and Protection. We are taking 
steps to identify their long term role. One example is approximately 
1,000 MRAPs are planned to fill new Route Clearing capabilities in 
Engineer and Explosive Ordnance units.

               Family of Medium Tactical Vehicles (FMTV)

    Question. The Congress appropriated just over $3 billion for FMTV 
trucks in fiscal year 2007. The DoD Appropriations Act for fiscal year 
2008 provided $1.8 billion for FMTVs. The Consolidated Appropriations 
Act, 2008 included, in the bridge fund, $146 million. Another $2.7 
billion is under consideration in the main fiscal year 2008 
supplemental. The fiscal year 2009 request proposes $290.5 million for 
3,171 trucks and 2,743 trailers.
    General Thompson please update this Committee on the status of 
execution of the fiscal year 2007 and 2008 funds that have been 
appropriated for FMTV.
    Answer. Of the Fiscal Year 2007 (FY07) $3,089 million appropriated 
amount, 31 percent has been executed. The remaining will be executed in 
April 2008. Of the FY08 $1,986 million appropriated amount, one percent 
has been executed. The remaining will be executed in June 2008.
    Question. Is the FMTV program experiencing production delays?
    Answer. No.
    Question. Is all appropriated and requested funding executable or 
will the Army attempt to reprogram funds out of the FMTV program?
    Answer. Yes. All appropriated and final Global War on Terrorism 
(GWOT) requested funds for the FMTV Program are executable.
    Question. What is the status of the FMTV contract in terms of 
planned extensions or new competitions?
    Answer. The Army plans to award a one year sole source contract 
with one year option to the current manufacturer in fiscal year 2008 
(FY08). In FY09, the Army will award a three year competitive 
requirements type contract. To avoid a break in production, the Army 
will award a sole source contract to the current manufacturer to allow 
for the new contractor to ramp-up its production.

       Single Channel Ground and Airborne Radio System (SINCGARS)

    Question. Congress provided nearly $650 million for SINCGARS radios 
in fiscal year 2007. The fiscal year 2008 Defense Appropriations Act 
provided $149.6 million for SINCGARS. The fiscal year 2008 supplemental 
funding request proposed $2,248 million for SINCGARS. However, the 
Congressional Defense Committees have recently expressed concerns that 
the Army may be continuing with dated technology and that opportunities 
may exist to satisfy communications requirements with more modern and 
enhanced capabilities.
    To what extent are SINCGARS radios Joint Tactical Radio System 
(JTRS) compliant?
    Answer. The SINCGARS is interoperable with JTRS. The SINCGARS 
Waveform is one of the JTRS core waveforms and is a Key Performance 
Parameter.
    Question. Could the Army greatly increase the utility of tactical 
radios by procuring radios that have multi-band capability and can 
operate both military and wave forms commonly used by first responders 
to enhance cooperation between National Guard units and first 
responders? Are such radios available?
    Answer. The Army has already procured in excess of 70,000 PRC-148 
Multiband Inter/Intra Team Radios (MBITRs) which can interoperate with 
State and Federal first responders. The PRC-148 MBITR has the APCO-25 
waveform and operates in the spectrum of land mobile radios (LMRs) used 
by state and federal agencies. Additionally, the Army has procured over 
65,000 LMRs which are APCO 25 compliant.
    Question. The Army Science board recently reported that the Army 
should move away from SINCGARS to procure software-defined, Joint 
Tactical Radio System (JTRS) capable radios. Do you concur?
    Answer. SINCGARS for what it does is the best radio for full 
spectrum operations until JTRS is available. While both the Harris PRC-
152 and Thales PRC-148 are Joint Tactical Radio System compliant 
multiband radios they cannot meet the specifications of the JTRS 
Operational Requirements Document (ORD). For instance they cannot 
cross-band, can only operate on one channel at a time, and the HARRIS 
VRC-110 will not physically fit in some of our Combat Platforms (i.e. 
Stryker, Abrams and Bradley).
    Question. Is it time for the Army to prepare a new Operational 
Requirements Document (ORD) and proceed with a new competition for 
tactical radios?
    Answer. The Army has reviewed the SINCGARS ORD and determined it 
still meets the requirement for a combat net radio capable of full 
spectrum combat operations. The Army is in the process of competing the 
next SINCGARS procurement to the specifications of the ORD.

                              Abrams Tanks

    Question. The Abrams tank has been around for about 30 years. The 
budget request for fiscal year 2009 proposes nearly $700 million for 
Abrams tank modifications and upgrades.
    Does it make good economic sense to continue to upgrade a fleet of 
vehicles that dates back 30 years?
    Answer. Yes. The Army is equipping and modularizing 30 Heavy 
Brigade Combat Teams (HBCTs) plus Grow the Army (GTA) (1 HBCT + 3 
Combined Arms Battalions (CABs)), which includes the Abrams Main Battle 
Tank. The Abrams Tank is one of the Army's highest priority 
recapitalization combat vehicle programs. Although the Abrams Tank has 
been in the force for 30 years, it continues to be the premier main 
battle tank and will continue to play a key role in the front line 
fighting force through 2050, complementing the Future Combat Systems 
(FCS) BCT. The Army's vision is to maintain the viability and combat 
effectiveness of the Abrams Tank through 2050. Therefore, it is 
necessary to continue updating the Abrams fleet to ensure it provides 
combat overmatch while remaining survivable, lethal, and sustainable. 
As such, the Army intends to continue future critical RDT&E investments 
in the Abrams Tank. When FCS begins fielding to the Active Component 
(AC) in the fiscal year 2017 time frame, the M1A2 SEP will begin 
cascading to the Army National Guard (ARNG) and the M1A1 fleet will be 
cascaded out of the force.
    Question. How will the Abrams tank fleet benefit from the advances 
in technology that come from Future Combat Systems research and 
development?
    Answer. The planned Future Combat Systems (FCS) technology 
insertions to the Abrams Tank will enable the Abrams Tank to maintain 
combat overmatch and fight alongside FCS within the future battle 
command structure, while operating within a common logistic structure. 
The following are examples of planned FCS technology insertions to the 
Abrams Tank: FCS Full Battle Command; System Computing (hardware and 
software); Sensors; Network Transport Layer and Network Architecture; 
Active Protective System (APS); Armor; and Line Replaceable Modules.
    Question. The Committee is aware that the Army will have 
essentially two Abrams tank fleets. Some tank-units will have M1A1 
Abrams, and the rest will have the more capable M1A2 System Enhancement 
version. Please explain the key differences between the two types of 
tanks and the Army's plan for allocation to active and guard units?
    Answer. The key difference between the M1A1 SA and the M1A2 SEP v2 
tank is that the ``M1A1 SA is an Analog based system'' and the ``M1A2 
SEP v2 is a Digital based system.'' Although both the M1A1 SA and M1A2 
SEP v2 are equipped with a 1553 data bus, the M1A1 SA analog based 
system is not capable leveraging the full capacity of the 1553 data 
bus. The M1A2 SEP v2 is capable of leveraging the full capacity of the 
1553 data bus. Another key difference between the two systems is that 
unlike the M1A2 SEP v2, the M1A1 SA has no Commander's Independent 
Thermal Viewer (CITV). The CITV on the M1A2 SEP v2 allows the tank 
commander to employ the ``hunter/killer target handoff'' capability 
between himself and the gunner.
    The Army's allocation to the Active and National Guard units are 
provided below:


------------------------------------------------------------------------
  Heavy Brigade Combat Teams   M1A2 SEP v2    M1A1 SA
------------------------------------------------------------------------
Active.......................           16            2  Modularity
                                                          Endstate
ARNG.........................            1            6
Pre Positioned Stock.........            2            1
Equipping Force Pool.........            1            1
ARNG HBCT....................  ...........            1  Grow the Army
                                                          Initiative
ARNG Combined Arms Battalion.  ...........            3
------------------------------------------------------------------------

    When FCS begins fielding in the FY17 time frame, the M1A2 SEP v2 
fleet will begin cascading to the ARNG and the M1A1 SA fleet will be 
cascaded out of the force.
    Question. The fiscal year 2009 (FY09) funding request includes $351 
million to upgrade M1A1s to the M1A2 SEP version. For the current 
fiscal year, 2008, the base appropriation requested no funding for the 
Abrams Upgrade program, but the Army requested $1.3 billion in 
supplemental funding of which $225 million was provided in the bridge 
appropriation. What is the long term plan for Abrams upgrades and will 
the Army continue to depend on large supplemental appropriations to 
fund the program?
    Answer. No. The Army has fully funded, in the base budget, the 
remaining Upgrades from FY09 through FY12 via the M1A2 SEP Upgrade MYP.

                Bradley Infantry Fighting Vehicle (BFV)

    Question. The Bradley program recapitalizes earlier variants of the 
Bradley to A2 Operation Desert Storm variants, and to A3 variants.
    What are the key differences between the two variants of the 
Bradley fighting vehicle?
    Answer. The key differences between the M2/M3A3 and ODS SA are the 
lack of a Commander's Independent Viewer (CIV) on the ODS SA, and the 
level of digital capability between the two variants. The CIV allows 
the commander to employ the ``hunter/killer target handoff'' capability 
between himself and the gunner, allowing greater situational awareness 
and lethality for the crew. Also, while both variants have a digital 
backbone (1553 data bus), several of the ODS-SA turret sub-systems 
still communicate via analog channels. The M2/M3A3 is a fully digitized 
system.
    Question. How are the two variants allocated between active 
component brigade combat teams, and Army Guard brigade combat teams?
    Answer. The Active Army is allocated 16 M2/M3A3 Heavy Brigade 
Combat Teams (HBCTs) and two (2) ODS-SA HBCTs. The National Guard is 
allocated one (1) M2A3 HBCT and six (6) ODS SA HBCTs. Army Pre-
Positioned Stock (APS) is allocated two (2) M2/M3A3 HBCTs and one (1) 
ODS-SA HBCT. The Equipping Force Pool is allocated one (1) M2/M3A3 HBCT 
and one (1) ODS-SA HBCT. This allocation meets the approved HBCT 
Modularity Endstate of 20 M2/M3A3 HBCTs and 10 ODSSA HBCTs. For the 
Grow the Army Initiative (GTA), one (1) ODS-SA HBCT and three (3) ODS-
SA Combined Arms Battalions (CABs) have been allocated. Fielding of the 
ODS-SA will begin in FY09. Finally, as FCS units are fielded, the A3 
fleet will be cascaded to the Guard and the ODS SA fleet will be 
cascaded out of the force.


------------------------------------------------------------------------
  Heavy Brigade Combat Teams       M2A3        ODS-SA
------------------------------------------------------------------------
Active.......................           16            2  Modularity
                                                          Endstate
Guard........................            1            6
Pre Positioned Stock.........            2            1
Equipping Force Pool.........            1            1
Guard HBCT...................  ...........            1  Grow the Army
                                                          Initiative
Guard Combined Arms Battalion  ...........            3
------------------------------------------------------------------------

    Question. For fiscal year 2008 the Army requested $140 million in 
the base request, plus a total additional amount of $1.6 billion 
between the bridge and main supplementals. For fiscal year 2009 the 
budget request proposes $180 million in the base request. Will the Army 
again depend on a large supplemental funding amount to support the 
Bradley program?
    Answer. No, not as large as the FY 08 supplemental (about 75 
percent less). The FY09 supplemental request is for $394.8 million, 
which procures 94 M2/M3A3s.

                      Army Pre-Positioned Sets (APS)

    Question. The Army drew upon pre-positioned equipment sets to 
sustain initial combat operations in Iraq. Some equipment was repaired 
and replaced in pre-positioned sets only to be dawn out again for the 
surge.
    What is the readiness posture of Army pre-positioned sets (APS) 
today?
    Answer. The APS equipment is a proven enabler of the Army's ability 
to rapidly project forces into an area of operations. Currently, most 
of the Army Prepositioned Stocks are employed in support of the Global 
War on Terrorism (GWOT). However, the remaining APS equipment continues 
to be in a high state of readiness and the Army has unit sets afloat 
that support port opening operations as well. The Army has an APS 
Strategy 2015 which articulates the afloat and ashore equipment 
required to meet the future responsiveness needs of the Combatant 
Commanders. APS capabilities will be reconstituted to provide the 
maximum level of strategic flexibility and operational agility.
    Question. What is the time line to have all the pre-positioned sets 
returned to their desired readiness?
    Answer. Reconstitution of APS is already underway and the Army has 
an executable timeline to reset its APS sets according to the APS 
Strategy 2015. The current approved timeline will reconstitute all of 
the Army APS sets by the end of FY15, contingent on available resources 
and operational requirements.
    Question. Does the Army intend to add MRAP vehicles to pre-
positioned equipment sets?
    Answer. Future Mine Resistant Ambush Protected (MRAP) APS fielding 
will be based on the results of Training and Doctrine Command's 
(TRADOC) Tactical Wheeled Vehicle Strategy and the ability to meet all 
Army priorities. The current priority of fill for MRAP is for units 
deployed in support of Operation Iraqi Freedom/Operation Enduring 
Freedom (OIF/OEF) and not APS. As of April 6, 2008, the Army has 
received 22 percent of its scheduled MRAP fieldings. As this fleet 
matures in the Area of Responsibility (AOR), the Army will review the 
vehicles' performance over time. In accordance with the APS Strategy 
2015, APS sets will have Wheeled Augmentation Sets comprised of armored 
wheeled vehicles which are currently up-armored High Mobility 
Multipurpose Wheeled Vehicles (HMMWVs).
    Question. Given the deployment capability of U.S. Forces and the 
uncertain nature of conventional and unconventional threats, are pre-
positioned sets a wise investment? Would it be a wiser course of action 
to take the equipment from the pre-positioned sets and use it to outfit 
modular brigades and the new Grow-the-Army brigades?
    Answer. The last four years have demonstrated that the APS program 
is flexible, responsive, and critical to the Army's ability to deploy 
forces in support of Combatant Command (COCOM) requirements and adapt 
to changing strategic requirements. Army Prepositioned Stocks are a 
proven valuable strategic asset of the U.S. and enable the nation to 
rapidly project power in order to deter the actions of any adversary. 
Diverting the APS equipment to support the building of modular Brigade 
Combat Teams and Grow the Army effort limits the ability to rapidly 
reinforce forward units by air movement. The Army remains committed to 
maintaining an APS pool of equipment in order to meet current 
contingency planning requirements.
    Question. In November 2007, the Army announced a new Army Pre-
positioned Stocks Strategy 2015. Please outline the new strategy, and 
what are the funding requirements for fiscal year 2009?
    Answer. APS Strategy 2015's equipment sets provide a balanced suite 
of global capabilities which will foster the Army's rapid deployment to 
both combat and Steady State Security Posture (SSSP) operations. The 
end-state for APS Strategy 2015, illustrated in the attached diagram, 
consists of five APS sets. APS-1 consists of Operational Project stocks 
to support both Homeland Defense and Combatant Commands. APS-2 consists 
of one Heavy Brigade Combat Team (HBCT) set to support European Command 
(EUCOM), African (AFRICOM) and Central Command's (CENTCOM) areas of 
responsibility (AOR). APS-3 consists of two Infantry Brigade Combat 
Team (IBCT) sets with up-armored High Mobility Multipurpose Wheeled 
Vehicle (HMMWV) and/or Mine Resistant Ambush Protected Vehicle (MRAP) 
wheel augmentation sets, two Sustainment Brigade sets and two 
ammunition ships which are multi-apportioned to support PACOM, AFRICOM 
and CENTCOM's AORs. APS-4 consists of one HBCT, one Sustainment Brigade 
set and Army watercraft to support Pacific Command's (PACOM) AOR. APS-5 
consists of one HBCT set with an up-armored HMMWV and/or MRAP wheel 
augmentation, one Fires Brigade set, two Sustainment Brigade sets, and 
Army watercraft stationed at Kuwaiti Naval Base. APS-5 also includes an 
Infantry Battalion set with a Forward Support Company (FSC) with an up-
armored HMMWV and/or MRAP wheeled augmentation set in Afghanistan to 
support CENTCOM's AOR.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    Revised chart removed ``rotational units'' in APS-2 & 4, changed 
ASF-V to ASFIII, HBCT symbols have been updated.
    To meet the timelines of the APS 2015 Strategy, the Army requested 
$317.5 million Operation and Maintenance, Army (OMA) and $102.2 million 
Army Working Capital Funds (AWCF) funds in the FY09 Base Budget for 
APS. We are only funded for the operations we need. All funding 
requests were adjusted to show issue of sets or current status of Ship 
Leases. The FY09 Budget provides the following support:
    <bullet> APS-1--($31.5 million) Funds operations at Army 
Sustainment Command to manage APS and maintenance and storage of 
Operational Projects IPDS, LAMS, Force Provider, Water Support Systems, 
and Bailey Bridges at Sierra Army Depot.
    <bullet> APS-2--($13.4 million) Funds operations to maintain 
limited equipment and ammunition at Livorno Italy and Medical Supplies 
at Pirmesans, GE to include support to War Reserve Stocks for Allies--
Israel.
    <bullet> APS-3--($156.7 million) Funds operations to maintain 
equipment for the Port Opening Package and funds lease operations of 1 
LMSR for the Port Opening Package, three LMSRs in Reduced Operating 
Status--10, two ammunition container ships. Funds personnel to begin 
the reset of equipment and secondary items for APS upload that will 
occur in FY10. It does not pay for the two remaining LMSRs we 
downloaded and placed in Reduced Operating Status--30.
    <bullet> APS-4--($58.5 million) Funds maintenance and operations to 
maintain the full unit sets and operational projects in Korea, Japan 
and Hawaii. OPROJs will be filled using FY08 and FY09 Supplemental 
funds.
    <bullet> APS-5--($57.4 million) Funds reset of the PTDO IBCT and 
planned reset of the HBCT. Funds the $12M annual Oman Access Fee.
    <bullet> WRSI--($102.2 million) Funds buys of potency and dated 
items (mostly Medical) that need to be replaced in APS-4 and 
Operational Projects. Funds buy of APS-2 ASL/PLL/UBL stocks. Buys 
upgrades in Medical sets currently on-hand in Korea.
    With the continued support of the Congress to fully resource the 
Administration's budget requests for Army equipment, the Army will be 
able to return equipment to pre-positioned stocks by 2015.

    [Clerk's note.--End of questions submitted by Mr. Murtha.]
                                          Thursday, March 13, 2008.

                     FISCAL YEAR 2009 NAVY POSTURE

                               WITNESSES

DONALD C. WINTER, SECRETARY OF THE NAVY
ADMIRAL GARY ROUGHEAD, CHIEF OF NAVAL OPERATIONS
GENERAL JAMES T. CONWAY, COMMANDANT, MARINE CORPS

                     Opening Remarks of Mr. Murtha

    Mr. Murtha. The committee will come to order.
    Let me welcome the three of you to the committee, and 
compliments on the way you handled the LCS. You got industry's 
attention. And what we talked about before the hearing is so 
important to try to work it out so that we can buy one of them, 
the quantity. And I don't know how hard it is to fit in your 
budget, but we do the best we can do, but your recommendations 
make it easier for us.
    We look forward to hearing your comments about whatever you 
want to talk about. We are concerned about the Navy because we 
have got so far behind in shipbuilding, so we would be 
interested to hear how you are going to proceed. And I expect 
to overcome or get to 313 ships.
    Mr. Young.

                      Opening Remarks of Mr. Young

    Mr. Young. Well, Mr. Chairman, I am going to forgo an 
opening statement, but I want to tell a quick story that I 
think will make everybody in the room feel good.
    A young soldier donated bone marrow to save the life of a 
patient through the bone marrow program that we created here. 
The soldier, after he recovered from that bone marrow 
extraction, was deployed fairly quickly to Iraq, and he was 
assigned to a demolition team, to a group of marines. He called 
us the other night and said, you know, he said, I was out on 
patrol, he said, we hit a real really scary, difficult 
situation. He said, I have never, ever seen anybody respond as 
quickly, as efficiently, as effectively as those Marines. And 
he said that his life's goal now is to finish out his time in 
the Army and become a Marine. He couldn't get beyond telling us 
how those Marines reacted and how just how great they were. He 
is singing your praises, sir.
    General Conway. Thank you.

                 Summary Statement of Secretary Winter

    Mr. Winter. Chairman Murtha, Congressman Young, Members of 
the Committee, thank you for the opportunity to appear before 
you today. I am here to present the Department of the Navy's 
plan to support our Sailors and Marines in their mission to 
defend our Nation against current and future challenges. The 
President's fiscal year 2009 budget will assist the Navy and 
the Marine Corps in accomplishing their complementary and 
reinforcing missions, while building capabilities necessary to 
meet future threats.
    One of the primary responsibilities of our government is to 
provide for the Nation's defense. Those responsibilities 
include the critical requirements to organize, train and equip 
our Naval forces. For the vast majority of citizens, the only 
cost imposed on us is financial. America is able to provide for 
the national defense with such a minimal impact on the 
citizenry because we are blessed to have among us a generation 
of people, patriots all, who volunteer to serve. They are the 
ones who bear many hardships, accept many risks and go in 
harm's way.
    The pay and benefit funding levels in our 2009 budget 
reflect the compensation levels necessary to continue to 
attract and retain quality personnel in the Navy and the Marine 
Corps. Furthermore, although we are doing well in our overall 
recruiting and retention numbers, I emphasize the need for 
special pays and bonuses to meet critical subspecialty needs 
such as our requirements for nurses, physicians and GWOT-
stretched communities, such as Explosive Ordnance Disposal 
personnel.
    It is because of the hard work of our Sailors and Marines 
that we are making progress, fostering maritime security, 
defeating terrorist networks, progressing towards a stable 
Iraq, supporting the Afghan Government, countering piracy and 
proliferation of deadly technology, rendering humanitarian 
assistance and strengthening partnerships around the world.
    Our Sailors and Marines have responded when called and 
superbly perform their many missions in our Nation's defense. 
It is truly an honor and a privilege to work with them and to 
support them as their Secretary.
    The Department of the Navy's fiscal year 2009 budget meets 
the challenge of resourcing the Navy and Marine Corps team 
across a range of missions from partnership building to combat 
operations. It invests in our ability to operate, sustain and 
develop forces that are engaged in the Global War on Terror 
while preparing the force for the challenges and threats of the 
future.
    We are requesting a total of $149 billion, a 7 percent 
increase over the fiscal year 2008 baseline. This increase is 
driven by factors such as rising oil costs and a critical 
comprehensive growth of the Marine Corps.
    Our fiscal year 2009 budget reflects three key priorities 
which are consistent with those of previous years. They are, 
first of all, to prevail in the Global War on Terror; secondly, 
take care of our Sailors, Marines, their families, and 
particularly the wounded; and lastly, prepare for future 
challenges across the full spectrum of operations.
    To help meet our first priority, prevail in the GWOT, we 
are adapting our force for current and future missions to 
include growing the Marine Corps, shaping the force by 
recruiting and retaining the right people, and addressing 
critical readiness needs. Among our most critical readiness 
needs is the ability to train our Sailors and Marines for the 
threats that they may encounter.
    Unfortunately, our Navy has encountered increasing 
encroachments in our ability to conduct critical training. We 
recognize that there are on occasion impacts on the citizenry 
at large associated with such training, but these are necessary 
costs that are critical to the defense of our Nation. We take 
extensive precautions to minimize the impact of our training.
    We owe it to the American people, and we owe it to those 
who serve to acknowledge that as in all things in life, there 
are competing interests and trade-offs, and that we treat the 
risks of sonar operation at sea or the impact of jet noise the 
way we treat all public policy issues, balancing risks and 
costs against legitimate national security interests. I commit 
to you today that I will continue to keep you apprised of legal 
challenges and their implications for readiness that we face 
over the course of the coming year.
    Mr. Chairman, if in the future we are unable to properly 
train our Sailors and Marines, we will have failed to do our 
duty to them and to the American people.
    Another critical issue I would like to highlight concerns 
doing right by those who go in harm's way. As Secretary of 
Defense Gates has stated, apart from the war itself, we have no 
higher priority than to take care of our wounded. Our wounded 
warriors and their families deserve the highest-priority care, 
respect and treatment for their sacrifices. Our 2009 budget 
honors our commitment to ensure that our Sailors and Marines 
receive the appropriate care, training and financial support 
that they need.
    Finally, to meet the challenges of the future, the 2009 
budget provides for a balanced fleet of ships, aircraft and 
expeditionary capabilities with the fighting power and 
versatility to carry out blue- green- and brownwater missions 
wherever called upon. Furthermore, I would like to note that 
consistent with our commitment to ensure affordability and 
timely delivery of capabilities, we have launched an 
acquisition improvement initiative to provide better 
integration of requirements and acquisition decision processes; 
improve governance and insight into the development, 
establishment and execution of acquisition programs; and 
formalize the framework to engage senior Naval leadership.
    Mr. Chairman, I am grateful for the strong support this 
Committee and the Congress at large has given our Navy and 
Marine Corps team. I want to thank you on their behalf. Our 
Navy and Marine Corps is a strong, capable and dedicated team. 
I appreciate the opportunity to represent them today, and I 
look forward to your questions.
    [The statement of Secretary Winter follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Murtha. Admiral Roughead.

                 Summary Statement of Admiral Roughead

    Admiral Roughead. Chairman Murtha, Congressman Young, 
distinguished Members of the Committee, on behalf of our 
600,000 Sailors, civilians and families, I appear before you 
today.
    Together with Secretary Winter and General Conway, I am 
privileged to be a part of the leadership team that is 
committed to our Nation's safety, security and prosperity. 
Today our Navy stands ready with the agility, the flexibility 
and the confidence to do what no other navy in the world can 
do. Four weeks ago we successfully and temporarily converted a 
portion of our sea-based Ballistic Missile Defense program to 
engage a failing satellite.
    Sea-based Ballistic Missile Defense is here, it is real, 
and it works. But that is only part of what your Navy does for 
the Nation. We are exercising our new maritime strategy every 
day, a strategy that is far more than just a glossy brochure. 
Our carriers are projecting power in the Arabian Gulf, our 
destroyers are demonstrating our resolve in the Mediterranean, 
an amphibious ship is engaged in piracy operations on the east 
coast of Africa, and another is delivering humanitarian 
assistance to the west coast of Africa. Our frigates are 
intercepting drug traffickers in the Caribbean Sea, our 
Riverine forces are patrolling vital infrastructure on the 
Euphrates River in Iraq, and our submarines patrol silently 
around the globe.
    We have 118 ships and over 58,000 people on deployment out 
and about doing the work of the Nation. But as you so well 
know, our operations come at a cost to our people, our current 
readiness and the future Fleet, and those are my three 
priorities. Our people, our Sailors, our Marines and their 
families know they have your support. We must continue to 
invest in their futures and in the young men and women of 
America who will follow in their wake.
    In the context of this generational war, it is imperative 
that we continue to care for our wounded warriors and support 
the health care needs of all of our Sailors and Navy civilians. 
Likewise, your support for the critical skills reenlistment 
bonuses has enabled us to retain the Sailors that we need.
    Supporting our future force cannot be done without 
readiness to fight today. To this end, quality shore 
installations, responsive depot-level maintenance facilities 
and unfettered ability to train responsively are necessities. 
Where area access and shore support is denied, the Commandant 
and I have been moving forward together with the sea-basing 
alternative. These elements are essential to support our Fleet 
Response Plan, which has enabled us to meet requirements and 
will sustain us through the requested temporary carrier force 
level adjustment.
    Of my three focus areas, building tomorrow's Navy to be a 
balanced, appropriately sized force is the most immediate 
imperative and challenge. Fiscal realities, however, have led 
us to assume more risk in shipbuilding, ship operations and 
weapons. Achieving the 313-ship floor at current funding levels 
will require us to improve processes, collaborate with industry 
and make difficult decisions in the near term.
    I am pleased that the first two DDG 1000 contracts have 
been awarded. Our surface combatants are an essential element 
of our force, and it is important that we do not deplete the 
combatant line as we build toward 313 ships.
    I remain strongly committed to funding those programs that 
provide critical capabilities to our forces. There is no 
substitute for the Littoral Combat Ship in closing the littoral 
capability gap. Current F/A-18 Hornets are needed to assuage a 
2016 strikefighter shortfall. Surface combatant superiority 
will be maintained through DDG-51 modernization. Multimission 
maritime aircraft will recapitalize our maritime patrol 
antisubmarine warfare capabilities, and sea-based Ballistic 
Missile Defense will ensure future theater and national defense 
and enable access for our Joint Forces.
    These critical programs for our future Fleet require 
appropriate disciplined investment now. The 2009 budget and its 
associated force structure plans will meet our current 
challenges with a moderate degree of risk. Clearly we have many 
challenges of which building tomorrow's Fleet is the greatest, 
but with these challenges it is our opportunity to have a 
balanced and global Fleet which will defend the Nation and 
assure our prosperity for generations to come.
    On behalf of our Sailors, our Navy civilians and our 
families, thank you again for the opportunity to appear before 
you and for all the support for our Navy today and our Navy of 
tomorrow. I look forward to your questions.
    Mr. Murtha. Thank you.
    [The statement of Admiral Roughead follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
                  Summary Statement of General Conway

    General Conway. Chairman Murtha, Congressman Young and 
distinguished Members of the Committee, I pledge to always 
provide you with forthright and honest assessments of your 
Marine Corps. I bear that in mind as I come to report to you on 
the posture today of our Service.
    In your written statement, I provided you a list of 
priorities that would enable your Corps to best serve our 
Nation's security interests both today and in the uncertain 
future. But, in brief, our young warriors in combat are my 
number one priority. Those magnificent patriots have been 
extremely effective in disrupting insurgents and the al Qaeda 
in the al-Anbar Province.
    In the spirit of jointness, I must note that it is not just 
Marines; rather Marines, Sailors and Soldiers are composite 
over time that has brought success in the al-Anbar. Your 
Marines are still supporting the surge in Iraq where we have 
already shifted from population to protection to transitioning 
security responsibilities to Iraqi security forces, and they 
are actively stepping up to the task.
    In answer to the most recent call from the Secretary of 
Defense, we are also deploying more than 3,400 Marines to 
Afghanistan. Your Marines will assist a joint force in either 
gaining or maintaining momentum there. We fall in on our 
expeditionary ethos of living hard and fighting well as part of 
an air-ground team. This deployment will keep us at surge 
levels well into October.
    I have just returned from a visit to Iraq and Afghanistan, 
and, ladies and gentlemen, I am pleased to report to you that 
your Marines are demonstrating an amazing resiliency in the 
face of multiple deployments to dangerous lands. In spite of 
one-to-one deployment-to-dwell regimen that has virtually no 
chance of getting better until the fall, the factors that we 
track monthly to determine the health of the force, and those 
include desertion and UA rates, suicide, divorce, child or 
spousal abuse and reenlistment rates, are all as good or better 
than they were in 2001.
    We do have a significant issue with our families. Simply 
put, they are proud of their contributions to this war, but 
they are tired. We owe it to those families to put our family 
service programs onto a wartime footing. For too long our 
programs have been borne on the backs of volunteers, perhaps 
acceptable during peacetime, but untenable during a protracted 
conflict. The Congress has been exceptionally supportive, 
enabling us to make good on promises to do more.
    Of course, we look well beyond today in our obligation to 
the Nation, and we have learned lessons of trying to build the 
force as we fight. In our response to a clear need, we are 
growing the Corps to 202,000 Marines. We do this without 
lowering our standards, and we are ahead of our goals. During 
the last fiscal year, we needed to bring aboard 5,000 
additional recruits. We actually grew 7,000 additional Marines, 
96.2 percent of them high school graduates.
    But more than just manpower, this growth requires training, 
infrastructure and equipment to meet the needs of our Nation. 
You have helped us meet those requirements with steady support 
and encouragement, and for that we certainly thank you.
    The Marine Corps retains the mission to provide the multi-
capable force for our Nation, a two-fisted fighter, if you 
will, able to destroy enemy formations with our air-ground team 
in a major contingency, but also able to fall back on our hard-
earned irregular warfare skills honed over decades of conflict. 
By far the most complex of our congressionally mandated 
missions, amphibious operations require deliberate training and 
long-term resourcing to achieve a high level of proficiency. 
The operational expertise, special equipment sets and 
amphibious lift are not capabilities that we can rapidly 
provide in the face of a threat.
    Finally, on behalf of your Marines, I extend great 
appreciation for your support thus far, and I thank you in 
advance for those efforts on behalf of your brave Service men 
and women in harm's way. I assure you that the Marine Corps 
appreciates the increasing competition for the Nation's 
discretionary resources and will continue to provide a tangible 
return on every dollar spent. Thank you, Mr. Chairman, for the 
opportunity to comment.
    Mr. Murtha. Thank you very much.
    [The statement of General Conway follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
                  NAVY AND MARINE CORPS INFRASTRUCTURE

    Mr. Murtha. Let me start out by saying that, you know, it 
is one thing to talk about how we support the families. We have 
put $400 million, this subcommittee did, last year. The Defense 
Department cut that back to $240 million. I mean, that doesn't 
look like it is supporting the families the way we think they 
should be supported. They have inadequate facilities in many 
places, they have inadequate counseling in many places. We do 
the best we can between this subcommittee and the members of 
this subcommittee, we try to make sure--we know how important 
the families are to the members themselves that are serving 
overseas. And it is discouraging when the Iraqis aren't 
stepping up putting their money in, the Europeans are not 
stepping up putting their money in. And the United States 
taxpayer keeps putting more money into these--$343 million a 
day.
    But infrastructure is something we are going to try to do a 
little bit more for, medical infrastructure, this year. We are 
going to transfer money to the Military Construction 
Subcommittee; also for just regular infrastructure. But the 
shortages that we see and that you are talking about have to be 
taken care of. But we hope we will be able to get started in 
that direction this year. We see a change in direction. We want 
to look past Iraq into the future because there is nobody more 
than the Navy that prevents a war. You can deploy quickly, you 
can deploy to an area where they understand the might and 
military impact of the United States. And with the equipment 
the shape that it is in, it is going to be more difficult.
    For instance, I don't even need to ask you if we can get to 
313 ships at the numbers that the administration is sending 
over because it can't be done. And so we are going to add some 
ships, or at least we are going to recommend to the 
subcommittee that we will add some ships, to what you folks 
have been able to--what OMB has been able to let you recommend 
to the committee.

                         MARINE CORPS TRAINING

    But let me ask you a question, Commandant. How long does it 
take you to train somebody for amphibious warfare? What would 
you say if you stop training from the current type training you 
are doing and you start training for amphibious warfare, the 
conventional-type operations?
    General Conway. Sir, the issue is training certainly. But 
the larger issue is trainers, for years, and my coming up 
through the Corps, we always had this cadre of people who are 
very well experienced in amphibious operations, kind of the old 
hands who had been ship's company and had done multiple 
operations or exercises. Those folks are steadily leaving us. 
And we are not creating that cadre of trainers behind them. So 
that is my larger concern.
    It has been four years now since we have done major 
amphibious exercises. I think it will be at least four years 
before we can gain back some of that level of expertise and get 
to a level of comfort to the point where that once again 
becomes a core competency. And I may be optimistic thinking 
that it is a one-for-one exchange. It may be worse than that.

                             CG(X) CRUISER

    Mr. Murtha. This is a problem that we have when we are 
training for this type of warfare and yet looking ahead trying 
to get past. So one of the things that I worry about, repairing 
equipment, nobody has done more than this Committee trying to 
put in enough money for reset and rehabilitation. While I am 
looking ahead, I am thinking to myself, if we don't start 
buying new equipment, if we don't start getting past this and 
buying the new equipment, we will never get to the point where 
we need to get where we have less maintenance costs, less fuel 
costs.
    The Army came to this Committee about the FCS. Well, I have 
always been worried about FCS because it is $160 billion, and I 
don't see how we will get there. Well, they are trying to come 
up with a way they can cut back on some of the reset and get to 
the newer equipment, which reduces maintenance costs, reduces 
fuel costs. One of the proposals we have had is jump right over 
the destroyers and go to the cruisers which would be nuclear 
power. Yet it is impossible to get there, from what I 
understand, just because of the ship--the need to have an 
industrial base. In fact, we wouldn't have any ships in some of 
the shipyards. Is that a possibility at all?
    Mr. Winter. Mr. Chairman, there are several aspects 
associated with the ongoing DDG 1000 program. First of all, it 
is a very different ship than what we envision for the cruiser. 
It is the one mechanism of providing naval surface fire support 
to the Marines. And it is an ongoing activity that is very, I 
think, well planned and well established and critical to 
maintain in terms of ensuring that the industrial base is able 
to continue to evolve. At the same time, we need to make sure 
that we set the right groundwork for the cruiser development in 
the future.
    We are still going through the analysis of alternatives 
associated with the CG(X) program. I think the process is a 
good one. I think the right questions are being asked. We also 
need to make sure that we take the time to answer those 
questions before we just run right into the development of that 
program, sir.
    Mr. Murtha. I hear two stories. One is that the nuclear-
powered cruiser will save us a lot of money in fuel costs, and 
yet the up-front costs are so much, it would take 25 or 30 
years to make up for that initial cost. Is that accurate?
    Mr. Winter. Well, sir, I think there is still a question as 
to what the break-even point would be. That is highly dependent 
on the cost of oil, and numbers have been bandied about from 
everything from $100-a-barrel oil, which is basically where we 
are right now, to $300 a barrel of oil, depending upon what you 
see is the future. And I can get estimates all over the map. 
Depending on who I talk to, you will get estimates all over the 
map. Depending on who I talk to, you will get different break-
even points.
    The other issue is that in the commercial world, I could go 
out in my old life and borrow money to be able to accommodate a 
cost savings in the future. We can't quite do that here. And so 
the additional costs associated with nuclear power for any of 
our surface combatants would come at the expense of other top 
line.
    One other point I would make is that we know how to deal 
with nuclear power. We have got a tremendous track record, and, 
in fact, at this point in time, roughly half of the reactors 
operational in the United States are operated by the Navy. At 
the same time, I will tell you it takes a while to configure a 
reactor plant for a vessel, and it does provide some 
significant constraints. It is a lot easier to put a nuclear 
reactor in a large ship like a carrier than it is to be able to 
do it in a more volumetrically challenged vessel like a 
destroyer or a cruiser.
    Mr. Murtha. Mr. Young.

                          NAVY SONAR TRAINING

    Mr. Young. Mr. Chairman, thank you very much.
    Chairman Murtha in his statement and one of his questions 
emphasized the importance of the Navy, and there is no doubt 
the importance of the Navy not only to Navy and the Sailors, 
but the Marines onboard the ships. And the mission of those 
ships is extremely important. But protecting those ships so 
they can perform the mission and protecting the crews onboard 
the ships is important.
    Brings me to the subject of training. We have seen in 
recent times where we lost the training areas in Vieques, for 
example; we have lost bombing ranges for one reason or another. 
And now we are about to lose training areas for sonar; sonar 
which is very, very important to protecting the ships to do 
their mission and to protect the troops onboard.
    You had an appeal to the Federal appeals court recently. 
Your appeal was rejected. I assume that you are not going to 
give up without a little more of a fight, considering the 
importance of sonar training to the protection of our Navy.
    Mr. Winter. Sir, I fully anticipate that we will be 
submitting a brief shortly for the Supreme Court to appeal the 
matter at hand associated with the southern California 
operating area.
    Mr. Young. Who will handle that? Will the Navy handle that, 
or will the executive branch----
    Mr. Winter. Department of Justice has the official 
responsibility for the actual matters. We have a dedicated team 
within the Department of the Navy within the General Counsel 
Office, supported by the JAG Corps and the operational Navy 
staff, providing the technical support to that activity.
    Mr. Young. Mr. Secretary, what will be the impact if you 
lose that appeal?
    Mr. Winter. I think that the impact could be very 
significant in terms of providing a series of constraints on 
our ability to train. Sonar is, I believe you know, and I would 
like to make sure everyone else does understand--is a 
phenomenology that in Iraq's, if you will, environment, sonar 
operation depends upon where you are, what the water column 
looks like, what the seabed looks like. And training of the 
Fleet needs to occur in areas that mimic, if you will, the 
operating areas that we expect to be encountering in our 
future. Without the ability to fully engage in that training, I 
think we would be hard pressed to argue that our Fleet was 
prepared to deal with the future threat.
    I would also note that the training activities that we 
engage in take place over extended periods of time. It is not 
just a matter of turning on a sonar, getting a quick reading 
and deciding that you have got something worked. The engagement 
between the submarine force and the surface force that is 
trying to deal with it takes place over a long period of time. 
The interruption of that training, even if a whale or other 
marine mammal is seen at a great distance, can have a 
significant impact on the integrity of that training exercise.
    And so we have a lot of concerns. We believe we have put 
forth a very good program right now. We have a series of 29 
mitigation measures that we have operationally employed now for 
several years, and these measures call for surveillance of the 
test area, continuing observation, looking for marine mammals, 
and a very studied approach of reducing power, and, if 
necessary, turning off the exercise if a marine mammal gets too 
close. That approach, that set of mitigation measures, has 
proven to be very effective, and we have not had a single 
documented case of injury or death to a marine mammal since 
those measures have been put into place. To further build upon 
those and to keep on constraining the test regime further and 
further, which seems to be an approach desired by some out 
there, I think would hurt us significantly. And I ask CNO to 
comment.
    Admiral Roughead. The challenges that are being posed by 
new designs of submarines are significant. They are becoming 
quieter, they are getting smaller, they do not have to come up 
and recharge their batteries as often as submarines in the past 
have had to do. They are difficult targets. And they are also 
proliferating at a significant rate.
    We estimate that in the next two decades the submarine 
inventory in the world will increase by 50 percent, and that 
poses a challenge to the sea lanes of the world. We must be 
able to practice. We must be able to train. But we also have to 
be able to train in those areas that allow us to not only 
practice our antisubmarine warfare skill, because an adversary 
is going to throw everything they can at us--they are going to 
throw their submarines at us, they are going to attack us with 
cruise missiles, with airplanes, with other ships, and that is 
why we have to be in areas where we can bring all of those 
types of challenges to our Sailors so that they know what it is 
going to be like, and that they are properly prepared, that 
they know how to use their equipment, and that they are going 
to win.
    Mr. Young. Recently Captain Carney took me to visit where 
you train sea mammals to do some pretty exciting and pretty 
important missions for the Navy. And some of the scientists 
that we met with--and I asked the question, what is the effect 
of sonar on the whales or the other sea mammals? Their 
response, and they seemed to be in agreement, was that if it is 
uncomfortable for the whale to be in the area where the sonar 
is being exercised, he leaves. That seemed like a pretty simple 
answer to me. And, you know, these were scientists. I assume 
that they know what they are talking about. But I certainly 
hope that you succeed, and that we are not denied, because as 
the Admiral just mentioned this, how serious this threat could 
be, and we all know about the Chinese submarine that recently 
trailed some of our Navy vessels undetected. So I hope that you 
are successful in that appeal to the Supreme Court.

                      AFGHANISTAN TROOP DEPLOYMENT

    Mr. Chair, if I could ask a general question about the 
Afghanistan deployment. NATO has said that we need about 7,000 
additional troops in NATO. You are going to send 3,400 marines, 
which is going to, according to your own statement, stretch you 
really thin. What do we know about whether or not NATO is going 
to actually step up and provide the additional 3,500 to 4,000 
additional troops that we feel that we need there?
    General Conway. Sir, I can only say, it is my perspective 
that that is not a closed chapter yet. I know that the 
Secretary and the Chairman attend frequent quarterly 
discussions with our NATO partners and allies, and it is the 
topic virtually on every occasion. So they continue to 
encourage them, if they can't provide maneuver battalions, 
provide police trainers, provide PRTs or provide soft kinds of 
power that the Afghan Government needs to become more effective 
in what it does for the people. So they continue to pound their 
drum, sir. I think I can fairly well assure you.
    Mr. Young. Well, it seems like NATO is not really stepping 
up as they should. Hopefully we can find some way to impress 
upon them the importance of not being undermanned there and so 
that we can have a successful conclusion.
    Mr. Chairman, thank you very much.

                         CONTINUING RESOLUTION

    Mr. Murtha. One of the things I just wanted you to send for 
the record, I want to know what a CR would mean to you, because 
I am not sure we are going to have a bill this year just 
because of the problems that we have in both bodies. So send me 
a document that shows what would happen if we had a CR rather 
than a base bill this year. We will have a 2008 supplemental, 
but I am not sure we will have anything but a CR to get us 
through the rest of the year.
    [The information follows:]

    The Department of the Navy carries out programs that will need to 
be executed at the beginning of FY 2009 that would require adequate 
Continuing Resolution Authority (CRA) apportionment should the Congress 
implement CRA. These include Military Personnel bonus payments, 
mobilization costs, food service contracts, operations contracts for 
communications, equipment maintenance, facilities sustainment and 
restoration, as well as logistics support. Special consideration would 
also be required for multiple procurement contracts scheduled to fully 
execute at the beginning of the fiscal year.
    Operating under a CR impedes our ability to honor commitments and 
award annual contracts. While the actual impact of operating under a CR 
is dependant upon both the level of funding authorized and the length 
of time approved, generally continuing resolutions are disruptive to 
operations. Without adequate funding while under a CR, the Department 
of the Navy may suffer readiness degradation of both deployed and non-
deployed Navy and Marine Corps forces. The ability to continue the 
current pace of operations in Iraq and Afghanistan will be met, but 
preparing for the next rotation of forces or other contingencies may be 
jeopardized. The Navy may have to reduce air operations, ship 
operations, and combat support and delay ship depot maintenance. Also, 
environmental restoration requirements, and annual Base Operating 
Support contracts may not be issued along with Navy Service Wide 
Transportation contracts. Lastly, active military pay accounts for both 
the Navy and Marine Corps would likely be insolvent soon into the CRA 
period without additional authority to continue bonus and mobilization 
payments.

                      NAVY CONTRACTORS IN THEATER

    Second is I would like to have the number of contractors 
that the Navy has by category. I need to know whether security 
people, whether there are service people, foreign nationals and 
so forth. The Army is going to send me the same kind of list. 
So I would appreciate it if you would send us that list so we 
can find out. I was disappointed to hear that Secretary of the 
Army had 190,000 contractors in Iraq and Afghanistan. And I 
asked him the categories so we could see exactly what he is 
talking about. I know we need contractors. Do you have 
something?
    Mr. Winter. Sir, just as a point of clarification, if I 
could ask, you are talking about contractors in theater?
    Mr. Murtha. In theater, yes.
    Mr. Winter. In theater. Thank you, sir. I would be happy to 
provide that.
    [The information follows:]

------------------------------------------------------------------------
              FY 2008 Type of contractor               Total contractors
------------------------------------------------------------------------
 Service.............................................                 31
 Security............................................                  0
 Foreign.............................................                  7
 Logistics Support...................................                 72
 Maintenance Support.................................                113
 Sustainment Support.................................                 34
 Training Support....................................                 96
 Staff Support.......................................                 19
 Performance Based...................................                131
 Comm Svcs Support...................................                 52
 Spectrum Management.................................                  2
                                                      ------------------
     Total...........................................                557
------------------------------------------------------------------------

    Information provided by U.S. Fleet Forces Command, as the Navy 
Global Force Manager. These FY 2008 estimates do not include Logistics 
Civil Augmentation Program (LOGCAP). LOGCAP is a U.S. Army initiative 
for peacetime planning for the use of civilian contractors in wartime 
and other contingencies. These contractors will perform selected 
services to support U.S. forces in support of Department of Defense 
(DoD) missions. Use of contractors in a theater of operations allows 
the release of military units for other missions or to fill support 
shortfalls. This program provides the Army with additional means to 
adequately support the current and programmed forces.

    Mr. Murtha. Mr. Moran.

                        RECRUITING AND RETENTION

    Mr. Moran. Thank you, Mr. Chairman. That was a provocative 
question there.
    I have got a couple of questions, but first I want to make 
a little observation, particularly to you, General Conway. So 
my nephew Kevin pulls a Jack Murtha, and he drops out of 
college so he can join the Marines, so he can fight in Iraq. So 
he finishes up Parris Island, and he is all set. You know, he 
is a football player-type guy, he is really gung-ho. And the 
Marine Corps says, sorry, you have to go into financial 
management training. We need all you smart guys to be going 
into financial management. He says, financial management? I 
want to go fight in Iraq. He says, well--he says, why financial 
management? They said, well, the Congress is saying that we 
don't have enough control over our spending, so we need to get 
more people in financial management. So I blamed it on Norm 
Dicks.
    I do want to ask you about--oh, about recruiting and 
retention, because there aren't a lot of Jack Murthas around, 
quite frankly, and as a result you are having to spend about 
$300 million on bonuses; $60,000 for specialty needs. How are 
you doing on meeting those specialty occupational categories 
that you so desperately need?
    General Conway. Sir, we have been doing very well. We have 
been very pleased with our ability at a time in the country 
where the propensity on the part of all three major ethnic 
groups is not to join the military. We have been pleased with 
the ability of our recruiters to get out and to get into the 
schools and bring in the numbers that we need. As I mentioned 
in my opening statement, we thought we could keep the standards 
high and do about 5,000 a year after adding about 300 
recruiters to the field and some use of bonuses, but not large 
numbers of bonuses, let's say, for enlistment. We apply bonuses 
more for reenlistment really than we do for initial entry. We 
have been able to manage all the fields pretty effectively.
    And to your sort of vignette, sir, our recruiters tell us 
if they had all just infantry MOSs, they could close out by 
about the 10th of every month. That is the threat of great 
young Americans out there that want to fight for their country, 
if that is what the country is doing. We have a program, by the 
way, that tries to get every Marine into the fight. So if your 
nephew will be patient with us, there is every possibility or 
maybe probability we will get him where he wants to go.
    Mr. Murtha. Would the gentleman yield?
    Mr. Moran. Yes, sir.
    Mr. Murtha. Can you do without these bonuses? I joined, my 
three brothers joined, my dad and his brother joined. Can we do 
without these bonuses? Can't we rely on patriotism to get these 
guys in?
    General Conway. Sir, if I had to separate out the Services, 
and I don't like to do that because there is, I think, a 
necessary inflection, that is what we do. We don't offer a 
$40,000 college loan or a small business loan when you get out. 
The bonus that an average Marine takes is probably on the order 
of $3,000 to $5,000. And what we sell is the fact that you are 
going to be a United States Marine. You are going to go fight 
for your country, and you are going to be a Marine for life.
    Mr. Moran. Mr. Chairman, Kevin didn't get a penny. And he 
doesn't know of any--his father could have used it. Okay. I 
have got another question here.

                          JOINT STRIKE FIGHTER

    This is a little more serious, so we are going to ask 
Secretary Winter about the Joint Strike Fighter. Investment now 
approaches about a trillion dollars, awful lot of planes, and 
we are told that the total acquisition cost increased by more 
than $23 billion because of higher procurement costs. The GAO 
states that $288 billion for acquisition is unreliable because 
it is insufficiently documented. And then the GAO found that 
three independent defense offices separately concluded that 
program cost estimates are understated by as much as $38 
billion, and that the schedule is going to slip from at least a 
year to more than 2 years.
    You know, if we are spending nearly $1 trillion on the 
development and procurement of an aircraft, we have got to make 
sure that it meets our needs. And you really have to wonder 
what is such a substantial challenge that is going to face us 
in the near future for dominance of the airspace? We have got 
it. Nobody has any interest in trying to contest us for 
dominance of the airspace. And the GAO tells us that 90 percent 
of the acquisition program is still ahead of us. I mean, we are 
talking about an enormous amount of money.
    Why do we need to be investing so much in an aircraft that 
really seems to be more about winning the last war, the Cold 
War, than dealing with the current threats to America's 
security by people and groups that are never going to have any 
jet fighters, even bombers, to contest air sovereignty? Do you 
want to handle that?
    Mr. Winter. I will take a crack at it, Congressman.
    First of all, I will suggest that the JSF program, the F-35 
program, is designed to provide us with a broad spectrum of air 
support capabilities that deal with the current engagement as 
well as any of the engagements that we are looking at in the 
future. The value of tactical air is something that has been 
proven time and time again, and for the most part, it relates 
to being able to control the air, but also to be able to 
project power from the air to the ground in support of ground 
forces or naval forces that are within the area of 
responsibility.
    JSF is an overlay program, if you will. It has three 
separate components. It supports the STOVL, the short takeoff 
and vertical landing capability, that is critical to the Marine 
Corps right now for our big deck amphibs. We really have only 
one class of aircraft that is capable of flying off of them. 
That is the Harrier. That is a very old aircraft. It is in 
great need of replacement, and it is the core of our ability to 
provide support to our embarked Marines and any future 
amphibious operation that they engage in.
    Similarly, the future for the Navy, the carrier variant is 
the mechanism of providing future capabilities that will span 
the spectrum of threats that we have to deal with for naval 
aviation, to be able to project power from the sea or to be 
able to deal with threats at the sea. A lot of the program is 
still ahead of us because we are still in the process of 
development.
    We have established a program here of fly before you buy. 
We are going through a detailed evaluation and development 
activity to ensure that we have what we need. We are not going 
to place orders for any of these aircraft for production 
purposes until such time as we have had sufficient flight test 
evaluation. That is coming up here very shortly. We expect to 
see the STOVL first flight coming up here this year, later this 
year, and I think that that will be a good milestone at which 
point we will be able to evaluate where we are in terms of the 
overall development process and where we think we will be in 
terms of the future cost estimates.
    Mr. Moran. It is a great answer. That is what you are 
supposed to tell us. But, you know, the Navy and Marine Corps 
are absolutely essential, are always going to be absolutely 
essential, but we are getting to the point where this is kind 
of a zero-sum game. When you put a trillion dollars into the F-
35, you are taking it from someplace else. And I really 
question 2,500 jet fighters at a trillion dollars is the best 
possible use of an enormous amount of resources that might 
otherwise go into other needs to address the real current kind 
of threat we face. But that is just a comment, and I appreciate 
the answer. There is nothing wrong with the answer, but I am 
not sure there isn't wrong with some of the policies.
    Mr. Murtha. Mr. Frelinghuysen.

                          CHINESE NAVY BUILDUP

    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Gentlemen, good morning. Thank you for your service, and 
those of you that look after in Iraq and Afghanistan and around 
the world, and certainly to those who serve in the Navy doing 
in their military occupations things they weren't trained to do 
specifically, guarding those convoys and at time probably 
prisoners, all sorts of things that are pretty key and 
important to us.
    One of the ways to discuss posture, which is sort of the 
focus of this hearing, is to talk about what other nations are 
doing. And I think quite a lot we focus on the build-up of what 
is happening in China. I think maybe less attention is focused 
on Russia. You are familiar, Admiral, with--you know the 
incident in late 2006 of the Navy--Chinese Navy apparently 
stalking the Kitty Hawk and putting up a submarine within 
firing distance without supposedly being detected. I assume 
that sub was a diesel. Do they have nuclear subs?
    Admiral Roughead. Yes, sir, they do.
    Mr. Frelinghuysen. I assume it was a diesel sub.
    Then we read last November of a Chinese Song-class 
submarine tracking the Kitty Hawk in the Taiwan Straits. It was 
monitored by an antisubmarine aircraft watching the sub, and, 
of course, it was described in the paper as, I quote, the first 
direct military confrontation between the two nations' naval 
forces since 1996.
    Besides the obvious build-up of concern about the obvious 
build-up of Chinese forces, what can you tell us about these 
incidents as they relate to the--sort of the tactics and 
strategies that you are looking at? How do we posture 
ourselves, given these and other types of incidents?
    Admiral Roughead. Yes, sir. And I was the Pacific Fleet 
Commander at the time, and on the last incident that you 
mentioned, I questioned the credibility of that news report.
    But what we have done in recent years is we have looked at 
the posture that we must have, particularly in the Pacific, 
because the Pacific is a very important region for us from a 
security standpoint, the allies that we have there, but also 
economically, and it contributes directly to our prosperity. We 
have shifted our carrier force so now we are biased more toward 
the Pacific. We have done the same thing with our submarines. 
We have forward home-ported some of our submarines in Guam so 
that we have more presence, greater response in the Pacific 
area. We continue to exercise with our allies and partners in 
that region, and antisubmarine warfare is extremely important. 
That is why the training is so important.
    But it is also key to recall that in some cases countries 
are able to export some of these systems, and so to simply look 
at one particular flag and see that as a potential threat, I 
think it has to be broadened out. Where are some of these 
systems, advanced systems, finding their way? And that is 
important to do as well.
    Mr. Frelinghuysen. But by all reports, you know, obviously 
we have repositioned ourselves. But, you know, I assume some 
people must be alarmed by the talk of the Chinese, you know, 
producing, you know, a goal of 200 submarines. I am not sure 
what the figure was in terms of surface vessels. And they do a 
pretty good job of--for their own technological development. 
And what they don't get there I assume they steal from us or 
get from other sources.
    I mean, in terms of sort of sounding the alarm here, you 
know, while we talk about the size of the fleet, and we know 
how expensive it is to bring new ships on line, are you 
concerned about their build-up? I know we always go with the 
old issue of, you know, overwhelming force, and we are--you 
know, our capabilities are better. But the Chinese are no 
slouches. And, there is often talk of 2015. But Chinese aren't 
waiting to 2015. How do you gauge where the Chinese are going, 
and how closely are we keeping an eye on their development of 
new technology as well as the vehicles that carry them?
    Admiral Roughead. Well, we watch naval developments around 
the world, and clearly China is the navy that is increasing in 
capability and capacity faster than any other navy on the 
globe. There is no question in my mind, and I have had the 
opportunity to meet with their leadership, with my counterpart, 
on a couple of occasions, that there is no question that they 
are developing what we refer to as a bluewater navy, a navy 
that can range farther from their shores. They also have a much 
longer view than others have. Their objective is to become a 
significant regional navy.
    There is no question that the issue of Taiwan is always 
first and foremost in their mind, but as you look at the 
development of the Navy, it is also a navy that is focused on 
the sea lanes of communication and being able to assure the 
flows that fuel their growing economy. So they are doing that.
    But in addition to the hardware, it is also important that 
we look at the people, and my first contacts with the PLA Navy, 
the leadership tended to have gotten into their positions 
through political means. The leadership in the PLA Navy today 
came up through operational paths. They understand what it is 
like to operate a navy at sea, and they see this vision of 
their navy as a significant regional navy and, I believe, 
expanding out and becoming global as time goes on.
    Mr. Frelinghuysen. The view is, at least from my reading, 
is that there--what it may have been described as somewhat 
political once, you would never call it amateurish, is that 
they are doing--you know, they are sort of concentrating their 
development of their military in a very highly professional 
manner. I mean, it may not be mirroring our Special Forces or, 
you know, your SEALs, but in reality they are emulating the 
best of what is out there, and we need to be prepared for it.

                    UNMANNED COMBAT AERIAL VEHICLES

    Just on one system here, could you comment about the drone 
combat squadron, who is--the whole issue of your seeking, I 
think, a competitive prototyping in preparation of fielding a 
first squadron of unmanned combat aerial vehicles. Are those 
carrier-based?
    Admiral Roughead. Yes, sir. That is part of a--kind of what 
I would call a family of unmanned vehicles beginning with----
    Mr. Frelinghuysen. You have things going off carriers now?
    Admiral Roughead. No, sir, we are not flying unmanned 
vehicles off of our carriers. We are flying unmanned vehicles 
off of some of our ships, but the article that you reference is 
moving to an air combat vehicle, one that can provide striking 
power off the carriers, and it is part of a stepped and phased 
development.
    Mr. Frelinghuysen. That is in some ways pretty 
revolutionary given the fact that, you know, obviously the 
whole issue of a man behind the controls, not that there aren't 
men behind these controls, but one could view that as somewhat 
of a major departure.
    Admiral Roughead. Well, I think, sir----
    Mr. Frelinghuysen. Perhaps a positive departure.
    Admiral Roughead. The significant thing is being able to 
operate those airplanes, combat airplanes, off of an aircraft 
carrier in an unmanned way. Our other unmanned programs address 
other needs that we have in maritime surveillance. But this is 
something that is fairly complex; landing on an aircraft 
carrier, taking off can get pretty sporty, and we have never 
done it with an unmanned vehicle before. It has a little longer 
view than some of the other unmanned programs that we have.
    Mr. Frelinghuysen. Okay. Thank you, Mr. Chairman.
    Mr. Murtha. Mr. Frelinghuysen, did you get a bonus when you 
went into the Army?
    Mr. Frelinghuysen. I sure didn't.
    Mr. Murtha. Look where he has ended up, huh?
    Mr. Moran. This is a random sample.
    Mr. Frelinghuysen. I am glad you are leaving.
    Mr. Murtha. Ms. Kaptur.

                  INTERNATIONAL SHIPBUILDING INDUSTRY

    Ms. Kaptur. Thank you, Mr. Chairman. Welcome. Thank you for 
coming today.
    Admiral Roughead, I would like to ask you a question about 
the structure of the Chinese shipbuilding industry. To what 
extent does the Government of China subsidize the manufacturing 
of and construction of ships there? And have you looked at that 
issue?
    Admiral Roughead. I have not done the economic analysis, 
but my sense is it is heavily subsidized.
    Ms. Kaptur. Is it really not an arm of the state and--of 
their government?
    Admiral Roughead. I would say that they are state 
industries with a view toward becoming a dominant shipbuilding 
industry in the world.
    Ms. Kaptur. I agree with that. And the question I have, 
coming from a maritime community that has suffered greatly over 
the years with the loss of both hardware as well as the people 
who make the ships, though we are not a deepwater port, what do 
we do in your budget to capture every single dollar we can, 
knowing that they are the primary producers in the world today, 
correct? The work that was being done in Korea is now moving up 
to China. I think if you look at the shifting nature of 
shipbuilding in the world, what do we do with your budget and 
every element of it, leasing, the leasing you are now doing, 
phasing that out? How can we possibly compete with these 
private companies in our country against a subsidized industry 
like that? How do we use your budget to restore shipbuilding 
capacity in this country and all the componentry that goes into 
it? How do we do that?
    Admiral Roughead. Yes, ma'am. I would say that my focus is 
on building warships, and the quality, the sophistication of 
the ships we build is unmatched by any nation in the world. But 
it is important that we get to the capacity issue, and that is 
why getting to the 313-ship fleet is so important to me as the 
CNO.

                     LEASING OF FOREIGN BUILT SHIPS

    Ms. Kaptur. Well, you also have many smaller vessels, 
Admiral. You have vessels that carry ammunition, and you are 
leasing those vessels now. They weren't built here. And I don't 
see the Department as fully conscious of the threat that is out 
there, particularly from China, in using every tool we have in 
order to restore our waning capability on the seas for all 
types of vessels.
    Admiral Roughead. Mr. Secretary, do you want to take that?
    Mr. Winter. If I could, ma'am, first of all, in terms of 
the leased vessels, we are reducing our dependency on those 
leased vessels. We are down from 22 leased vessels to 17 at 
this point in time. These are short-term leases, under five 
years, and they really represent an opportunity, if you will, 
to surge and to be able to bring into support roles vessels 
that are not currently being manufactured for which we do not 
have a good economic argument for manufacturing the full-time 
ownership of.
    We are putting a lot of effort into investing in those 
capabilities that provide the U.S. shipbuilding industry with 
the ability to produce ships at lower cost, and this comes by 
way of everything from contractual arrangements with the 
individual yards to install a lot of technology which is 
available elsewhere outside the United States for the most 
part. That does assist us in terms of our surface combatants. 
And in cases where that technology can be applied to yards that 
support multiple applications--and unfortunately there is only 
one of those yards right now, major yards, that is a Nassco 
facility in San Diego which builds both Jones Act ships as well 
as logistics support ships for us--there is value that they are 
able to accrue both to their commercial endeavors as well as to 
their activities for the Navy.
    Ms. Kaptur. Well, Mr. Secretary, do you monitor where the 
subcontracts go? For example, if a ship is taken to China, and 
the front half is whacked off and something is welded on the 
back, do you monitor your subcontracts to do everything 
possible to make sure that everything is done in this country 
rather than shipped somewhere else?
    Mr. Winter. On all of our ships, most definitely, ma'am.
    Ms. Kaptur. What about the electronics?
    Mr. Winter. The electronics is the same thing. All of the 
modifications to our ships are all done, they are all managed 
and appropriately assessed by the Navy organizations that have 
the responsibility for management.
    Ms. Kaptur. Are they made in this country, sir?
    Mr. Winter. Excuse me?
    Ms. Kaptur. Are they made in this country?
    Mr. Winter. Every ship in the Navy register, all of our 
combatants are.
    Ms. Kaptur. All of the vessels under your command are made 
in this country, every single component?
    Mr. Winter. Outside, not every single component, ma'am, but 
the vast majority of them are. The vast majority of the 
components are.
    Ms. Kaptur. Well, I would appreciate a letter from you, 
from your Department, that summarizes for me where you think 
the challenges are to retain that production capacity in this 
country.
    Mr. Winter. I would be pleased to do that, ma'am.
    [The information follows:] 

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    
                     MARINE CORPS TROOP DEPLOYMENT

    Ms. Kaptur. All right. I wanted to ask General Conway, 
thank you very, very much for your service.
    What percent of the Marines under your command are serving 
a third tour or more in combat in Iraq? Do you know that 
number?
    General Conway. No, ma'am, I don't. I take surveys every 
time I hold a town hall, and of the audiences there routinely, 
60 to 70 percent will have deployed. I will ask for a second 
and a third time or even a fourth time, and a fifth time I will 
ask for a show of hands. So I will say, increasingly we have 
three-time deployers, but I would have to get the exact 
percentage for you.
    Ms. Kaptur. I would be very interested, and in the trend, 
General. I am very interested in the trend if that is 
increasing, which I think it is.
    [The information follows:]

    The current number of Marines per deployment are:
          One Deployment: 93,511
          Two Deployments: 32,996
          Three Deployments: 3,683
          Four or More Deployments: 154

    General Conway. But the one thing, ma'am, I would explain 
to you is that unlike the other Services, we will serve about a 
three-year tour in the operational forces. And then we will 
have our Marines and our officers go to what we call a B 
billet, and it will be there for about three years, and then 
they will come back to the operating forces. So we don't have 
some of the people that spend seven, eight, nine years in the 
operating forces consecutively to roll up some of these large 
numbers.
    Now, some of those folks are starting to come back because 
we have been at this so long. This summer we are going to see 
some people come back, I think, that maybe left the operating 
forces in 2004, 2005, and we will have to see what the impact 
is on that for our retention.
    Ms. Kaptur. Mr. Chairman, my time has probably expired, but 
I did want to ask the General if he could--
    Mr. Murtha. I wanted to end this before the votes because 
there is a series of votes. So we will go to Mr. Rothman.
    Ms. Kaptur. Could I ask the General to provide for the 
record, Mr. Chairman, the issue of urban warfare training in 
U.S. cities by the Reserves, the Marine Reserves is an issue 
that has hit our community directly, and it was very 
troublesome what happened. I would like to know from you 
whether this is happening in Active forces anywhere in our 
country, if urban warfare training is occurring in U.S. cities, 
and what are the conditions for that, or whether it is just 
happening on the Reserve side.
    General Conway. No, ma'am. It happens with the Active 
forces. It has been happening since the mid-1980s almost 
without interruption or without any incident. So I was a little 
bit surprised to see the one happen as it did in Ohio.

    [The information follows:]

    LtGen Bergman, Commander Marine Forces Reserve personally met with 
Congresswoman Kaptur to discuss the Toledo, OH issue and answer her 
questions.

    Ms. Kaptur. Thank you.
    Mr. Murtha. Mr. Rothman.

                     MARINE CORPS MISSION TRAINING

    Mr. Rothman. Thank you, Mr. Chairman.
    Gentlemen, thank you for your very distinguished service to 
our country. The Marine Corps has many officers who have never 
been deployed on a Navy ship, I have been told. Is that true?
    General Conway. Increasingly, sir, that is true.
    Mr. Rothman. Does that disturb you?
    General Conway. Immensely.
    Mr. Rothman. And with regards to that issue, as well as the 
lack of training for amphibious landings, does this new budget 
address that; and if so, how, please?
    General Conway. Sir, it does indirectly. And it transcends 
just amphibious operations. We are not doing live-fire maneuver 
exercises anymore. We are not going to cold-weather training. 
We are not going to jungle training. The part of the budget 
that assists us in managing that and making it better is in 
growing the force.
    There are two reasons we wanted to grow the Marine Corps. 
One was to be able to facilitate our deployment-to-dwell. 
Second was to be able to provide relief in the process so we 
could spend more time with the families and more time doing 
training.
    Mr. Rothman. And training for these other things?
    General Conway. Yes, sir, exactly. If we can get this 
deployment-to-dwell something more akin to seven months 
deployed, 14 months home, we can sustain that. We think we can 
do the training, and we think the families will be much 
happier.

                       HEALTH OF THE MARINE CORPS

    Mr. Rothman. Very good. I only have a few minutes.
    There is this new issue of Foreign Policy magazine, the 
March-April 2008 issue, which apparently contains a survey 
which was conducted jointly with the Center for a New American 
Security where they asked 3,400 officers holding the rank of 
major or lieutenant commander and across all the services, 
Active Duty and retired general officers and field grade 
officers, about their views of the health of the military. And 
here are some troubling findings.
    They said that 60 percent of the U.S. military see the U.S. 
military as weaker today than it was 5 years ago; 60 percent. 
And with regards to the Marine Corps in particular, the 
majority of the responses indicated that on a scale of 1 to 10, 
1 being no concern about readiness effectiveness and 10 being 
extreme concern, the majority of the responses indicated a 7, 
indicating great concern about the health of the Marine Corps.
    Would any of you gentlemen wish to address this?
    General Conway. Well, since you left off with the Marine 
Corps, sir, I will start and say that I think I would probably 
be about a 6 or a 7 myself.
    Now, in terms of the capability of the force, we are much 
more capable than we were five years ago. We have more Marines, 
we have more equipment, we have combat training. And I would be 
much more comfortable sending that force into a fight than I 
was leading the force into a fight in 2003.
    But the concern I think these people are representing is 
that our core competencies, which go well beyond 
counterinsurgency, are not being trained to, not being 
conducted these days, to make sure that we can go anywhere and 
do anything for this country.
    Mr. Rothman. And that will be addressed to your 
satisfaction in your budget?
    General Conway. Sir, the budget will help, but what we 
actually need over time will be, again, more time spent at 
home. You can do that through growing the force. You can do 
that through reducing the requirement.
    Mr. Rothman. Right.
    General Conway. If the requirement is reduced, and we are 
able to manage these deployment requirements more effectively 
with a larger force, then we will be back to doing those 
things, and we will be in much better shape as a result.

                          CHINESE NAVY BUILDUP

    Mr. Rothman. And to the CNO, with regards to China, two 
questions. One was, if I wrote this down correctly, you 
questioned the credibility of the news report?
    Admiral Roughead. Yes.
    Mr. Rothman. Now, I am a lawyer by training. Are you 
refuting the accuracy of the news report?
    Admiral Roughead. The reference to the encounter in the 
Straits of Taiwan, I would refute that.
    Mr. Rothman. Okay. Good. And with regard to the buildup of 
the Chinese submarine force, it seems like a considerable 
effort on their part. And I heard what you said, that this is 
their effort to protect their energy supplies, and they are 
doing this to be a regional power, but you did say with 
probability that they wish to become a global sea power as 
well. Does your budget that you are submitting to us address 
the challenges of this growing submarine fleet from the 
Chinese?
    Admiral Roughead. Our budget, sir, represents the balance 
that we must have in the Fleet and the capabilities that we 
have. It does address our ability to operate as a global Navy 
and prevail.
    Mr. Rothman. Thank you, Mr. Chairman.
    Mr. Murtha. Thank you very much. I have to say it is hard 
for me to believe that you are a 6 or a 7, Commandant. You are 
not working out, huh?
    The Committee is adjourned until 1:30.
    [Clerk's note.--Questions submitted by Mr. Murtha and the 
answers thereto follow:]

                               Seabasing

    Question. The Maritime Pre-position Force (Future) (MPF(F)) is the 
backbone of entirely seabased operations. The Navy envisions this 
capability as a fleet of 14 ships that will provide pre-positioned 
equipment for a fly-in force, provide at-sea arrival and assembly of 
this equipment, direct support of the assault chelon of the task force, 
indefinite sustainment of the landing force and at-sea reconstitution 
and redeployment of the landing force. The initial procurement of the 
ships that comprise the MPF(F) was scheduled to occur in fiscal year 
2009 but the Navy has slipped procurements to at least fiscal year 2010 
and has removed some of the ships (Auxiliary Dry Cargo Carrier) for its 
outyear budgets along with no plans for procurement.
    Admiral Roughead, the plan for acquiring the ships that will 
comprise the Maritime Pre-positioning Force (Future) have changed 
drastically since last year. Can you summarize the Navy's rationale for 
this change and the plan for eventually acquiring these ships?
    Answer. MPF(F) was initially envisioned to provide a pre-positioned 
lift capability for a first responder, brigade-size force, which would 
reduce reliance on facilities in the theater and minimize 
vulnerabilities ashore early in a campaign. Within the last year, the 
Navy/Marine Corps team has continued to refine the role of MPF(F). 
Accordingly, the Navy has delayed procurement of MPF(F) platforms to 
further analyze operational requirements and concepts of employment. 
The Navy plans to deliver MPF(F) while balancing overall warfighting 
requirements, costs, and industrial base realities. The Navy remains on 
track to deliver the Full Operational Capability for MPF(F) in FY 2022.
    Question. General Conway, as the use of the Maritime Pre-
Positioning Force, how will this impact the Marine Corps and were you 
included in the decision process to delay ship acquisition?
    Answer. The Maritime Prepositioning Force (Future) program is a 
critically essential element of the nation's warfighting capability, 
and shipbuilding programmatic delays should be avoided to ensure this 
vital national capability becomes available as soon as possible.
    The Marine Corps requires three Marine Expeditionary Brigade's 
(MEB) worth of expeditionary warfighting capability and lift. We have 
already accepted risk in our amphibious lift capacity by agreeing to 
fiscally constrain shipping availability for each of our two assault 
echelon (AE) MEBs from 17 to 15 ships. The Fiscal Year 2009 30-year 
shipbuilding plan does not provide the exact mix of required LHA/LHD's, 
LPD's, and LSD-41/49 equivalents, which further amplifies the risk 
we're taking in our amphibious forcible entry capabilities.
    The Marine Corps intends to fight any major contingency operation 
as a Marine Expeditionary Force, which consists of three MEB 
operational maneuver elements. The first two of those MEBs are intended 
to be employed from the amphibious AE shipping described above, and the 
third MEB maneuver unit will operate from MPF(F) to reinforce and 
support the amphibious AE units.
    The 30 operationally available amphibious ships required for 2.0 
MEB AE, coupled with MPF(F)'s 1.0 MEB-level reinforcing and support, 
and the Assault Follow-On Echelon (lifted by Military Sealift Command 
black-bottom shipping) provide the 3.0 MEB necessary to enable a 
seabased, MEF-level warfighting capability.
    The Marine Corps continues to be an integral part of the decision 
process within the Department of the Navy for programming and budgeting 
of resources. We understand that budget and program realities force us 
to make tough choices. In the case of MPF(F) and the rest of our 
amphibious lift, we continue to work budget and program issues within 
the Department of the Navy.

                      Reliable Replacement Warhead

    Question. The Reliable Replacement Warhead was originally 
envisioned to ensure the aging stockpile could meet its long-term 
mission by improving the long-term reliability, longevity, and, 
certification of the existing weapons and associated components. 
However, the design effort led by the Department of Energy has 
seemingly led to the development of a whole new program. Last year the 
Committee markup removed all funding for Reliable Replacement Warhead 
program. The budget request for fiscal year 2009 contains funding to 
commence work on phase 3 engineering development portion of the program 
despite the fact that all fiscal year 2008 funding for the Department 
of the Energy was removed from the program.
    Secretary Winter, the fiscal year 2009 budget request contains 
funding for the Reliable Replacement Warhead program to commence phase 
3 efforts in 2009 despite the fact that there is no Department of 
Energy funding for the program in fiscal year 2009. Is it prudent for 
the Department of Defense to get so far ahead of the Department of 
Energy on this effort?
    Answer. No Navy effort on the Replacement Warhead is planned unless 
approved and funded by Congress and coordinated with the Department of 
Energy (National Nuclear Security Administration). FY 2009 funding can 
be used to restart the Phase 2A effort if Congress concurs. It is 
important that the Phase 2A study or a similar one be resumed in order 
to properly inform the next Nuclear Posture Review. If not, the Navy 
proposes to continue work on advanced fuse technologies and safety 
architectures that have multi-platform/multi-service applications.
    Question. Secretary Winter, is it the Navy's intention to support 
further development of a new nuclear weapon with this funding?
    Answer. No. The Navy placed FY 2008 funding on hold when Congress 
zeroed funding for the National Nuclear Security Administration (NNSA) 
in the FY 2008 Energy and Water Authorization Bill. No Navy effort on 
the Reliable Replacement Warhead is planned unless approved and funded 
by Congress and coordinated with NNSA.
    Question. Secretary Winter, in the context of the new nuclear 
weapons strategy has the Department of Defense articulated a need for a 
new nuclear weapon?
    Answer. In February of 2007, the Joint Requirements Oversight 
Council approved the program to pursue a replacement warhead to augment 
the existing Navy strategic deterrent capabilities.

    [Clerk's note.--End of questions submitted by Mr. Murtha.]
                                          Thursday, March 13, 2008.

                 NAVY/MARINE CORPS ACQUISITION PROGRAMS

                               WITNESSES

JOHN THACKRAH, ACTING ASSISTANT SECRETARY OF THE NAVY FOR RESEARCH, 
    DEVELOPMENT AND ACQUISITION
VICE ADMIRAL BARRY McCULLOUGH, DEPUTY CHIEF OF NAVAL OPERATIONS FOR 
    INTEGRATION OF CAPABILITIES AND RESOURCES
LIEUTENANT GENERAL JAMES F. AMOS, DEPUTY COMMANDANT OF THE MARINE CORPS 
    (COMBAT DEVELOPMENT AND INTEGRATION)

                              Introduction

    Mr. Moran [presiding]. The Committee will come to order. 
And I want to recognize the Ranking Member, Mr. Young, for a 
motion.
    Mr. Young. Mr. Chairman, I move that those portions of the 
hearing today which involve classified material be held in 
executive session because of the classification of the material 
to be discussed.
    Mr. Moran. So ordered. Thank you, Mr. Young.
    This afternoon the committee will hold a closed hearing on 
Navy and Marine Corps Acquisition.
    We are very pleased to welcome Mr. John Thackrah, who is 
the Acting Assistant Secretary of the Navy for Research 
Development and Acquisition; Vice Admiral Barry McCullough, 
Deputy Chief of Naval Operations for Integration of 
Capabilities and Resources; and Lieutenant General James Amos, 
Deputy Commandant of the Marine Corps for Combat Development 
and Integration.
    These gentlemen are very well qualified to discuss 
Department of the Navy acquisition and to answer the questions 
of the committee.
    Secretary Thackrah and Admiral McCullough and General Amos, 
we thank you for being here this afternoon. We are here to talk 
about the acquisition of Navy and Marine Corps equipment. The 
Committee is very much concerned about the readiness of the 
Department in terms of equipping the force. Systems are 
becoming ever more complicated and too often in developmental 
programs the desire to begin production overruns technological 
maturity and we are faced with delays and restructures.
    One only need flip the pages of the budget request to find 
several programs where this reality has overcome good 
intentions. As in years past, shipbuilding is the centerpiece 
of the Navy's acquisition program. Also as in years past, the 
Navy's request is insufficient to reach and maintain your 
stated requirement of 313 ships. The committee is very much 
interested in hearing how you plan on reaching your required 
ship count when the administration, time and again, fails to 
provide the necessary resources to do so.
    We were very pleasantly surprised to see the budget 
increase almost $2.5 billion for Navy and Marine Corps aviation 
programs in light of the looming tactical aircraft shortfall. 
This is certainly a step in the right direction.
    So, gentlemen, we look forward to your testimony and to a 
spirited and informative question-and-answer session.
    Mr. Moran. Before we hear your testimony I want to call on 
our very distinguished Ranking Member, our friend Mr. Young, 
for his comments.

                          Remarks of Mr. Young

    Mr. Young. Well, Mr. Chairman, thank you very much. And I 
want to share and join you in welcoming our very distinguished 
witnesses to the table today. I agree with the Chairman's 
statement on the 313-ship Navy.
    Many years back, I was one of the original Ronald Reagan 
supporters of the 600-ship Navy, but something happened between 
then and now and we are struggling to keep up with 313. I think 
you are going to have to accelerate your program even beyond 
what the budget request indicates in order to do that.
    I am also concerned about the fighter shortfall. As you 
retire your F-18s in favor of the Joint Strike Fighter, which 
has a few challenges of its own--and specifically the Marine 
Corps, General, I understand that once your Harriers are gone--
and you might comment on the status of the Harriers--but when 
your Harriers are gone and before you get the Joint Strike 
Fighters you are without, the Marine Corps is without any kind 
of a jet aircraft.
    We would like to hear some comments about that. But other 
than that, Mr. Chairman, we have a lot to do, so I yield back.
    Mr. Moran. All right. Thank you, sir.
    Mr. Moran. And thank you for making this hearing, and Mr. 
Frelinghuysen and Mr. Bishop.
    Mr. Secretary, we understand that you will be the only one 
making a statement so you can proceed with your summarized 
statement, if you wouldn't mind, and your entire statement will 
now be placed in the record. Thank you. Mr. Secretary.

                Summary Statement of Secretary Thackrah

    Mr. Thackrah. Thank you.
    Mr. Chairman, Mr. Young and distinguished members of this 
Committee, it is an honor and a privilege for Vice Admiral 
McCullough, Lieutenant General Amos and me to appear before you 
today to discuss the Navy and Marine Corps' acquisition 
programs. With your permission, I would like to submit my 
written testimony for the record.
    Mr. Moran. So ordered.
    Mr. Thackrah. As the Acting Assistant Secretary of the Navy 
for Research, Development and Acquisition since November 2007, 
I serve as the Navy senior acquisition executive. Despite my 
acting status I fully accept the authority, responsibility and 
accountability for all Navy and Marine Corps acquisition 
functions and programs.
    The development of this budget has not been easy. Tough 
decisions had to be made to balance risk and be responsible 
stewards of the tax dollars entrusted to us.
    I would like to briefly highlight part of my written 
testimony. Our fiscal year 2009 budget procurement requests 
$41.1 billion. Specific requirements include $14.1 billion in 
funding for seven new-construction ships and $14.7 billion to 
procure the 206 aircraft to meet our long-term consolidation 
and recapitalization efforts. Noteworthy is for the first time 
in a long while, Navy's budget does not fund any lead ships, 
and our request is for over 200 aircraft.
    With congressional support for our GWOT efforts, the Mine 
Resistant Ambush Protected, or MRAP, vehicle is making vital 
contributions in protecting our Marines and Sailors from 
improvised explosive devices.
    The Department of the Navy is the lead Service for the 
joint MRAP vehicle program. Since competitive awards began in 
February of 2007 and principally as a result of the commitment 
to streamline every acquisition action, the MRAP team has been 
able to produce over 6,000 vehicles and has fielded, in the 
hands of the user, more than 2,700 to two theaters of 
operations in service.
    In addition, our budget request includes $19.3 billion for 
total RDT&E to transform our force with next-generation 
platforms into mature technologies for our procurement 
programs. S&T funding of $1.8 billion is also requested, which 
equals a real growth of 6 percent from the fiscal year 2008 
level, to ensure a robust base of options for the threats today 
and in the future. To provide a balanced fleet of ships, 
aircraft and expeditionary capabilities, we have to control our 
costs.
    Under Secretary Winter's leadership, the Department 
launched an Acquisition Improvement Initiative to insert 
discipline across the Department, without altering the existing 
Department of Defense processes. The initiative includes an 
acquisition governance which engages Navy and Marine Corps 
leadership in a set of gate reviews on all programs for 
agreement on definitive sets of requirements throughout the 
acquisition review process.
    We have also reinvigorated our acquisition workforce 
investment.
    Finally, to bolster our acquisition leadership, the Navy 
has selected a three-star admiral to serve as my principal 
deputy.
    In closing, we have the most powerful naval forces in the 
world and we are looking ahead to build on the strength in 
order to prevent future wars. Our partnership with Congress and 
the Navy and Marine Corps is necessary to sustain our position 
in this uncertain world and to maintain the safety of our 
Sailors and Marines.
    I believe our budget request strikes a proper balance to 
meet present and future challenges, follows on a long-term path 
of program stability, and meets the requirements of this 
partnership.
    I thank you for the opportunity to testify today and 
welcome any questions you may have.
    Mr. Moran. Thank you very much Mr. Assistant Secretary.
    [The joint statement of Secretary Thackrah, Vice Admiral 
McCullough, and Lt. General Amos follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                MINE RESISTANT AMBUSH PROTECTED VEHICLE

    Mr. Moran. We appreciate your coming to testify and respond 
to questions. I have just a couple I would like to ask.
    But first I think I will ask General Amos about the MRAPs. 
When lives are directly affected, when we know we can save 
lives with a particular piece of equipment, money is really no 
object; so it is a very distant secondary consideration. But 
there is some concern about, for example, the flexibility of 
MRAPs. In an urban area or from the Marine Corps' perspective, 
even in a muddy area, there is limited flexibility. It just 
doesn't operate as well as we would like. But the concern 
arises, What are we going to do with these after the war is 
concluded?
    Do you have plans for--since we are shipping as many as we 
can as fast as we can to the theater in Iraq--what are we going 
to do with them once there is some political reconciliation and 
we start to pull out of Iraq?
    General Amos. Right now I think the number is 1,101 that 
are in the Green Zone that belong to the Marines today. That 
includes 38 that we are shipping into Afghanistan. So we are 
going to use the ones--and our number, total buy for us, is 
2,225, as you know when we talked the last time.
    Mr. Moran. It is 2,225?
    General Amos. Yes, sir. And we have got a little over 1,100 
in theater right now. And as we continue to buy toward the end 
of the summer, we will continue to put more in theater in the 
Green Zone. Yet to be seen how many we are going to put in 
Afghanistan, because we just don't know. We have got the early 
forces, the 24th MEU, on the ground today, and eventually will 
flow 3,400 Marines and Sailors in there. So we are not quite 
sure. But we do know that--we anticipate there is going to be a 
requirement on the major roads.
    And you are absolutely right, Congressman Moran, this is a 
worthwhile investment and it is a great vehicle. It is not an 
off-road vehicle. And it is not a vehicle to use in many of the 
little mud-walled, very tightly dense-packed urban areas that 
we operate in. So it has an application.
    Since we met the last time, since I came in here and 
testified the last time and I was asked about--and I believe it 
was Congressman Bishop who asked me about are we going to put 
these on MPF, our Maritime Preposition Ships, and the answer is 
we probably are. We are working on that. I told you at the time 
that I wasn't sure how they would fit weight-wise.
    A couple of things have happened since then. Number one, 
there is a recapitalization effort about to take place where we 
are going to be able to get rid of some of our legacy MPF 
ships, get some LMSRs and be able to put more stuff. So I think 
we are going to put some on MPF. We are not sure how many yet. 
The total requirement, known requirement right now that we have 
in the Marine Corps, enduring requirement, is for a little over 
400 of them for the future. And that is for EOD, route 
clearance missions, and that kind of thing.
    So there is a difference, I know, between that and the 
2,225, but there is an unknown Congressman Moran. And what I 
want you to understand is--or believe--that we are going to 
take good care of these things. We are probably going to end up 
forward-basing a bunch of them in the CENTCOM AOR. If you think 
about missions that we might do in Africa, that might be a 
perfect vehicle for some of those kinds of environment. So 
there is a question. We are not quite sure. But we are going to 
take care of them. We are more than likely going to 
preposition. We are probably going to cocoon a bunch of them. 
And then we will have some on MPS. We are just not quite sure 
yet.

                    PRESIDENTIAL HELICOPTER PROGRAM

    Mr. Moran. Thanks, General.
    I only have one more area for questioning before turning it 
over to Mr. Young. But this is to Secretary Thackrah. The 
Presidential helicopter program has experienced well-publicized 
cost growth over the last year, caused by a combination of 
technical problems and requirement changes. The current request 
before the committee for this program is over $1 billion, but 
contains no schedule details beyond this fiscal year.
    This marks the second consecutive year that the Navy has 
requested a large amount of funding for a program with no 
schedule details provided as justification. So you are asking 
the Congress to take quite a leap of faith to appropriate over 
$1 billion to a program with no long-term plan nor much of a 
short-term plan.
    When will the Navy provide an executable program schedule? 
What is the root cause of all of the problems and turmoil on 
this program?
    Now, it appears that the Department is really just throwing 
good money after bad in the hopes that things might get better. 
So we would like to know what assurances you can provide this 
subcommittee that the Presidential helicopter program is in 
fact on track finally, and will actually field aircraft on the 
schedule required by the White House. Mr. Secretary.
    Mr. Thackrah. Thank you, Mr. Chairman, for that question. 
The Presidential helicopter program is, as you are aware, 
segregated into two increments. Increment one of this program 
currently has aircraft in flight test and is moving along 
according to the schedule that has been advertised. Increment 
two of this program is currently on stop-work and is pending 
incremental funding and decisions on the way ahead from the 
White House. Meetings have been ongoing relative to the status 
of this program. We are expecting decisions imminently on the 
final definition of increment two and where we will be going 
forward.
    The cost overruns that you refer to are well advertised. 
They are real. We have requested additional funds. That was 
largely due, as we have testified before, to a 
misunderstanding, if you will, of requirements between the 
Department of the Navy and the supplier. We have since sorted 
all of that out, and we now have high confidence that clearly 
that understanding is in place, it is understood. We now need 
to get the final definition and decision on the final stages of 
increment two.
    Mr. Moran. Okay. It has been kind of a frustrating 
experience; but I mean, we will take you at your word. It is 
not you, but I have to say once more, you know, we will assume 
those assurances. And we don't necessarily blame you, but it 
has been a problematic program.
    Mr. Dicks. Mr. Chairman would you yield? Who is the 
supplier?
    Mr. Thackrah. This is Lockheed Martin.
    Mr. Moran. Don't say Northrop Grumman.
    Mr. Thackrah. No, sir, this is Lockheed Martin.
    Mr. Dicks. Lockheed Martin. And the helicopter comes from 
Italy?
    Mr. Thackrah. The base helicopter is an Augusta Westland 
aircraft based on their commercial EH-101 aircraft.
    Mr. Dicks. Thank you.
    Mr. Moran. Thank you, Mr. Dicks. Mr. Young.

                    LPD-17 AMPHIBIOUS TRANSPORT DOCK

    Mr. Young. Mr. Chairman, thank you very much.
    General Amos, the number one unfunded requirement for the 
second year in a row for the Marine Corps is an additional LPD-
17. We have already appropriated for nine of these ships, but 
the fiscal year 2009 budget includes $104 million for closeout 
costs. This doesn't appear to be compatible with what you 
consider your needs to be. What do you have to say about that?
    General Amos. Sir, I appreciate the opportunity to comment 
on that. And that is truly our number one unfunded priority. As 
the Commandant says, we need the ship, we need 11 of them. The 
program of record was 11 ships, it wasn't nine. Right now we 
are going to spend $103 million in 2009 to essentially close 
the line down.
    I was down there with the Commandant and the other three-
stars in New Orleans about 3 or 4 weeks ago for an off-site. 
Walked on board the ships, went on board the GREEN BAY, had a 
tour of the shipyard, got to see the keel laid. It is quite an 
operation. I am very enthusiastic about the ship, but we need 
to continue with the requirement, Congressman, and so nine is 
not enough. It is not going to get us what we need. So we need 
the tenth LPD. We need to commit to it and then we need to move 
on and build the 11th LPD as well.
    Mr. Young. If we took the $104 million of the budget 
request for closeout and then we applied that to another LPD-
17, how much more would we need?
    General Amos. Sir, I am going to let Admiral McCullough 
answer, but it is not going to be enough for advance 
procurement, but it would put some seed money down. So it is 
probably better off that Admiral McCullough answers that from a 
money perspective.
    Admiral McCullough. Yes, sir, Congressman, I appreciate the 
question. The cost of an LPD-17 is $1.7 billion. So if we took 
the $103 million and applied it to that cost, we would need 
roughly another $1.6 billion, sir.
    Mr. Young. Could these LPD-17 hulls be used for any other 
kind of ship?
    Admiral McCullough. Yes, sir. We are investigating that 
right now, use of an LPD-17 hull as a replacement for our 
afloat command ships. The MOUNT WHITNEY, which is deployed in 
European theater and the BLUE RIDGE which is deployed in the 
Pacific theater.
    Mr. Young. Where is the disconnect? If the Marines feel 
strongly that they need the LPD-17s, but the administration 
asks for money to close out the line, there is a disconnect 
here somewhere; that if the Marines feel like they need the 
ships, we probably ought to be doing something about that 
rather than closing the line.
    Admiral McCullough. Yes, sir. In the 30-year shipbuilding 
plan, the Commandant specified a requirement for 33 amphibious 
ships in the assault echelon: 11 aviation capable, 11 LPD-17s, 
and 11 LSDs, 41 or 49 class. The CNO, Admiral Roughead, concurs 
with General Conway's determination, so we agree with the 
Marines' requirement.
    That said, given the amount of money we had in the 2009 
program and the demands across the entire Navy, both in 
shipbuilding and other programs, we could not fit one in the 
2009 budget. We have done some work to try to extend the 
estimated service lives of some LHA-1 and LPD-4 class ships to 
alleviate some of this concern. I grant you that those ships 
will not, coupled with the ones we have, meet the entire 
amphibious lift requirement in the assault echelon at 2.0-MEBs. 
But given the amount of money and the priorities of the Navy, 
that is the best we could do in fiscal year 2009. We will 
revisit this in the POM 10 program, sir.
    Mr. Young. If we all were to agree that we should provide 
the advanced funding for additional LPD-17s, either in 2009 or 
2010, our research has indicated that it would probably take 
about $260 million to do that. Is that an accurate figure?
    Admiral McCullough. Congressman, I believe that is close; 
yes, sir.
    Mr. Young. Okay. I think we need to think about this a lot 
and try to make things happen right. Mr. Chairman, thank you.
    Mr. Moran. Thank you very much Mr. Young. Mr. Vice Chairman 
Dicks.

                        MARITIME PATROL AIRCRAFT

    Mr. Dicks. Thank you very much. I wanted to ask a question. 
Where are we? How are we doing on the--I understand we have 
problems with the P-3s and that--does that mean--are we going 
to try to accelerate the Poseidon program? PA--what is it, PA-
8?
    Mr. Thackrah. P-8A, sir.
    Mr. Dicks. P-8A, better known as MMA?
    Mr. Thackrah. Yes, sir, that's correct. Mr. Dicks, thank 
you for that question. The P-3 aircraft is an aging aircraft. 
We have been----
    Mr. Dicks. Built by Lockheed Martin, isn't that correct?
    Mr. Thackrah. That's correct, sir. We have put 39 of those 
aircraft down, sir, as a result of some analysis that has been 
done on the fatigue life characteristics of the wings on that 
airplane. This does not indicate at all that there is a current 
safety flight issue. It is an analysis that has been done, 
based on fatigue testing, to say that we need to be paying 
particular attention and preparing to replace certain sections 
of the wings of those aircraft to assure that they are safe to 
fly.
    The pullout of those aircraft out of the fleet has prompted 
us to look at various ways to maintain its capability within 
the fleet operations, and multiple ideas are being considered. 
One of those, obviously, is the procurement of replacement wing 
components and the rebuild of those wings on the P-3. The other 
of course is, as you mentioned, the acceleration of at least 
one of the A capabilities provided by the P-8A MMA aircraft. We 
are in the process of doing that analysis as we speak, and will 
be evaluating that as part of our FY 2010 budget development 
process.
    Mr. Dicks. Admiral Roughead included $100 million as a top 
priority on his unfunded priority list to accelerate the P-8A 
production. How would that funding be used if it were provided?
    Admiral McCullough. Yes, sir. There are a couple of sets of 
funding. There is $100 million that you referred to in RDT&E. 
There is $364 million in fiscal year 2008 to work on the wing 
box problem in zone 5 that Mr. Thackrah addressed, as well as a 
need of about $312 million in fiscal year 2009.
    Mr. Dicks. This is all in the existing plan?
    Admiral McCullough. The 300 numbers I gave you on the 
existing P-3s. The $100 million in RDT&E that the CNO referred 
to is to accelerate the initial operational capability of the 
P-8A Poseidon from fiscal year 2013 to fiscal year 2012, 
approximately 15 months.
    Mr. Dicks. And for my colleagues, this is a 737 being done 
at Renton, Washington?
    Admiral McCullough. Yes, sir. It is a militarized variant 
of the 737 baseline aircraft, but there are a lot of 
differences in the two aircraft.
    Mr. Dicks. How is the program doing?
    Admiral McCullough. The program is doing very well, sir. We 
have the ability to accelerate it given the extra funds. That 
would allow us to deploy three squadrons at IOC in fiscal year 
2012 if we receive them.
    Mr. Dicks. And they are using an inline production method; 
isn't that the way they characterize it?
    Admiral McCullough. That is correct.
    Mr. Dicks. Why don't you explain that, because it is 
relevant also to the tanker decision; because Boeing wanted to 
do an inline approach on the 767, was downgraded for it. 
Explain the inline method that is used on the 737.
    Mr. Thackrah. Mr. Dicks, thank you for that question. 
Boeing at the Renton plant in Renton, Washington as you 
mentioned, transitioned, once their sales requirements demanded 
it, to have a moving line for producing the 737 aircraft, not 
unsimilar to the way most auto manufacturers make cars. Most of 
Boeing's larger commercial aircraft are made in batch-line 
setups, for example, up at their Everett, Washington facility. 
But in Renton they went to a moving line that allowed them to 
process 30 aircraft a month through that assembly line.
    Mr. Dicks. Per month?
    Mr. Thackrah. Per month.
    Mr. Dicks. And they can militarize that airplane, as I 
understand it, but they have to always--they have got all kinds 
of regulations, like ITAR, that means you have got to worry 
about foreign nationals and making sure they are not working at 
the same place that a--and we waive all this for people--I mean 
for other countries. We waive this regulation. They don't have 
to meet this regulation, but we have to meet it; isn't that 
right?
    Mr. Thackrah. For the assembly of this aircraft, sir, 
certainly Boeing will have to comply with the ITAR 
requirements. Yes, sir, that's correct.
    Mr. Dicks. But how do you feel about this program--I mean, 
the MMA replacement? Do you think it is moving well now? I 
understand there was some hiccup a couple years ago when they 
first started this, but they have got this thing turned around. 
That is what a development program usually is about.
    Mr. Thackrah. Sir, this program is on track, meeting 
schedule, and within the budget allocated.
    Mr. Dicks. Is Boeing doing a good job as the integrator?
    Mr. Thackrah. Yes, sir.

                      TANKER AIRCRAFT REQUIREMENTS

    Mr. Dicks. Here is one issue and, General, I am going to 
leave this up to you to help me on this a little bit. We are 
under--we have been told, and people should realize that the 
Navy and the Marine Corps use these tankers just like the Air 
Force does; isn't that correct?
    General Amos. Yes, sir.
    Mr. Dicks. And one of the things we are told--and I would 
like you to find out if this is accurate--that the 767 
competitor would have refueled the Osprey, the V-22, but that 
the Northrop Grumman larger airplane, because of speed 
concerns, can't refuel the Osprey. This would be a big thing to 
the Marine Corps, wouldn't it?
    General Amos. Sir, we would want a tank off this airplane 
and the Osprey. Now, I don't know that any Ospreys have gone up 
and tanked behind a KC-135.
    Mr. Dicks. Well, you can't do that. But the 767 we are told 
would be able to do it?
    General Amos. And I can't speak to that, sir.
    Mr. Dicks. I thought it would be something you would want 
to think about and evaluate.
    General Amos. Sir, I will. I will take that back and--
seriously, because I will tell you what, we have got airplanes 
now, we have sold a V-22 on its worldwide deployability. And we 
do that with its great range as a result of in-flight 
refueling.
    Mr. Dicks. But the fact that if our new tanker, because of 
its size and speed, couldn't refuel you, that would be a 
serious detriment, wouldn't it?
    General Amos. Sir, it would be something we would be very 
interested in.
    Mr. Dicks. I think you need to check into this, General, 
and I will be eager to hear your answer.
    General Amos. Sir, I will. We will get back to you on that.
    [The information follows:]

    The Marine Corps supports the need for a new strategic 
tanker to support our tactical jet fleet and we look forward to 
the possible operational flexibility the KC-X will provide if 
it can refuel the MV-22. If the KC-X cannot refuel the MV-22, 
the effect on the Marine Corps will be minimal as we are 
capable of globally self-deploying the V-22 using our own KC-
130 aerial refueler aircraft.

    Mr. Dicks. Thank you. Thank you Mr. Chairman.
    Mr. Murtha [presiding]. Mr. Frelinghuysen.

                MINE RESISTANT AMBUSH PROTECTED VEHICLES

    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    General Amos, just following up on the MRAP, there seems to 
be, obviously, a focus on what their use might be in future 
wars. And I am not asking you to do an advertisement for MRAP, 
but from what I hear from soldiers and marines, they are damn 
lucky; they feel that those MRAPs have saved lives.
    I wasn't here for the Army's testimony yesterday, but I do 
understand that of the IED attacks on MRAPs I think we have 
lost, I think, one soldier. But you would agree, despite what 
we hear about issues of weight and flexibility, that on the 
battlefield our marines and soldiers like them?
    General Amos. Sir, they do. They love them. And I can 
personally testify. I stood in front of two staff sergeants, 
Marine staff sergeants and a Navy corpsman, and you may have 
seen that picture of the Humvee--or, excuse me, the MRAP that 
had the motor blown out, the whole front end blown off. And I 
stood in front of them, in front of that vehicle, and all three 
of them walked away and they are here today. And so they love 
it. We love the vehicle. It just has restrictions. In other 
words, there are places we just can't take it.
    Mr. Frelinghuysen. They are damn heavy. I forget how much 
they weigh.
    General Amos. Sir, they are very heavy. And they are really 
not an off-road vehicle. So if you start thinking about 
mobility off highways and you are out over terrain, then what 
kind of vehicles do we--we are buying vehicles like tanks, we 
are buying vehicles like--we have our Light Armored Vehicles 
(LAVs), we are going to buy the Marine personnel carrier that 
off road will be able to stay up with mechanized vehicles of 
forces advancing rapidly, and this can't. But there is a place 
for it in our inventory, there absolutely is.
    And because it is so new--remember, we just really started 
getting large numbers of them in there this past fall. We are 
still learning where it can go and where it can't go. And that 
is the reason why we lowered the numbers 3,700 to 2,225, was 
once we got enough in there and we began to actually use them 
for operations, we began to realize that there are spots that 
you just can't take it. But we love the vehicle and the Marines 
love it.

                             LPD-17 PROGRAM

    Mr. Frelinghuysen. Okay. Thank you for your response.
    Admiral McCullough, last year I quizzed your predecessor, 
and this is sort of apropos of Congressman Young's questions 
about the LPD-17, the condition of the San Antonio. That was 
the lead ship. And it was a little bit unclear, but that ship 
suffered some pretty massive cost overruns. It had some 
problems with its sea trial.
    Where is the San Antonio today? And as we are rolling out 
other ships and moving ahead with various buys, how would you 
characterize it?
    Admiral McCullough. She is working with the Fleet right now 
and they are doing amphibious operational testing with that 
ship pretty much today as we speak.
    Mr. Frelinghuysen. So the ship is complete or incomplete?
    Admiral McCullough. It is complete, sir. LPD-18, as you 
know, was delivered with some outstanding work. That is in the 
process of being corrected. LPD-19 was delivered complete.
    Mr. Frelinghuysen. So whatever the problems were, those 
problems have been addressed?
    Admiral McCullough. Yes, sir. We have worked those issues 
with the contractors, and the ships are being delivered ready 
for us to use.
    Mr. Frelinghuysen. Well, I think I know the answer. General 
Amos, you are looking for a buy of 10, right? And what do they 
give you? You know, they obviously give you a huge ability to 
deliver, but maybe you could expand on it.
    General Amos. When you say----
    Mr. Frelinghuysen. The LPD-17s, why do you need, for 
instance, 10?
    General Amos. Sir, first of all, we are looking for the 
10th one. We are actually looking for the 11th one as well, as 
I stated earlier. This ship will have the ability to--and I 
don't have the numbers in front of me, I can get them to you--
increase the capacity, the capacity to put vehicles and have 
things like operating rooms, berthing for Marines, spots to put 
airplanes on the back end of it, spots to put LCACs in the well 
deck of the thing, has significant greater capability than the 
current legacy ships that we have today.
    It also has a stability capability where it can actually 
stabilize itself weight-wise. It is a ballast and it is a 
readjustment of fuel, and it has a capacity that some of the 
older ships, quite frankly, don't have. So what you end up with 
is a new LPD-17 variant, a ship that, quite honestly, you can 
put an awful lot on.
    What we are finding, because everything is getting heavier, 
if we go back to some of our legacy ships, some of those 
actually end up with stability and center-of-gravity issues, so 
that you get to a point where you can't put anything more on 
it. There may be room to put something on it, but you can't put 
it on it because of stability.
    So with a newer ship you don't have to worry about that. So 
you end up with a greater capability, a greater square cubed 
capability on the ships, and we get on with the construction of 
the program of record.
    Mr. Frelinghuysen. And that is obviously endorsed by the 
Navy as well; I mean the same reasons, the same abilities?
    Admiral McCullough. Yes, sir; I agree with exactly what 
General Amos said.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Murtha. Mr. Moran.

                      IMPROVISED EXPLOSIVE DEVICES

    Mr. Moran. Thank you, Mr. Chairman. I want to ask you 
because of your position in acquisition and development, a 
question about JIEDDO. On too many occasions I have heard from 
defense contractors in my district that JIEDDO has a single-
minded focus on supporting, really exclusively, new programs 
and technologies developed for the Army. And many of these 
companies have products with tailor-made applications to thwart 
IED attacks, but they are not given serious consideration by 
JIEDDO because they support primarily the Marine Corps.
    So I would like to ask you, do you see any kind of bias in 
the Marine Corps funding for the Army as opposed to project 
approaches that might help the Marine Corps? Because the Marine 
Corps is getting very little of this JIEDDO money, and that was 
not the intention. The intention was to spread it out over all 
of the services.
    General Amos. Sir, let me open up on that because I worked 
with JIEDDO over the last year and a half, and then perhaps the 
Secretary can pile on. My sense was, to begin with, what you 
have described was, that was my sense coming into the job 20 
months ago, was----
    Mr. Moran. You had heard the same thing?
    General Amos. I did. I heard it. I can't sit in front of 
this Subcommittee and say I saw this, this and this, but it was 
challenging. I will tell you that I saw the changes take place 
10 months ago. General Miggs and I, before he left, had a very 
good relationship. I have known him for a long time. We sat 
down and said, Let's make sure--and I basically confronted 
JIEDDO with just exactly what you said. I said, Look, there are 
two of us on the ground in this. You may have more forces on 
the ground, but we have got a lot of Marines on the ground as 
well, so we need to share the wealth here. And I will be honest 
with you; I came away with, over the next probably ensuing 10 
months, believing that we are getting our fair share of this 
thing. He was very forthright.
    We put a Marine, by the way, a colonel, as his chief of 
staff. That began to help explain how Marines do business a 
little bit differently than the Army on the ground. I am pretty 
comfortable with where we are right now, Congressman Moran, 
with JIEDDO. I shared your frustrations about 18 months ago 
when I first got here, but I am not that way now.

                         ACQUISITION WORKFORCE

    Mr. Moran. I have one other question. And I tend to sound 
like a Johnny one-note on acquisition workforce, but the 
Chairman has asked me to pursue this.
    Mr. Thackrah, you mentioned your acquisition workforce 
investment, but you were very unspecific. How much have you put 
into improving your acquisition workforce? How many new 
employees? What are you specifically doing? Because you know; 
this has been a whack-a-mole kind of thing. We keep asking, you 
know, What are you doing here? And we get assurance. And then 
it turns out that people are drawn from another area.
    The workforce acquisition, the acquisition workforce really 
doesn't seem to get the kind of investment that it desperately 
needs, especially in the Army and Navy. So if you would address 
that specifically. How many people additionally are you 
bringing on and how much money are you putting into that?
    Mr. Thackrah. Congressman Moran, thank you for that 
question. There are several specific things that we are doing 
to address acquisition workforce. First of all, the budget, the 
fiscal year 2009 budget that is in front of you, has an 
additional $30 million in it specifically for the hiring of 
systems engineers. This was directed and mandated as we 
suggested it to Secretary Winter. He concurred. And the 
additional funds are in our budget request.
    Secondly, also in the fiscal year 2009 budget, is funding 
for an additional 100 acquisition interns annually. Typically, 
heretofore our acquisition intern program has hired 300 young 
college graduates per year. This budget that is in front of you 
is asking for 400 per year, so we are raising that level.
    Beyond that, sir, we have a significant ongoing study 
looking at our working capital-funded resources across our 
warfare centers to evaluate what skillsets we are developing 
and maintaining and targeting them towards three specific 
areas, which are contracting professionals, program management 
and systems engineering. What we are saying by highlighting 
those three specific areas--because they are the three key 
areas that we have, we believe, that will assure us acquisition 
success--is that that may be at the expense of some other 
skillsets that are of a lower priority in those working 
capital-funded activities. These initiatives are some of the 
things that we have that are very specific and ongoing, sir.
    Mr. Moran. I am glad to hear that. I am not overwhelmingly 
impressed that you are getting 100 more interns, but that is a 
step in the right direction. I do hear--and this is the Navy--
that some of the experienced acquisition people are not 
particularly well respected and they would rather bring in new 
people. But there are some folks with a whole lot of experience 
that just don't seem to be particularly appreciated in the Navy 
acquisition pipeline.
    But I mean that is--I don't have any numbers to show that 
that is widespread. They are just anecdotal examples. But, 
again, I would hope that this is going to be a priority for 
obvious reasons.
    Mr. Thackrah. Sir, thank you for that comment. And I would 
say that not only within the acquisition community which I 
lead, but Admiral Roughead, upon his recent arrival, has put a 
significant priority on the civilian workforce within his 
organization. And he too is looking at not only civilian but 
Navy Captains, some of the acquisition professionals that have 
achieved the rank of Captain and then either they hastily 
retire or are hastily retired.
    He is asking his staff to look at completely reviewing that 
and finding out ways that we can incentivize Navy Captains to 
stay longer that are acquisition professionals so that we can 
take advantage of that talent that we have grown over the years 
that they have been in those jobs.
    Mr. Moran. Well, good for you. That is just the kind of 
thing I hear. Once somebody turns 50, they got no use for you, 
they want to bring in somebody new. And it is the people with 
experience in acquisition that we need to keep. But I am glad 
you are on to that.
    Thank you, Mr. Chairman.
    Mr. Murtha. Ms. Kaptur.

                     CAPABILITIES OF FOREIGN NAVIES

    Ms. Kaptur. Thank you, Mr. Chairman. Welcome, gentlemen.
    Let me begin with Admiral McCullough. With a 313-ship Navy 
prospectively, what would be the country that would then follow 
ours and then the country after that that would have the next 
largest Navy? And on what rating scale would you rate those 
nations today? In other words if the United States has 313, 
then who is next? Where does Russia fit, where does China fit, 
and the way you look at the future?
    Admiral McCullough. I had some folks pull up data for me. 
The next highest Navy with respect to ships are the Chinese, 
164 ships.
    Ms. Kaptur. Today?
    Admiral McCullough. Today, yes, ma'am.
    Ms. Kaptur. And how do the quality of those ships compare 
to ours?
    Admiral McCullough. As you know, China has embarked on a 
military buildup. Some of their ships that have been delivered 
are very capable ships, and some of their ships in inventory, 
as you might imagine, were built on a former Soviet design and 
are not quite as capable. But the material they are delivering 
today is quite capable.
    I would say the operational effectiveness of their force 
and the capability of their developing noncommissioned officer 
corps and their higher-level officers is increasing at a rate 
greater than we thought it would. So they are becoming capable. 
If you look at their proficiencies as compared to ours, I would 
say it is not on the same par.
    Ms. Kaptur. If you look at the numbers of persons in their 
Navy versus ours, do you know?
    Admiral McCullough. I will have to get that for you ma'am. 
I don't know.
    [The information follows:]

    The United States Navy's FY 2008 authorized end strength is 
329,098. Conversely, our intelligence estimate of the number of 
people in China' People's Liberation Army Navy (PLAN) is 
approximately 255,000, while the Military Maritime Fleet of 
Russia numbers approximately 150,000.

    Ms. Kaptur. And who is after them?
    Admiral McCullough. The next would be the Russian Navy. It 
has got 108 ships currently. And as you just saw, the Kuznetsov 
Battle Group had a deployment to the Mediterranean out of the 
North Sea Fleet. She was met in the Mediterranean by a Slava 
cruiser that had come from the Black Sea Fleet. And that ship 
transited with the Kuznetsov Battle Group out into the Atlantic 
Ocean and went to a port visit. And I think it was Lisbon, I am 
not sure.
    The Kuznetsov group then transited back to the north and 
returned home. And her out-of-area deployment was approximately 
62 days. The cruiser went back to her home in the Black Sea 
Fleet; and I want to say she was out of home port about 25 
days, but I would have to get the exact number.
    Ms. Kaptur. Thank you. I appreciate this information. I am 
sure every Member knows this already, but I would be very 
grateful for just a little chart that your Department might be 
able to produce for me that shows me the relative strengths of 
our respective navies, not just in numbers, but in terms of 
capabilities. Is there a way to do that that is understandable 
to a layperson?
    Admiral McCullough. Yes ma'am, I am sure there is. We will 
do that.
    Ms. Kaptur. All right. I would appreciate that very very 
much.
    [The information follows:]

------------------------------------------------------------------------
                                                         United States
          Ship categories              Russian Navy           Navy
------------------------------------------------------------------------
Surface Combatants (carriers to                    34                117
 frigates)........................
Amphibious Ships..................                 21                 31
Strategic Submarines (Ballistic                    15                 14
 missiles)........................
Attack Submarines (Nuclear and                     48                 56
 diesel powered)..................
Logistic Ships (Larger tankers)...                 14                 31
C2/Support (Intelligence and                       32             \1\ 17
 larger rescue vessels)...........
Minehunters.......................                  0                 14
    Total.........................                164            \2\ 280
------------------------------------------------------------------------
\1\ U.S. Navy C2/Support number only includes T-ARS, AS, T-AGOS, T-ATF
  and LCC ships.
\2\ Total U.S. Navy ship count reflected as of 31 March 2008.

    The Russian Navy Order of Battle (OOB) presented here is 
distributed across four geographically widely separated 
fleets--Northern, Baltic Sea, Black Sea, and Pacific. The 
Caspian Flotilla units located in the completely landlocked 
Caspian Sea are not included. The presented OOB must be 
understood in the context of the Russian Navy's primary 
mission: to defend Russia while operating in adjacent seas out 
to about 1,200 nautical miles from the Russian coast. Because 
of significant differences in geography, history, training, and 
mission, the size and capability of the Russian Navy cannot be 
directly compared with that of the U.S. Navy.
    The ship categories included in this listing generally 
mirror those used by the U.S. Navy in its description of the 
desired 313-ship navy. United States Navy ships listed are on 
active duty. These totals do not include USN ships in reserve 
or mothball status. SSGNs are listed under Attack Submarines 
category.
    Only the larger and more open sea worthy logistics and 
other support vessels, comparable in function to those included 
in the U.S. Navy 313-ship listing, are included. The Russian 
Navy has many more auxiliary vessels of various functions.
    Virtually all Russian Navy deployments beyond home waters 
in the last two years have been conducted to project presence, 
making port calls, and engaging in bilateral and multilateral 
naval exercise and operational activity.
    Due to the highly disparate geographic circumstances and 
differences in mission scope between the Russian Navy and the 
U.S. Navy, in contrast to the Cold War days of the Soviet 
Union, meaningful direct comparisons are extremely difficult to 
make.

    Ms. Kaptur. Then I would like to ask you, Admiral, in terms 
of strategic technologies as you look at the Chinese, the 
Russians, and anybody else that is out there, what worries you 
the most as we look at intellectual property, as we look at 
advancements in everything from missile launchers to vessel 
construction? Where do you see our greatest weaknesses?
    Admiral McCullough. Trying to keep this in an unclassified 
environment, the Chinese have built a quite capable access 
denial force, both with ballistic missiles and their submarine 
capability. That concerns us. We work hard to try to counter 
that.
                                ------                                --
----.

    But when I look at high-end technology right now, I would 
say we look to the Western Pacific and what the Chinese are 
doing.
    Ms. Kaptur. In terms of the Russians, and maybe this is--in 
terms of the Russians, we seem to be moving apart rather than--
our foreign policy is taking us in a direction that I don't 
really care for in terms of the Russians. But do you see any 
opportunities for cooperation on any level with the Russians at 
this point to begin to stem some of the rising animosity?
    Admiral McCullough. That is pretty much out of my lane 
ma'am.
                                ------                                --
----.

    I will take that for the record and get back to you.
    [The information follows:]

    The United States Navy and Russian Federation Navy (RFN) 
have a robust agenda of activities that provides valuable 
interaction between senior officials, staff-officers, and 
operational units. These efforts are designed to build trust, 
transparency and cooperation between our two navies. Some 
examples include:
    Operation ACTIVE ENDEAVOR (OAE)--NATO's ongoing Maritime 
Security and Counterterrorism operation in the Mediterranean. 
U.S. Navy and RFN units are active participants.
    Exercise FRUKUS--An annual multi-lateral naval exercise 
between France, Russia, UK, and US focused on improving 
interoperability at sea. In 2007, the U.S. hosted in and around 
Norfolk, VA. In August 2008, Russia will host in and around 
Vladivostok.
    Exercise NORTHERN/PACIFIC EAGLE--An annual bilateral 
exercise focused on cooperation on Maritime Interdictions 
Operations (MIO), Maritime Domain Awareness (MDA), Search and 
Rescue (SAR), and tactical interoperability. The exercise 
rotates annually between the North Atlantic (NORTHERN EAGLE) 
and North Pacific (PACIFIC EAGLE). This year, Exercise NORTHERN 
EAGLE will take place in July 2008 off the coast of Norway and 
conclude with a U.S. ship visit to Severomorsk in conjunction 
with Russian Navy Day.
    Port Visits--The U.S. Navy and RFN routinely conduct 
reciprocal port visits in Russia and the United States, 
respectively. The 2008 U.S. Navy RFN ship visit plan includes 
U.S. Navy ship visits to Russian ports in the Black Sea, 
Berents Sea, and North Pacific; as well as Russian ship visits 
to a U.S. Pacific port.
    Naval War College Exercises--The U.S. Naval War College 
(NWC) and Kuznetsov Naval Academy (KNA) conduct an annual 
bilateral war game and command post exercise focused on 
cooperative planning in support of multinational Humanitarian 
Assistance / Disaster Relief (HA/DR) operations. Last year's 
exercise was hosted by Russia in St. Petersburg, and the 2008 
event will be in Newport, RI.
    INCSEA/Staff Talks--U.S. Navy and RFN staff officers meet 
annually to review the status of the 1972 Incidents at Sea 
(INCSEA) Agreement, plan inputs into the annual bilateral 
military workplan, and openly discuss issues of mutual interest 
or concern. Russia hosted the talks in 2007 in Kaliningrad, and 
the U.S. will host in 2008 in Naples, Italy.
    NCIS-FSB Cooperation--The Naval Criminal Investigation 
Service (NCIS) has an active Memorandum of Understanding (MOU) 
with its Russian counterpart agency (FSB) to enable information 
sharing and cooperation on providing Anti-Terrorism/Force 
Protection (AT/FP) to U.S. and Russian assets during ship 
visits. Senior leaders from each agency also regularly 
participate in joint leadership conferences.
    Submarine Rescue and Escape MOU--U.S. Navy and RFN subject 
matter experts are working on an MOU that institutionalizes 
cooperation on submarine rescue and escape procedures and 
practices. Experts from both navies also meet regularly in the 
NATO Submarine Escape and Rescue Working Group (SMWERG).
    Black Sea Partnership Cruise (BSPC)--An annual multi-
lateral partnership cruise hosted by the staff of Commander, 
Naval Forces Europe aboard a U.S. Navy ship in the Black Sea. 
Last year, the U.S. invited all the Black Sea (+Azerbaijan) 
littoral nations to embark Junior Officers and Non Commissioned 
Officers (NCOs) on the USS Mount Whitney for a week of academic 
seminars focused on general maritime safety and security, oil 
spill mitigation, helicopter interoperability, NCO development, 
and maritime operations. Although Russia was invited and did 
not participate last year, we are actively encouraging their 
participation in this year's partnership cruise.

                  ELECTRICAL POWER FOR NAVY FACILITIES

    Ms. Kaptur. All right. And I have a final question. In 
terms of the Navy, can you get me numbers on how much power the 
Navy purchased in the form--for its facilities, for 
electricity, whatever powers your systems, and fuel for 2007 
and 2008, and what is your projection for 2009? How much are 
you spending and what plans are in place to transition to 
more--for less reliance on petroleum? How are you looking at 
that issue over the next 20 years?
    Admiral McCullough. That is for the facilities, ma'am?
    Ms. Kaptur. For anything you buy related to power 
production or consumption.
    Admiral McCullough. Yes ma'am, but for facilities?
    Ms. Kaptur. Facilities as well. How independently powered 
are your facilities? How are your vehicles or ships powered? 
How are you looking at the power trains that are used in them? 
And with fuel efficiency and new power systems as a priority, 
how does your Department look at that? Is this something that 
somebody is in charge of? Is everybody power-conscious over 
there?
    Admiral McCullough. Yes, ma'am, we are very power-
conscious, because it drives cost. Now, the bases--I will get 
you the answer for the bases. But for our ships and aircraft we 
always look at the best way to power these devices. Now, jet 
airplanes, we haven't figured out a better way to power them 
other than fossil fuel. But we do look at the efficiency of the 
engines that we put in our airplanes.
    For ships, we explore alternate propulsion forms every time 
we work on a new class of ships. And the Naval Sea Systems 
Command has done a detailed study on that, everything from 
direct energy conversion from nuclear reactors direct, to 
drive, to fuel cells, to photovoltaic and nuclear propulsion. 
So every time we build a ship, we look really hard at what the 
power density or the energy density requirements are for that 
particular ship class and what the current state of technology 
is and what we can incorporate in those ships.
    Ms. Kaptur. I know my time is up and I thank you, Admiral. 
I would be real interested for your research, how many dollars 
of your research budget are devoted toward energy independence 
projects?
    [The information follows:]

    The following table itemizes U.S. Navy purchased power and 
fuel:

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                 FY 2007 (actual)              FY 2008 (est)--Note 1           FY 2009 (est)--Note 1
                                                         -----------------------------------------------------------------------------------------------
                                                                            Total cost                      Total cost                      Total cost
                                                            Total units        ($M)         Total units        ($M)         Total units        ($M)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Shore:
    Electricity (MWH)...................................       7,494,877          658.13       7,427,415          688.56       7,380,856          701.19
    Natural Gas (MBTU)..................................       8,365,420           75.63      10,305,939           72.00      10,842,661           75.74
    Fuel (MB)...........................................            2.07          184.93            2.08          227.82            1.96          205.91
    Transportation Fuel (MB) Note 2.....................            0.34           30.81            0.24           28.90            0.24           28.47
Afloat:
    Fuel (MB)...........................................           26.86        2,524.00           21.02        1,928.00           20.79       2,416.00
--------------------------------------------------------------------------------------------------------------------------------------------------------
Key:
MWH = Mega Watt Hour
MBTU = Million British Thermal Units
MB = Million Barrels

Note 1: Total Cost based off budgeted rate established in 2006.
Note 2: Transportation fuel includes 498,868 gallons of Alternative Fuel in FY 2007, an estimated 548,755 gallons in FY 2008, and an estimated 603,630
  gallons in FY 2009.

    The Department of the Navy Energy Board, under the Deputy 
Assistant Secretary of the Navy Installations and Facilities, 
provides overall program guidance for facility energy 
conservation and renewable energy resources. Commander Navy 
Installations Command and Commander Naval Facilities Command 
execute the Navy's shore facilities energy strategy.
    The Navy is extremely power conscious, and aggressively 
purses the conservation requirements of Energy Policy Act 2005 
(EPAct05), Energy Independence and Security Act 2007 (EISA07), 
and Executive Order 13423. In FY 2006 and FY 2007, Navy reduced 
energy consumption by 12 percent from FY 2003 baseline required 
by EPAct05 and EISA07.
    The Navy constantly reviews facilities to reduce power 
consumption requirements and reliance on fossil fuels as a fuel 
source. Currently the Navy is:
    <bullet> Investing heavily in Energy Savings Performance 
Contracts and private sector Energy Service Companies that 
clearly demonstrate consumption savings.
    <bullet> Incorporating Leadership in Energy and 
Environmental Design (LEED) green building, sustainable design, 
and energy efficiency principles into new construction and 
major renovation.
    <bullet> Evaluating use of commercial power and energy 
conservation products.
    Highlights of the Navy's Energy Program include:
    <bullet> Managing a world class 270 MW geothermal power 
plant at Naval Air Weapons Station China Lake and awarded a 
second geothermal plant at Fallon, NV, which is projected to 
come online in 2010. A 30 MW plant is projected to come online 
at El Centro by 2012.
    <bullet> Operating two of the largest Federal photovoltaic 
projects in the U.S. and two wind-farms at San Clemente Island 
and Guantanamo Bay, Cuba, respectively, to provide electrical 
power.
    <bullet> Constructing a bio-diesel production facility to 
utilize cooking oil as fuel.
    <bullet> Aggressively investigating wave power and ocean 
thermal power.
    <bullet> Installation of over 6,000 ground source heat 
pumps.
    With few exceptions, however, Navy installations are not 
independently powered, but receive power from commercial 
available power grids. Critical facilities have back-up 
generators and the Navy has the ability to deploy mobile 
utility systems should the need arise. Expanded use of 
renewable energy sources reduce Navy's reliance on commercially 
provided power.
    Fossil fuels continue to be used as the major fuel source 
for vehicles. The Navy continuously evaluates current fuel 
infrastructure and vehicle fleet size/composition with the goal 
of replacing petroleum vehicles with neighborhood electric 
vehicles, hybrids, and alternative fuel vehicles. The ESIAct07 
requires federal agency fleets to reduce petroleum consumption 
and increase alternative fuel consumption so that by October 1, 
2015, and for each ensuing year, each federal agency achieves 
at least a 20 percent reduction in annual petroleum consumption 
and a 10 percent increase in annual alternative fuel 
consumption. Navy is currently on track and fully intends to 
continue to comply with ESIAct07 through alternative fuel 
vehicles and petroleum conservation initiatives. Current Navy 
policy is that all new vehicles procured must be alternative 
fuel capable, if commercially available.
    The Navy is coordinating with, and leveraging the efforts 
of the Department of Energy and other Department of Defense 
components to develop alternative energy sources, provide 
assured energy distribution, and reduce energy demand and our 
dependence on foreign oil. The Navy's energy security research 
investments focus on the Navy-Marine Corps unique aspects of 
energy efficiency and alternative energy with projects that 
range from basic science on advanced organic photovoltaic films 
for Marine Corps applications; to the evaluation of stern flaps 
for ships to reduce fuel consumption under the Ship Energy 
Conservation Program; and to prototype demonstrations of ocean 
energy harvesting concepts for shore-based facility power.
    The Navy's energy security research projects in alternative 
energy sources focuses on achieving the effective use of 
alternative logistics--bio-based and synthetic--fuels in Naval 
power systems, and their effects on the combustion process and 
military equipment (engines, and fuel handling and distribution 
systems); developing renewable energy technology such as 
photovoltaics for Marine Corps applications and ocean energy 
harvesting concepts for facility power and remote in-situ 
sensors; and direct thermal-to-electric conversion for platform 
power.
    Research in energy efficiency and reduced fuel consumption 
includes projects to develop high-efficiency fuel cells to 
replace internal combustion engines for ship auxiliary power, 
unmanned vehicles, and portable power sources for the Marine 
Corps; studies on advanced fuel efficient aircraft engines; and 
evaluation of variable speed drive pumps and stern flaps for 
ships.
    In the FY 2009 President's Budget request, the portion of 
the Navy's research budget focused solely on ``energy 
independence'' is approximately $70 million.
    The Office of Naval Research (ONR) energy security 
investment plan (see chart below) identifies the primary focus 
of science and technology funds--Alternative Fuels, Fuel Cells, 
Direct Thermal-to-Electric & Thermal Energy Harvesting, 
Photovoltaics, and Ocean and Mechanical Energy Harvesting. In 
addition, the ONR investments under the Navy's Power and Energy 
Science and Technology focus area will improve the power 
conversion and energy efficiency of the next generation of 
electrical systems targeted for future naval platforms; and the 
investments in the Navy's Platform Mobility Science and 
Technology focus area will improve the performance 
characteristics of ships, aircraft and vehicles to provide 
enhanced platform mobility while increasing energy efficiency.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    Admiral McCullough. Yes ma'am.
    Ms. Kaptur. Thank you. Thank you, Mr. Chairman.

                        REALISTIC COST ESTIMATES

    Mr. Murtha. Mr. Secretary, the acquisition question Mr. 
Moran asked, every time that you put an RFP out, you know very 
well those ships are going to cost more than the company comes 
in. The company comes in, and you make change orders, and then 
in the end we have to pay the bill.
    Now, we have encouraged the Navy to be more realistic, have 
more design work before they go and put an RFP out. We hope 
that you will do this. This is partly maybe acquisition, but it 
is also the fault of the Navy because you want to build a ship, 
you want to do it as quickly as possible, you want to do it in 
a certain year--and I don't know what other reason--but we 
can't afford to continue paying the bill. We can't plan when we 
have no ability to--we have got supplementals, money is going 
to be cut back. We have got a real problem here.
    You have got to be more realistic in these proposals. For 
instance, you take the LCS. You told us when you came before 
the committee it was going to cost $188 million apiece. They 
are substantially more, as you know. That does not include the 
modules. The modules apparently are fairly well on target, but 
the rest of them aren't.
    So I hope that you will have more design work done before 
you go to an RFP, so that we can have a more realistic proposal 
and make a decision based on the actual cost of these ships. 
You will never get the 313, the requests that are being made by 
the administration. You are going to need our help, and we are 
trying to help you.
    But when we put--we are embarrassed sometimes when we put 
ships in and then something comes up like the LCS with these 
big cost overruns. I don't say the first ship isn't always 
going to have some exception. But if you have a better design 
and you are further along, I think you will have less of a 
problem. At least that is what I see.
    So I would hope that you would be more careful about that. 
And the contracting out, I don't know how much you do in the 
acquisition part of it, and I have asked the Secretary of the 
Navy to give me a breakdown of contracting out, the categories 
of contracting out, so we get some handle on how much money is 
being spent; since we are reducing the size of the Navy by 
28,000 how many contractors we hired in the meantime. So I am 
sure he will be talking to the acquisition part.
    We obviously need professionals in that program. And as far 
as this IED program, I have never been happy. They have too 
much bureaucracy. They don't seem to get anything out in the 
field. They come and brief us and then--I have never seen the 
results I would like to see from whatever we call them. What do 
they call that?
    The bureaucracy over there is unbelievable. I mean, we got 
nothing but complaints about--no consideration from anybody 
that has got ideas. And they keep increasing the number of 
people and they don't come up.
    So your experience is different than what I have heard, the 
experience the Marine Corps has had, that they are taking care 
of people. I don't see that happening. But at any rate, I 
appreciate the problem you folks have. We are trying to help 
you. We can't help you if we don't get reasonable estimates 
about these ships. And the reason I was so anxious to get back 
here is because I wanted to hear what you saw. And then we want 
to help you get to the 313 ships that you are trying to build.
    Mr. Visclosky, do you have any questions?
    Mr. Visclosky. No.
    Mr. Murtha. Mr. Young.

                           ATTACK SUBMARINES

    Mr. Young. Mr. Secretary, let us talk about the fast attack 
submarine for just a minute. The stated requirement by the Navy 
is 48 of the SSNs. But as we look at the decommissioning rate 
and we look at the build rate, we are pretty much convinced 
that you are going to end up with about 40 rather than 48 fast 
attack submarines. What happens--in the absences of those 8 
submarines what happens? What do we do to fill the gap?
    Mr. Thackrah. Mr. Young, I am going to ask Admiral 
McCullough to help me with that one.
    Admiral McCullough. Yes, sir. First of all, when we added 
the second submarine starting in fiscal year 2011, the minimum 
number of submarines that we actually go to is 41.
    Now, to mitigate the difference between 41 submarines that 
you physically have and the 48 requirement, we have looked at 
several things. One is to reduce the build time of the 
submarines that we are building to 60 months. That buys us back 
a couple of submarines.
    Now, the second thing we have looked at is to extend the 
lives of--I believe it was 16 submarines. And that buys us back 
some of the gap.
    And the third one was how we were going to operationally 
deploy the submarines. And that was to increase some of the 
deployments to 7 months. With those mitigating factors, we 
think we can meet the forward presence requirements of our 
submarine force while we are in the seven submarine delta of 41 
to 48, sir.
    Mr. Young. Admiral, is this plan reflected in the budget 
request?
    Admiral McCullough. Yes, sir. The second submarine in 
fiscal year 2011 is in the budget request; yes, sir.
    Mr. Young. When do you think that--with this plan that you 
have just described, when do you think we close the gap?
    Admiral McCullough. I think that the gap in forward 
presence in force structure is closed in about fiscal year 
2033. The gap starts, if my notes are right, in about fiscal 
year 2022.
    Mr. Young. Fiscal year 2033? I don't know if you and I are 
going to be here, Mr. Chairman.
    Mr. Moran. Oh, sure you will, sure you will.
    Mr. Young. We have had a lot of emphasis today, because 
this is Navy and Marine Corps day. And Ms. Kaptur brought up 
some interesting points.
    And earlier this morning with the CNO and the Secretary, we 
discussed some other issues relative to that. But to close the 
gap in 2033, it looks to me like we are going to have what 
could be a serious gap should there be a threat, especially 
with the growing activity that you mentioned in response to Ms. 
Kaptur with the Russians.
    Mr. Murtha. Especially, Mr. Chairman, especially if they 
push it out every year like they have been and they say, Oh, 
next year we are going to put more, next year we are going to 
put more.
    Mr. Young. Well, as the Chairman has said so many times, we 
would like to help. I don't think we are comfortable with 
having a gap for that long with submarines. So if there is 
something that we need to do, to consider to help close this 
gap a lot quicker, you need to tell us; because I don't feel 
comfortable with--if you need 48, but you are only going to 
have 40, I don't feel comfortable until you get your 48.
    Mr. Dicks. Just a couple years ago it was 56, as I 
remember.
    Admiral McCullough. Sir, there was a joint staff study done 
in 1999 that said the requirement was 55.
    Mr. Dicks. Close.
    Admiral McCullough. Yes, sir, that is very close. That was 
before we reallocated the attack submarine force to put 60 
percent of it in the Pacific and home-ported three of the 
attack submarines in Guam. And that makes up the delta between 
the 48 and the 55.
    Now, when I talk about the delta being as low as 41 to 48, 
it is not a delta between 41 and 48 for that whole time period. 
The actual delta between 41 and 48 I believe is two years. And 
I believe that is in 2028 and 2029. So it is sort of a valley 
that comes back. And that is the extent of it.
    Mr. Young. As the Chairman said, we want to help. So you 
let us know what we can do to help. And thank you, Mr. 
Chairman.
    Mr. Murtha. You can't keep doing these studies to prove 
what you want to prove in order to get down to the budget 
levels. I hope that is not what generated this study.
    Admiral McCullough. No, sir. Not at all. We understand the 
gap between the physical number of submarines and the 
requirement. And that is why we took the mitigative actions 
that we are taking to relieve that gap.
    Mr. Murtha. The mitigative action, huh?
    Admiral McCullough. Yes, sir. It was the best word I could 
come up with.
    Mr. Murtha. Mr. Kingston.

                            SUBMARINE BASING

    Mr. Kingston. Thank you, Mr. Chairman.
    Mr. Secretary, as you may know, BRAC recommended moving 
submarines from Groton to King's Bay. And there is a big 
capacity for additional growth in Kings Bay. Are you looking at 
any plans to move anything to Kings Bay?
    Mr. Thackrah. Sir, I am not aware of any other movement of 
activities to Kings Bay, but I will take that one for the 
record and come back to you.
    Mr. Dicks. We are moving a few things out of Kings Bay out 
west where the problems are.
    Mr. Kingston. Actually we have done plenty of that. The 
next question may be of interest to you, Mr. Dicks, anyhow. But 
we have the space, we have people who are ready and willing to 
take on additional missions and do some great things. If you 
could get back to me and we could, you know, look at that, that 
would be very good.
    Mr. Thackrah. I would be more than happy to, sir.
    [The information follows:]

    The Navy regularly evaluates and assesses the global force 
posture and strategic laydown of our afloat forces and 
infrastructure. Before making recommendations for homeport 
shifts, the Navy allows adequate time to assure all 
considerations including national security requirements, total 
costs, programmatic implications, impact on sailors and their 
families as well as the current and future strategic 
environment have been fully evaluated.
    Currently, and for the immediate future, NSB Kings Bay, GA 
is primarily an SSBN and SSGN base. The strategic placement of 
SSBNs and SSGNs remains largely driven by the need for them to 
efficiently maintain presence in their respective deployment 
areas in accordance with the Quadrennial Defense Review (QDR) 
2006. Additionally, the SSBNs and the SSGNs are limited to one 
specialized location on each coast based on the Strategic Arms 
Limitation Talks (SALT) I.

                        AIRCRAFT TANKER PROGRAM

    Mr. Kingston. And my next question, and the reason why it 
might be of interest to Mr. Dicks, this question was actually 
raised to me by the appropriator who does not like the recent 
decision of the Air Force on the tankers and said that Marine 
One helicopters have had lots of problems ever since they moved 
the contractor and said, Look at what happened to Marine One 
and now we are about to do the same thing with the tanker 
program. Are you familiar with that, Mr. Dicks?
    Mr. Dicks. Well, Mr. Tiahrt is the expert on that. We 
discussed this earlier and there is a lot of concern about this 
approach. And, one, I think one of the major concerns--and I 
always applaud the Navy for protecting their industrial base, 
is that for some reason the Air Force doesn't--isn't as 
concerned about industrial base as the Navy has been. As they 
have protected their carriers, their submarines, their nuclear 
power equipment for both. I mean this has been very well done.
    And so what I worry about is--and then also--the 
authorizers have created regulations now that make it more 
attractive if you are an offshore company to bid on a contract 
in the United States against a U.S. company because we have to 
follow the Berry amendment, the Italian rules, ITAR, and these 
things. And they are waiting in many cases for the Europeans. 
And we have created an unlevel playing field and we don't even 
take into account a subsidy when the WTO is bringing----
    Mr. Murtha. Mr. Kingston's time has run out.
    Mr. Kingston. Mr. Chair, I do have one other thing I wanted 
to ask Mr. Dicks. Is that memorandum of understanding on which 
countries are allowed under Buy American, is that an Air Force 
or is that a DOD?
    Mr. Dicks. DOD, they just did it. And it is a regulation.
    Mr. Kingston. Well, with that----
    Mr. Dicks. It could be changed.
    Mr. Kingston [continuing]. My time has expired, so there is 
no reason for you guys to answer the question now that Mr. 
Dicks----
    Mr. Dicks. I would be happy to yield back.
    Mr. Kingston. That is okay. That is just a question I 
wanted to raise.
    Mr. Dicks. Mr. Chairman.
    Mr. Murtha. Mr. Dicks has a question.

                        CVN-21 AIRCRAFT CARRIER

    Mr. Dicks. Yes. Well, actually, aircraft carriers do have 
something to do with tankers. Tell us about your aircraft 
carrier program. You are bumping up on the $10.5 billion 
ceiling. That is a lot of money, by the way. And you know, when 
you are doing a lot of new things on this carrier, and you know 
with--so give us an update on the new carrier. This is the 
first of a new line of carriers, isn't that correct?
    Mr. Thackrah. That is correct. This is the Gerald R. Ford 
class of aircraft carriers. We call it CVN-21. The design for 
the ship, sir, is well along. I can provide you like, as part 
of the record, if you would like, the percent complete on this 
design. And we will be working with the contractor throughout 
this summer finalizing the construction contract for that ship.
    As you stated, sir, there are some significant new 
technologies that are a part of this ship; that of the 
electromagnetic aircraft launch systems and advanced arresting 
gear systems that are all a part of that new ship, largely to 
make it more efficient, reduce manning and so forth.
    Mr. Dicks. Are you worried about this $10.5 billion ceiling 
that the authorizers put on you that--if you keep adding 
technology, can you do it and stay under that ceiling?
    Mr. Thackrah. Sir, at this point we are not adding more 
technologies to that ship. The basic configuration of that ship 
is well defined. As I mentioned, it is well along in design and 
at this point we don't predict that we will have any issues 
with that ceiling.
    Mr. Murtha. Well, let me warn you though, Mr. Secretary, in 
the B-1--and I told this story and Members heard me say this. 
We made a deal with Caspar Weinberger, $20.5 billion for 100 
aircraft, the B-1s. So what happened? It didn't have what it 
needed in order to go to war. I mean, be very careful when you 
say--I am not saying you should increase the cost of it, that 
is for sure. But be very careful when you make an agreement 
that you can live with a certain level because there is all 
kinds of technology that comes along that changes the plans.

                      V-22 DEFENSIVE WEAPON SYSTEM

    Mr. Dicks. General--I just wondered if I could just do one 
more, Mr. Chairman. I have waited very--just on the V-22, the 
defensive system that we are now going to put on it, tell us 
about that.
    General Amos. Sir, are you referring to the gun?
    Mr. Dicks. Yeah. I thought maybe it was an anti----
    General Amos. It comes already with an antimissile. It is 
what we call an ESM system. We have got similar systems on our 
helicopters flying around Iraq right now. We have them on the 
C-130s. It is a countermissile that pops out flares, it has 
sensors on it.
    Mr. Dicks. We already have that kind of system.
    General Amos. Yeah. It has that, sir. What it doesn't have 
and what we are looking at is kind of the next generation of 
capabilities for IR missiles and these kind of things. In other 
words, when somebody is looking at you with an IR source--and 
we want to look at this, and there are capabilities that are 
out there. But we are looking at them.
    Mr. Murtha. I hate to interrupt. Mr. Visclosky.

                      RELIABLE REPLACEMENT WARHEAD

    Mr. Visclosky. Thank you very much. Sorry for my late 
arrival. And, gentlemen, I appreciate your attendance. I was 
not able to attend the shipbuilding hearing. And just for the 
record, I want to add my voice to the concerns that hopefully 
were expressed about change orders and trying to, if you would, 
bring some balance to the needs of the Navy and making sure 
that we construct these ships in an expeditious and economical 
fashion as possible, and could not make the hearing. I do want 
to express my very strong interest in the issue and hopefully 
the progress will be made.
    Secondly, there are questions for the record. But, again, 
as Chairman of the Energy and Water Subcommittee, we have 
jurisdiction, obviously, over NNSA and would want some very 
specific answers to the questions raised about the reliable 
replacement warhead. And I would point out that in my time 
here, Mr. Secretary, that in fiscal year 2009 for your budget 
request there is funding for the reliable replacement warhead 
program to commence phase III efforts in 2009, despite the fact 
that we eliminated all funding in the Department of Energy for 
this program in 2008.
    And the question I would have: Is it prudent for the 
Department of Defense to get out in front of the Department of 
Energy, since they don't have one penny for this program in 
their budget this year?
    Admiral McCullough. I am going to have to take most of that 
for the record. Right now I know we are doing upgrades on the 
current warhead system. And this is a redundant capability. 
Sir, what I would say is General Chilton from STRATCOM is----
    [The information follows:]

    No effort on Reliable Replacement Warhead by the Navy is 
planned unless approved and funded by Congress and coordinated 
with the Department of Energy's National Nuclear Security 
Administration.

    Mr. Frelinghuysen. Put the mike up a little bit.
    Mr. Murtha. Could you tell us how it works? I am not sure 
that--as many times as I have heard Mr. Visclosky explain this, 
tell us the coordination, how you handle the coordination 
between the warheads, the Department of Energy and yourself.
    Admiral McCullough. Sir, that is not in my portfolio. And I 
would be remiss to be discussing that. That is really not under 
what I do.
    Mr. Murtha. Thank you. Mr. Visclosky.
    Mr. Visclosky. I appreciate that. And, again, this is the 
chance I have to show up. I want to make sure that my very 
strong interest in this is expressed.
    And essentially, Mr. Chairman, there is a proposal for a 
replacement warhead and the concern that we have expressed on 
Energy and Water is that until--and we have very specific 
language in the omnibus--you have an overarching policy for 
this Nation, not a particular administration or a particular 
Congress as to what the needs are. So that we know what the 
inventory should look like, so then we know what the size of 
the weapons complex should be.
    The problem is, because money for the complex and the 
warheads itself does not come out of DOD but DOE, they are the 
customer. There is a proposal for a warhead but there is not a 
commensurate urgency at DOE, Department of Energy, as far as 
what the rational size of that complex should be.
    Mr. Dicks. Which missiles would this go on?
    Mr. Visclosky. It is--I think I want to say it is the 80--
--
    Admiral McCullough. Trident D5s.
    Mr. Visclosky. Yes. But at this point, remember, it is not 
which missile. That is the problem. People are thinking about 
this individually. The issue is, what is your overall strategy, 
and not for the Bush administration or even any incoming 
administration, but our Nation's policy so we know what the 
needs are. And then what are the warheads you need and then 
what is the complex?
    And my concern, Mr. Chairman, is in last year's budget, 
there was emphasis on having maybe a reliable replacement 
warhead online by about 2012, 2014. But the rationalization of 
the size of the complex was 2013 and the only concession by DOE 
this year was to take out 2030. As you know and which was 
expressed here, 2030 is forever. And when you start building a 
new warhead in place with the existing complex, and you create 
a new constituency with new challenges, you are never going to 
downsize the complex to whatever size it should be. And I do 
not know what it is, but that should be determined by the 
strategy before we go off spending more money on the warhead 
before we know what the ultimate strategy is.
    And I just want to again--this exact isn't the exact forum. 
On the other hand, the Navy is the customer right now, and----
    Mr. Murtha. I think what he is saying is so important. I 
mean the Navy obviously has to tell DOE what it wants and why 
it wants it. Somebody has to address the threat. Who makes that 
decision? Who says to DOE, This is what we want?
    Mr. Dicks. I think I can help here. It is Admiral Donald, 
who is the four-star who replaced Admiral Rickover. You know, 
not directly. He is the new Rickover. He does this with these 
dual-hatted--working for the Department of Energy and the 
United States Navy. So he is the guy that gets into all this 
nuclear stuff.
    Mr. Visclosky. This is an issue for DOD. This is an issue 
for the Intelligence Community. This is an issue for the State 
Department. This is an issue for DOE. And as a group of 
scientists expressed about a year and a half ago--we had Sam 
Nunn, former Secretary Perry testified before our Committee, as 
well as General Cartwright a year ago--is what is the 
overarching national policy? And then back up; what are the 
needs?
    And my concern here specifically is you have a budget 
request for DOD to proceed for the discrete design when you 
have no money in DOD to match up with it. And so we do have a 
series of questions, and I realize our time is limited. But I 
just wanted to make sure people understood I am very concerned 
about this issue.
    Admiral McCullough. Yes, sir. I understand and you know we 
are on a D5 life extension program to continue the viability of 
that weapon. Mr. Chairman, if I could, on behalf of Admiral 
Donald, he has nothing to do with weapons. It is nuclear 
reactors.
    Mr. Dicks. It is just reactors?
    Admiral McCullough. Yes.
    Mr. Murtha. I thank the gentlemen. The Committee will 
adjourn until after the recess.
    [Clerk's note.--Questions submitted by Mr. Obey and the 
answers thereto follow:]

                       Shipboard Control Systems

    Mr. Thackrah and Vice Admiral McCullough:
    What steps is the Navy taking in the development of the 313 
ship Navy to increase commonality of equipment across the 
Fleet?
    Question. With the existing shipbuilding plan, how many 
unique surface ship machinery control systems is the Navy 
currently supporting?
    Answer. There are 13 unique machinery control systems in 
the Surface Fleet today.
    Question. What are the plans for converting proprietary 
legacy hydraulic control systems to more modem technology that 
uses standard equipment?
    Answer. Today there is no formal program to convert legacy 
hydraulic systems on in-service ships. The Navy monitors the 
supportability of shipboard hydraulic system components and 
will consider alterations to more modem technology when 
necessary. The Navy is designing new classes of ships, such as 
DDG 1000 and CVN 78, with significant reductions in the use of 
hydraulic systems where feasible to reduce life-cycle 
maintenance costs.
    Question. How are these efforts prioritized and funded?
    Answer. The Department continues to strive to achieve 
commonality at ship, system, and material levels. The 
Department is analyzing and implementing where possible greater 
modularity, open architecture, commercial technology, and 
common equipment and specifications.
    Priority in these efforts is established by the systems 
engineering approach that permits tradeoffs of all available 
technologies, including more modern control systems, and 
provides a recommendation that is technically sound and 
economically attractive based in system acquisition and 
sustainment cost. Funding of these efforts for new construction 
ships is funded in the SCN line. Funding for in-service ships 
is established based on Fleet priorities to upgrade existing 
obsolete or unsupportable ship systems and leveraging existing 
technologies. Funding for in-service control systems is funded 
in OM,N and OPN.

    [Clerk's note.--End of questions submitted by Mr. Obey. 
Questions submitted by Mr. Murtha and the answers thereto 
follow:]

                   F-35 Joint Strike Fighter Aircraft

    Question. The F-35 Joint Strike Fighter tactical aircraft 
represents the future of tactical aircraft for the Department 
of the Navy, with 680 aircraft scheduled to be procured. Fiscal 
year 2008 represents the first year of Navy procurement for the 
F-35. The program has recently experienced some testing 
problems with the engine for the Marine Corps' Short Take Off 
and Vertical Launch (STOVL) variant. The problem with the 
engine will slip the first flight of the Marine Corps' variant 
and will likely slip the contract award for the fiscal year 
2008 aircraft into fiscal year 2009. The engine problem 
underscores the concerns with having a single engine supplier 
for an aircraft that will make up such a significant portion of 
the Nation's tactical aircraft.
    Secretary Thackrah, the engine for the Marine Corps' 
variant of the Joint Strike Fighter has recently experienced 
some testing issues causing an engine failure. This incident 
will delay the first flight of this variant of the aircraft. 
Has the root cause of the engine failure been determined? How 
long will first flight be delayed as a result of this failure?
    Answer. Yes, the engine failure is believed to be the 
result of high cycle fatigue failure of the third stage low 
pressure turbine blade. The failure is consistent with prior 
findings. Both Pratt and Whitney and PEO JSF understand the 
causes of the failures and are conducting tests to confirm the 
root cause, which will be completed in April 2008. The engine 
failure will delay BF-1 first flight by 30 days. PEO JSF is 
confident that BF-1 will achieve the CTOL flight clearance 
following the root cause testing that will be completed in 
April 2008.
    Question. Secretary Thackrah, the Committee understands 
that in addition to delaying the flight test, the actual Short 
Takeoff and Vertical Landing portions of flight testing will be 
even further delayed. Do you plan on awarding the initial 
production contract for the Marine Corps' variant of the 
aircraft before this capability has been demonstrated?
    Answer. The acquisition strategy for the procurement of Low 
Rate Initial Production (LRIP) II STOVL aircraft has always 
been to contract for these aircraft after the BF-1 STOVL 
aircraft had flown in the conventional take off and landing 
(CTOL) mode. The test plan will gradually expand the BF-1 
flight test envelope to include STOVL operations by late in the 
calendar year.
    Question. Secretary Thackrah, do you expect this problem to carry 
over to the other variants of the Joint Strike Fighter?
    Answer. No, development is on-track. Fifteen SDD aircraft are 
currently in production flow. Manufacturing quality is excellent, 
though production line activities for SDD jets have taken longer and 
cost more than planned, in part due to late supplier deliveries. Delays 
in SDD test article deliveries due to production line inefficiencies 
are not impacting the LRIP delivery schedule. DoD is closely monitoring 
program progress on technical issues and risk mitigation. No known 
technical issues preclude achievement of Service IOCs.
    Question. Secretary Thackrah, in light of this issue with the Joint 
Strike Fighter, has the Department of the Navy considered extending the 
production run of the F/A-18E/F Super Hornet aircraft to alleviate the 
tactical aircraft shortfall that you are experiencing?
    Answer: A plan to address the Strike Fighter Shortfall is being 
vetted through the POM-10 budget process. Should additional aircraft be 
required, a Multi-Year Procurement (MYP) acquisition strategy will be 
considered by the Navy. Multi Year Procurement has offered substantial 
savings in the past.
    Question. Secretary Thackrah, in light of this engine failure, has 
the Department of the Navy considered complying with Congressional 
direction to fund the development of an alternate engine for this 
platform?
    Answer. This type of incident is not wholly unexpected in a 
developmental program. Additional consideration of the alternate 
propulsion system should not be based on this incident. All three 2007 
Congressionally-directed engine studies are supportive of competition 
in general, but do not obviate the Department's initial findings that 
the expected savings from competition do not outweigh the investment 
costs. All of the studies do identify non-financial benefits of a two-
engine competitive program, such as better engine performance, improved 
contractor responsiveness, a more robust industrial base, increased 
engine reliability, and improved operational readiness. However, 
affordability is also a factor that the Department must consider.
    Question. Secretary Thackrah, in your opinion, does this failure 
not reinforce the need for having an alternate propulsion engine for 
this platform since it will make up such a large percentage of the 
Nation's tactical aircraft fleet amongst the Navy, Marine Corps, and 
Air Force?
    Answer. This type of incident is not wholly unexpected in a 
developmental program. The engine failure is believed to be the result 
of high cycle fatigue failure of the third stage low pressure turbine 
blade. The failure is consistent with prior findings. Both Pratt and 
Whitney and PEO JSF understand the causes of the failures, and are 
conducting tests to confirm the root cause, which will be completed in 
April 2008. The engine failure will delay BF-1 first flight by 
approximately 30 days. BF-1 first flight will be in conventional 
takeoff and landing mode. There will be a gradual expansion of the 
flight test envelope to include STOVL operations. Additional 
consideration of the alternate propulsion system should not be based on 
this incident.
    Question. Secretary Thackrah, the F-35 program was recently 
restructured by reducing some test aircraft and events to 
increase management reserve for the development program. This 
has resulted in an aggressive and compressed test schedule that 
even if executed perfectly will result in over 250 aircraft 
being under contract prior to conduction the final operational 
testing for the aircraft. Is this a prudent course of action?
    Answer. The Joint Strike Fighter Mid Course Risk Reduction 
plan reduces total development flight test aircraft from 15 to 
13. The deleted aircraft are both mission systems aircraft (one 
CTOL variant and one CV variant). Deletion of these two test 
assets is consistent with a refined and optimized flight test 
plan that capitalizes on unprecedented investments in program 
ground and flying lab infrastructure for mission systems 
verification. The Department assessed the risks of this 
approach, and believes they are both acceptable and manageable, 
and mitigation options are available if needed. The 
Department's F-35 acquisition strategy includes an appropriate 
amount of concurrency and the most effective balance of 
technical risk, financial resources and the Services' 
operational needs.

                         DDG-1000 Combat System

    Question. The combat system of the Virginia Class submarine 
has been extremely successful in that it is built on open 
architecture concepts that can be quickly upgraded to take 
advantage of technology advancement as the ship ages. The Navy 
calls this concept ``Acoustic Rapid COTS (commercial-off-the-
shelf) Insertion (ARCI)''. The Navy claims the DDG-1000 program 
is being patterned after the Virginia program in its 
construction phase. It would be extremely forward-thinking to 
also model the combat system after the Virginia Class to ensure 
the combat system stays current throughout the life of the 
ship.
    Secretary Thackrah, the combat system of the Virginia Class 
submarine program has been successful largely due to the 
concept of Acoustic Rapid COTS Insertion. Is the DDG-1000 
combat system being designed along the same lines such that the 
combat system can be upgraded without major ship modifications?
    Answer. Yes, the DDG 1000 is an open architecture compliant 
combat system designed to decouple hardware and software 
developments so improvements can be economically incorporated 
as they develop without major ship modifications. The DDG 1000 
also isolates the combat system sensors and weapon systems from 
the Total Ship Computing Environment (TSCE) so that 
introduction of future sensors/weapon systems do not 
significantly impact the core combat system hardware or 
software.
    Question. Secretary Thackrah, one of the big advantages of 
the Virginia Class program is that the combat system can be 
upgraded fairly easily (relative to legacy submarine and 
surface ship programs). In fact, as submarines are delivered to 
the fleet, they come with the most current version of the 
combat system rather than the combat system that was available 
when construction began. Can the same be said for the DDG-1000 
ships? How easy will it be to modernize and update the combat 
system of the DDG-1000 given that electronics become obsolete 
every two to four years? How frequently will modernization 
occur for this class ship?
    Answer. DDG 1000 has made substantial investments in Open 
Architecture which provides the ability to isolate the hardware 
from the software programs and install technology updates as 
needed. DDG 1000 plans to follow similar COTS refresh cycles 
(hardware upgrades approximately every 4 years) in order to 
introduce the latest COTS processors and middleware. The DDG 
1000 program is working to identify the most cost effective 
timeframe for a COTS technology upgrade that will not impact 
the shipbuilders' ability to complete construction and testing. 
Since the DDG 1000 employs a Total Ship Computing Environment 
(TSCE) that is comprised of a homogenous set of COTS processors 
that meet Open Systems standards, this will enable efforts to 
modernize the combat system electronics.

    [Clerk's note.--End of questions submitted by Mr. Murtha.]
                                          Thursday, April 24, 2008.

                 BIOLOGICAL COUNTERMEASURES AND THREATS

                               WITNESSES

                                Panel I

DARRELL GALLOWAY, DIRECTOR, JOINT SCIENCE AND TECHNOLOGY OFFICE, 
    DEFENSE THREAT REDUCTION AGENCY
MAJOR GENERAL STEPHEN REEVES, USA, JOINT PROGRAM EXECUTIVE OFFICER FOR 
    CHEMICAL AND BIOLOGICAL DEFENSE
TONY TETHER, DIRECTOR, DEFENSE ADVANCED RESEARCH PROJECTS AGENCY

                              Introduction

    Mr. Murtha. The committee will come to order.
    I want to welcome this panel and the committee. We have 
been working on this issue for a long time, trying to get some 
semblance of some coordination between HSS and DOD to make sure 
we knew what was going on, see if we could play a part in the 
funding part of it.
    I have had a concern for several years that we wouldn't be 
able to produce the amount of vaccine we needed in case we had 
a pandemic. HHS is farther along than I realized, but I think 
the key if something did happen, for instance, I think you told 
me over 20 million people died in World War I from the Spanish 
flu then.
    So we know there are programs of vaccination. We know there 
are programs that the Defense Department does with anthrax. We 
know there are programs that HSS does. But I think this is a 
unique idea, where we do research and the private drug 
companies participate; and I would be interested to hear, 
though, what your feeling is, how much we need to be involved 
from the Defense Department standpoint so the subcommittee can 
hear what the threat is.
    The thing that worries me the most is the fact that we 
started a synthetic fuel program in the Carter administration, 
and it turned out that we didn't have a customer, and oil 
prices dropped from $30 to $10 a barrel. So, of course, the 
program fell flat. And here I don't know that we will have that 
problem, but obviously somebody has to be a customer. DOD can 
be a small part of the customer.
    But I am interested to hear and the committee is interested 
to hear exactly what we need to be able to produce in case 
something like this happens. So we welcome you to the 
committee, and I ask Mr. Young if he has any comments.

                          Remarks of Mr. Young

    Mr. Young. Mr. Chairman, thank you very much; and I want to 
add my welcome to our distinguished panel of guests.
    We are here today to review the efforts of the Department 
to protect our soldiers, sailors, Marines and airmen and 
airwomen from biological attacks. In this case, protection has 
multiple meanings, including detecting and identifying the 
biological threat, preventing it from doing harm by using the 
best protective equipment and vaccines, and treating those 
affected by it with proper therapeutics. So we are anxious to 
hear today what it is that we are doing, and we want to be 
supportive in any way that we can to make sure that these 
protections are available to our warriors.
    Thank you very much.

                    Additional Remarks of Mr. Murtha

    Mr. Murtha. One last thing I will mention is when I was in 
Kuwait about 10 days before the war started, they thought there 
was going to be a biological threat, but they were well-
prepared for that. They had the protective gear they needed. 
They were not concerned. They felt the heat and the wind would 
dissipate the threat. So the troops were convinced that they 
would be able to work their way through it.
    Now, of course, it didn't happen. But the point was we were 
prepared in case something did happen. So that is what I hope 
this hearing will be able to conclude.
    So if you will go forward with summarizing your testimony, 
then we will put your comments in the record.

                  Summary Statement of General Reeves

    General Reeves. Mr. Chairman and Congressman Young and 
distinguished members of the committee, thank you for the 
opportunity to testify on behalf of the Department of Defense, 
the Army as the Executive Agent, and as the Joint Program 
Executive Officer for Chemical and Biological Defense regarding 
the biological threats and biological medical countermeasures.
    The rapid pace of biological technology development and its 
proliferation through the information age and the globalization 
of technology and expertise has broadened the threat context. 
This makes uncertainty a defining characteristic of the present 
and future environment.
    The Department of Defense mitigates that threat from 
biological threats using what we call a ``defense in depth'' 
strategy. Essentially, this strategy provides multiple 
capabilities, a layered approach that reduces the risk if a 
biological threat compromises or circumvents any one 
capability.
    Layers in the defense include personal protection--both 
physical and medical protection--collective protection, 
biological agent detection, along with warning analysis and 
reporting, medical surveillance and consequence management, 
including decontamination and post-exposure medical treatments.
    Pre-exposure treatments, including vaccines, provide our 
first level of defense. These significantly conserve combat 
power, as opposed to post-exposure treatments. Pre-exposure 
treatments take the aces off the table, threats such as anthrax 
and smallpox, forcing potential adversaries to use 
comparatively less effective biological agents.
    However, we clearly can't anticipate every threat. 
Additional mutual supporting layers of defense provide the 
capabilities to detect, warn, protect, analyze and deal with 
the consequences as needed.
    Even with that progress, challenges remain. Specialized 
testing facilities to evaluate our detection systems against 
biological agents and biopharmaceutical research development 
and manufacturing continues to be a lengthy, costly and risky 
process. Specifically, medical biologic countermeasures 
manufacturing poses a challenge due to the need for highly 
trained and skilled personnel in meeting rigorous FDA 
manufacturing standards. To address this challenge, we use 
multiple commercial contract manufacturing organizations that 
specialize in flexible manufacturing. This approach also 
reduces the risk of a single point of failure. These contracts 
are rated contracts under the defense priorities and allocation 
system, giving the Department of Defense manufacturing priority 
in the event of a national emergency.
    Additionally, we work with the Department of Health and 
Human Services to fund common pharmaceutical stockpiles for 
routine military use and for military and civil emergencies.
    The potential threat from the ongoing biological revolution 
also requires developing broad spectrum countermeasures, 
including new detection capabilities and medical systems. 
Addressing these concerns, the Chemical and Biological Defense 
Program initiated the Transformational Medical Technology 
Initiative to rapidly identify and develop medical 
countermeasures to these new threats; and Dr. Galloway will 
speak to that in some detail.
    Additionally, we are working with our partners in the 
Defense Advanced Research Projects Office and in the Department 
of Health and Human Services to investigate alternative 
biopharmaceutical manufacturing concepts that are flexible 
enough to produce a variety of medical products and are rapidly 
expandable to support surge production requirements while 
meeting FDA requirements and adhering to biosurety regulations.
    Mr. Chairman, Congressman Young and distinguished members 
of the committee, thank you for allowing me to testify today. 
Your continued support of the Chemical and Biological Defense 
Program is crucial for our military and for our Nation to 
succeed in defeating the biological threat. We sincerely 
appreciate your support in providing our Armed Forces the 
resources necessary to develop and field a balanced biological 
countermeasures capability. Together with your guidance and 
assistance, we will continue to support ongoing operations, 
improve our current capabilities and bring future technologies 
forward to protect our military and the Nation against the 
biological threat.
    Sir, that concludes my statement.
    [The statement of General Reeves follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
                    Summary Statement of Dr. Tether

    Mr. Tether. Mr. Chairman, members of the committee, thank 
you very much for having me here today to discuss medical 
countermeasures against biological attack.
    If we are attacked with a brand new pathogen, one we can't 
have stockpiled against, it is unlikely we could use today's 
technology to produce enough of the new drug fast enough. DARPA 
has been working on technology to break out of this strategic 
conundrum. We started several years ago by challenging the 
``one drug, one bug'' paradigm, by moving towards ``one drug, 
many bugs'' or the broad-spectrum type of antibiotics that we 
have today that could be used against many bugs. We are 
extending this from drug design to production, trying to go 
from ``one production line, one drug'' to ``one production 
line, many drugs''.
    An industrial base for this capability would blunt the 
effect of any BW attack, thereby making it less valuable to the 
attacker and less likely in the first place.
    We are exploring two approaches to accelerating drug 
manufacturing.
    One is a facility that manufactures drugs but can 
manufacture many different types and can be reconfigured 
quickly and efficiently. DARPA has a study determining the 
efficacy of building a facility that combines flexible 
bioreactors with new technologies to produce large protein 
biologics faster and cheaper than today. This study is trying 
to make a business case for doing this, but it is not yet 
complete. We will be complete probably in the next 2 months.
    Another approach is adapting the organisms widely used for 
industrial processes today so they can make highly purified 
drugs in extremely large quantities. Our Accelerated 
Manufacturing of Pharmaceuticals program is pursuing this 
vision, creating technology to rapidly and inexpensively 
manufacture millions of doses of biologics in weeks, instead of 
the years required today.
    We are working with both bacteria and fungus where there is 
considerable industrial experience using them to produce 
smaller, less complicated proteins for things like laundry 
detergents and bio-enzymes for environmental cleanup, bugs that 
basically eat dirt.
    As an example, we are looking at using tobacco plants to 
make these biologics. The tobacco we are using is grown 
hydroponically under very tightly controlled conditions. 
Special bacteria are then used to infect the leaves, bacteria 
that cause the leaves to produce the protein that we want. A 10 
by 10 foot tray of such tobacco should yield the protein for 1 
million vaccine doses, the equivalent of 3 million chicken eggs 
if done in that way.
    In November, tobacco demonstrated that within a month it 
could produce over 800,000 doses of a crude influenza vaccine 
that was protective in an animal model, in this case, ferrets. 
Tobacco has also produced an avian flu vaccine that could not 
be made in eggs because it kills the eggs.
    We will be testing these various technologies to see 
whether they are speedy and flexible. The performers know they 
have to produce a protein, but they don't know which one in 
advance. In the actual test, they will be told a specific 
protein but given only 3 months to produce it in a specified 
quantity. We feel this approach keeps them focused on being 
able to produce a wide variety of biologics, in quantity and 
very quickly.
    But let me hasten to add that, while this is great 
progress, we are still a long way from FDA approval. At a 
minimum, we must demonstrate that these vaccines are as pure 
and effective as those produced conventionally in order to 
receive FDA approval at the end of the day.
    But, in summary, we are proud and excited about our work 
and think it holds great promise to make BW attacks against us 
less harmful and, accordingly, less likely.
    Thank you all very much for your support of DARPA over the 
years. Thank you.
    [The statement of Dr. Tether follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
                   Summary Statement of Dr. Galloway

    Dr. Galloway. Good morning, Mr. Chairman and distinguished 
members of the committee. I am honored today to testify before 
your committee and appreciate the opportunity to describe for 
you some of the important and innovative work that is being 
managed by the Defense Threat Reduction Agency (DTRA) on behalf 
of the Department of Defense's (DoD's) Chemical Defense 
Biological Program.
    I would like to add that I also appreciate the opportunity 
to appear before you in this panel with two associates, Major 
General Steve Reeves of the Joint Program Executive Office, 
with whom we work on a continuing basis, as well as Dr. Tony 
Tether, the Director of the Defense Advanced Research Projects 
Agency (DARPA), where we have a continuing collaborative 
relationship.
    DTRA is the joint service agency that has responsibility 
for consolidating many of those DoD elements that have a role 
in responding to the threat posed by weapons of mass 
destruction. This would include, of course, chemical and 
biological agents.
    As the Director of DTRA's Chemical and Biological 
Technologies Directorate, I am responsible for managing the 
Science and Technology (S&T) portfolio within the Chemical 
Biological Defense Program. It is within the context of our 
close coordination with the Joint Requirements Office for 
Chemical and Biological Defense as well as the Joint Program 
Executive Office that our office is sometimes referred to as 
the Joint Science and Technology Office.
    Our overall mission within the S&T effort encompasses both 
physical as well as medical countermeasures, as General Reeves 
mentioned earlier. This covers everything from diagnostics to 
detection to decontamination and so on. But our role is not 
only to discover and validate technical solutions against the 
threat of chemical and biological agents but to provide 
detailed knowledge and information that is going to be required 
by decisionmakers that may have to deal with any such incident. 
But my remarks today will principally concentrate on the 
establishment of a relatively recent program in medical 
countermeasure development.
    The Department of Defense has been increasingly concerned 
about dealing with the threat of an unknown genetically 
modified pathogen or other emerging pathogens. It is true that 
the rapid pace of technological development in genetics and 
molecular biology has provided unprecedented progress in 
medical science. It offers much hope. But, at the same time, we 
recognize the increased potential for our adversaries to 
develop new weapons.
    About 2 years ago, a new program was designed to develop 
broad spectrum therapeutic countermeasures within the 
Department of Defense; and I would like to talk a little bit 
about that this morning. This program has been referred to by 
General Reeves a moment ago as the Transformational Medical 
Technology Initiative, or TMTI for short. The long-range goal 
of this program is to develop an end-to-end integrated 
capability to respond to and rapidly develop medical 
countermeasures against an unknown biological threat.
    TMTI differs from traditional programs in three ways.
    First, its focus is the rapid development of broad spectrum 
medical countermeasures effective against entire classes of 
biothreat agents, instead of the usual or customary one drug, 
one bug approach.
    Secondly, it is an unprecedented aggressive consortium of 
academic, industrial and DoD partners which concentrates and 
integrates the emerging and best technologies available across 
the world against a subset of pathogens which has been largely 
ignored by the pharmaceutical industry. It is the strength of 
TMTI that it concentrates and bears down with these emerging 
technologies. The outreach of the program is international. It 
is significant in scope.
    Third, TMTI represents a new paradigm for medical 
countermeasure development within the Department of Defense, 
where essentially we are bringing the S&T portion of the effort 
in line with, from the beginning, the advanced developer in the 
process in an effort to shorten the overall process of drug 
development as much as possible. In this context, we worked 
very closely with General Steve Reeves' organization. We both 
oversee this process.
    At this point in time, I can report that the program has 
identified at least a dozen potential investigational new drug 
candidates that are in our current portfolio. Two of these have 
recently initiated discussions with the FDA. Several of these 
candidate drugs represent novel approaches in technologies, and 
all would be significant medical achievements. We are very 
excited about the program and the potential of these new 
technologies.
    Of course, in order to have an integrated capability for 
countermeasure development, the manufacturing component is 
essential. In collaboration with DARPA and the accelerated 
manufacture of pharmaceuticals (AMP) program, we are presently 
evaluating five manufacturing technology platforms; and, at 
this point in time, several of these look quite promising. We 
are very encouraged by the early results.
    I wish to take a moment to point out that we are working 
very closely with our interagency partners, and this entire 
effort is a collaborative effort at many levels as we work 
jointly to protect our Nation and our forces against these 
types of threats.
    Once again, I appreciate the opportunity to meet with the 
committee; and I look forward to your guidance and support as 
we work together to protect our military and the Nation against 
these threats. That concludes my statement.
    [The statement of Dr. Galloway follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
                        VACCINE PRODUCTION RATE

    Mr. Murtha. Let me say I am impressed by the direction we 
are going. As I understand it, there is over $2 billion 
authorized for this program. I think we need to know if there 
is anything we can do to speed up the programs, anything this 
subcommittee can do.
    Now, one of the things I asked General Reeves, they were 
slow in obligating money from either DTRA or DARPA, but he 
thinks there was too much money maybe available initially and 
there weren't enough plans. It sounds like you have got a good 
plan, a public/private plan, and it sounds like the public is 
deeply involved in this and HHS is deeply involved in it.
    Of course, the Defense Department is a very small 
proportion of the vaccines we need. But I always found the 
Department of Defense is ahead of the game, or at least tries 
to get ahead of the game, and could produce much faster than 
the other agencies in some cases.
    But tell us what the real threat is and what we see as the 
goal. What are we trying to do here? I know what the threat is, 
but how do we alleviate the threat? How to reduce the threat?
    Mr. Tether. Well, I mean, I believe we can find the 
technique. We are learning very--I think we have learned a lot 
on if a new drug--a new bug comes along, to be able to discover 
what kind of vaccine or therapeutic can be used against it. We 
have gotten that part down. They used to take a long time, but 
I think we now know how they do that.
    Mr. Murtha. Give us an idea what you mean by a long time.
    Mr. Tether. It used to be, actually, years.
    Mr. Murtha. Years?
    Mr. Tether. Yeah, years. If a new bug came out, to actually 
find a vaccine against, it would take years. We believe we now 
have that down to possibly weeks.
    Mr. Murtha. So if you had a flu epidemic similar to what 
happened in 1918 where 20 million people died, what would be 
the result of your work that you have done so far?
    Mr. Tether. Well, we could probably learn what the vaccine 
was against that flu very quickly, but there is still the 
problem, and the real problem is--we have got that part of the 
problem I think well in hand or at least in hand. People may 
disagree how well we have it in hand.
    But after you have it, this manufacturing, in the 
quantities to get it to the people--I mean, we are talking 
about not just getting the one or two doses of the vaccine. We 
are talking about getting millions and millions of doses of 
vaccine. And that is the issue right now.
    Mr. Murtha. Now, how do we help you solve that problem?
    Mr. Tether. Well, I guess, you know, we are trying hard. We 
have talked about techniques that we are looking at.
    Mr. Murtha. Is there anything we can do money-wise to help 
the situation?
    What I am asking is, there is plenty of money authorized; 
and it sounds like money is not obligated, because you at this 
point haven't come to a conclusion that they can spend it 
appropriately. And I agree with that. We shouldn't be just 
throwing money at the problem. But is there anything we can do 
to help you reduce the time it takes to get these manufacturing 
installations up and running?
    Mr. Tether. From my viewpoint, I think we are more idea 
starved than we are money starved. I mean, we are funding every 
idea that we can find. I mean, we are not funding people with--
we are funding everything that we can think of funding.
    The only time from our viewpoint, DARPA's viewpoint, that I 
am not sure how to solve it is when you get into this business 
you end up having to go into animal and human testing; and that 
means you have to go and create internal review boards, 
independent review boards. And that takes time.
    Now, even after that, because of the way we contract, say, 
through the Army, when we go to them, it even takes more time 
for them to look at what comes out to end up with the contract. 
And sometimes we have had examples where it can take as long as 
6 months to a year after we at DARPA have approved the work to 
go on because of this process.
    Now, the process is there for a good reason. It is to avoid 
abuse, if you will, of people. So the reason for the process is 
good.
    I won't speak for General Reeves. Maybe he just needs more 
people to help him.
    Mr. Murtha. Here is what we are trying to get at. If it 
takes you a year and you have an epidemic, obviously, it is too 
late. What we are trying to decide is, is there an amount of 
money that we could help the Department with that they could 
speed up the process and be prepared to produce the vaccines in 
a timely manner?
    For instance, I hear what you are saying. I like the 
concept. But what can we do to help? Is it just we can't do 
anything until the ideas come forward?
    Mr. Tether. Unfortunately, I think that is correct. I mean, 
I know it is frustrating. It is frustrating for us.
    Mr. Murtha. No. Well, I understand. DARPA has been in the 
forefront in trying to fund these programs.
    What do you think, General Reeves?
    General Reeves. Sir, I would tell you, as it stands today, 
the various options that are on the table are in policy review; 
and the funding options are being looked at. There certainly 
is, in my view, benefit in going forward rapidly with a 
business case analysis and an analysis of alternatives to look 
at how do we meet the manufacturing and surge requirements. And 
given the potential multibillion dollar size of any kind of 
facility, I think it is appropriate that we do the up-front 
work first to assure ourselves that we are proceeding down the 
correct path.
    Mr. Murtha. Mr. Young.

                       INTERAGENCY COLLABORATION

    Mr. Young. Thank you, Mr. Chairman.
    Dr. Galloway, you mentioned just briefly the collaboration 
with other entities to work on this very serious issue, and I 
assume that you are talking about maybe the Department of 
Homeland Security? Health and Human Services? Are you working 
with them at all?
    Dr. Galloway. Yes, sir. We are working with DHHS most 
certainly, Department of Homeland Security. We talk with the 
Food and Drug Administration (FDA). We are meeting with the 
folks at the Biomedical Advanced Research and Development 
Authority (BARDA). We have occasionally met with the folks from 
the Centers for Disease Control (CDC). So we have a pretty good 
cross-section of representation across the different Federal 
agencies on this effort.
    Mr. Young. Is there an established working group or a 
coordinating group or is it loosely structured? Or is it 
structured?
    Dr. Galloway. There is some structure to it. I have a 
number of the key individuals from those organizations that 
serve on various review boards and selection groups from our 
organization. They have a very good view and knowledge of what 
we are doing and how we are approaching it. We do meet on a 
regular basis with all of those organizations; and, if 
anything, I would characterize the situation as the level of 
conversation and collaboration is increasing.
    Mr. Young. Let me ask you about some of the entities that 
you did not mention.
    For example, after some of the terrorist attacks leading up 
to September 11, 2001, the University of South Florida 
established a center for studying biological threats and the 
response to biological threats; and they have an ongoing 
program. And I would expect that a lot of other universities or 
research organizations are doing the same thing. Are you 
coordinating with them?
    Dr. Galloway. Yes, sir. We actually interface with a number 
of particular academic organizations that do have programs. So 
our office does communicate with those. There are some 
congressional funds that have found their way to these 
projects. So we do coordinate that. We are familiar with those. 
Yes, sir.
    Mr. Young. Well, I think that is a very good idea. Because 
I, frankly, have observed the program at the University of 
South Florida; and I am really impressed with how far they have 
come. And if you haven't been to visit their center there, I 
would highly recommend that you do that, because I think they 
have a lot to teach us.
    Dr. Galloway. I have heard quite positive things. I have 
not been there personally, but I know that they do communicate 
with our staff. We are aware of their efforts.
    Mr. Young. Well, I want to echo what the chairman said. 
Whatever we can do to help on this issue, because it is 
important to our troops in the field from a military or a 
terrorist standpoint. It is important to us at home because we 
know that terrorists have been trying to develop the ability to 
use biological warfare against us, whether it is in a place 
like the Capitol of the United States or whether it is on a 
street someplace or what it might be. So what you are doing is 
very, very important; and we want to be there to help any way 
we can.
    And, Mr. Chairman, thank you very much.

                         TIMELINESS OF VACCINES

    Mr. Murtha. I want to go back to the amount of time it 
takes before something breaks out and the time it takes to get 
to the vaccine that would protect people. What are we talking 
about? Is it a year? Is that what I heard you say?
    Mr. Tether. It used to be.
    Mr. Murtha. Now it is how long?
    Mr. Tether. Weeks.
    Mr. Murtha. Take Type A flu.
    Mr. Tether. I don't know. I would guess that we could 
probably come up with a vaccine--what would you say?
    General Reeves. Sir, the answer very much depends on 
whether or not it is a known bacteria or virus. If we have----
    Mr. Dicks. I am having a hard time hearing you.
    General Reeves. I beg your pardon. It very much depends on 
whether it is a known threat. In other words, if it is an 
outbreak of a disease for which we already have developed a 
vaccine or a therapeutic, then that is a much shorter 
transition time than if it is an emerging threat that has been 
genetically modified or has mutated in nature, which takes a 
rather considerable amount of time not only to identify but 
then to turn around and develop the manufacturing processes and 
the delivery mechanisms to provide countermeasures.
    Mr. Murtha. We have a facility that does research and then 
translates that into the manufacturing. Do we have that process 
in place at this point?
    Mr. Tether. We most certainly have a program to do just 
that; and, as I was saying, we worked hard on the front part of 
finding the vaccine. And we do believe that--especially we know 
what the bug is, to come up with that. It is after that, after 
you know what the vaccine is, is to then be able to make it in 
quantity that seems to be the remaining major issue.
    Mr. Murtha. Is that where you have the private manufacturer 
in place?
    Mr. Tether. Correct. That is the program we were talking 
about, advanced manufacturing of pharmaceutical, where we have 
two studies going on. Well, one is a study to take existing new 
capability to create a facility and the other is to look at 
other more novel techniques of being able to make things fast, 
like using bacteria to infect tobacco, as an example.
    Mr. Murtha. Well, we are still--the possibility was not 
having the correct vaccine for over a year? I mean, is that a 
distinct possibility?
    Mr. Tether. That is a distinct possibility, depending upon 
if the bug is brand new and we have never seen it before, it 
will take us a while to figure it out. But that is short 
compared to the amount of time to make it. I want to really----
    Mr. Murtha. I understand what you are saying.
    Let me say how I got involved. Joe McDade, who used to be 
on this committee and in Congress for 35 years--he is here. He 
2 or 3 years ago mentioned this to me, and we have not had a 
chance to have a hearing until now.
    But you have got to find a way to tell us how you can help 
to reduce the time it takes to produce the vaccine when we have 
a real threat nationwide or worldwide. Because I am worried we 
manufacture much of this vaccine overseas and they won't sell 
it to us because they are going to have a threat themselves. We 
need some guidance from HHS, which is going to be the second 
panel, or you folks about what we can do in order to speed up 
the process.
    Mr. Dicks.

                  EVOLUTION OF DIFFERENT VACCINE TYPES

    Mr. Dicks. Dr. Tether, maybe you can help us. There was a 
process where the Department of Homeland Security was supposed 
to go over to HHS to develop certain packages or programs to 
deal with these issues, and that thing kind of broke down. At 
least it did a couple of years ago. Has that changed now?
    Mr. Tether. You know, Mr. Dicks, I really don't know. I 
think you really need to ask the second panel.
    Mr. Dicks. The second panel. You are not aware of that?
    Mr. Tether. No, I am not.
    Mr. Dicks. So when you were talking about developing these 
vaccines, the manufacturing is the problem, right? What you are 
saying is we can develop the vaccines, especially if we have 
previously identified this flu?
    Mr. Tether. Correct.
    Mr. Dicks. But then the problem is getting it manufactured?
    Mr. Tether. That is correct.
    Mr. Dicks. And a lot of the companies have come in with 
innovative ideas. That is where DARPA is supposed to be the 
lead in trying to develop new approaches to this. Are we 
getting many innovative ideas from the private sector on these 
issues?
    Mr. Tether. Oh, yes. In fact, Darrell spoke of some.
    Dr. Galloway. Certainly. I will be happy to give you some 
thoughts on that.
    At this point in time, we have been receiving a very robust 
response from the industrial sector and the academic sectors. 
We are presently engaged in some projects that are extremely 
innovative and novel and that show absolutely a stunning 
process. Key among these type of technologies are high-
throughput robotic systems that allow us to literally produce 
large numbers of possibilities and screen them rapidly. With 
the benefit of the rapid pace in the areas of genomics and 
bioinformatics, we are seeing approaches in testing evaluation 
as well as `de noro' drug development that are really 
unprecedented. A lot of good ideas are out there, and we are 
seeing these.
    In fact, to come back to a question raised earlier, how 
could the committee help, right now, we have a number of very 
promising projects in the queue that we would like to engage. 
An issue for us in this program is just stable funding. Just 
simply put, we really are going to be able to deliver on the 
identification of a number of what we call IND candidates, 
investigational new drug candidates. The issue will be being 
able to follow all the way through to see that they get through 
clinical trials and so on. But the portfolio is very good right 
now.
    Mr. Murtha. Let me interrupt and just mention what the 
staff mentioned to me before we started that we have taken 
money out of this program because it wasn't obligated. You need 
to tell us. You need to come to the committee staff and tell 
them, look, we have got things going.
    I agree with you. Stable funding is a key. But when we have 
all these different people coming to see us from the Defense 
Department, you need to tell us that, okay, if you take money, 
here is what happens. So we are aware of it now, and you need 
to make the staff aware of the problems.
    Mr. Dicks. Are the people coming in--we have a company out 
in Seattle that is talking about developing a pre-vaccine. 
Would that be useful?
    Dr. Galloway. Absolutely. What we are finding is that a lot 
of the innovation that is out there are in these small biotech 
companies. They are quite hungry, but they are extremely sharp. 
They have some extremely promising technologies.
    But I would like to add, and I think it is a significant 
point, that we have actually managed to bring two of the big 
pharma corporations into our portfolio. That is Novartis and 
GlaxoSmithKline. That is a significant achievement within the 
Department of Defense programs. Big pharma is showing increased 
interest in what we are doing. They are watching very closely; 
and, in fact, in some respects they are a bit of a challenge. 
Because in a couple of cases they bought up a couple of these 
small companies we have been dealing with, and then suddenly 
they are gone. So we must be doing something right if big 
pharma is paying this much attention.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Murtha. Mr. Lewis.

                     VACCINE MANUFACTURING CAPACITY

    Mr. Lewis. Thank you, Mr. Chairman.
    Tony, you and I got to know each other about the time that 
Joe McDade was most active in the defense arena. And over the 
years, I have watched DARPA with great care; and I must say I 
am very, very impressed with the help they give the Department 
of Defense in a variety of mixed ways.
    This issue I have never heard discussed in our committee 
before. But a little over a couple of years ago, when I 
happened for a short time to be the chairman of the full 
committee, I began spending time in other subcommittees where I 
never served, including HHS.
    The testimony from CDC relative to avian flu really got my 
attention. Judy Gerberding is a fabulous person, but the 
information she provided about our inability to respond if 
there was an avian flu that metastasized and suddenly affected 
human beings and began to move--the amount of time it might 
take to get an effective vaccine was one thing, and that was 
really serious at the time. A reduction in the time to identify 
the vaccine is encouraging, I must say, but manufacturing at 
any volume is way beyond our capacity.
    Dr. Gerberding suggested to me that we probably would be 
dependent upon France if the avian flu started moving in that 
direction; And if it started moving in Europe, they sure as 
hell wouldn't be sharing it with us very fast. And it seems to 
me that it is a serious, serious priority there. I don't know 
about the rest of the country.
    I hear from Mr. Dicks for the first time that there is a 
small company up in Washington that is working on this, and 
Florida has people working on it as well. I thought all of the 
pharmaceutical companies in the world existed in New Jersey and 
not anywhere else. But, as a matter of fact, I will bet you----
    Mr. Rothman. Where they belong.
    Mr. Lewis. I would bet you that those companies do have 
considerable interest in this subject area. And we are way 
beyond the point we can wait. It has been 2\1/2\ years since we 
had that conversation in HHS, and we have not made any serious 
progress in terms of manufacturing capacity, let alone have any 
knowledge of our decreasing time to identify what kind of 
vaccine would be needed.
    Norm, we can get the vaccine quickly to take care of your 
throat. It is these other problems that really, really could be 
serious. If we have the need to respond to hundreds of millions 
of doses, for example, because of an outbreak that is the 
result of some overaction on the part of our enemies, we have 
got to have capacity.
    So tell me what we are doing in terms of that capacity. I 
think it is nuts for us not to be talking to CDC, to be talking 
to big pharma, the small guys around.
    I am not surprised. Dr. Galloway said that big pharma is 
even buying up some of these companies. When we are dealing 
with major problems in the Department of Defense, we always had 
the ability to find small companies innovating, coming up with 
great ideas to help us solve big problems. And what happens? 
Big companies buy them up, and maybe the project goes forward, 
and maybe it doesn't.
    So I, frankly, want to see us reaching to small companies, 
the universities around the country. This should be a very, 
very serious--not just defense challenge. And there are other 
budgets besides the defense budget to do this, and your advice 
and counsel about that would be helpful as well.
    Mr. Tether. As I said, Congressman Lewis, we have all been 
working hard on the first part, find the vaccine; and little 
companies and all that are very good at that.
    Now let's say you found the vaccine. I don't want you all 
to think we have that problem licked, by the way. Don't go 
thinking there might be money there. Because we are still 
working hard on that. It is coming up with the vaccine against 
something you haven't seen that is going to take a long time. 
But after you have it, making it in the millions and millions 
of doses that are needed is really a major issue; and little 
companies aren't geared up to do that. They are geared up to 
come up with the vaccine, but then it goes to the next step of 
how you are going to make it.
    Mr. Lewis. Tony, it has been 2\1/2\ years ago since we 
identified that problem. We said we have to be doing something 
about that. But nothing is done that I know of that involves 
our increasing or providing incentive to develop manufacturing 
and the ability that involves millions of production very 
quickly.
    Mr. Tether. We at DARPA have really turned towards that 
problem and the program that we talked about earlier, AMP, that 
was also mentioned by Darrell. We really went out and looked 
for the craziest ideas we could think of.
    For example--this didn't work out by the way, but it was a 
neat idea at the time--if you look at the way Tide is made, 
Tide has these huge fermenters where they actually use bacteria 
that comes up with the stuff that eats your dirt. And we 
thought that is the issue. What if we could take that big 
fermenter and have them make Tide on Mondays, Tuesdays, 
Wednesdays and Thursdays and then on Fridays they make vaccine. 
If we could have made that work, then we would have had an 
industrial capability that there was for another purpose and is 
sort of like a craft. Like we have on aircraft, where we buy 
from the airlines, you know, the ability to go take their 
planes. Then we could take over that plant.
    So we had been looking at these ideas trying to look at 
current industrial capability to see if we could take that 
current industrial capability and then use it to make in 
quantities these drugs and vaccines that have been discovered 
through other processes. Some of it hasn't worked.
    This tobacco thing looks really exciting. Who would have 
thought that you take tobacco and you infect it with a bacteria 
to make a protein and then that protein obviously is what is 
your vaccine. Who would have thought that?
    I mean, these are--now, to get this through the FDA 
processes is still some time. But those are the kinds of things 
that we have been looking at to try to overcome this.
    On the other hand, we can go and put together a facility. 
This study that we have ongoing is we could put together a 
facility, but then it becomes a government-owned facility. It 
is not useful for anything else. It is unfortunate. We could 
make it useful for maybe making commercial drugs. But, short of 
that, you end up with a facility that could satisfy this surge 
problem, but----
    Mr. Murtha. Here is what we are trying to do. We are trying 
to help you reduce the time that Mr. Lewis found 2\1/2\ years 
ago. You have looked at all these things. There has been no 
major disaster happen in the meantime. We want to help figure 
out a way to reduce--you are doing the research. That takes 
time. But we have got to have a process where we manufacture 
the vaccine once we discover it. And I think the ideas are one 
thing, but we have to come up with a way to do it now.
    As I understand it, the civilian side, the drug companies 
are willing to put money into this as long as we buy the 
product. And I think that is the key, isn't it, to buy the 
product?
    Mr. Tether. They do need a market; and that would, I 
think--BioShield tried to do that.
    Mr. Murtha. When you say a government--ammunition product--
we used to do ammunition plants, all kinds of things we used to 
own and we have sold them off since that time, most of them.
    But the point is, I don't know how much time we have. But 
we have been 2\1/2\ years, and we are still not there, and if a 
flu epidemic broke out we would have to depend on somebody else 
to produce the damn stuff.
    Mr. Tether. Yep. That's not a good situation to be in.
    General Reeves. Let me suggest one model that we looked at 
which is potentially private which is the public/private 
relationship. As you suggested, it involves private enterprise 
investing in the model. But in the larger sense there is a 
trend in the pharmaceutical manufacturing industry, something 
called contract manufacturing operations; and these are stand-
alone facilities whose sole function is to take developed 
technology and put it into full-scale manufacturing and then 
ultimately do what is known as fill and finish, put the bulk 
content into a vial or some usable way of giving it to an 
individual. That kind of a model, I believe, has a great deal 
of potential for the future for both HHS as well as the 
Department of Defense.
    Mr. Murtha. We talked about you have to work with the 
staff, telling them how you are going to do this, what we need 
to do to help. There is plenty of money authorized. And what 
Dr. Galloway says is, you know, you need a stable program. 
Well, you have got to tell us what that stable program is and 
how much money it would take so we have some idea of how we 
solve his problem. We want to help.
    Mr. Dicks. Would the chairman yield just briefly?
    Mr. Murtha. Sure.
    Mr. Dicks. Isn't it true that BioShield has been a flop? 
Isn't that basically true? I mean, the first one they did was 
Vac-Gen. It was $800 million for anthrax, and they came up with 
nothing.
    That is what I was talking about earlier. When you have 
this relationship between the Department of Homeland Security, 
when they are supposed to be doing threat assessments on these 
various possibilities and then HHS doesn't do anything. That is 
what we were told at the Homeland Security Committee. I think 
maybe the next panel has to answer this. Unless somebody here 
knows about it. Isn't it true that BioShield, after we spent 
billions, has produced almost nothing?
    Mr. Tether. Anybody want to answer that?
    Next question.
    Mr. Dicks. I think I know what the answer is. That is why 
we are worried about this, Mr. Chairman.
    Mr. Murtha. We want to move this thing. So you have got to 
tell us what you need in order to move it.
    Mr. Visclosky.
    Mr. Visclosky. I am fine, Mr. Chairman.
    Mr. Murtha. Mr. Moran.

                        INTERAGENCY COORDINATION

    Mr. Moran. Thanks, Mr. Chairman. Thanks for having this 
hearing. It is great to hear people who are thinking out of the 
box. This is the kind of area where we need a lot of that 
thinking.
    And particularly DARPA, it is wonderful things you are 
coming up with in this area, but in so many others. Getting the 
brainwaves to be able to move prosthetic devices, that is the 
kind of stuff that DARPA came up with. It is terrific. So, 
Tony, you are doing a great job; and it is good to see you with 
your colleagues.
    And it is not surprising our friend, Mr. McDade, urged that 
we have this kind of hearing. So I know--thank you. It is just 
that I talk so loud. I don't want to be obnoxious here, you 
know. I don't want to--thank you, Mr. Dicks. You are my mentor.
    Now, let me ask you about at Virginia Tech; and this goes 
to DTRA, particularly. They developed this very substantial 
computer model because they understand that, if you were to 
have a natural disaster or terrorist event, one of the things 
you have got to figure out is how do people behave, how do they 
react in large population centers?
    For example, if there is a dirty bomb, what happens with 
the transportation infrastructure that is available? You know, 
what do stores do, commercial enterprises, social institutions 
and so on? And DTRA is figuring this out so that we are 
prepared, not just with the people we have direct control over 
but large population centers.
    But my question is, when we get this kind of information, 
are we coordinating with the Department of Homeland Security? 
Because it is really a Homeland Security matter more than 
Defense. You know, our military can't really intervene and 
organize things and direct things and so on. It is going to 
have to be the local responders, police, fire, EMT and the 
like. They need to have the benefit of this information. So how 
are we transferring this information, Dr. Galloway, to the 
people on the ground that are the first ones that are going to 
be asked to respond?
    Dr. Galloway. Well, in this particular case, I am aware 
that DTRA is involved in a project down there, but it is one of 
those areas that doesn't happen to be in my lane, that I can't 
really give you--so I will take it on the record and see to it 
that you get an answer.
    Mr. Moran. Good.
    [The information follows:]

    The Defense Threat Reduction Agency's (DTRA) Comprehensive National 
Incident Management System (CNIMS) is designed to create a 
``simfrastructure,'' or simulated infrastructure, which can be used to 
model the effects of a pandemic incident on a population. The model 
mimics human interaction, allowing for the use of numerous variables 
such as treatment or quarantine options. The study affects overall 
response planning and emergency preparedness, because analysts can then 
examine how the disease spread throughout the simulation. In short, 
CNIMS provides leaders in the United States military with essential 
operational information about the populations that may be affected by a 
possible crisis, such as an influenza epidemic.
    This prototype application provides previously unavailable detail 
and performance in scalable agent-based epidemiological models that 
will be used by DoD planners and policy makers for analysis of optimal 
responses to a crisis situation.
    Thus far, studies have been run on Alabama's National Guard, Fort 
Lewis, Washington, and Fort Hood, Texas. In response to a Combatant 
Command request, DTRA analysts are planning to conduct studies of major 
metropolitan areas in the United States. These studies will result in 
more detailed contingency plans in specific locations and greater 
understanding on the impact of the resident military populations.
    The understanding of the phenomenology underlying pandemics and 
other catastrophic events, natural and man-made, will be fundamentally 
improved by the use of high-performance computing-based decision and 
policy informatics. Our intent is to make this advanced capability 
directly available to subject matter experts and decision makers--
providing for greater situational awareness and higher fidelity course-
of-action analysis/development and is a key part of our on-going 
commitment to develop the best possible tools needed for crisis 
management at the national level.
    A comprehensive and unified national response to such an event 
would require the sharing of situational awareness and the full 
mobilization of national and international expertise and capabilities. 
DTRA's relationship with USNORTHCOM is the liaison to the Department of 
Homeland Security (which includes the United States Coast Guard, the 
Federal Emergency Management Agency, the Transportation Security 
Administration and Customs and Border Protection) and our linkage to 
ensure effective interagency synchronization across the USG. 
Additionally DTRA has entered into a Interagency Agreement with the 
Department of Health and Human Services (HHS). This is in support of 
the HHS modeling hub and it extends DTRA capabilities to provide onsite 
HHS support for CBRNE exercises, operations and overall coordination.
    Further development of CNIMS technology will support the analysis 
of a range of problems such as urban evacuation, epidemiological 
events, population risk-exposure estimation, logistical planning, site 
evacuations, interdependent infrastructure failures and nuclear, 
chemical, biological and radiological threats.

                      BEHAVIORAL ANALYSIS MODELING

    Mr. Moran. That is a principal concern. Because we have the 
money and the chairman makes clear--he is probably the only 
chairman of all of the Appropriation Committees that actually 
ask witnesses how much money do you need. It is because he is 
the only one that can produce any money. Everybody else, we are 
lucky if we can stay on a continual resolution, even Interior. 
So we are developing things in Defense that are really needed 
in other areas of governmental responsibility.
    I wonder if Dr. Tether or General Reeves have any comment 
about this. If there is a biological warfare attack, have we 
studied what is the likely reaction of large population centers 
and how we deal with them? And if we do have this kind of 
information, how are you transferring it to the local 
responders?
    General Reeves. Sir, I can answer the first half of your 
question.
    The program you referred to that is working with DTRA also 
works with the Department of Defense model called the joint 
effects model. And we in fact work very closely with DTRA in 
leveraging that research so that we can provide our commanders 
in the field the various modeling and analysis tools that are 
necessary.
    Now, that model is designed for tactical forces and forces 
that might be operating in urban environments. To date, we have 
not transitioned that to any first responders. So the answer to 
your second question or the second half of your question would 
be we haven't done anything.

                    SMALL BIOTECH COMPANY INNOVATION

    Mr. Moran. Okay. Well, I mean, I prefer that you be honest 
about it. But you understand it is something that you are going 
to have to deal with at some point. We have got to transfer 
that information.
    One of the things that concerns me, we have been talking 
about big pharma; and that in and of itself is a problem, 
because some of the best ideas can come from these small 
biotech firms, you know, a handful of really bright people who 
really don't want to work for some large corporation. You know, 
they come out of MIT or any number of institutions and they 
come up with great ideas, but it is almost impossible to start 
up any kind of drug firm today. The huge sums of investment 
capital that are needed, it makes it really prohibitive for 
small biotech firms to get into the production of vaccines or 
other preventive measures. And, as you suggested, you come up 
with a great idea, Novartis or somebody is going to buy you up 
and then you are gone.
    But I am afraid that, because we rely almost exclusively on 
these large institutional corporations, a lot of the best ideas 
don't make it. And one of the things DARPA I know does, you 
develop these things and then you try to spin them off, get 
some commercial off-the-shelf technology out there, but it is 
so difficult to come up with investment capital to get it 
going.
    Can you address that at all? Or should it be a concern?
    Dr. Galloway. It is a concern. A couple of thoughts that 
come to mind are that you are correct, that, by and large, the 
biotech industry has got a lot of ideas, a lot of innovation, 
but most of them probably never figure to get to the 
manufacturing stage. They are just not set up for that scale of 
things and probably have a strategy that thinks along the lines 
of being either bought out or getting to that bridge if and 
when they ever reach it.
    The manufacturing capability and the experience certainly 
lies principally in some of the big pharmaceutical operations 
or some of the organizations set up just for manufacturing. 
However, it is also true that there is incentive, for example, 
in the program where we are investigating broad spectrum 
therapeutics, the development of and the identification of such 
measures.
    You know, a lot of these things are all driven by a 
marketing and profit motive, if you will. There has to be 
incentive for these companies to take on projects of this 
magnitude. But in the development of broad spectrum 
therapeutics, there could be a lot of incentive. We think this 
is one of the reasons why a lot of these companies are looking 
at us.
    Because while we are looking for certain applications for 
our needs as we see it in DoD or it gets to biothreat agent, if 
some of these things are as broad spectrum as they appear to 
be, they could have much broader utility and application and 
therefore a market. And so I think that is partly why we are 
getting an increasing amount of interest that is coming on 
board.
    For example, we are looking at an interesting drug 
candidate that seems to be effective against the methicillin-
resistant staphylococcus auras. That is not a biothreat agent 
that is in our lane. But it is of clear utility and 
application. And so we would take something like that and make 
sure that that was handed off to National Institutes of Health 
(NIH) or somewhere to try to find application for that.
    Mr. Murtha. The time of the gentleman has expired.
    What we are going to do now is move to the second panel, 
and some problems that were brought to my attention is the FDA 
approval. It takes so long to get through the process, 4 or 5 
years. And what Mr. Lewis is talking about, we are just 
scratching the surface here. And we will see the second panel, 
and then we will start with you in the second panel. We know 
your interest in it, but that is the panel that is going to be 
as involved as anybody else. So let's have the second panel.
                               WITNESSES

                                Panel II

DR. MICHAEL E. KILPATRICK, DEPUTY DIRECTOR, FORCE HEALTH PROTECTION AND 
    READINESS PROGRAMS, OFFICE OF THE ASSISTANT SECRETARY OF DEFENSE 
    FOR HEALTH AFFAIRS
ROBIN ROBINSON, PH.D., DIRECTOR, BIOMEDICAL ADVANCED RESEARCH 
    DEVELOPMENT AUTHORITY (BARDA), OFFICE OF THE ASSISTANT SECRETARY 
    FOR PREPAREDNESS AND RESPONSE, U.S. DEPARTMENT OF HEALTH AND HUMAN 
    SERVICES

                  Summary Statement of Dr. Kilpatrick

    Dr. Kilpatrick. Good morning, Mr. Chairman, members of the 
subcommittee, Michael Kilpatrick, Deputy Director, Force Health 
Protection in the Department of Defense. Thank you for the 
opportunity to speak to you today on behalf of the Office of 
the Assistant Secretary of Defense of Health Affairs in the 
Military Health System.
    As you know, the mission of the Military Health System is 
to provide health services in support of our Nation's military 
mission any time anywhere, and that includes proper 
preparations for responding to biological threats. DoD 
recognizes that anthrax and smallpox are lethal biological 
threats. As a result, since March of 1998 more than 1.9 million 
service members have received more than 7.4 million doses of 
anthrax vaccine and more than 1.5 million service members have 
been immunized against smallpox since December 2002.
    On April 1, 2008, DoD began using the newly licensed 
ACAM2000 smallpox vaccine. To educate our health care 
providers, our service members, their families and other 
beneficiaries around the world on biological threat protection, 
we provide detailed vaccine information at the time of the 
vaccinations and we use on-line educational briefings, 
brochures and training videos. In addition, we use live 
interactive Web casts in support of vaccination programs. DoD 
also tracks suspected reactions to these vaccines. The Armed 
Forces Health Surveillance Center collects severe adverse event 
information from vaccinations as part of its mission to provide 
continuous surveillance for the Military Health System.
    The Vaccine Health Care Center Network provides educational 
assistance to individuals who are concerned about their 
vaccinations and assist individuals who experience a rare 
adverse event. With every anthrax and smallpox vaccination, the 
service member is provided an educational brochure that details 
the possible adverse events and provides contact information 
for clinical services.
    An interagency agreement between DoD and the Department of 
Health and Human Services establishes a framework to coordinate 
mutual support in the event of a shortfall in critical medical 
material when responding to or recovering from a public health 
or medical consequences of a domestic catastrophic incident or 
an incident of national significance.
    For example, in 2006, in concert with the Implementation 
Plan for the National Strategy for Pandemic Influenza, Health 
Affairs issued policies and guidance on preparation and 
response to a pandemic caused by bird flu virus. It is DoD's 
policy to provide military personnel with safe and effective 
vaccines, antidotes and treatments that will eliminate or 
minimize the effects of potential health threats.
    Mr. Chairman, protecting and preserving the health of our 
servicemen and women is one of our highest priorities, second 
only to the military mission.
    I will be pleased to answer your questions.
    [The statement of Dr. Kilpatrick follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Murtha. Doctor.

                   Summary Statement of Dr. Robinson

    Mr. Robinson. Thank you. Chairman Murtha and distinguished 
members of the Committee, I appreciate this opportunity today 
to testify on behalf of the U.S. Department of Health and Human 
Services, where I serve as the newly appointed Deputy Assistant 
Secretary and Director for the Biomedical Advanced Research and 
Development Authority, or BARDA. BARDA is responsible for the 
development and acquisition and coordination of medical--
    Mr. Murtha. Tell the Committee where you served before.
    Mr. Robinson. I will come right to that, yes, sir. Before 
the coordination of American countermeasures for chemical, 
biological, radiological, nuclear threats, pandemic influenza 
and emerging diseases for the civilian population, prior to 
becoming the Board of Director I served for the last 3\1/2\ 
years as the Deputy Director for Influenza and Emerging Disease 
Program, where we implemented strategic plans and policies for 
medical countermeasures outlined in the President's National 
Strategy for Pandemic Influenza.
    First, allow me to thank you for your kind and generous 
support of our efforts to prepare the Nation for pandemic 
influenza and other hazards. I look forward to working with you 
in my new role as we strive to build upon the successes of the 
Pandemic Influenza Preparedness Program and renew the focus of 
our Nation's medical countermeasures portfolio for chemical, 
biological, radiological and nuclear threats.
    HHS concurs with our Department of Defense colleagues on 
the critical role that medical countermeasures play in our 
normal national preparedness against threats, against these 
threats and pandemic influenza, and the need for domestic 
manufacturing facilities capable of producing these products. 
We see medical countermeasure development and acquisition as 
only one component of our overall preparedness efforts towards 
an all hazards preparedness.
    The policy of shared responsibility for preparedness 
empowers many stakeholders, including the entire HHS 
Department, our partners in the international community, other 
Federal interagencies like the Department of Defense, State, 
local and tribal territorial governments, the private sector 
and ultimately individual people.
    The central framework to support medical countermeasures 
initiatives in the Federal Government is the HHS Public Health 
Emergency Medical Countermeasure Enterprise. This enterprise is 
a coordinated interagency group that is led by the Assistant 
Secretary of Preparedness and Response at HHS, Admiral 
Vanderwagen, and includes the Centers for Disease Control, Dr. 
Gerberding, the FDA with Dr. von Eschenbach, and the NIH with 
Dr. Zerhouni, and partners for the Departments of Defense, 
Homeland Security and Veteran Affairs.
    I would like to give you a few examples of where HHS is 
coordinating and acting with our cousins at the Department of 
Defense relative to medical countermeasure programs. HHS has 
achieved a significant level of preparedness against a number 
of CBRN threats. HHS and DoD subject matter experts are on the 
CBRN threats committees to serve as interagency threat 
determinations and product requirements setting panels to 
inform U.S. Government policymakers. HHS and DoD share joint 
stockpiles of AVA vaccine for anthrax and ACAM2000 vaccine for 
smallpox and aligned research and development programs for many 
medical countermeasures to CBRN threats by serving on 
interagency project teams.
    With regard to pandemic influenza, great strides have been 
made over the past 3 years towards pandemic preparedness, 
including the developments and acquisition and domestic 
manufacturing infrastructure building of vaccines, antivirals, 
diagnostics and other pharmaceuticals. The development of an 
H5N1 vaccine resulted in the licensure last year representing 
the licensure of the first pandemic like noninfluenza vaccine 
and the number one medical breakthrough in 2007. HHS and DoD 
coordinate stockpiling of this vaccine, the clinical 
instability studies and, similarly for the antiviral 
stockpiles, use contracts to give the best price for the 
taxpayers.
    BARDA and DoD just sponsored this week a symposium of 
Federal Government R&D activities for rapid diagnostics to 
detect novel influenza viruses. These joint analyses allow us 
the opportunity to reference one another's portfolios that 
reduce duplication but allow synergistic approaches like 
stockpiling to proceed.
    These represent prime examples of this integrative all 
hazards approach that the Enterprise affords. Utilization of 
the Enterprise and product portfolio approaches will continue 
at HHS and DoD with other stakeholders to prepare the Nation 
for pandemic influenza and CBRN threats.
    Using some of these specific examples of accomplishments in 
the pandemic influenza program and the successes in CBRN, I am 
beginning to redefine how we at HHS with our Federal partners 
can coordinate our respective programs to develop and acquire 
these products for the establishment and maintenance of medical 
countermeasure stockpiles as well as expand domestic 
manufacturing search capacities for these products. The 
Enterprise began a collaborative process that brings together 
Federal partners for decisionmaking throughout the life cycles 
of medical countermeasures. We are expanding that process for 
coordination, to include the discussions on the strategy behind 
the development of priorities and portfolios.
    HHS and DoD are strategic partners with complementary 
missions to provide integrated systematic approaches to the 
development and purchase of necessary vaccines, drugs, 
therapeutics and diagnostics for public health medical 
emergencies.
    In closing, sir, I thank you again for this opportunity to 
discuss our coordinated efforts toward national preparedness 
and look forward to many more visits with you to deliver news 
of progress and find ways to make our Nation better prepared. 
Thank you. I will be happy to answer questions.
    [The statement of Dr. Robinson follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Murtha. Mr. Frelinghuysen.

                     PROTECTION OF THE ARMED FORCES

    Mr. Frelinghuysen. Thank you, Mr. Chairman. In the interest 
of full transparency both Mr. Rothman and I come from New 
Jersey, which we are very proud of our pharmaceutical base. 
Whether you are a large pharma or a small pharma stable funding 
is important. That is one of the issues here. It is not a 
question of big companies taking over small companies. That is 
part of a capitalistic system. But nobody is going to make 
these types of investments if they have to wait on HHS to come 
up with requests for proposals. With all due respect, it has 
been pretty damn slow, maybe in some areas been expedited. But 
my questions actually go to Dr. Kilpatrick.
    Thank you both for what you do. This is the Defense 
Appropriations Committee, and I want to be somewhat selfish and 
ask particularly what we are doing for our armed services for 
those in uniforms, in uniform relative to anthrax, smallpox or 
radiological, nuclear. What are we doing in terms of protecting 
our soldiers? I know it is a big question, but I would like to 
sort of get a general overview of what we are doing.
    Some of us remember the refusal of some people in the 
military to go ahead with the anthrax immunization. Where do we 
stand relative to a comprehensive program for those in the 
military where we actually have a known quantity of people that 
we are dealing with? Obviously, all volunteers; Guard, Reserve. 
Where do we stand? How would you characterize it?
    Dr. Kilpatrick. I think we stand in very good stead with 
this. We have really focused the program on continuing to 
educate people. Not just a brochure in the hand right before 
the shot goes in the arm, but to really answer questions and 
sit down with people and to really discuss with them what is 
understood about the threat. We try to look at this on a 
priority basis, saying what is the risk. And certainly when 
people are deployed in a setting where we can't control the 
environment, where we can't really control what is happening in 
the environment, then clearly those are areas where a vaccine 
is the most secure protection we can give somebody.
    As General Reeves discussed, if you are in the detect to 
treat environment, in a deployed setting, it is not 
satisfactory to have an un-vaccinated population.
    Mr. Frelinghuysen. As long as the information isn't secret 
or confidential, where do we stand relative to anthrax?
    Dr. Kilpatrick. As far as the vaccination program?
    Mr. Frelinghuysen. Right.
    Dr. Kilpatrick. We are doing very well.
    Mr. Frelinghuysen. What does that mean? Does that mean 
anthrax isn't just a battlefield potential situation, obviously 
it could happen here domestically?
    Dr. Kilpatrick. It could happen domestically.
    Mr. Frelinghuysen. Where do we stand relative to those that 
have been immunized?
    Dr. Kilpatrick. Our program is to vaccinate all people 
going into theater. That is the greatest point of risk. But we 
are continuing to keep people's vaccinations up to date as they 
return. So if they go to theater, get their series of shots, 
and come out of the theater----
    Mr. Frelinghuysen. Is this mandated?
    Dr. Kilpatrick. It is voluntary for them to keep up. It is 
mandated when they go to theater.
    Mr. Frelinghuysen. It is voluntary to keep up?
    Dr. Kilpatrick. To keep up when they come back, yes.
    Mr. Frelinghuysen. We have an Appropriations Committee that 
has been pretty generous towards investments in national 
pandemic, you know, avian flu. What portion of that is 
allocated and directed towards our armed services?
    Dr. Kilpatrick. Toward the armed services, again, we have 
worked very closely with HHS.
    Mr. Frelinghuysen. We are familiar that there has been a 
stockpile. So let us be selfish here for a minute. What 
stockpile is for the military?
    Dr. Kilpatrick. Well, the stockpile for the military is 
really focused at where our people would be most at threat. And 
we feel, again, that is going to be in a deployed setting in 
areas where flu may start the pandemic. And that is where our 
surveillance programs are going on. And so we have 
prepositioned and forward deployed stockpiles of both vaccine 
and antivirals that we could use to get to people in that area. 
The national stockpile is what we would work in coordination 
with HHS if that were an event nationally.
    Mr. Frelinghuysen. So it is there, it hasn't been utilized?
    Dr. Kilpatrick. No, we have not used the vaccine that is 
licensed.
    Mr. Frelinghuysen. And how about the award of the next 
generation of modified, you know the smallpox virus, what could 
potentially be something which is not the normal situation? 
Where do we stand relative to that in our military?
    Dr. Kilpatrick. Are you talking about the ACAM vaccine?
    Mr. Frelinghuysen. Yes, the smallpox virus.
    Dr. Kilpatrick. Right. And I think, again, the ACAM vaccine 
is what DOD is using. And that is----
    Mr. Frelinghuysen. So all soldiers have that?
    Dr. Kilpatrick. That is, again, for people going to 
theater, is where it is required.
    Mr. Frelinghuysen. It is required?
    Dr. Kilpatrick. Yes.
    Mr. Frelinghuysen. And what relative to radiological and 
nuclear, what exists out there for our soldiers?
    Dr. Kilpatrick. Again, from the radiological standpoint 
there are programs out there to monitor, to surveil for 
essentially laser or other radiological type exposures the 
troops may get. All of the equipment that we would use, has 
been evaluated and tested to make sure that the people 
operating it, the operators, are safe. And so, again, there is 
a surveillance program looking at that.
    From a nuclear standpoint, it is going to be looking at 
where are we with detection capability, and that is where those 
detectors are present.

                     PHARMACEUTICAL INDUSTRIAL BASE

    Mr. Frelinghuysen. And lastly, maybe a general question to 
you both. The whole issue of the industrial base, I mean I sort 
of get the feeling that DARPA is sort of setting up or perhaps 
has always had its own shop. But, I mean, we have a pretty good 
industrial pharmaceutical base. Where is HHS in terms of some 
of these requests for proposals? Could you clarify a little 
more?
    Mr. Robinson. The industrial----
    Mr. Frelinghuysen. Every Member of Congress is obviously 
approached by large and small companies in their district, all 
with some new something which they view as an imperative. And 
then there is a huge amount of frustration that your operation 
over there is sort of going into sort of a state of semi-
paralysis. That may be an understatement.
    Mr. Robinson. I would believe it is, sir.
    Mr. Frelinghuysen. How would you characterize it?
    Mr. Robinson. I would characterize it--I will take the two 
sides of the house, the pandemic influenza and then our CBRN. 
First, the pandemic influenza, where I have served for over 3 
years as the head of that program. Where with NIH looking at 
the discovery in the early development and where we have been 
responsible for the advanced development where we see things 
that are going into the clinic, that they have been shown to be 
safe, then to move those forward toward licensure of the 
products so that we then can acquire those products and put 
them into a national stockpile. We have done very well with 
that, in fact. For our pre-pandemic vaccine stockpiles we are 
two-thirds of the way with that 40 million goal. However, we 
have been able to, with our programs for advanced development, 
be able to have a technological breakthrough. Not only the H5N1 
vaccine was actually licensed last year, but we have new 
adjuvant. These are immunostimulatory molecules that when 
combined with the vaccine can actually make the vaccine go 20, 
25-fold more people than normally. And so that is a real 
breakthrough so that we can have sustained facilities here that 
cannot overbuild. And that is really important for the 
influenza industry because there is a market already for 
seasonal vaccine and that with these adjuvants and other types 
of molecules we actually can be prepared for a pandemic so that 
300 million people then can get the vaccine in a matter of 
months, not years.
    Mr. Frelinghuysen. I just think some members of the 
committee, maybe all members of the committee, there has not 
been sort of a sense of urgency.
    Mr. Robinson. No. I am sorry that perception is there. But 
on the pandemic influenza we have awarded 27 contracts to 
grants for advanced development for over $3.7 billion. And we 
have increased the manufacturing base of this country, not 
foreign country, but this country, over two and a half-fold of 
what it was 2 years ago when Dr. Gerberding testified. And 
where we will be in 2012 is that we will be able to not only 
supply the United States with what it needs for a pandemic, all 
300 million plus, but also the United States to be an exporting 
hub. And that is one of our driving forces for the U.S.
    Mr. Murtha. What year is that?
    Mr. Robinson. 2012, sir. Right now if we had a pandemic 
this year we would be able to immunize upwards of about 200 
million with our adjuvants which will be going toward licensure 
application next year.
    Mr. Dicks. Mr. Chairman, on this point, does this cover 
bird flu, too? Do you have a vaccine for bird flu?
    Mr. Robinson. Yes. The H5N1 vaccine, that is for the avian 
influenza that we know is our biggest threat at this point of 
becoming a pandemic virus. Yes, sir.
    Mr. Murtha. Mr. Visclosky. Ms. Kaptur.

                          AGRICULTURE RESEARCH

    Ms. Kaptur. Thank you, Mr. Chairman. Welcome, gentlemen. 
From the previous panel I just wanted to place two questions on 
the record and maybe they could get back to me.
    I am very interested in the tobacco research that was 
referenced in the written testimony, and I am very curious 
about what you are doing to genetically manipulate the tobacco 
leaf or the tobacco for the production of proteins and 
nutraceuticals perhaps. This is something that as a member of 
the Agriculture Committee I have a longstanding interest in, 
even though I don't represent any tobacco growers. I just think 
it is a magnificent plan and its potential is unmet. So I would 
be very interested to know what you are doing along those 
lines.
    And then secondly in terms of ricin, I don't know enough 
about the sources of ricin, but I know the castor bean is one 
of them. And I don't know if it is the only one globally. But 
if it is, I would like to know the research that is going on to 
isolate the ricin from the castor bean, and if you are doing 
research on that, and to what extent one could make that 
particular seed, to phase it out in its current form globally, 
since there are so few seed companies that exist anymore, and 
what the potential is to completely take the dangerous part of 
the germ plasm out and to make it available as an extraordinary 
oilseed for the sake of the world.
    So I am just very interested in those two areas. Anything 
you could get to me on that would be greatly appreciated. Not 
this panel, but the one sitting in back of you. They are 
looking. Am I clear?
    Dr. Galloway. Indeed. I will take your questions as an 
action right away if I can answer them.
    [The information follows:]

    Ms. Kaptur. I am very interested in the tobacco research that was 
referenced in the written testimony, and I am very curious about what 
you are doing to genetically manipulate the tobacco leaf or the tobacco 
for the production of proteins and nutraceuticals perhaps. This is 
something that as a member of the Agriculture Committee I have a 
longstanding interest in, even though I don't represent any tobacco 
growers. I just think it is a magnificent plan and its potential is 
unmet. So I would be very interested to know what you are doing along 
those lines.
    And then secondly in terms of ricin, I don't know enough about the 
sources of ricin, but I know the castor bean is one of them. And, I 
don't know if it is the only one globally. But if it is, I would like 
to know the research that is going on to isolate the ricin from the 
castor bean, and if you are doing research on that, and to what extent 
one could make that particular seed, to phase it out in its current 
form globally, since there are so few seed companies that exist 
anymore, and what the potential is to completely take the dangerous 
part of the germ plasm out and to make it available as an extraordinary 
oilseed for the sake of the world.
    So I am just very interested in those two areas. Anything you could 
get to me on that would be greatly appreciated. Not this panel, but the 
one sitting in back of you. They are looking. Am I clear?
    Dr. Galloway. Indeed. I will take your questions as an action right 
away if I can answer them.
    The Defense Threat Reduction Agency (DTRA) is managing research, 
under the Accelerated Manufacture of Pharmaceuticals (AMP) program, to 
develop large scale protein expression platforms. The program's aim is 
to develop a system for large scale production of U.S. Food and Drug 
Administration (FDA) approved prophylactic (e.g., vaccines) or 
therapeutic proteins. One such platform is the tobacco plant.
    The AMP program was originated by DARPA and has been structured as 
a 3-phase progressive demonstration of capability. Phases I and II are 
funded by DARPA, and managed by DTRA, in conjunction with the Science 
and Technology component of the DoD Chemical and Biological Defense 
Program (CBDP). It is planned that AMP Phase III will be both managed 
and funded by the CBDP's Transformational Medical Technologies 
Initiative (TMTI) program. Under the AMP program, tobacco was one of 
five manufacturing ``platforms'' that are being evaluated and 
considered.
    The tobacco platform employs non-genetically modified tobacco 
plants grown in a climatically controlled environment. After the plants 
have matured, they are subjected to a process that includes submerging 
them in a solution containing bacteria that has been modified to 
contain the protein of pharmaceutical interest. After the process, the 
plants are grown for approximately one week, to permit expression of 
the relevant proteins and then are harvested. The relevant proteins are 
then extracted. Under this program different species of tobacco plants 
are being evaluated for suitability. Evaluation of the plants includes 
optimization of protein production, as well as the cost of producing 
relevant protein.
    Ricin, considered an important biological threat agent, is found 
only in castor beans (Ricinus communis). The castor bean is dangerous 
as a biological agent due to its extreme toxicity, the worldwide 
availability of the castor bean and the toxin is relatively simple to 
purify from castor-oil manufacturing waste. The seed pulp left over 
from pressing the castor oil contains, on average, about 5% by weight 
of ricin. However, despite ricin's importance as a biological weapon, 
it also may have medical use. These include the treatment of cancer and 
as an adjuvant for mucosal vaccines.
    Although ricin is only found in castor beans, a similar toxin to 
ricin, abrin, is found in seeds of a plant called the rosary pea or 
jequirity (Abrus precatorius). Abrin, however, is not known to have 
been used as a biological weapon.
    Under the CBDP, DTRA currently has on-going research programs to 
develop prophylactic agents (i.e., vaccines) against ricin. A ricin 
vaccine candidate is presently planned to undergo early safety (phase 
I) trials. Additionally, we are managing research aimed at identifying 
small molecule inhibitors for use as anti-ricin therapeutic agents. 
However, our effort is focused on the conduct of medical 
countermeasures to important biological and chemical threat agents. It 
is not directed toward modification of castor bean plants or other 
agriculturally related projects. Therefore, we are unable to 
definitively comment whether efforts are underway to produce seeds not 
containing ricin.

                   LONG-TERM CONSEQUENCES OF VACCINES

    Ms. Kaptur. Thank you. Thank you very much.
    I have two major questions. One is I am very interested in 
long-term consequences of immunization on several levels. The 
rising autism in this country is one of my concerns, and no one 
seems to be able to understand why this is happening. I am 
wondering from the immunization of our soldiers and the numbers 
of immunizations that you have been responsible for, what are 
the long-term consequences of those? Do you have any time 
series studies regarding the types of immunizations, and then 
do you do profiles down the road, do you study what happens to 
these soldiers, to their families, to their children?
    Dr. Kilpatrick. There aren't any epidemiological studies 
that are designed to look at that in specific as far as long-
term outcome of vaccines. We do have a Millennium Cohort Study 
going on that is a 22-year study looking at service members' 
health, and it would include what kind of vaccines they have 
received. All of that is part of their medical record. It would 
look at their health outcome over, as I said, the 20-year 
period.
    Ms. Kaptur. Doctor, do you study their children?
    Dr. Kilpatrick. That study is really focused on the service 
members that ask questions about their children, but it doesn't 
have studies on their children, no.
    Ms. Kaptur. So you are telling me that of the immunization 
of our Armed Forces that there are no long-term studies done of 
the consequences across generations?
    Dr. Kilpatrick. To design a study to answer specifically 
the vaccine effect is a part of multiple other issues that may 
be part of that exposure of that person. And then subsequently 
to children would be a study that would be extremely difficult 
to design. I don't think we have ever done that with any 
vaccine long-term. We have safety studies and we certainly have 
studies looking at vaccines in a shorter term, but I think when 
you take a look at a 20-year effect, those are obviously 
complex studies that would take tremendous power and design to 
be able to sort out multiple factors that may contribute to 
either spouse or children medical health outcomes.

                    VACCINATIONS OF SERVICE MEMBERS

    Ms. Kaptur. All right. Well, we have spent since 2001 $40 
billion on biodefense, and it would seem to me that--what 
immunizations are our soldiers getting on a regular basis now?
    Dr. Kilpatrick. On a regular basis, they are getting much 
as the American public gets: diphtheria, tetanus, making sure 
that they are up to date with polio, making sure their measles 
and mumps are up to date. And then the seasonal flu vaccine is 
given to people on a regular basis. So that is the compilation. 
In some threat areas, a meningococcal vaccine could be used 
much as we are doing at college campuses when there is an 
outbreak of meningitis.
    Ms. Kaptur. What about those deployed to Iraq, initially 
and now, are they getting different vaccines?
    Dr. Kilpatrick. It is really the same vaccines; smallpox 
and the anthrax are the two vaccines that are theater specific.
    Ms. Kaptur. So they are continuing to get those, the 
anthrax even now?
    Dr. Kilpatrick. Yes, going to theater, yes.
    Ms. Kaptur. And back in the 1990s our soldiers never got 
anthrax, did they? Did they get them back in the first Persian 
Gulf War?
    Dr. Kilpatrick. In the Gulf War, Persian Gulf War, there 
were some individuals, and I think the number is around 5,000, 
who did receive anthrax vaccines, yes.
    Ms. Kaptur. Okay. Have we ever done any studies on long-
term consequences on those soldiers?
    Dr. Kilpatrick. Not those specific soldiers. We did not 
have the accurate recordkeeping you would like to see in place. 
Some people's records indicated they got vaccine A and others 
there was no such indication done.

                           VACCINE STOCKPILE

    Ms. Kaptur. Finally, could you answer this question? If you 
were with Katie Couric on Evening News and you were asked, the 
American people have spent $400 billion on biodefense since 
2001, tell the American people what they have gotten for their 
money, what would you say?
    Mr. Robinson. From the biodefense area I think that we have 
enough smallpox vaccine for all of us and twice over in fact. 
For anthrax vaccine we are reaching our goals of 75. We are 
working toward that. We are about a third of the way through 
that. For other red nuke agents----
    Ms. Kaptur. Seventy-five million people?
    Mr. Robinson. That is correct. For the red nuclear threats 
we have in our stockpiles at the strategic national stockpile 
agents for a number of different things; Prussian blue, 
potassium iodide, DTPA. That would be the amount that would be 
required for that kind of threat. There are other things that 
we are moving as we go forward toward reaching our goals over 
the next several years.
    Mr. Bishop. Will the gentlelady yield?
    Ms. Kaptur. I would be pleased to yield to the gentleman.
    Mr. Bishop. Did I understand you to say that you are one-
third of the goal of 75 million?
    Mr. Robinson. We have about 28.5 million doses.
    Mr. Bishop. So you don't have 75 million, you have one-
third?
    Mr. Robinson. That is correct. The key there is that 25 
million people is what we want to protect.
    Ms. Kaptur. And in your opinion what do you think are the 
most serious current threats facing our Nation from a 
biodefense standpoint?
    Mr. Robinson. From our observations and also with our 
threat determinations the ones that I have already listed are 
still on the table that we have to be very concerned about.
    Ms. Kaptur. Smallpox, anthrax?
    Mr. Robinson. Smallpox and anthrax are at the top of the 
list. Botulinum.
    Ms. Kaptur. What about ricin?
    Mr. Robinson. Ricin is one of the threats that is on the 
top and that there are antitoxins available for that.
    Ms. Kaptur. Thank you very much. Thank you, Mr. Chairman.
    Mr. Murtha. Mr. Rothman.

                             FUTURE THREATS

    Mr. Rothman. Thank you, Mr. Chairman. I am wondering if you 
gentlemen from both panels could walk me through, please, the 
detection and prevention aspects of this whole business. I 
think General Reeves said that we have taken off the table 
anthrax and smallpox, and that is quite a big statement. But 
how are we surveying the battlefields or the other places 
around the world where we might anticipate these things 
emanating from? So if you could give me that scenario, 
gentlemen, that would be great.
    Dr. Kilpatrick. I think General Reeves is the best to 
answer.
    Mr. Rothman. And obviously it is related to, and I know 
this is an open hearing, but related to where we are guessing 
or our knowledge base as to where these threats are coming 
from. What countries are producing the scientists, where are 
they going and where is this information going?
    General Reeves. I understand, sir. The direct answer is 
twofold. We do it through both medical surveillance, as well as 
through active detection on the battlefield, and I am speaking 
now to the Department of Defense forces. Medical surveillance 
obviously is going to look for infection in our troop 
populations. In terms of our biodetectors we actually 
physically put detectors on the battlefield to try to identify 
what the specific threats are. The larger issue of those areas 
that we might be going into, but yet we have no access to, is 
going to be based on intelligence. And either what we have been 
able to derive through intelligence and identify what we know 
they may be working on in terms of a potential capability, or 
it may be what we know are diseases that are already endemic in 
that particular part of the world.
    The particular challenge to our intelligence community for 
the biological threat is that the same facilities that can be 
used for good to make vaccines, those same large fermenters 
that you need to make vaccines, can be used for evil. They can 
be used to make a biological threat. So it is a very 
challenging area to be able to identify exactly what is going 
on, which is unlike the chemical or the nuclear threat, which 
has a good series of indicators associated with it.
    Mr. Rothman. I am assuming then that you can vouch for a 
robust, active and conscientious program on the part of our 
intelligence folks to be aggressively looking out for these 
things?
    General Reeves. Absolutely, sir. And I will tell you that 
my office and Dr. Galloway's office works very closely with the 
intelligence community.
    Mr. Rothman. And are we working with the Department of 
Homeland Security on discovering these various biological and 
chemical--I'm sorry?
    Mr. Dicks. Threat assessments.
    Mr. Rothman. Outside of the U.S. borders and at the U.S. 
borders?
    General Reeves. Yes, sir, we are.
    Mr. Rothman. With Homeland Security?
    General Reeves. Yes, sir, we are. We work very closely with 
the Department of Homeland Security. They identify a 
prioritized list of threat agents, both chemical and 
biological. We develop our list based on guidance from the 
Joint Chiefs of Staff and our intelligence community. And we 
actually compare those lists to see where there is commonality 
in what we need to do to develop countermeasures or 
identification techniques.
    Mr. Rothman. And why are anthrax and smallpox off the 
table? In what sense did you mean that?
    General Reeves. In the military we have the advantage of 
being able to anticipate the threat and therefore vaccinate our 
soldiers, sailors, airmen, and marines. And so in the sense of 
saying that it helps take the aces off the table, what I was 
trying to convey was the idea that since we have the luxury, 
and I put that in quotes, of being able to prepare our Armed 
Forces, unlike a civilian population, that we can anticipate 
that and therefore reduce those specific threats.
    Mr. Rothman. And a question if I may for Dr. Tether, who I 
believe said something on the order now we can discover a 
vaccine for new bugs quickly, you said that with some great 
pride and almost as eureka, we discovered this and we can do it 
now in a matter of weeks. In this open hearing what can you 
tell us to give us confidence as to the nature of this 
breakthrough that should give us confidence?
    Dr. Tether. Well, it is not just one breakthrough. It is a 
bunch of many things that have gone on over the last 10 years 
we have been working on the problem. What I would rather do is 
why don't I take it for the record. And I could actually be 
more precise to you as to exactly what are the things that we 
have done and why that statement is true.
    [The information follows:]

    I appreciate the opportunity to clarify my remarks to the Committee 
regarding the development of new vaccines and how DARPA is working to 
change the entire paradigm of defense against biological threats.
    We face a daunting problem in developing defenses against 
biological attack. Strategies that attempt to use today's technologies 
and methods to meet future, potential biological warfare threats are 
seriously and inherently flawed technically, and would be prohibitively 
expensive. First, it is nearly impossible to predict what threats might 
emerge two decades into the future, particularly with the emergency of 
``synthetic biology,'' which has now demonstrated the synthesis of an 
entire bacterial genome from raw chemicals alone. Second, from the 
moment a new pathogen is first identified--either a weapons agent or a 
naturally emerging pathogen--today's technology and methods require at 
least 15 years to discover, develop, and manufacture large quantities 
of an effective therapy. It would be untenable and exorbitantly costly 
to attempt to ``cover the bases'' by performing the extensive research 
and development required to deal with a wide range of potential 
threats, and then stockpile, maintain, and indefinitely renew 
population-significant quantities of vaccines or other therapeutics 
just in case one or more of those specific threats might emerge.
    Over the past 10 years, DARPA has supported research to change this 
paradigm by creating technologies to shrink the time from first 
pathogen emergence to the production of millions of doses of effective 
vaccines/therapeutics to sixteen weeks or less--in sharp contrast to 
the 15 years or more that it takes today. To achieve this goal, DARPA 
has divided the required research into the technical areas depicted in 
the development timeline in Figure 1:

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Mr. Rothman. Okay. And is it appropriate to, or can you 
talk about the sources of the scientific knowledge? I am 
assuming it is Russia, North Korea, but you tell me. Where is 
the knowledge base coming from, or is it so easily disseminated 
on the Internet that now it is everywhere, to create these 
sources of threats; biological, chemical or radiological to us?
    General Reeves. Well, staying with the biological threat 
for just a moment, sir. Of course we have the traditional 
threats of naturally occurring disease. We have certain 
emerging threats. And you heard a moment ago talking about 
pandemic flu, SARS, drug resistant tuberculosis. We have 
enhanced threats where people can do what is referred to as 
bioprospecting. They go out and look for particularly virulent 
strains of some particular threat. And then we have what you 
heard Dr. Galloway speaking of earlier, which are the so-called 
advance threats. And these are the genetically engineered or 
genetically modified threats. And what I would simply use as a 
matter of illustration is that the kinds of things that were 
done in genetic engineering only a few years ago by 
postgraduate doctoral students are today being done in colleges 
and high schools. The rapid advance of biotechnology and the 
development of genetic, the tools of genetic engineering, are 
very widespread through both our university system as well as 
through the Internet. And that concerns us greatly for the 
future.
    Mr. Rothman. And, again, please assure me, unless you can't 
honestly, that the Department of Homeland Security is aware of 
the ubiquitousness, if there is such a word, of the potential 
threat here in the United States for that kind of bad conduct?
    General Reeves. They are, sir. And we do work closely with 
the Department of Homeland Security across all of our programs, 
not only pharmaceutical, but also in detection and protection 
programs to share common technology.
    Mr. Rothman. My chairman is smiling.
    Mr. Murtha. Mr. Bishop. 
    Mr. Rothman. Thank you, Mr. Chairman.

                    CONTINUITY OF VACCINE STOCKPILE

    Mr. Bishop. Thank you, Mr. Chairman. The committee 
understands that JAC has recently canceled the future 
procurements, and back to anthrax, of the FDA approved anthrax 
vaccine and that you plan to rely solely on HHS for procurement 
of the vaccine doses that are needed for future vaccinations of 
our military personnel. Since DoD has successfully managed this 
contract in the past for assuring a continued supply of 
vaccine, what assurances do you have from HHS that they will 
maintain your supply chain, that they will give DoD first 
priority for vaccine doses in the stockpile and assure that 
there won't be an interruption in the supply for DoD if HHS 
were to draw down its vaccine stockpile during an emergency? 
And what assurances has HHS provided DoD that it will acquire 
the additional doses of thorax to replace the doses that are 
provided to DoD, as well as the other doses that have expiring 
shelflives? And the final part of that is when will HHS have a 
new contract for increasing the number of FDA-licensed vaccine 
doses to reach that 75 million goal?
    Dr. Kilpatrick. Well, I can start, and I will let Dr. 
Robinson finish the answer, because it really was a joint 
agreement as we went into this saying that this just logically 
makes sense instead of trying to run two different contracts 
and being in competition. We asked how do we work this together 
and how do we do it concurrently. I think all the issues that 
you raised were parts of that agreement that was clearly 
spelled out. I think that as we look at how we manage that, we 
are both very confident that DoD's needs will always be met, 
that there won't be any issue on that. And I think it comes 
from the production of--
    Mr. Bishop. Let me interrupt you just a second. Mr. 
Frelinghuysen suggested, with probably good reason, that HHS is 
a little bit slow in its performance.
    Dr. Kilpatrick. Well, again, I think this is an agreement 
where the two organizations have really spelled out all the 
details so that DoD is very confident that our supply will 
continue to be met. I know HHS has continued to work on what 
they are looking at in the stockpile. But the efficiencies of 
scale and the contracting and I think moving this forward as we 
are looking at the potential for even new vaccines being 
developed in the future, I think that is really where this 
agreement is headed, not just for today, but looking into 
production capabilities in the future.
    Mr. Robinson. Thank you, Dr. Kilpatrick. I want to echo 
what he said, and what he said is absolutely true in that the 
different elements that you presented to us were in that 
agreement, and that HHS is moving forward with the next one 
this year to procure more of the vaccine. And as head of the 
pan flu program we moved it expeditiously and we will move 
forward with BARDA expeditiously on all our threats, not just 
pan flu.
    Mr. Bishop. When is the 75 million going to be reached?
    Mr. Robinson. We see that as not only--we are buying what 
capacity is there right now.
    Mr. Bishop. I am sorry?
    Mr. Robinson. We are buying what capacity that they can 
make right now, and will continue to do that. We have the 
advanced development of new products coming on. We will be 
awarding contracts for the RPA.
    Mr. Bishop. Let me repeat myself. When will the 75 million 
be reached? That is as in the date or an expected date?
    Mr. Robinson. We would like for the record to give you the 
timelines on that in specific numbers over the next several 
years, how much we would actually get for each year, if we 
could do that, sir.
    Mr. Bishop. Thank you.
    Mr. Murtha. Mr. Lewis, do you have anything additional?
    Mr. Lewis. No.

                          UNFUNDED PRIORITIES

    Mr. Murtha. Let me make a couple comments here, that having 
the staff from HHS is so important. I understand last year it 
was $870 million which got lost in between the supplemental 
domestic spending, and so forth. I think you need to tell both 
our staffs what that $870 million would have done. I think it 
looks to me like the cell research is the key to moving this 
thing forward faster, because if you can produce the research 
using cells rather than eggs you reduce the time it takes in 
the research.
    And third, the manufacturing, which is the customer. So I 
think we need to hear from you how we solve these problems or 
what we can do to help in defense. I don't know that we can do 
anything, but I think you can see the concern of the committee 
about us trying to help. But the key thing is what will the 
$870 million, and my staff says $1.2 billion may have been 
needed to stabilize this thing. We don't want to wait until 
there is a damn epidemic and then rush around and spend a lot 
of money and not solve the problem. A lot of people die in the 
meantime. As some people say, the valley of death means between 
research and manufacturing. So we need you to tell the staff so 
we get some conception of if we can help. We may not be able to 
help, but we need to have an idea of what we can do.
    Mr. Lewis. Mr. Chairman, if you would yield on that. I talk 
with my colleague to my right from New Jersey about a lot of 
things. He doesn't discuss his big pharmaceutical companies 
with me too often. But I do understand from both of my 
colleagues from New Jersey there is not a heck of a lot of 
profit made by these companies by way of vaccine production, 
but nonetheless they do have capacity. Further, it is suggested 
that if we do have a challenge relative to being able to 
produce huge volumes in X and Y, it is likely a relatively 
minor investment relative to an existing capacity, wherever it 
might exist, but it would be much more logical as long as the 
government had access, much more logical than creating a huge 
facility somewhere where we might have part-time employees turn 
on the lights once in a while and wait for the emergency to 
occur.
    Mr. Robinson. Yes, sir. First, I want to thank you, because 
even though avian influenza and pandemic influenza is not on 
the airways every moment like it was a year ago, your urgency 
is shared by us, and I mean me personally. Relative to the $870 
million, that money was to go for advanced development of the 
cell-based vaccines to get those towards licensure of the 
products over the next 2 years. Also for recombinant vaccines, 
which would be able to produce the product in about half the 
time that cell or egg-based would, so that was one of the 
things. For advanced development of new antiviral drugs that--
--
    Mr. Murtha. Go over that again. The $870 million would 
reduce--what would it do?
    Mr. Robinson. The second element of that would be for 
recombinant vaccine development where they could actually 
produce the vaccine in one-half the time that we see with the 
standard egg-based and the new cell-based vaccine.
    In a pandemic--let me just walk you through this, in a 
pandemic we see that egg and cell-based facilities would be 
able to provide the vaccine at 20 to 23 weeks after the onset 
of a pandemic. We have walked through this, we have compressed 
it as much as we possibly can, and that is really what the 
manufactures and we know that it can happen. The recombinant 
vaccines, however, provided an opportunity to break that down 
to about 12 weeks. And so at HHS we are moving forward with, in 
fact we awarded contracts this year, to advance development of 
those types of vaccines, such as recombinant proteins, 
recombinant DNA that would be able to have vaccines in half the 
time that we would expect for egg and cell-based.
    Mr. Murtha. But yet back so we understand. The $870 million 
would in 2 years reduce the time it takes to do the research 
towards cell-based versus eggs and consequently reduce the time 
it takes to produce and get through the system faster?
    Mr. Robinson. For the cell-based it actually gives us the 
entire manufacturing capacity that we need to produce the 600 
million doses that we would need for a pandemic. In addition to 
that, we would have recombinant vaccines that would be able to 
come online much sooner during a pandemic, about half the time.
    Mr. Murtha. What would the shelflife be for the $600 
million doses?
    Mr. Robinson. For the 600 million doses right now what we 
have seen is influenza vaccines normally have not been allowed 
to go much longer than a year. And what we are seeing right now 
is that as we keep our vaccines in bulk form, not in the final 
vials but in bulk, we are seeing 2 and 3 years and going 
forward that these vaccines are stable.
    Mr. Murtha. And how long does it take--all right, you do 
the research. How long does it take to get through the FDA 
system?
    Mr. Robinson. That still takes anywhere to go from the time 
that you file an IND, to go into the clinic and try to 
demonstrate safety and efficacy until the time that you are 
licensed, the best that we can do is about 4 to 5 years.
    Mr. Murtha. Well, see, this is why this is urgent. I mean, 
we cannot afford----
    Mr. Robinson. And we have a way of ameliorating that 
timeline, and that is the Department has an authorization 
called emergency usage authorization. If we see a product that 
has been shown to be safe and it has some efficacy but it 
hasn't been licensed yet, the Secretary can make a declaration 
that that product could be used.
    Mr. Murtha. But it is going to take some time to do that in 
order to do it safe.
    Mr. Robinson. No, we have those actually programmed such 
that for pandemic influenza that the minute that it occurs that 
that specific product would be mobilized and could be made and 
then moved out and be given to an individual.
    Mr. Murtha. Give this committee an idea of what we are 
talking about. Give us an idea. You got the cell-based 
research. How long does it take to get it to the market, to get 
it produced, researched and produced into the market?
    Mr. Robinson. For cell-based 20 to 23 weeks from the time a 
pandemic occurs.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Lewis. Excuse me, could I follow on that?
    Mr. Murtha. Sure.
    Mr. Lewis. I am presuming the timeline you just suggested 
included approval by the FDA?
    Mr. Robinson. In the cell and egg-based where we are moving 
toward is if they are not already a licensed vaccine, because 
influenza vaccines are licensed, then we would use the 
emergency use authorizations which we will already have in 
place as we go forward, so that part would not be any problem.
    Mr. Lewis. Is there full cooperation with the FDA for a 
process like this?
    Mr. Robinson. Yes, sir, they are part of the process, 
absolutely.
    Mr. Lewis. And did that involve essentially setting aside 
clinical trials or what?
    Mr. Robinson. For the pandemic vaccine there would not be 
clinical trials because the vaccines would be so similar to the 
ones that are already licensed that we would be able to use 
those under emergency usage authorization.
    Mr. Lewis. We are talking about threats that are much 
different than the well-established threats here potentially. 
And so what we are really trying to do is have you help us with 
developing processes for responding that will be sensible in 
terms of review by organizations like the FDA, but at the same 
time be able to be timely. We don't want this to be a 
population control program. It is--well, I would be very 
interested in having DARPA help us and you all help us know 
where there are major problems in facilitating these timelines. 
If you are not getting cooperation from the private sector, for 
example, in a timely and responsive way we would like to know 
that. If there are hangups with territory in an FDA location, 
we would like to know that. The interplay between the 
universities. I would think major universities around the 
country are doing research in a variety of mix of these areas, 
and what we don't know about all that and the way we are 
coordinating those research efforts, I don't know anything 
about them, but we sure should.
    Anyway, I am sorry, Mr. Chairman.
    Mr. Murtha. Let me tell you, we want to help you solve this 
problem. That is the key. Mr. Dicks, do you have a question?

                            ANTHRAX VACCINE

    Mr. Dicks. Yes. Dr. Robinson, when was BARDA created?
    Mr. Robinson. In 2006, sir.
    Mr. Dicks. Now, as I understand it, I want to correct the 
record here, the number--how many threat assessments have come 
over from the Department of Homeland Security to HHS?
    Mr. Robinson. It is my recollection that there are 13. Yes, 
13.
    Mr. Dicks. And they have all been, whatever you do, you 
approve them or agree with them or concur in them, that has all 
been done, isn't that correct?
    Mr. Robinson. Yes, sir.
    Mr. Dicks. That is good. Now, there was a problem with the 
first anthrax contract that went out to a company, Vaxgen. It 
is like $800 million, and we got nothing.
    Mr. Robinson. That is correct, sir.
    Mr. Dicks. Did we spend all the money?
    Mr. Robinson. No, sir. $1.5 million was all that was spent 
on that contract.
    Mr. Dicks. $1.5 million, that is good. Now, understanding 
you have developed several different anthrax approaches, is 
that not correct?
    Mr. Robinson. That is correct, sir.
    Mr. Dicks. Can you tell us about that? These are contracts 
that have just been let. They are smaller.
    Mr. Robinson. Yes, sir. One of the ways to go about this is 
with the advanced development. There are small broad agency 
announcements where we have awarded these contracts on a number 
of different types of mixed generation anthrax vaccines. What 
we see is those going forward, and we know not all of them are 
going to make it, but by advancing development paradigm we can 
take those that look really promising and move those toward 
licensure and then those will become eligible, because we want 
multiple products there in the stockpile for that threat.
    Mr. Dicks. Now, I asked you about the bird flu vaccine. You 
said that--is there some new strain of bird flu that we don't 
have a vaccine for?
    Mr. Robinson. No, sir. What happens is as normal human 
influenza does is it genetically changes slightly. And what we 
have seen is that is exactly what happens. In HHS we monitor 
this through CDC and the World Health Organization. And our 
stockpiles actually reflect to the year, actually to several 
months ago, what is actually out there and circulating as the 
biggest threats. And we will continue that monitoring of 
different avian influenza virus, not only H5N1 but H7 and H9 
viruses also.
    Mr. Murtha. Mr. Rothman has a question.

                            SECURITY THREATS

    Mr. Rothman. Thank you, Mr. Chairman. I wonder if this 
question is for the Chair or for the panel. I understand and 
appreciate all the testimony about naturally occurring diseases 
and things like that. But being this is the Defense 
Subcommittee I am concerned about and we are concerned about 
adequate funding to address security threats to the United 
States. How do we assure ourselves, Mr. Chairman, that the 
intelligence community, A, has the incentive and, B, have the 
resources to be looking for these things, these problems and 
source of problems overseas? That old expression, an ounce of 
prevention is worth a pound of cure, I think is applicable.
    So I don't know whether this panel can testify to that or 
not.
    Mr. Murtha. I don't think that this is as much 
intelligence. I think we are really talking about the 
possibility of a flu epidemic rather than anthrax. Anthrax of 
course, as we all well know, is not contagious. So it is a 
different situation.
    Mr. Rothman. If the gentleman will yield. The genetically 
altered threats that the General was talking about and Dr. 
Galloway apparently are the most frightening because there is 
so much unknown there and we don't have adequate ways to 
address the unknown. So it would seem that that would be the 
biggest threat to our Nation.
    Mr. Murtha. Do you think you are getting adequate 
intelligence? Are they paying attention to this? Is this 
something we have any access to?
    General Reeves. We do, sir. But clearly given the very 
nature of being able to genetically modify an organism the 
potentials are almost endless. And so part of what Dr. Galloway 
and the chem-biodefense program is doing is looking at those 
techniques that we can use generically to identify virulence in 
a threat so that we can very quickly recognize what that 
genetic modification is, how do we produce countermeasure and--
--
    Mr. Murtha. Did you say before the hearing started it takes 
up to a year sometimes to determine this?
    General Reeves. It certainly could, sir.

                      EMERGENCY USAGE OF VACCINES

    Mr. Murtha. Okay. I have one last question. How many times 
have we used the emergency usage authorization?
    Mr. Robinson. To my knowledge, sir, we have used it at 
least a couple of times already. And we have preset documents 
that are ready to go on different threats going forward.
    Mr. Murtha. No adverse effect to the public?
    Mr. Robinson. For those that we know, we only would put 
those that have a good safety record going forward, that we 
feel confident that they would not have severe adverse effects.
    Mr. Dicks. For the military or is it for the civilians? Is 
it for military or civilians?
    Mr. Robinson. We know for civilians we do have that 
authorization to do that, the EUAs yes, sir.
    Mr. Dicks. You can do it for civilians as well as the 
military?
    Mr. Robinson. That is correct.
    Mr. Murtha. Mr. Young.
    Mr. Young. Mr. Chairman, thank you. During the first panel 
I mentioned some of the work that was being done at the 
University of South Florida when the subject of bird flu came 
up, called to my attention. They did a tremendous amount of 
research and work, not only nationally but internationally, on 
the issue of bird flu. And if you haven't talked to them you 
might want to do that, because I think they might have a lot to 
offer.
    Mr. Murtha. Thank you very much. The committee is 
adjourned.
    [Clerk's note.--Questions submitted by Mr. Rothman and the 
answers thereto follow:]

    Question. Dr. Galloway: The Commission on the National Guard and 
Reserves, which reported out January 31, 2008, emphasized in their 
findings the need for federal readiness to respond to national 
emergencies such as use of weapons of mass destruction. What current 
programs are underway at the Defense Threat Reduction Agency to provide 
medical response for emergency treatment of victims, in the event of 
another terrorist attack?
    Answer. The Defense Threat Reduction Agency (DTRA) conducts science 
and technology research directed at improving medical response in 
treating victims of terrorist threat agents by developing new 
prophylaxis and therapeutics for chemical, biological and radiological 
agents. Our research takes these potential medical products to the 
point of readiness to file for an Investigational New Drug (IND) 
application with the Food and Drug Administration (FDA). Further 
development that seeks to result in gaining an FDA license for these 
products falls within the domain of the Joint Program Executive Office 
for Chem-Bio Defense. Although the efforts are oriented primarily at 
capabilities of interest to the war fighter, the products and methods 
ensuing from this research have applicability to the public sector as 
well. To this aim, DTRA attempts to coordinate, at multiple levels, 
with Department of Health and Human Services (DHHS) and the Department 
of Homeland Security (DHS) offices to avoid duplication and to ensure 
that appropriate threats are addressed by our research programs.
Countermeasures Against Biological Agents
    Research focuses on developing pre- and post-exposure medical 
countermeasures effective against biological warfare (BW) threat 
agents. These activities focus on preventing disease, or reducing the 
lethal and functional incapacitating effects of an agent. The projects 
managed by DTRA range from basic research to more mature research 
efforts. Basic studies are focused on characterizing pathogenic 
mechanisms, host immune responses to pathogens, and identification of 
therapeutic and vaccine targets. Applied and advanced studies are aimed 
at designing and evaluating novel therapeutics and the generation and 
testing of novel vaccine candidates.
                              therapeutics
Therapeutics against bacterial agents
    The objective of the task area is to develop therapeutic modalities 
that reduce the lethal and functional incapacitating effects of 
bacterial BW threat agents. Specific agents of current interest include 
Yersinia pestis, Francisella tularensis, Burkholderia mallei, 
Burkholderia pseudomallei, and Bacillus anthracis. DTRA funded research 
supports the testing and evaluation of conventional antimicrobials in 
order to provide actionable information regarding prophylaxis or 
treatment options to healthcare providers in the event of an attack. 
Research in this area also includes the development of next generation 
antimicrobials capable of providing novel treatment options in the 
event of an attack or outbreak with an antibiotic resistant strain.
Therapeutics against toxin agents
    DTRA also conducts efforts aimed at the development of first in 
class therapeutic modalities against toxins. The anticipated effects of 
the use of this therapeutics are the amelioration of the lethal and 
functional incapacitating effects of specific toxin agents. Currently, 
primary focus is directed toward discovery and therapeutic development 
efforts directed at botulinum neurotoxins (BoNT) serotypes A-G, ricin, 
and staphylococcal enterotoxin.
Therapeutics against viral agents
    Research is also currently being conducted in the development of 
therapeutic modalities targeted against aerosolized viral BW threat 
agents. Resources are currently primarily applied toward development of 
therapeutics against filovirus (i.e., Marburg and Ebola virus), 
alphavirus, and orthopox virus infection. DTRA funded research is 
supporting the development of ST-246, a novel smallpox antiviral, that 
could be used in the event of a variola (smallpox) attack. ST-246 is 
safe in humans and is 100% protective in primates that have been 
infected with the virus. Efforts are also directed at developing novel 
antiviral therapies against CDC category A and B viral biothreat 
agents, especially viral encephalitis and hemorrhagic fever viruses. 
Efforts that support FDA licensure of these products are paramount to 
deploying timely and effective medical countermeasures.
                                vaccines
Vaccines against bacterial agents
    The program objective is to develop vaccines that protect 
individuals against predicted battlefield doses of aerosolized Category 
A and B bacterial biothreat agents. The program conducts basic research 
to identify mechanisms of bacterial pathogenesis and host immune 
responses. Studies are aimed at identifying protective antigenic 
epitopes against Category A and B bacterial agents that may be 
incorporated into an effective vaccine candidate. Applied research 
involves testing vaccine candidates in tissue culture and small animal 
models for immunogenicity/potency. If results are promising, the 
candidates are further tested for their ability to protect laboratory 
animals against challenges with the corresponding bacterial pathogen. 
Vaccine formulations include recombinant proteins, and the use of novel 
platforms to express target antigens. Past successes include 
efficacious vaccines against Bacillus anthracis and Yersinia pestis 
(i.e., anthrax and plague). The program is currently working on 
vaccines against Burkholderia sp., Brucella sp. and Francisella 
tularensis. The program also is aimed at identifying protective 
antigenic epitopes against bacterial biothreat agents that could be 
incorporated into a multi-agent vaccine platform, and the development 
of alternative delivery methods. The program's emphasis is the down-
selection of identified vaccine candidates for further, advanced 
development.
Vaccines against viral agents
    As for viral agents, the long-term objective is to develop vaccines 
that protect individuals against predicted battlefield doses of 
aerosolized Category A and B viral biothreat agents. Basic studies are 
aimed at understanding mechanisms of viral pathogenesis and host 
response, in order to identify protective antigens that may be 
incorporated into vaccine formulations. Currently, the major thrusts in 
this area are the generation of vaccines that protect against the 
filoviruses (e.g., Ebola and Marburg) and alphaviruses [e.g., 
Venezuelan Equine Encephalitis (VEE), Western Equine Encephalitis virus 
(WEE) and Eastern Equine Encephalitis virus (EEE)]. The program's goal 
is to develop a vaccine against each viral agent, either as a single or 
preferably multi-agent (e.g., VEE/EEE/WEE) formulation. The vaccine 
platforms currently being tested include inactive viruses, naked DNA, 
non-replicating viral vectors, and virus-like particles. Again, the 
focus is the down-selection of vaccine candidates for further advanced 
development.
Vaccines against toxins
    DTRA is also generating vaccines against Category A and B toxin 
threats. A safe and efficacious vaccine against Botulinum neurotoxin 
(serotypes A/B) was generated and transitioned to the advanced 
developer in 1999. Likewise, a vaccine against Staphylococcal 
enterotoxin B was also developed and is scheduled for an upcoming phase 
I clinical trial. Currently, the program is evaluating a vaccine 
against Ricin, which should enter phase I clinical trials in FY09/10.
Countermeasures Against Chemical Agents
    An important area of DTRA's research portfolio includes projects 
aimed at developing medical countermeasures to chemical agents, 
including non-traditional agents. Some DTRA efforts are directed at 
elucidating the mechanisms of chemical agent etiology with the 
anticipation that identify new targets for next-generation 
therapeutics. However, a priority is given to testing and development 
of prophylactic, therapeutic and adjuncts to chemical agents. In 
addition to development of modalities of treatment for chemical agents, 
projects include developing state-of-the-art laboratory/fieldable 
methods that detect exposure to chemical agents, such as nerve agents 
and vesicants, in clinical samples.
    Significant efforts are aimed at developing catalytic BioScavenger 
or other than butyrylcholinesterase BioScavenger prophylactics that 
provide protection against all organophosphorous nerve agents. 
Additionally, medical therapeutics are being developed for the 
protection of the nervous system against nerve agent threats. Some of 
the medical countermeasures being developed here include 
neuroprotectants, anticonvulsants, and improved cholinesterase 
reactivators. DTRA also manages projects aimed at developing 
therapeutic strategies to prevent or minimize injuries caused by 
vesicant agents, namely sulfur mustard. Emphasis is placed on all major 
routes of exposure to include the integument and ocular tissues as well 
as the respiratory and systemic systems.
Countermeasures Against Radiological and Nuclear Exposure
    Currently, no licensed non-toxic pharmaceutical agents or 
diagnostic capabilities are suitable for use in military operational 
environments for penetrating ionizing radiation. An aminothiol 
compound, amifostine, is FDA approved for use in patients receiving 
chemotherapy or radiation therapy, but amifostine's performance 
degrading toxic side effects prohibit its use in healthy patients. 
Other pharmacologic agents are available to physicians off-label, such 
as hematopoietic cytokines (Neupogen<SUP>TM</SUP>) for treating bone 
marrow injury. Additionally, antibiotics are commonly used to treat the 
infectious sequelae of radiological injuries, but they must be selected 
appropriately to effectively treat exogenous and endogenous systemic 
infections while not affecting beneficial intestinal normal 
microfluora.
    DTRA's research efforts in this area are aimed at preventing or 
mitigating radiation-induced injury. The focus of DTRA's efforts, 
therefore, is to develop broad-spectrum medical radioprotectants 
against Acute Radiation Syndrome (ARS) and Delayed Effects of Acute 
Radiation Exposure (DEARE), leading to chronic radiation damage (e.g., 
fibrosis and mutagenesis). These radioprotectants are envisioned to be 
used prophylactically and/or therapeutically (i.e., post-irradiation 
exposure). The development of radioprotectants (prophylaxis or 
pretreatment) is unique to DoD strategy, and, as such, DoD is the only 
governmental agency developing medical countermeasures to prevent 
against ionizing radiation before exposure.
    Specifically, countermeasures under development focus on the 
effective treatment of respiratory and gastrointestinal systems 
following radiological exposures. These studies are designed to support 
FDA requirements for approval. The approaches include medical 
countermeasures such as anti-oxidants, anti-apoptotic agents, 
decorporation agents, and lung/GI rescue of cellular components against 
ARS and DEARE. Although novel approaches are sought, more mature, 
promising product candidates at later stages of development that 
clearly demonstrate viability for use in this area are emphasized. 
Additionally, chromosomal biomarkers aimed at development of 
biodosimetry technology for diagnosis of patients following 
radiological exposure is conducted.
Diagnostic Technology
    DTRA also manages programs directed at developing new diagnostic 
technologies. The ultimate goal in this area is to field complete 
diagnostic systems (e.g., test platform assays and reagents) that will 
confirm health threats and rapidly diagnose exposure to, or disease 
caused by, biological warfare agents. The current program provides 
support for established programs, including the Joint Biological Agent 
Identification and Diagnostic System, Next Generation Diagnostic 
System, as well as the Critical Reagents Program. In these regards, 
guidelines have been established and standardized for assessing nucleic 
acid assays and immunoassays, de novo clinical sequencing, and host 
response biomarkers that provide a decision point for transition from 
the tech-base to advanced development, leading, eventually, to FDA 
approval.
Transformational Medical Technologies Initiative
    The Transformational Medical Technology Initiative (TMTI) is a 
unique program designed to provide an enterprise capability directly 
geared to support a coordinated, rapid, and effective medical response 
to all victims in the event of another terrorist attack. The 
overarching goal of TMTI is to provide a sustainable capability to 
rapidly respond to traditional, emerging and genetically modified 
biological threats. TMTI is aimed at protecting the warfighter from 
biological threats through three key performance enablers, which 
provide proof-of-process and include:
          <bullet> Providing broad spectrum medical countermeasures 
        against intracellular bacterial pathogens and hemorrhagic fever 
        viruses
          <bullet> Developing platform technologies to identify and 
        counter unknown agents
          <bullet> Obtaining genetic sequences of threats to enable 
        rapid identification of agents and accelerate the development 
        of essential therapeutics.
    The science of countermeasures has long revolved around the notion 
of prophylaxis or treatment targeting a single organism; TMTI has 
engaged early research to create platforms that support the enterprise 
by targeting broad spectrum regions that will result in broad spectrum 
therapeutics. The knowledge of the prevalence of these regions and the 
effective blockers will enable rapid response to events and threats in 
the future. The development of these platforms, including threat 
identification, drug discovery and development, and accelerated 
manufacture, will speed the response necessary for effective 
consequence management. All of these will be done in concert with 
Health and Human Services, and Homeland Security.

    [Clerk's note.--End of questions submitted by Mr. Rothman. 
Questions submitted by Mr. Young and the answers thereto 
follow:]

    Question. General Reeves.
    Until the development and deployment of the next generation of 
detectors, the possibility exists of being attacked with an unknown 
biological agent. The use of broad-spectrum therapeutics may help to 
counter the uncertainty of the exact virus or strain of virus being 
used as a weapon. For example, Ribavirin is the preferred treatment for 
certain hemorrhagic fever viral infections, but it is worthless against 
Ebola and Marburg infections. A broad-spectrum therapeutic could work 
against all of them. In fact, in a bioterrorist attack, a broad-
spectrum therapeutic could conceivably be used before the actual 
pathogen had been identified.
    How effective are broad-spectrum therapeutics? What are their 
drawbacks? Can these help alleviate some of the uncertainty?
    Answer. Although we would be delighted to find, develop, and field 
a true broad-spectrum therapeutic that will work against all threat 
classes, this is highly unlikely, given what we know of pathogenesis 
and host immune pathways. Our working concept of broad-spectrum 
therapeutics involves countermeasures that will cross at least two 
threat classes (e.g., a countermeasure that interferes with viral 
capsid formation, a mechanism used by many viral classes). The 
Transformational Medical Technologies Initiative (TMTI) program 
supports several efforts in this direction. It also addresses rapid 
identification of unknown, newly emergent, or bioengineered agents. The 
Chemical Biological Medical Systems (CBMS) program also addresses 
threats with broad-spectrum agents; for example, our botulinum toxin 
vaccine will protect against two types of botulinum toxin.
    At present, the only truly broad-spectrum therapeutics we have are 
antibiotics with a wide spectrum of action. We have no specific 
therapeutics other than supportive therapy against threat classes such 
as the weaponizable viral hemorrhagic fevers (e.g., Ebola, Marburg, 
etc.) or certain intracellular bacteria (e.g., Burkholderia, 
tularaemia, etc.). Clinicians regularly institute broad-spectrum 
antibiotic therapy before the results of culture and sensitivity are 
known when patients present with what are believed to be bacterial 
infections. This has been part of daily medical practice for decades. 
This practice has long proven effective. The drawbacks of any 
therapeutic are the side effects of the medication, as well as the 
uncertainty that may result if we partly treat an infection before we 
have clearly classified it. In theory, broad-spectrum therapeutics not 
yet developed would share the same drawbacks.
    It is not quite accurate to say the Ribavirin is the preferred 
treatment for certain hemorrhagic fever viral infections. Ribavirin is 
approved by the Food and Drug Administration (FDA) only against 
hepatitis C. It has indeed been proven effective against several other 
viruses, such as Lassa, including some human experience. But it is not 
approved for these indications. Ribavirin is not effective against 
Marburg and Ebola viruses. Ribavirin is used by the Department of 
Defense (DoD) as the preferred treatment for Korean hemorrhagic fever. 
It is used, under an Investigational New Drug protocol, which involves 
informed consent, at the 121 Army Hospital in Korea to treat the one to 
five patients attended to every year. In this case, Ribavirin is the 
preferred DoD treatment.
    Question. Similarly, a major disadvantage with vaccine development 
for specific virus strains is that it could be rendered worthless by a 
single genetic modification to the virus. Because of that fact, there 
exists the possibility that the military could stockpile large amounts 
of vaccines and therapeutics that could be rendered useless.
    Does the enemy have the sophistication to genetically alter a 
virus? Is this something we should be more worried about?
    Answer. Let me say first that there is no indication that any 
terrorist organization has the capability to, or is attempting to, 
genetically alter viruses. However, any nation with an advanced 
biotechnology industry or capability could conceivably genetically 
alter a virus, potentially rendering vaccines and countermeasures 
useless. While no nation publicly acknowledges having either an 
offensive biological weapons (BW) program or stockpile, a number of 
countries, some of which have advanced biotechnology capabilities, are 
assessed to have some BW capability. This is why development of broad-
spectrum therapeutics is important to the overall chemical and 
biological defense program.
    Question. Your recent Senate testimony refers to the use of 
smallpox vaccine as a real achievement in additional readiness for the 
warfighter. It is my understanding that currently some 20% of our men 
and women in uniform cannot be vaccinated for a variety of reasons, 
including contraindications such as eczema, autoimmune diseases, or 
heart disease. Is there a gap in coverage, in your view? Is the 
Department looking at ways to deal with this? Could options include 
procurement of a therapeutic drug for those who are not vaccinated and 
become exposed to smallpox?
    Answer. Actually, about 9% of those screened for smallpox 
vaccination have been found medically ineligible. The 9% that were not 
vaccinated were due to medical exemptions based upon our stringent 
screening guidelines to identify individuals who may be at a higher 
risk of incurring smallpox vaccine related adverse events. The 
Department of Defense (DoD) leadership balances the benefit of 
protection against a biological attack using smallpox with careful 
consideration of the potential risks of vaccination. If the risk of 
attack increases, DoD can identify the individuals that were exempted 
from vaccination and reconsider administering the vaccine or remove 
those people from the high threat area. There are no absolute 
exemptions to smallpox vaccination in a postexposure event. If the 
smallpox threat materializes, these people would be protected by 
individual or collective protection capabilities that we have fielded.
    Additionally, the DoD continues to explore postexposure treatment 
options, including procurement of therapeutic drugs and the use of a 
smallpox vaccine that utilizes a weakened form of the viral strain used 
in the vaccine. If there was a smallpox therapeutic licensed by the 
Food and Drug Administration for that indication, procurement of such a 
drug would indeed be an option. There are no such drugs today, but the 
government technology base includes researchers who have participated 
in studies involving two possible candidates, ST-246 and Cidofovir. 
These technology base efforts may mature into advanced development 
programs, if the results of research efforts attain appropriate 
technological readiness levels.
    Question. Dr. Kilpatrick. Last year, we heard about a toddler 
suffering from complications of a smallpox vaccination given to his 
soldier father. I'm told the child is alive and well today after a near 
fatal experience. Has the Department conducted an analysis of this 
situation, and if so what lessons learned have been gained as a result? 
How does the Department plan to prevent similar situations in the 
future?
    Answer. The Department of Defense (DoD) investigated the 
circumstances leading to the case and has made changes to the program. 
The Service member received a smallpox vaccine training brief and the 
smallpox and anthrax tri-fold brochures. In addition, he completed the 
standardized screening form before vaccination, as required. The 
screening health care provider cleared the individual for vaccination 
after reviewing his personal medical history. Although the Service 
member annotated the screening form to indicate a prior history of 
eczema and/or atopic dermatitis, the provider cleared him after the 
consultation with senior physicians at the mobilization site.
    The Service member initially reported the adverse event while 
consulting the Vaccine Healthcare Center, as directed in the pre-
vaccination training brief. He reported that his scab separated 
naturally around day 21, but he continued to take the added precaution 
of keeping the vaccination site covered while in contact with family. 
He reported extensive contact with the child, including sleeping in the 
same bed, wrestling, and bathing.
    The actions taken by DoD to reduce the possibility of a similar 
case included:
    <bullet>  Redoubling efforts to ensure quality health care provider 
training at all vaccine administration sites.
    <bullet>  Updating educational products, including online videos, 
live Web casts, and in-person or downloadable presentations.
    <bullet>  Holding training sessions at various DoD installations on 
a rotating basis while interacting with as many health care providers 
as possible.
    Since May 2007, DoD has trained over 500 health care providers 
involved with the DoD smallpox vaccination program. The message that is 
consistently relayed to health care providers is that individuals with 
contraindicating conditions should be excluded from the smallpox 
vaccination programs.
    In addition, DoD has released an updated clinical policy that 
includes a change in its recommended vaccination site care 
instructions. Because of this case and the potential for micro-shedding 
of the vaccinia virus following scab separation, the updated policy now 
directs Service members to continue active site care for 30 days after 
vaccination and until the site is entirely healed. This exceeds the 
Centers for Disease Control and Prevention's recommendation of 
maintaining the precaution until the scab ``falls off on its own (2 to 
3 weeks).''
    The DoD vaccinated over 180,000 Service members in the year 
following this incident with no additional serious cases of contact 
transmission. Since the program began in 2002, DoD has screened over 
1.7 million people and vaccinated over 1.5 million people.

    [Clerk's note.--End of questions submitted by Mr. Young. 
Questions submitted by Mr. Hobson and the answers thereto 
follow.]

                    Industrial Base/DARPA-UPMC Study

    Question. General Reeves. What is the current status of our 
national industrial base for developing and manufacturing medical 
countermeasures and for providing surge capacity during crises? Should 
the DARPA-UPMC (University of Pittsburgh Medical Center) study be 
continued and expanded to find solutions to these issues?
    Answer. Department of Defense (DoD) production strategies address 
requirements for surge capability and industrial base concerns through 
the use of rated contracts with Contract Manufacturing Organizations. 
Typically, Contract Manufacturing Organizations have multiple 
manufacturing suites that could be used in the event of an emergency to 
support surge capacity. To address the need for surge capability and to 
ensure availability of product, we have issued Defense Priorities and 
Allocations System Delivery Order rated contracts for biological 
countermeasures. This rating affords DoD products production priority 
over unrated orders, including commercial orders. In the event of an 
emergency, the Defense Production Act would also mandate industry to 
use its resources to fulfill the needs of national defense on a 
priority basis. This Act could be used to require pharmaceutical 
manufacturers to produce biodefense medical countermeasures rather than 
products normally manufactured in their facilities. There are other 
production options to prepare for an emergency situation that would 
negate the requirement for surge capacity such as producing and storing 
frozen bulk material that could subsequently be put into smaller 
packages for distribution in the event of an emergency.
    If the Defense Advanced Research Projects Agency-University of 
Pittsburgh Medical Center (DARPA-UPMC) study is continued, it is 
important that the Government maintain the long-term financial 
commitment required to sustain the production facility. It is also 
critical that the assumptions supporting that study be validated, 
particularly the projection of the number of new advanced development 
programs starting for both DoD and the Department of Health and Human 
Services, since the number of countermeasures in production in that 
facility impacts sustainment of the facility.

                   Drugs to Treat Radiation Exposure

    Question. I am concerned about the military's commitment to 
research and development of drugs necessary to treat radiation exposure 
for our troops. While Homeland Security has a responsibility to address 
this threat domestically, I believe there is a very real threat of the 
use of a dirty bomb or other crude nuclear device against our deployed 
troops in a tactical situation. What programs are currently underway to 
utilize near-market mature drugs that may provide lifesaving treatment 
for varying levels of radiation exposure? If the DOD is researching 
such drugs, what are their plans to bring them quickly into service as 
part of a standard deployment kit?
    Answer. The Department of Defense (DoD) is fully committed to the 
development of life-saving medical radiation countermeasures that will 
enable warfighters to survive otherwise-lethal radiation injuries. 
Exposure to radiation results in a complex disease state, termed acute 
radiation syndrome. The DoD and the Department of Health and Human 
Services (HHS) are working together closely to develop a suite of 
medical radiation countermeasures to treat acute radiation syndrome. To 
minimize the cost, schedule, and program risks of these development 
efforts, both the DoD and the HHS have preferentially selected 
candidate countermeasures which have already completed substantial 
development. For example, the DoD's lead medical radiation 
countermeasure, Prochymal<SUP>TM</SUP>, had successfully completed six 
Phase 1 or Phase 2 safety studies and initiated a Phase 3 clinical 
study for a separate indication before being selected by the DoD as a 
candidate medical radiation countermeasure. Due to the previously 
completed developmental work performed by the contractor, Osiris 
Therapeutics, Inc., the DoD will be able to field a product years 
sooner than originally estimated.
    Similarly, HHS solicitation for a medical radiation countermeasure 
considers only those candidates for which an Investigational New Drug 
application has been accepted by the Food and Drug Administration. 
Acceptance of an Investigational New Drug application is a substantial 
milestone in the drug development pathway and is the prerequisite for 
commencing clinical studies. In coordination with contractor efforts to 
develop and obtain Food and Drug Administration approval for medical 
radiation countermeasures, the Joint Program executive Officer for 
Chemical and Biological Defense coordinates with the Military Services 
and medical logistics organizations to develop fielding and sustainment 
plans for medical countermeasures. The DoD is leveraging near-market 
candidate medical radiation countermeasures, collaborating closely with 
HHS parallel efforts, and incorporating fielding and sustainment 
planning early in the development lifecycle to deliver medical 
radiation countermeasures to warfighters as soon as possible.

    [Clerk's note.--End of questions submitted by Mr. Hobson.]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



                           W I T N E S S E S

                              ----------                              --
--------
                                                                   Page
Amos, Lieutenant General J.F.....................................   279
Bye, Dr. Raymond, Jr.............................................   451
Casey, General G.W., Jr..........................................     1
Conway, General J.T..............................................   145
Galloway, Darrell................................................   325
Geren, Pete......................................................     1
Johnson, Susan...................................................   455
Kilpatrick, Dr. M.E..............................................   391
Lee, R.E.........................................................   440
McCullough, Vice Admiral Barry...................................   279
Panosian, Claire.................................................   445
Peluso, Karen....................................................   455
Popps, D.G.......................................................    99
Reeves, Major General Stephen....................................   325
Robinson, Robin..................................................   391
Roughead, Admiral Gary...........................................   145
Tether, Tony.....................................................   325
Thackrah, John...................................................   279
Thompson, Lieutenant General N.R., III...........................    99
Winter, D.C......................................................   145

                                  <all>
</pre></body></html>
